<html>
<title> - NUCLEAR PLANT SECURITY</title>
<body><pre>[Senate Hearing 107-999]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-999

                         NUCLEAR PLANT SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

S. 1586, A BILL TO AMEND THE ATOMIC ENERGY ACT OF 1954 TO AUTHORIZE THE 
 CARRYING OF FIREARMS BY EMPLOYEES OF LICENSEES, AND FOR OTHER PURPOSES

 S. 1746, A BILL TO AMEND THE ATOMIC ENERGY ACT OF 1954 AND THE ENERGY 
REORGANIZATION ACT OF 1974 TO STRENGTHEN SECURITY AT SENSITIVE NUCLEAR 
                               FACILITIES

                               __________

                              JUNE 5, 2002

                               __________


  Printed for the use of the Committee on Environment and Public Works


83-695              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             second session

                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico

                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 5, 2002
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     7
Boxer, Hon. Barbara, U.S. Senator from the State of California...    17
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    12
Corzine, Hon. Jon S., U.S. Senator from the State of New Jersey..    10
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    11
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     1
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     5
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     2
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    14
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    18

                               WITNESSES

Brian, Danielle, executive director, Project on Government 
  Oversight......................................................    43
    Prepared statement...........................................    82
    Responses to additional questions from:
        Senator Clinton..........................................    86
        Senator Voinovich........................................    86
Hastie, Donna J. Miller, Emergency Preparedness Specialist, 
  Marrietta, GA..................................................    45
    Prepared statement...........................................    87
    Responses to additional questions from:
        Senator Clinton..........................................    96
        Senator Voinovich........................................    97
Lochbaum, David, Nuclear Safety Engineer, Union of Concerned 
  Scientists.....................................................    39
    Prepared statement...........................................    65
    Responses to additional questions from:
        Senator Clinton..........................................    71
        Senator Voinovich........................................    72
Markey, Hon. Edward J., A Representative in Congress from the 
  Commonwealth of Massachusetts..................................    19
Meserve, Hon. Richard A., Chairman, U.S. Nuclear Regulatory 
  Commission.....................................................    23
    Prepared statement...........................................    49
    Responses to additional questions from:
        Senator Clinton..........................................    56
        Senator Voinovich........................................    59
Redlener, Dr. Irwin, M.D., president, The Children's Hospital at 
  Montefiore and president, The Children's Health Fund...........    47
    Prepared statement...........................................   102
    Responses to additional questions from:
        Senator Clinton..........................................   105
        Senator Voinovich........................................   106
Skolds, Jack, chief nuclear officer, Exelon Nuclear..............    41
    Prepared statement...........................................    73
    Responses to additional questions from Senator Voinovich.....    80

                                 (iii)

  

                          ADDITIONAL MATERIAL

Reports:
    Implications of Security Force Federalization on Nuclear 
      Power Plant Security: An Evaluation by the Nuclear Energy 
      Institute..................................................   113
    Nuclear Security--General Aviation Is Not A Threat (By: 
      Robert Jefferson, Nuclear Safety and Security Consultant)..    35
Statements:
    Alvarez, Robert, program director, The STAR foundation.......   106
    Lyman, Edwin S., Ph.D., president, Nuclear Control Institute.   111
Text of Bills:
    S. 1586, A bill to amend the Atomic Energy Act of 1954 to 
      authorize the carrying of firearms by employees of 
      licensees, and for other purposes.........................126-131
    S. 1746, A bill to amend the Atomic Energy Act of 1954 and 
      the Energy Reorganization Act of 1974 to strengthen 
      security at sensitive nuclear facilities..................132-151

 
                         NUCLEAR PLANT SECURITY

                              ----------                              


                        WEDNESDAY, JUNE 5, 2002

                               U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Senate Dirksen Building, Hon. James M. Jeffords (chairman 
of the committee) presiding.
    Present: Senators Jeffords, Smith, Bond, Corzine, Clinton, 
Reid, Boxer, Voinovich, Inhofe, Warner, Carper.

         OPENING STATEMENT OF HON. JAMES M. JEFFORDS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Jeffords. The hearing will come to order.
    I believe we have before us a very important task of 
reviewing legislation that will enhance the security at our 
Nation's nuclear power plants and other civilian facilities 
that utilize radioactive materials for commercial or research 
purposes. In his State of the Union address, President Bush 
informed us that authorities had found, among other things, 
diagrams of nuclear power plants in America in terrorist caves, 
along with surveillance maps of American cities.
    In February, the U.S. Nuclear Regulatory Commission 
responding to an FBI report issued a warning of potential 
airline attacks against a U.S. nuclear power plant. Numerous 
media accounts had analyzed in detail the possibility of 
creating dirty bombs from a combination of readily available 
commercial sources of radiation and common explosives. We all 
know that the credibility of these threats is inherently 
difficult to pinpoint. But we all also know of the seriousness 
with which these must be viewed and it has changed forever 
since September 11.
    These are sobering times. I commend the U.S. Nuclear 
Regulatory Commission, whose chairman, Richard Meserve, is with 
us this morning, for the prompt and comprehensive efforts of 
that Agency to address threats to our civilian nuclear 
facilities. I have been briefed on the fact that they have 
placed our Nation's commercial nuclear reactors on the highest 
state of alert since September 11 and that they are conducting 
a top to bottom review of their safeguards and security system. 
This includes working closely with the intelligence community 
and others to coordinate all necessary programs.
    They have also established a new office of nuclear security 
and incident response to consolidate certain NRC security 
divisions. They have assured us that they are taking every 
precaution to ensure safety at our nuclear facilities. I am 
also aware, however, of a variety of criticisms and concerns 
that have been leveled at safety procedures of our nuclear 
facilities in the past. In spite of as much as a 6-months 
advance notice, up to half our Nation's nuclear power plants 
have performed below, that's below, the NRC's minimum security 
requirements during NRC-sponsored mock terrorist activities.
    Because of resource constraints, the NRC has since tested 
security at each nuclear plant only once every 8 years. The 
current design basic threat which set standards for actions 
facilities must take to defend against attack has not been 
significantly revised in over 40 years and do not envision the 
type of terrorist attack we now assume is possible following 
the events of September 11. There are significant concerns both 
about the design of the plants, the ability to defend against 
inside sabotage, and the location of spent fuel product.
    Former employees have complained of inadequate training and 
background checks of security guards and other personnel. These 
inconsistencies must be reviewed and must be remedied. We must 
take strong and focused action to ensure that terrorists 
continue to view our nuclear plants as undesirable targets that 
are strongly protected and difficult to damage. It is the duty 
of this Congress and this committee in particular to make sure 
that there is effective coordination and cooperation between 
licensees, the NRC, appropriate Federal agencies and State and 
local government, preventing criminal and terrorist access to 
our nuclear power plants and radioactive materials.
    As the House and Senate, in cooperation with the 
Administration, proceeds this week with intelligence hearings 
on the events leading up to the September 11 attack, this need 
for effective coordination among the various agencies 
responsible for security is starkly highlighted. We have been 
warned, we know these are possible targets. We know there have 
been problems in the past. We must allocate the resources to 
fully address these concerns.
    A single successful attack would make it clear, in 
hindsight, that it would have been worth the effort. An 
unsuccessful attack will make it sure that we did the job well. 
It is my intent to work with my colleagues on this committee 
and with the Nuclear Regulatory Commission to quickly pass 
legislation out of this committee that will ensure strong, 
consistent and reliable standards for protection of our 
civilian nuclear facilities. We cannot and will not allow the 
fear factor to hamper our committees.
    It is necessary for the public to know that strong measures 
are in place to protect their homes and families against attack 
by those who hate us and our ways of life. As chairman of the 
committee, I intend to see such measures taken. I trust I will 
have the full support of the Nuclear Regulatory Commission and 
my colleagues in this important matter.
    Senator Smith.

  OPENING STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you very much, Mr. Chairman. Ensuring 
our power plant safety, our nuclear energy facility safety is 
of course of the utmost importance to this committee but also 
to all Americans. It especially hits close to home for those of 
us who have power plants in our States, as I do, and as many in 
this committee do. It is vital that we as a committee be 
informed and do all that we can to ensure that these assets are 
indeed safe, secure, and protected.
    These facilities are, I might add, among the most protected 
structures in the Nation. But it doesn't mean that there aren't 
additional steps that can be taken to enhance that security. 
Last year, Senator inhofe and I introduced legislation together 
that would accomplish that goal. We had provisions in the bill 
that the NRC has requested for many years, provisions that the 
Senate passed in the last Congress by unanimous consent.
    These are common sense enhancements and I have spoken 
directly about them to several members of the Commission, 
including the chairman. I know that Senator Reid also has 
legislation and I'm hopeful that we can work together in a 
bipartisan way to reach agreement on that legislation.
    But as we move this process forward, it's important that we 
work with the security experts and resist efforts from those 
who want ``added security'' as a means to further an anti-
nuclear agenda. If that's where we go in this process, then we 
are going to fail in what we wish to accomplish. We have to do 
it the right way. I'm very anxious to hear from Chairman 
Meserve on what the Nuclear Regulatory Commission has been 
doing to increase security and what plans exist to update the 
design basis threat.
    But unfortunately this is not, with all due respect, Mr. 
Chairman, the forum to do it. We're not going to be able to get 
all the information this committee deserves and needs to know 
in an open forum. I'm very much a strong advocate of the right 
to know and shining the light on our hearings and not keeping 
information from the media if we don't have to. But some of the 
information that we need to discuss today is classified as 
safeguards and some is secret, all of which is on a need-to-
know basis, little of which is suitable for an open, televised 
hearing.
    Mr. Chairman, as you know, myself and Senators Inhofe, 
Voinovich and Domenici requested that this at a minimum be a 
closed hearing. On the Armed Services Committee, of which some 
of us are members here, frequently when we have situations like 
this we have an open hearing, very briefly, and then go to a 
closed hearing and get into the sensitive materials or 
information that we need to know as a committee. To the best of 
my knowledge, no such followup hearing has been scheduled.
    So in essence, our request for a closed hearing was denied 
or ignored. Now we're going to talk about nuclear security, 
about all of our power plants, in front of the entire world on 
C-SPAN, including all those who may wish to do us harm. I find 
this absolutely unbelievable that we're doing this. I would 
just say, as a caution to witnesses, if you don't feel 
comfortable answering a question, in spite of the fact that you 
might get chastised by a Senator, I wouldn't answer it. Because 
frankly, aggravating a Senator as opposed to providing 
information that may let the terrorists find out what's going 
on in our security of our nuclear power plants, frankly, that's 
a fair exchange as far as I'm concerned. It's not going to 
aggravate this one.
    I would note also that the House Committee has held only 
closed and classified hearings on this topic. The chairman 
mentioned in his opening remarks about what we found in the 
caves of Al Qaeda. What do we want to be talking about that for 
in a public session? We almost slipped up, Senator Inhofe 
caught it when he was doing his homework last night, a 
potentially damaging mistake, while reading through the 
testimony, information that has been classified at the NRC as 
safeguards that was included in some of the written testimony 
today. I'm not blaming the witnesses for that. The witnesses 
are trying to answer and be responsive.
    But this is not the forum, in front of the cameras, all 
over the world, to do this. The Government has deemed it 
sensitive enough so as to strictly limit access to only those 
who need to know. I'm talking about safeguards, I'm not talking 
about necessarily classified or secret, as we call it in the 
formal sense. But there is a need-to-know basis, and I can tell 
you that everybody watching C-SPAN today does not need to know 
everything that we need to talk about here this morning.
    I understand that this information has leaked before. I've 
read it, I read it in USA Today. But that doesn't mean that we 
have to further that and add to it and supplement it and give 
it credibility. That's not what we do. If something is 
classified or listed as safeguards and it's in the newspaper, 
it doesn't mean we have to comment on it and make it worse. But 
it does underscore the point that these witnesses believe this 
is important information that we should have, but we just can't 
get it in this hearing.
    This is a completely open forum, I repeat again, completely 
open, national TV, world TV, let alone national, world TV 
coverage. It's safe to assume that those who want to hurt us 
are going to be watching. Good morning to them.
    If you have any thoughts that the information you're 
providing could be of the slightest use to those who wish to do 
us harm, then please don't answer the question. In order to 
ensure that the committee has the opportunity to get the 
information, I don't know why we can't commit to a separate, 
closed and classified hearing prior to moving away, moving 
toward any other comprehensive legislation. This will allow us 
to make the right decisions. It's vital for this committee to 
vigorously conduct oversight, and we can't do it this way.
    Since 9/11, I've visited Seabrook, I've communicated with 
the guards, I've met with the NRC chairman, I've met with the 
commissioners, I've talked to those who provide the security at 
Seabrook. We held a press conference after it with one of the 
members of the NRC. We didn't talk about all the safeguards. We 
didn't talk about what we do when somebody attacks the plant, 
if they attack the plant or how we might react to that or how 
many people we have at the plant to protect us or what kind of 
people they are or what weapons they have. We don't talk about 
any of that.
    It's clear that these are things we need to talk about, 
frankly, but not here. So frankly, Mr. Chairman, unless there's 
a commitment made for me to the committee that we're going to 
have a classified hearing or a closed hearing somewhere in the 
near future as a follow-on to this, I will yield all of my 
questions to anyone else who might like to ask them. Because I 
have questions that I would like to ask in a closed forum.
    Thank you, Mr. Chairman.
    Senator Jeffords. Thank you. I would just point out to you 
that we held a closed hearing. We held it last fall. No one----
    Senator Smith. That was a briefing, Mr. Chairman, with all 
due respect. That was a briefing.
    Senator Jeffords. It was a hearing----
    Senator Smith. It was not a hearing.
    Senator Jeffords. It was an opportunity and no one showed 
up except me. But it's amazing what happens when you make a 
public hearing and you have the TV cameras, and we almost get 
everybody. So just to point that out, we are not going to 
breach any security, and we certainly feel if it's appropriate, 
we will have one where the security aspects will apply.
    But right now, this is also, looking at the large audience 
we have, very obvious that the public has a great interest in 
knowing and has a great right to know what is going on. This 
hearing is to make sure that the public of the United States 
has the background necessary for them to understand fully the 
problems that we're facing.
    Senator Reid.

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Reid. Mr. President, I only watch the highest class 
television, I was watching Headline News this morning. There 
they had a short piece on distributing to people in New York 
iodine, some kind of potassium iodide, so that if there is a 
problem in one of these nuclear facilities, they would have in 
their medicine cabinet these pills they could take to stop the 
damage done by nuclear things floating through the air. So this 
is something the American people are really concerned about, as 
they should be.
    So I appreciate very much the concern of Senator Smith. But 
also, we have concerns, the American people have, all over 
America, people are concerned about another Three Mile Island, 
another Chernobyl. We have a responsibility, this committee has 
a responsibility, the Nuclear Regulatory Commission. Chairman 
Meserve has always been willing to come. I'm sure he dreads it 
the night before, but that's the way it is. But he's always 
been willing to come and share whatever information he has, 
even though he knows that some answers he gives we don't like. 
But he's been very candid with us, and I appreciate that.
    The tragedy of September 11 has taught us many things. It 
taught us the importance of first responders. It taught us the 
vulnerability of our Nation's buildings and the strength of our 
Nation's resolve. Finally, it taught us that we must be 
prepared for today's threats, because they could become 
tomorrow's attacks.
    Last year I introduced legislation with Senators Clinton, 
Lieberman and Jeffords to improve the safety of our Nation's 
nuclear power plants. I appreciate the willingness of Senator 
Jeffords, as chairman of this committee, to hold this hearing 
and take a look at this legislation. I also appreciate 
Congressman Markey, who has worked so hard on these issues. He 
has done a tremendous job working to make our Nation's nuclear 
power plants as safe as they can be. As someone who has served 
with this fine man, in the House of Representatives, I 
appreciate that his voice is heard in the Senate and all over 
the country.
    I'm disappointed, however, that the Nuclear Regulatory 
Commission has not chosen to do what I believe is its job with 
the same commitment to the safety of our Nation and the 
integrity of our electric supply. When Senators Clinton, 
Lieberman, Jeffords and I introduced our legislation, we 
intended to start a dialog, how we make our Nation's commercial 
nuclear power plants safer than they were before September 11. 
Many of you here today have strong views on that legislation. 
We intend to listen to those before a final draft comes out of 
this committee, of course, we all have to do that.
    But when plants are failing nearly half of their security 
evaluations, we need to more than update the curriculum. We 
need a new system, I believe. There are some plants that do a 
reasonably good job. But it's not to have peaks of success. We 
need a high plateau that secures all plants.
    Our bill also requires the Nuclear Regulatory Commission to 
take a new look at the threats posed by terrorists. Our bill 
also establishes a rigorous training and evaluation program for 
the Nuclear Security Force. I must say, members of this 
committee and you, Mr. Chairman, we in Nevada have had some 
experience. Nuclear devices were assembled there for some 50 
years. We had all kinds of concerns about the safety.
    Chairman Dingle, when he was chairman of the Commerce 
Committee in the House, established a very rigorous physical 
program for security personnel there, so that if somebody tried 
to breach this perimeter, which was very close to the outside 
world, that somebody could run 50 yards and grab somebody, the 
physical training of those people was very bad. It was 
difficult, it was made harder to have people work there, but it 
was really important in the long run.
    So I think this is important, that we established a 
training program and an evaluation program for our nuclear 
security force, one that is constant and persistent. A new 
office will be established within the Regulatory Commission 
with a dedicated team of mock terrorists whose only job is to 
perfect their skills in challenging the security guards. I see, 
Mr. Chairman, when professional sports teams practice, they 
don't do it against amateur athletes playing in the park. They 
train against other professionals. Nuclear security personnel 
should do the same.
    Our bill will honor the sacrifice of our Nation's emergency 
responders by ensuring that emergency response plans are in 
place and work as we expect them. Finally, we will require 
stockpiles of medicine to help in the event of a release of 
radioactive material from a nuclear facility. We have drafted a 
comprehensive bill that will protect our Nation's nuclear 
infrastructure. The American people have told us how they 
wanted their airlines and airports protected. We're doing our 
best to follow what they want and what they need and what they 
should have. We will work to make sure that questions about the 
safety of our Nation's nuclear power plants are answered.
    It's time that we give the American people these answers. 
Today I hope we will have a constructive dialog about the ways 
to make our nuclear power plants safer. More importantly, I 
hope today will be the springboard we need to pass legislation 
in the Senate that accomplishes this goal. I hope we can do 
this, as Senator Smith has said, on a bipartisan basis. We all 
have different ideas as to how we can do this. But we need to 
do it, and we're all going to have to give a little and take a 
little to come up with a bill that will be good for the 
country.
    Thank you.
    Senator Jeffords. Senator Bond.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman, for 
holding this very important hearing on security issues facing 
our Nation's nuclear power plants. Security at nuclear power 
plants is an important issue, I think, in communities in almost 
every State in the Nation. My home State of Missouri has both a 
commercial nuclear power plant and research reactors, including 
one of the foremost nuclear medicine reactors in the Nation. My 
home in Mexico, MO is less than 25 miles from the nuclear power 
plant in neighboring Calloway County.
    We depend upon the power generated by nuclear power plants. 
Not only does it supply 20 percent of the country's power 
needs, it does so with absolutely no air pollution. Frankly, 
I'd prefer to have a nuclear power plant in my back yard than a 
fossil fuel burning plant. France, in this instance, is way 
ahead of us with 80 percent of its power generated by non-air 
polluting nuclear power.
    As we consider ways to reduce air pollution in electric 
power generation, as we seek to deal with global warming, I 
believe we will only be serious when we change the rules so 
that we can rely more heavily on nuclear power which will clean 
up our air and which will reduce the pollutants which lead to 
global warming.
    Our role here in Washington should be to ensure that 
nuclear power is safe, to ensure that operators of nuclear 
power plants have all the tools they need to run safe and 
secure facilities. But we must not make the situation worse 
with one-size-fits-all or reactionary answers. We must not be 
sidetracked by those whose hidden agenda is to deprive us of 
this environmentally clean source of energy.
    Generally commercial nuclear power plants are probably the 
most physically secure and least vulnerable of our Nation's 
industrial infrastructure. They are robust, hardened facilities 
with numerous redundant systems designed to assure public 
safety. They are one of the most intensively and 
comprehensively regulated industries in America. The Nuclear 
Regulatory Commission rules impose comprehensive security 
requirements, including physical protection systems, armed 
tactical security forces and strict access control at all 
plants.
    Is this enough? We need to hear if there are other things 
we can do to make it even safer. I will certainly support 
those.
    Nuclear power plants are safe, however, by their own 
inherent design. Typical reactor containment walls are made of 
heavily reinforced concrete up to 6 feet thick. I urge all of 
you, if you haven't seen it, to view the video tape of a 
Government test where they crashed an F-4 jet fighter into a 
containment wall at nearly 500 miles an hour. The jet was 
obliterated and the 6-foot wall was penetrated only by 2 
inches.
    Nuclear plants are also defended by robust tactical 
security forces. These are not rent-a-cops moonlighting at the 
local mall, they are screened, trained professionals, many with 
military or law enforcement experience. Current nuclear power 
security forces are subject to FBI background checks, physical 
and psychological testing, screening and substance abuse 
testing as part of the hiring process. They undergo rigorous 
training, including weapons training, proof of marksmanship, 
recognition of sabotage devices and equipment and tactical 
response training. They are subject to continuous substance 
abuse and physical fitness checks. These are generally highly 
motivated, well compensated professionals with a retention rate 
above 90 percent.
    Private nuclear plant screening forces stand in direct 
contrast to airport baggage screeners, many of whom are simply 
waiting to get a better paying job at the airport McDonald's. 
Airport security workers are untrained, unscreened, transitory, 
poorly supervised, poorly regulated and low paid. Unfortunately 
some would like to apply a cookie cutter approach of 
federalizing airport security to federalizing nuclear plant 
security.
    I think we're finding out now the problems in federalizing 
the airport security, and I think that federalizing nuclear 
power plant security could lessen the security at those plants. 
It could diminish and disrupt plant security. Effective plant 
security requires close coordination between operators and 
security forces. Creating a separate Federal chain of command 
could inhibit reaction, coordination and communication when 
most needed in the face of an attack.
    It would require the NRC to hire some 5,000 additional 
security employees. Many current security personnel would 
choose not to be come Federal employees and new security 
personnel would require years of on the job training. I think 
federalizing nuclear plant security could also reduce the 
quality of security forces. Screening requirements for Federal 
personnel in the proposed legislation are less stringent than 
those already in place in the industry.
    We do have and we should take the opportunity to see what 
reasonable steps we can take to improve security at nuclear 
power plants. I would like the provisions included in the 
legislation referred to by Senator Smith, Senator Inhofe and we 
can build on that, I believe. We can consider empowering 
security forces by eliminating weapons restrictions and 
providing limited arrest authority. We certainly should oversee 
the NRC's review of nuclear plant security measures post the 
September 11 attacks. I think the NRC testimony should be very 
helpful.
    In summary, I think the nuclear power industry has an 
unparalleled record of health and safety. They also meet 
unparalleled security requirements and must continue to do so. 
I look forward to working with my colleagues on this committee 
on any measure that will improve their ability to ensure the 
health and safety of our communities.
    Thank you.
    Senator Jeffords. Thank you, Senator.
    [The prepared statement of Senator Bond follows:]

          Statement of Hon. Christopher S. Bond, U.S. Senator 
                       from the State of Missouri

    Thank you, Mr. Chairman, for holding this hearing on security 
issues facing our Nation's nuclear power plants.
    Security at nuclear power plants is an important issue for 
communities in almost every state. My home state of Missouri has both a 
commercial nuclear power plant and research reactors. In fact, my home 
in Mexico, Missouri is no more than 30 miles from the nuclear power 
plant in neighboring Callaway County.
    Missouri, and the Nation, depend upon the power generated by 
nuclear power plants. Not only does nuclear energy supply 20 percent of 
country's power needs, it does so with absolutely no air pollution.
    This Committee is considering ways to reduce air pollution from 
electric power generation. We must keep nuclear power as a valuable and 
environmentally friendly solution to meet our energy needs.
    Our role here in Washington is to ensure that the operators of 
nuclear power plants have all the tools they need to run safe and 
secure facilities. We must not make the solution worse with one-size-
fits-all or quick, reactionary answers. We must not be sidetracked by 
those whose real hidden agenda is to deprive us of this environmentally 
clean source of energy.
    Commercial nuclear plants are probably the most physically secure 
and least vulnerable of our nation's industrial infrastructure. They 
are robust, hardened facilities with numerous redundant systems 
designed to assure public safety.
    They are one of the most intensively and comprehensively regulated 
industries in America. Nuclear Regulatory Commission rules impose 
comprehensive security requirements including physical protection 
systems, armed tactical security forces, and strict access control at 
all plants.
    Nuclear power plants are safe by their own inherent design. Typical 
reactor containment walls are made of heavily reinforced concrete up to 
six feet thick. I urge all of you, if you haven't seen it, to view the 
videotape of a government test where they crashed an F-4 jet fighter 
into a containment wall at nearly 500 miles per hour. The jet was 
obliterated and the 6-foot wall was penetrated only 2 inches.
    Nuclear power plants are also defended by robust tactical security 
forces. These are not rent-a-cops moonlighting at the local mall. These 
are highly screened, highly trained professionals, most with former 
military or law enforcement experience.
    Current private nuclear power plant security forces are subject to 
FBI background checks, physical and psychological testing and screening 
and substance abuse testing as part of the hiring process.
    Nuclear security forces undergo rigorous training including weapons 
training, proof of marksmanship, recognition of sabotage devises and 
equipment, and tactical response training. They are subject to 
continuous substance abuse and physical fitness checks. These are 
highly motivated, well compensated professionals with a retention rate 
above 90 percent.
    Private nuclear plant security forces stand in direct contrast to 
airport baggage screeners, many of whom were simply waiting to get a 
better paying job at the airport McDonalds. Airport security workers 
were untrained, unscreened, transitory, poorly supervised, poorly 
regulated and low paid.
    Unfortunately, some would like to apply a cooky cutter approach of 
federalizing airport security to federalizing nuclear plant security. 
federalizing nuclear plant security is not only not needed, it may make 
nuclear power plant security worse.
    Federalizing nuclear power plant security could diminish and 
disrupt plant security. Effective plant security requires close 
coordination between plant operators and security forces. Creating a 
separate Federal security chain of command could inhibit reaction, 
coordination and communication when it is needed most, in the face of 
an attack.
    Federalizing nuclear plant security would require the NRC to hire 
5,000 additional security employees. Many current security forces would 
choose not to become Federal employees leading to security force 
shortages. New security personnel would require years of on-the-job 
training to match the professionalism of current forces.
    Federalizing nuclear plant security could also reduce the quality 
of security forces. Screening requirements for Federal personnel in 
proposed legislation are less stringent than those already in place in 
the industry.
    We do have the opportunity to improve security at nuclear power 
plants. We can consider proposals which empower security forces such as 
reducing weapons restrictions or providing limited arrest authority. We 
can also closely oversee NRC's review of nuclear plant security 
measures post the September 11th attacks.
    The nuclear power industry has an unparalleled record of health and 
safety. They also meet unparalleled security requirements and must 
continue to do so. I look forward to working with my colleagues on any 
measure that will improve their ability to improve the health and 
safety of our communities. Thank you.

    Senator Jeffords. Senator Corzine.

OPENING STATEMENT OF HON. JON S. CORZINE, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Corzine. Thank you, Mr. Chairman. I very much 
appreciate your having this hearing and so do the people of New 
Jersey. We have 4 of the 104 nuclear power plants and we're 
very close to one in our neighbor in New Jersey which has major 
impact if there were an attack or actually, if there were 
safety problems. If anything September 11 taught us it was that 
we need to be prepared. As you suggested in your opening 
remarks and others have noted broadly, there is evidence of 
interest by the terrorists in nuclear power plants.
    So I commend your leadership on leading this discussion. 
Senator Reid, Senator Inhofe and certainly Congressman Markey 
for the leadership in trying to protect our people in a way 
that is sensible but thorough, one that gives us confidence as 
we go forward. The concern is real, as I think some of the 
testimony and the data would show, unsatisfactory results with 
a number of the mock attacks, personnel record problems and 
other issues that have occurred in some instances, not 
uniformly, but I think there is time, it is time for revision 
of our processes here.
    I don't think you have to be anti-nuclear power to believe 
that we ought to do everything that is necessary, belt and 
suspenders, to provide the kind of security I think the 
American public, I know the people in my State, are looking for 
and the rules are dated and need revision and I think that's 
what this hearing is about. So I think it's a positive and 
necessary step to make sure that the public is secure.
    I would be remiss, Mr. Chairman, if I didn't at this same 
point, there are 104 of these nuclear power plants that 
certainly are a concern to our Nation. There are 123 chemical 
facilities where worst case release of toxic chemicals could 
threaten more than 1 million people. I know that this issue 
doesn't get as much headline attention, but I continue to be 
very concerned, particularly in my home State, that this 
problem, while not so headline oriented, is just as much of a 
risk to our communities and the people who live there.
    So I hope that we may be able to have similar attention, 
frankly I think that we're organized much more securely, the 
discipline associated with the NRC and our State and local 
communities with regard to that protection is quite 
substantial. I think what we're doing in chemical plant 
security in this country is one that we will feel that we have 
not taken the proper steps if disaster were to strike. So I 
hope that we can have a similar hearing with a similar element 
of focus as we go forward here.
    So I thank you and commend you for holding this hearing.
    Senator Jeffords. Thank you, Senator. It's an excellent 
suggestion.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Let me first clear this record, because I heard the dialog 
between you and Senator Smith. Let me assure you, Mr. Chairman, 
we have not had a closed, secure hearing. We haven't had one. 
We had a members briefing, but that was held in the Johnson 
room. You weren't the only one there, because I was there too. 
So I think it's very important that we realize we have not had 
one. This should have been one, but it wasn't one.
    Now, Senator Smith's statement has dramatically shortened 
mine, because most of the things he was referring to and saying 
I would have. I don't have a nuclear plant in my State of 
Oklahoma. But I am very much concerned, 20 percent of our 
reliability is on nuclear energy, I like Senator Bond believe 
it should be more than that. After having gone through all of 
our ambient air hearings and the pollution problems that we 
have, this is one of the answers, it's cheap and clean energy.
    Last Congress, I tried very hard to pass legislation which 
would have increased the ability of the Nuclear Regulatory 
Commission to protect nuclear power plants. Unfortunately, 
although we did get it passed through the Senate, in fact, it 
passed by unanimous consent, it did not become law. The NRC has 
again come forward, asking for it, the legislation that I had. 
I have reintroduced it in this Congress. I hope that we would 
pass my legislation this year.
    In short, my legislation does three things. It prescribes 
guidelines for carrying firearms and the authority to make 
arrests by nuclear power plant security professionals. Second, 
it authorizes the NRC to issue trespass regulations relating to 
the introduction of dangerous weapons, explosives and other 
dangerous instruments or materials likely to produce 
substantial personal injury or damage. That currently is not a 
Federal crime. Third, it revises the crime of sabotage of 
Federal nuclear facilities so as to cover any production, 
utilization, waste storage treatment, disposal, uranium 
enrichment or nuclear fuel fabrication facilities.
    I am keeping an open mind today and I want very much to 
hear the current state of security. I think that Congress 
understands the emotions surrounding the security of nuclear 
power plants. However, in order to make this hearing most 
productive, I really would like to focus on the facts and with 
those facts, I want to work with the majority whip and others 
on this committee to draft legislation which would address any 
deficiencies in nuclear power plant security.
    No matter what we end up doing, I want to make sure that 
Congress works with and not against the current efforts that 
are being taken by the NRC and the Office of Homeland Security. 
Finally, I repeat, I think we should have held a closed hearing 
today. There is a problem with holding a public hearing on any 
possible security deficiencies at nuclear power plants, namely, 
terrorists can get hold of the very information which we are 
using to protect the public in order to harm the public.
    In that regard, I, along with others in this committee, 
expressed our concerns in a letter to the chairman. I was 
shocked that even before the hearing started, some statements 
containing information which if correct is safeguards 
information, which if incorrect is false information used to 
start fear in the public. This committee should not be 
providing a forum for releasing safeguards information. So I 
would urge our witnesses today to carefully craft their 
remarks, so as to be responsive to our questions but not 
helpful to terrorists.
    Thank you, Mr. Chairman.
    Senator Jeffords. Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you, Mr. Chairman. I thank you and 
Senator Smith for holding this important hearing. Certainly, I 
agree with the statements of both Senators Smith and Inhofe 
that as we try to educate ourselves and more importantly, 
educate the public, we do so with full awareness of the 
sensitivity of some of this information.
    I am also very pleased that Congressman Markey is here. I 
hope to have a chance to hear from him in just a few minutes. I 
also want to thank Dr. Irwin Redlener, the president of the 
Children's Hospital at Montefiore in the Bronx and president of 
the Children's Health Fund for being with us today.
    Both Dr. Redlener and I live in Westchester County. It's 
one of the most beautiful places in the country, and it is also 
a place where we have nuclear power plants. So unlike some on 
the committee, I live about 15 or 20 minutes from one of our 
104 nuclear power plants. This is the principal subject that 
the people I live near in my town and in neighboring 
communities talk to me about, every time, whether I'm going to 
the store, stopping to get a cup of coffee or just taking a 
walk in the neighborhood.
    I think it's understandable. Because the unthinkable did 
happen on September 11. Therefore, it is incumbent on us, as 
unfortunate an exercise as it may be, to think like our 
adversaries, to imagine the unimaginable and to work together 
with the appropriate officials in our Government to be as sure 
as one can be in such human endeavors that we have thought 
every unthinkable thought, we have taken every possible 
preventive measure. Because there is no guarantee in life of 
anything. But unless we've done all that we believe we should 
do to protect ourselves, then I think we are going to be found 
not to have fulfilled our responsibility.
    Certainly in my specific situation, we have more people, 
about 20 million in the Catchman area for Indian Point. It is 
in the most populated area of any nuclear power plant in our 
country. We have other nuclear power plants in much less 
populated areas. I visited the nuclear power plants at Indian 
Point and in Oswego. Certainly Oswego, which is in a much less 
populated area, doesn't pose the high level of public concern 
or frankly, as inviting a target as Indian Point does. Nowhere 
in our country do we have the same concentration of population. 
Clearly those who sought to inflict the most public, high 
visibility damage on our Nation chose our most populated city.
    It's a terrible thing to contemplate, but I think we have 
to. I don't see any alternative. Instead of being paralyzed by 
fear or being divided on different points of view or ideology, 
we all have to work together. I think that's what this 
committee is attempting to do. We have to close whatever 
loopholes exist, legislatively or regulatorily, we have to 
strengthen any weak links that we find, and we have to be 
unafraid to ask the hard questions. This is not pointing 
fingers or placing blame on anyone. We didn't have to think 
like this before September 11. Now we have to. Therefore, it is 
imperative that we know what steps have been taken, are being 
taken to protect our nuclear power plants.
    According to news reports, not in a classified briefing, 
but on the front pages of newspapers around America just last 
month, the NRC again put the Nation's nuclear power plants on a 
heightened state of alert because of information gained by our 
intelligence community. Well, you can imagine what that does to 
mothers and fathers in Westchester County and throughout 
America who have particular concerns because of their proximity 
to our nuclear power plants. Now, since 9/11, the Federal 
Government, State and local governments, and nuclear power 
plant operators and owners have taken actions, and I applaud 
those actions, to improve security. But we have the 
responsibility to ask, has enough been done. This is what we 
are going to try to find out in part today.
    The NRC has previously told this committee that it has the 
statutory tools necessary to assure that any security 
deficiencies are corrected in a timely fashion. Yet at the same 
time, I know that the NRC is strongly supporting S. 1586, which 
I think has a lot of very good provisions in it.
    As we sit here today, we know that the NRC still has not 
yet revised its rules regarding what kinds of threats nuclear 
plants must protect themselves against. The NRC has not 
completed vulnerability assessments on individual plants. 
Moreover, it is my understanding that the NRC still has not 
determined, or at least has not told us, either in a classified 
briefing or in public, what the real threat posed by modern, 
fully loaded airliners cause to a reactor containment vessel. 
Now, that decision, of course, could drive a series of other 
decisions about how to best safeguard these plants, such as 
whether and when to impose no-fly zones, whether and when to 
have Naval or Coast Guard support.
    Now, we know that the NRC is working on these issues, and I 
do appreciate everything that the Commission has been doing. 
But I think it's important that we hear from other well 
informed voices as we will at this hearing, in public, people 
who have experience in the nuclear industry, who have expertise 
with nuclear energy, so that we can make a judgment about 
whether or not those tools in that tool box for security at our 
nuclear power plants are sufficient.
    That's why I did join with Senators Reid, Jeffords and 
Lieberman in introducing legislation to start a dialog, to 
begin a discussion. I think that part of what we should be 
working on in this committee is how we determine what of the 
many additional steps that could be taken would appropriately 
be taken by national legislation.
    We need to guarantee seamless security and we need to do it 
as quickly as possible. Any legislation should ensure that new, 
higher standards are met through revisions to the design basis 
threat. We have to be more realistic about this. You can't give 
notice ahead of time to the guards at these plants so they can 
put on their flak jackets, get their weapons out of the lockers 
in which they're kept, to look as though they're ready to take 
on whatever possible attack may occur. This has to be a much 
more well thought out and constant assessment of the security 
at each and every one of our facilities. Exercises have to be 
conducted regularly.
    I believe, as someone who certainly lives within a rather 
immediate proximity to a plant, that we've got to have more 
realistic evacuation plans. If you come up to Indian Point, 
which is in a beautiful part of Westchester County, you'll be 
on two lane roads for most of that trip. You're living in a 
highly populated area. The idea that you could evacuate people, 
the idea that people that are supposed to lead the evacuation 
would even be able to get where they're needed strikes most of 
us as quite implausible.
    Now, we are stockpiling potassium iodide in New York. The 
bill that I've worked on with Senator Reid and others requires 
that stockpiling be required and that the pills be released to 
the public on a regular basis.
    Finally, I also think, because the NRC does have 
jurisdiction, that in addition to exploring the security of 
power plants, we have to raise the issue of so-called dirty 
bombs. We have to know more and protect more against the use of 
radiological dispersal devices. That has to be on the agenda as 
well as our concern about nuclear power plants, since the 
sources of such material are obviously accessible, easily so, 
in many parts of every community in our country.
    So Mr. Chairman, I thank you for holding this hearing, and 
I look forward to working with you and all of our colleagues to 
come up with answers to some of these questions.
    Senator Jeffords. Thank you.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman.
    I agree that the topic of today's hearing is very 
important, so important that I believe our time could be best 
spent in a closed hearing in which the members of our committee 
can discuss the security issues openly with the witnesses 
without fear of revealing information that could put those who 
work in the facilities and the public at risk. I agree with the 
sentiments expressed by Senator Smith and Senator Inhofe.
    Considering the importance of this topic, we need to hear 
all relevant information with regard to security, including 
future needs if we're to pass legislation that will enhance the 
security of our nuclear energy infrastructure. I believe it's 
impossible to get all the information we need to determine if 
legislation is needed through public hearings.
    Last August, I visited Davis Besse nuclear facility in Oak 
Harbor, OH for the purpose of reviewing the operation of the 
plant. I was extremely impressed with the security measures in 
place to gain entrance and access to that facility.
    Just this last April, I had the opportunity to spend a half 
day at the Perry Nuclear Power Plant in Perry, OH, which by the 
way is a 25 minute drive from my home, to specifically review 
their security systems. I wanted to see first-hand just what 
was happening at that facility. In fact, the entire visit was 
dedicated to security.
    I received a classified security briefing at the facility, 
which I highly recommend to all of my colleagues. In addition, 
I participated in personnel and vehicle searches, and I 
reviewed the external security systems, including meeting with 
the Coast Guard which patrols Lake Erie off the coast of the 
Perry facility.
    My tour of the security operations confirmed for me that 
every security measure is being taken to protect our energy 
supply from terrorist attack and the members of the surrounding 
community and they should be very comfortable with the level of 
security that protects them and the facility. If I were a 
terrorist, the last place I would try to take over and attack 
would be a nuclear power plant. I know that security reviews 
are currently being conducted at nuclear facilities across the 
country, but I hope they are all as secure as our Ohio 
facilities. I think it's important that we don't throw the baby 
out with the bath water trying to change things legislatively.
    In my opinion, the private sector is getting the job done. 
We do not have to federalize security, understanding that any 
system can be improved, and that's the responsibility of the 
Nuclear Regulatory Commission, and there may be other things 
that are being suggested by members of this committee that will 
enhance those security operations in our facilities because of 
things that have happened because of 9/11.
    Recently, I visited the EU headquarters at the Hague in 
Brussels. I was told and warned that the security there was the 
best in the world. I tell you, I was impressed with the 
security required to gain entrance to that facility. But it 
didn't compare, it didn't compare with the security at Perry 
and Davis Nuclear. Because this is an opening hearing, and 
though I think it would be helpful, I can't go into the detail 
about how they determine who gets in, where they go, and how 
they can get access. It's incredible.
    I also visited the Lima Tank Plant in Ohio where they make 
the M1A1 Abrams tank, and now that's another place that the 
Federal Government is securing. I met with people from the 
Defense Department that are involved in security. I reviewed 
what they were doing there. I said to them, if you really want 
to secure this place, get in a car and go up to Perry Nuclear 
and you'll find out how to really secure a facility. That's the 
way I felt about that, compared to what I saw at this Federal 
facility that's something that we should be very concerned 
about.
    Before we move forward with any new requirements, I think 
it's imperative that the members of this committee spend some 
time carefully reviewing the existing security controls at our 
Nation's nuclear facilities. I believe that preparation for 
each and every committee member should be to include some 
closed hearings, or at least one, and classified briefings as 
well as site visits to the facilities in order to see the 
security measures in practice. Get out there and get into these 
places and see what they're doing.
    I look forward to working with my colleagues on this 
important issue and to the testimony from today's witnesses. 
Mr. Chairman, I really hope that the legislation that has been 
introduced in this hearing is really aimed at determining the 
security at our facilities, and not an effort by those who are 
opposed to nuclear power to discredit nuclear power's 
contribution to our Nation's energy needs. Nuclear power plays 
a vital role in maintaining our energy independence and 
providing a clean energy source.
    I look forward to the witnesses' testimony. Thank you, Mr. 
Chairman.
    Senator Jeffords. Thank you, Senator.
    [The prepared statement of Senator Voinovich follows:]

          Statement of Hon. George V. Voinovich, U.S. Senator 
                         from the State of Ohio

    Mr. Chairman, I agree that the topic of today's hearing, Nuclear 
Security, is very important. So important, that I believe our time 
could best be spent in a ``Closed Hearing'' in which the Members of our 
Committee can discuss the security issues openly with the witnesses 
without the fear of revealing too much information that could put those 
who work in the facilities and the public at risk.
    Considering the importance of this topic, we need to hear all 
relevant information with regard to security, including future needs, 
if we are to pass legislation that will enhance the security of our 
nuclear energy infrastructure.
    I believe it is impossible to get all of the information we need to 
determine if legislation is needed through public hearings.
    Last August I visited the Davis Bessie Nuclear facility in Oak 
Harbor, Ohio, for the purpose of reviewing the operation of the plant. 
I was extremely impressed with the security measures in place to gain 
entrance and access to the facility.
    And just this last April, I had the opportunity to spend a half day 
at the Perry Nuclear Power Plant in Perry, Ohio to specifically review 
their security systems. In fact, the entire visit was dedicated to 
security.
    I received a classified security briefing at the facility, which I 
highly recommend to all of my colleagues. In addition, I participated 
in personnel and vehicle searches and I reviewed the external security 
systems, including meeting with the Coast Guard which patrols Lake Erie 
off the coast of the Perry facility.
    My tour of the security operations confirmed for me that every 
security measure is being taken to protect our energy supply from 
terrorist attack and the members of the surrounding community should be 
very comfortable with the level of security that protects them and the 
facility.
    If I were a terrorist the last place I would try and take over or 
attack would be a nuclear power plant, if all of our facilities are as 
secure as Perry and Davis Bessie. I know that security reviews are 
currently being conducted at nuclear facilities across the country, and 
I hope they all are as secure as our Ohio facilities. But I think it is 
important that we don't throw the baby out with the bath water by 
trying to legislatively change the security procedures.
    Recently, I visited the EU Headquarters at the Hague in Brussels. I 
was impressed with the security required to gain entrance to the 
facility, but it didn't compare to the security at Perry and Davis 
Bessie nuclear plants. Because this is an open hearing and though I 
think it would be helpful, I can not go into detail about how they 
determine who gets in, where they can go, and what they can access, but 
it is incredible.
    I also visited the Lima Tank Plant in Lima, Ohio, where they make 
the M1A1 Abrams Tanks. I suggested to the Defense personnel that if 
they really want to see an excellent security system they should get in 
their cars and go visit the Perry Nuclear Facility.
    Before we move forward with any new requirements, I think it is 
imperative that the Members of this Committee spend time carefully 
reviewing the existing security controls at our nation's nuclear 
facilities. I believe the preparation for each and every Committee 
Member should include some closed hearings and classified briefings as 
well as site visits to the facilities in order to see the security 
measures in practice.
    I look forward to working with my colleagues on this important 
issue and to the testimony from today's witnesses. Mr Chairman, I 
really hope that the legislation that's been introduced and this 
hearing is really aimed at determining the security at our facilities 
and not an effort by those who are opposed to nuclear power to 
discredit nuclear's contribution to our nation's energy needs. Nuclear 
power plays a vital role in maintaining our energy independence and 
providing a clean energy source, and it is critical as we try to 
harmonize our energy and environmental policies. Thank you Mr. 
Chairman.

    Senator Jeffords. Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you very much, Mr. Chairman.
    I first want to address the point that this is not a 
hearing about the future of nuclear power. Of course it isn't. 
That decision is made by the marketplace and the people who 
live near the plants, and there hasn't been a new plant in 20 
years, and maybe there will be a change on that. People will 
decide that in a democracy like ours. That's good.
    For myself, I have no bias, except to say when the private 
insurers are ready to insure these plants, that will give me 
much more confidence. Right now it's the taxpayers that have to 
pick up the tab. So I think those are important points.
    I also want to address the issue of closed hearings versus 
open hearings. I just must say that the comments that have been 
reiterated by a few of my friends on the other side I find to 
be disrespectful of our chairman. That's my own personal view. 
That saddens me, because this is a man who really understands 
what belongs in a closed hearing. He had one, and all my 
colleagues who said they want one never went. He knows what 
belongs in an open hearing.
    I would remind everyone that there were lots of closed 
briefings before 9/11, and we had a disaster. So in and of 
itself, what's important is what we discuss. I want to send a 
signal to the would-be terrorists in this country and cells 
around this country and wherever they are that we are doing 
everything we can to stop them. I think Senator Voinovich is 
right, there are some plants that are moving way ahead on this.
    But there may be some problems. The reason I think an open 
hearing, Mr. Chairman, is so important--I commend you for your 
leadership and I commend Congressman Markey for his on the 
House side--is that we need to speak with one voice to those 
that would harm our people and say, we're onto you, we're onto 
you because the President of the United States, as you said, 
Mr. Chairman, in his State of the Union address told us that 
nuclear power plants were a target. This isn't some secret. The 
President announced it.
    We are here today with some of our colleagues who have 
drawn up some good legislation here to say, ``You know, take it 
somewhere else. Take it somewhere else.'' I would say for me in 
California, where we have four power plants, that this is a 
very important issue. Now, the NRC views this as such a serious 
problem, perhaps more serious than some of my colleagues, that 
they've offered free potassium iodide pills. I have urged that 
those be distributed to the people in my State. I have urged 
that the National Guard be deployed to nuclear power plants, 
just to make sure that it's safe.
    So Mr. Chairman, I would ask that the rest of my statement 
be placed in the record. I want to commend you, and I feel that 
your statement, I read it, is so balanced and so fair. You 
praise the NRC for steps they've taken. But frankly, I've been 
around here a long time, both on the House and Senate side. I 
know it's hard to bring action to a bureaucracy. It's just the 
way it is. It's even hard to bring it to a big business. So 
when we put pressure on, that's a good thing. I think this 
hearing is a good thing, and I thank you very much.
    Senator Jeffords. Thank you.
    Senator Warner.

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. Mr. Chairman, I shall be very brief. I just 
call upon my own experience, having served on the Armed 
Services Committee for 24 years, part of which I was privileged 
to be chairman. We handled matters such as this on a regular 
basis with open and closed hearings, most often at an open 
hearing followed immediately thereafter with a closed. I would 
hope such procedures would be viewed again by the chair and 
ranking member of this committee as the appropriate way for us 
to proceed.
    I'll not further discuss this matter, because I'm anxious 
to hear from our witnesses.
    Senator Jeffords. Well, thank you very much, Senator. I 
just would alert you that arrangements have been made, minority 
staff is aware of it, too, that we intend to have members to be 
able to meet in a confidential situation to discuss matters.
    Senator Warner. Would you not have that in a formal hearing 
status? Is there some reason not to do it that way?
    Senator Jeffords. Well, it's a matter of convenience of 
members, trying to make sure that they can be there. As I said, 
the last time we had one, no one showed up except me and 
Senator Inhofe. So whatever the minority wants to work out, we 
will accommodate you.
    Senator Warner. I would hope that would be done.
    Senator Jeffords. Sure. We will just work together, and 
whatever Senator Smith----
    Senator Warner. We have gained a different perspective of 
the seriousness of the problem, as our colleague from 
California has pointed out, in the period between that briefing 
and today.
    Senator Jeffords. My only goal is to make sure every member 
has every opportunity to place themselves in a position where 
they can do their job.
    Senator Smith. Mr. Chairman, would you indulge me 30 
seconds to respond to Senator Boxer who made a comment about my 
feelings toward you? I just want to say that, I think Senator 
Boxer knows me well enough to know that I don't deal in 
personal attacks on other members. This is a disagreement. But 
the chairman has every right to make the decision he made. I 
disagree with it, and others have. It's not a personal attack, 
and I regret that you made that charge here. But I will rebut 
it.
    Let me also say that there has never been a classified 
hearing, a hearing. There is a difference between a hearing and 
a briefing. There has never been a classified hearing. There 
was a briefing in October. A lot has happened since October. So 
let's just make sure that we're dealing with the facts here.
    Senator Jeffords. Sir, we've never had a request from you 
for the hearing. So I will take that as a request.
    Senator Smith. We requested a classified hearing today. We 
requested----
    Senator Jeffords. OK, today, fine. I appreciate hearing 
that, and I can assure you the arrangements will be made.
    Congressman Markey, I am pleased to have you here. I know 
that you have been holding hearings, some closed hearings. I 
commend you for that. You have been a leader in this area, and 
I appreciate having you here. If you have an opening statement, 
please present it.

    STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much. I 
appreciate the opportunity to be able to testify before you.
    I think at this stage we've already invoked the old Mo 
Udall axiom that everything has been said but not everyone has 
said it. So I begin with that as the premise for my testimony. 
I thank you, Mr. Chairman, and you, Senator Smith, for the 
invitation to testify here today.
    I have introduced on the House side the same legislation 
that Senator Reid and yourself and Senator Clinton, Senator 
Lieberman, Senator Boxer and Senator Corzine have introduced on 
this side, dealing with security at our domestic, civilian 
nuclear power plants. Senator Boxer just dealt with the 
question of whether or not a discussion of this subject in some 
way or another deals with the future of nuclear power.
    For the record, there has not been a new nuclear power 
plant ordered successfully in the United States since 1974, 28 
years ago. The reason that that is the case, as Senator Boxer 
pointed out, is that Adam Smith, in his posthumous wisdom, has 
decided that nuclear power plants cannot gain investment from 
Wall Street Republican investment bankers. Instead, what they 
have decided is to put 95 percent of their money into natural 
gas generated electrical generating facilities. That is not a 
discussion that has anything to do with the question of what is 
the level of security around the 104 existing operating nuclear 
power plants.
    Similarly, you have the question of the decommissioned 
plants, that is those plants that have already retired and what 
kind of security should be around those plants, pretty much in 
perpetuity. So these are not questions that we seek to put out 
in the public in the way that Al Qaeda could gain new 
information, because neither the chairman of the Nuclear 
Regulatory Commission nor any of the witnesses are going to 
betray any classified information.
    But in the same way that the CIA and the FBI and their 
procedures before September 11 must be examined, the public 
demands that, so too must the Nuclear Regulatory Commission and 
its procedures be examined, so that the public knows that the 
changes are going to be put in place. I think they understand 
and want some of that information to be classified. 
Nonetheless, the discussions have to be conducted in a way that 
ensures that security is enhanced.
    Going back to 1991, I began writing to the Nuclear 
Regulatory Commission about the potential of truck bomb attacks 
at civilian nuclear power plants. At the time, I was told not 
to be concerned about the issue. Only after Oklahoma City did 
the Commission begin the process of upgrading.
    However, even that upgrade does not deal with the level of 
threat which is obvious in the aftermath of September 11. So 
let me go down, if I could, a number of the issues which I 
think we have to deal with. The reason, and Senator Clinton 
focused upon this, the reason that we have to do so is that 
we've learned from the caves of Afghanistan, on the computers 
which have been confiscated, in addition to the interviews 
which have been conducted with captured Al Qaeda members, that 
nuclear power plants, civilian nuclear power plants, are at the 
very top of the list of targets that Al Qaeda would attack if 
they could successfully do so. That's why we're here. Those are 
the statements of Al Qaeda. So the 280 million Americans who 
see these headlines have a right to know that changes have been 
made.
    So what are the issues? Well, we begin with something 
called the design basis threat. That is, what is the level of 
protection which is built into the design of a nuclear power 
plant in terms of its security? Now, the bill which has been 
introduced by Senate and House Members calls for the Nuclear 
Regulatory Commission to begin a new rulemaking, a brand new 
rulemaking, to reexamine the design basis threat. That is, what 
kinds of threats could be posed against a nuclear power plant.
    Up until September 11, power plants were only protected 
against several terrorists who would arrive in an SUV, who 
would be relatively lightly armed, and who would be non-
suicidal. Now, that's all public. Since September 11, it's 
quite clear that they could arrive in numbers of 19 or more, be 
coordinated in their attack, have advanced degrees, from 
European or American universities, be suicidal, arrive with a 
tractor-trailer and have more insider help than perhaps we had 
thought previous to September 11.
    So what the bill says is, the Nuclear Regulatory Commission 
should go into a new rulemaking, a formal rulemaking to deal 
with all of those issues. Nine months after September 11, the 
Nuclear Regulatory Commission still has not gone into that 
formal rulemaking.
    Now, we believe that the very fact that on a formal basis, 
a Federal Agency dealing with the security of our country is 
forced to reexamine all these questions is a good thing and 
something which the American public wants. The Nuclear 
Regulatory Commission has not done that. We do not believe that 
that is an unreasonable request of a Federal Agency dealing 
with such a sensitive question.
    Second, the question dealing with the level of security 
that actually is at any one of these power plants, what is the 
mechanism by which we test its efficiency? Well, it's something 
called an operational safeguards response evaluation, that is, 
these are mock tests, force on force tests which are given by 
the Nuclear Regulatory Commission to determine whether or not 
any civilian power plant can withstand a test.
    Now, before September 11, at that relatively low level of 
challenge that would come from a terrorist group, that is now 
we realize historically kind of an elementary school level 
security exam, they were flunking at nearly a 50 percent rate 
nationally, nuclear power plants, before September 11. Now, we 
know that post-September 11, that nuclear power plants have to 
be protected against college level security exams. So what the 
bill does is call upon the Nuclear Regulatory Commission to 
upgrade, again, the testing, the force on force testing against 
these nuclear power plants, to conduct it not just every 8 
years against each individual plant, but every 2 years, so that 
there is an ongoing evaluation of the security around these 
plants.
    Third, we call for the federalization of the force around 
these plants, not an unreasonable thing. At airports across the 
country, the public, I think, feels a lot better that the 
Federal Government is now going to provide the security at 
facilities which we know Al Qaeda has targeted, airports, as 
they have nuclear power plants.
    Unfortunately, right now at civilian nuclear power plants, 
some of the guards are paid less than janitors, they are not 
equally trained, they are not equally equipped, they don't get 
the same whistleblower protections that Federal employees 
would, and as a result, it's not unreasonable to assume that 
the level of security is not as high as it would be if we had 
full time Federal employees who had that responsibility. So the 
Nuclear Security Act, which we've introduced, calls for a 
federalization of the guard forces at nuclear power plants.
    Let's deal with the issue of National Guard. What should be 
the role of National Guard at these facilities? In some States, 
National Guard are deployed. In some States, National Guard are 
not deployed. In some States, National Guard have weapons with 
bullets already in them, in some they don't. In some States, 
they are authorized to shoot to kill, in other States they are 
not.
    Is it unreasonable for the American people to ask that we 
have a uniform policy across the country that everyone can 
understand is present at their nuclear power plant? I do not 
believe that that is an unreasonable request. With regard to 
the decommissioned reactors, that is, when a nuclear reactor 
has completed its life, the reactor still remains there, as 
does all of the spent fuel in the facilities that will be 
stored there until at some point in the long distant future 
there is a place somewhere in America that we could move all of 
that spent fuel. But while we wait for that date to finally 
arrive, we need some security around it.
    So what happens at the decommissioned plants? Well, among 
other things, sometimes they are stored in areas that do not 
have, clearly, the same security that that domed, reinforced 
facility does around the reactor as it operates. The casks used 
to store the spent fuel are not tested to ensure that they can 
withstand long, hot fire such as that fed by a full tank of a 
commercial jet liner. There are fewer guards onsite at 
decommissioned reactors, and security isn't tested using force 
on force exercises. Let me say that again, security is not 
tested using force on force exercises.
    So there you could create, as Senator Clinton pointed out, 
the dirty bomb, using a large or small plane attacking those 
facilities. It's a good question to ask. We know that on 
September 11, the jets that were scrambled to protect the World 
Trade Center were in eastern Massachusetts. Was there enough 
time given for them to arrive over that distance in order to 
shoot down what was at that point known to be a hijacked 
airliner?
    So in other words, a lot of people think that the plane 
would just be hijacked at an airport that was only 2 or 3 
minutes away from the nuclear power plant. What if the plane 
was hijacked 30 minutes away, and now it's clear that there is 
enough time to shoot it down, to have planes be scrambled or to 
have anti-aircraft weapons on the ground? Is it unreasonable to 
ask that there be some national policy which is established 
which has to be put in place on a coordinated basis?
    I'll just mention two other issues. Senator Clinton 
mentioned one, which is the dirty bomb, which can be created 
from the lower level radioactive materials which are stolen or 
lost around the country. There have been 1,500 reports of those 
over the past 5 years, and 50 percent of the cases still remain 
unsolved.
    There's also a question of foreign nationals employed at 
nuclear reactors. We require a security check dealing with 
their criminal background, but there is no requirement that 
they pass any background check intended to identify terrorist 
links prior to their employment. So these kinds of issues all 
would be dealt with if the NRC was forced to go into a formal 
rulemaking, rather than temporary upgrades that are made on an 
ad hoc basis, but not on a permanent basis and not as part of a 
full formal national set of hearings that would have to have 
been conducted, and where necessary, on a classified basis.
    So I thank you, Mr. Chairman, very much for the opportunity 
of testifying before you, and I'd be glad to answer any 
questions.
    Senator Jeffords. Thank you. I understand that you also 
have a telecom hearing that's schedule this morning which you 
have to attend. So I will be--no questions.
    Mr. Markey. Thank you, Mr. Chairman.
    Senator Jeffords. I would be happy to yield to Senator 
Smith.
    Senator Smith. No questions, Mr. Chairman.
    Senator Jeffords. Thank you. Any questions?
    Senator Carper. I don't have a question, I just want to say 
it's great to see my old friend, welcome. He and I used to 
travel through Central America during the contra wars, fighting 
on other battlefields at that time. It's always a pleasure to 
be with you and we appreciate your being here with us.
    Mr. Markey. It was disconcerting to us to arrive in El 
Salvador, the country we were supporting, and be put in a 
secured van with Uzi submachine guns to protect us against 
being killed, and then to arrive in Nicaragua and for 
Congressman Carper and I to go out on a 2-mile run and have the 
people be patting us on the back in the country that we were 
trying to overthrow.
    [Laughter.]
    Mr. Markey. It was a very disconcerting trip in 1983, to 
witness the asymmetry of our policies at that time.
    I thank you, Mr. Chairman, very much.
    Senator Jeffords. Thank you for your excellent help. We 
will work with you as we move forward to make sure that we're 
sort of on the same page.
    Mr. Markey. Thank you. I appreciate it.
    Senator Jeffords. The first witness and the only witness is 
the Honorable Richard A. Meserve, chairman of the U.S. Nuclear 
Regulatory Commission. Thank you for testifying for the 
committee, Mr. Chairman, and it's a pleasure to be with you 
again. I have enjoyed the working relationship that has 
evolved, and I commend you for your forthrightness in getting 
us the information that we have requested and needed.
    So you may please proceed.

        STATEMENT OF HON. RICHARD A. MESERVE, CHAIRMAN, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Dr. Meserve. Thank you, Mr. Chairman. Mr. Chairman and 
members of the committee, I am pleased to appear before you 
this morning on behalf of the U.S. Nuclear Regulatory 
Commission.
    My written testimony discusses the current status of 
actions that the NRC has taken in response to the terrorist 
attacks that occurred on September 11 and outlines some of the 
work that lies ahead. I believe that the NRC's response to the 
attacks has been appropriate and thoughtful and that the NRC's 
current programs continue to provide a very high level of 
security. Let me briefly summarize my written testimony.
    Before September 11, nuclear power plants were among the 
best defended and most hardened facilities of the Nation's 
critical infrastructure. In the aftermath of the attacks, 
security has been enhanced even further. On September 11, the 
NRC advised our licensees to go to the highest level of 
security, which they promptly did. Our licensees have remained 
at that level since that time.
    Moreover, we have maintained a steady flow of information 
to our licensees through over 30 updates to our original threat 
advisory. In light of the continuing threat condition, we have 
issued orders to our reactor licensees to establish the 
security requirements within an established regulatory 
framework. We have continued over the months to work with the 
intelligence and law enforcement community, the Office of 
Homeland Security and others to ensure that adequate protection 
is maintained at our civilian nuclear facilities.
    In short, we are comfortable with the security at our 
nuclear power plants. We are not aware of any significant, 
credible threat that is directed at the power plants, although 
there obviously are plants or facilities that are of concern. 
We had strong security at these facilities before September 11, 
and that security has been significantly enhanced since that 
time.
    Moreover, the NRC is open to change. We are in the process 
of revising our design basis threat. We are reexamining how we 
should reinvigorate the process of conducting exercises. We are 
examining the processes by which people are cleared into the 
facilities. All of this is part of the comprehensive review of 
security that is under way at the NRC.
    Many Members of Congress have asked the NRC how they can 
help to improve security at nuclear power plants and other 
facilities. In response, the Commission has requested that 
Congress enact several specific legislative proposals that 
would amend three sections of the Atomic Energy Act. Most of 
these provisions are contained in S. 1586, which was introduced 
by Senators Inhofe and Smith at the end of last October. I 
should note that all of our proposals have been coordinated 
with the executive branch and enjoy strong support from the 
Administration.
    One of the proposals would provide Federal authorization 
for guards to carry and use firearms at NRC regulated 
facilities designated by the Commission, and to protect 
property of significance to the common defense and security 
located at or being transported to or from such facilities. 
This amendment could provide some protection for licensee 
guards from State criminal prosecution for actions taken during 
the performance of their official duties.
    At the present time, State laws govern the use of weapons 
by guards at NRC licensed facilities. Some State laws do not 
permit guards to use weapons, except to protect against an 
immediate threat to their own lives or the lives of others. In 
such States, it may not be possible to shield the guards at NRC 
licensed facilities from State prosecution.
    In addition, some State laws make it difficult for 
licensees where there are security contractors to use more 
effective weaponry. To alleviate this problem, the Commission 
has developed an additional provision not included in S. 1586, 
that would authorize the guards to carry and use such weapons 
as the Commission may require. A copy of the original proposal 
with additional language to address this concern is attached to 
my written testimony.
    Another provision would make it a Federal crime to bring 
unauthorized weapons and explosives into NRC licensed 
facilities. Although the NRC may impose sanctions against 
licensees for violations of its security regulations, there is 
no Federal law permitting the imposition of criminal sanctions 
against the person responsible for bringing the weapon or other 
dangerous instrument to the site.
    Our final proposal would make Federal prohibitions on 
sabotage applicable to the operation and construction of 
certain NRC licensed and certified facilities. We believe that 
these legislative changes that I have described will contribute 
to enhancing the security of nuclear facilities and material.
    The Commission opposes S. 1746, which would federalize the 
security forces at commercial nuclear facilities. We see 
several fundamental difficulties with this legislation. First, 
the bill separates the strategy for the security of nuclear 
facilities from that of all other types of sensitive 
facilities, such as chemical plants, refineries and dams. We 
believe society's defensive resources should be allocated in 
accordance with relative risk, and that the separation of 
nuclear facilities from all other types of sensitive facilities 
will fragment the overall consideration of risk 
inappropriately.
    Second, the requirement that the NRC establish a security 
force for sensitive nuclear facilities addresses, in our view, 
a non-existent problem. The private guard forces that exist 
today are qualified, trained and tightly regulated. Unlike the 
situation at airports, there is no need to federalize security.
    Third, the bill would bring about a fundamental shift in 
the responsibility and mission of the NRC, and could have the 
unintended consequence of detracting from the Commission's 
focus on protecting the public health and safety.
    Fourth, NRC's role as an independent regulator would be 
compromised by the bill's requirement that the NRC design 
security plans for all sensitive nuclear facilities, to 
implement the plans with NRC employees but then also to conduct 
evaluations of the efficacy of the plans.
    Fifth, the bill would create command and control 
difficulties because it would establish two classes of 
employees, both of which would be responsible for safety in the 
event of a terrorist attack licensee personnel responsible to 
the licensee for safe operations and Federal employees 
responsible to the NRC for security. In an emergency, these 
separate lines of authority could lead to a diminution in the 
capacity to ensure safety.
    These fundamental difficulties in S. 1746 argue against its 
adoption. But there are also many other concerns raised by the 
bill which are detailed in my written testimony.
    In closing, we look forward to working with the Congress, 
both on the enactment of the NRC legislative proposals I have 
discussed, and on continuing to ensure adequate protection of 
the public health and safety. I appreciate being here today to 
discuss the NRC's programs and am prepared to answer your 
questions. Thank you.
    Senator Jeffords. Thank you for your excellent statement. 
As I have stated, I commend you and the Nuclear Regulatory 
Commission for the comprehensive top to bottom review of 
security measures which you are undertaking. I know this is a 
complex process, and one that must be carefully considered.
    However, we also must be diligent in quickly putting into 
place appropriate measures to both provide protection and to 
give the public the confidence that we are doing so. I have 
been told that the other agencies have set specific timeframes 
for completing their Agency reviews, such as the National 
Nuclear Security Agency within the Department of Energy, which 
has committed its fiscal year 2003 budget request to establish 
a new design basis threat for the security of the Nation's 
nuclear weapons facilities by September of this year.
    Do you have a date certain for completion of your design 
basis threat and other security revisions?
    Dr. Meserve. We don't have a date certain by which to 
complete some of these tasks, although these are very much 
activities that are fully engaging the Commission. Let me say 
that we have established what we call interim compensatory 
measures at our facilities, which are significant enhancements 
on the requirements that the licensees must meet in order to 
ensure security. That gives us the comfort that we are in an 
appropriate position to deal with the situation today.
    We're in a somewhat different situation than the Department 
of Energy in that it has the authority to make the changes 
without going through a regulatory process in doing so, and so 
DOE has a somewhat easier situation in bringing about changes 
in the security environment than the NRC.
    But nonetheless, we have serious security that is in place 
and we are examining where we should go in the long term in 
terms of regulatory changes.
    Senator Jeffords. Well, it's important that you communicate 
with us, if there's anything we can do to make sure that there 
are no roadblocks that are making it difficult for you to meet 
these time demands.
    Dr. Meserve. Thank you very much, sir.
    Senator Jeffords. We want to help in every way we can to 
make sure it can be done expeditiously.
    When do you anticipate completion of the evaluation and can 
this committee anticipate we will fully share in your findings?
    Dr. Meserve. I'm sorry, explore what, sir?
    Senator Jeffords. The actions that you are taking now.
    Dr. Meserve. Well, let me say, we are prepared at any time 
to share the actions that we are undertaking. Let me say that 
they range over a wide variety of areas, and we're not holding 
up steps in one area to await actions we might take in the 
other.
    As an example, Mr. Markey had raised the question about 
dealing with a possibility of foreign nationals who might be 
employed at nuclear power plants. We have worked with the 
Immigration and Naturalization Service to complete the 
screening of employees at nuclear plants to satisfy ourselves 
that there are appropriate people employed at the plants. We 
have revised the mechanisms for providing access, particularly 
temporary access to the facilities, to upgrade the security. So 
that's a step that we have taken. There are a multitude of 
different areas in which we have taken steps as the 
circumstances arise.
    I can't commit to you exactly when the whole package of 
steps will be completed. I see this as an ongoing effort that 
is going to consume the Commission. It may consume the Congress 
for an extended period.
    Senator Jeffords. I just want to make sure that we have a 
relationship where you can freely come to us if you are having 
anything that is holding you up for which we can assist you.
    Dr. Meserve. I very much appreciate that, sir. We would not 
hesitate to seek your assistance.
    Senator Jeffords. It is my understanding in the past you 
have conducted force on force training exercises against 
individual facilities no more often than once every 8 years. Do 
you intend to increase that, and what additional resources do 
you anticipate for that, if you do?
    Dr. Meserve. Well, let me say, I think that there has been 
some confusion about the way exercises were conducted before 
September 11. It is the case that on average, the operational 
safeguards response evaluations, the OSREs, which is the 
terminology we use for the actual force-on-force drills, were 
conducted on average once every 8 years.
    But that doesn't mean that the security at the plants 
wasn't subject to continuing scrutiny. We have resident 
inspectors that are at every site. There is evaluation that is 
undertaken at the sites as part of the ongoing inspection 
efforts to satisfy ourselves that the security requirements are 
being met.
    The force-on-force drills are very hard tests. There have 
been some assertions made that we found problems at some of the 
sites at which these tests were undertaken. That's the case. 
But it's what you'd expect, in that in conducting the tests, 
the attacking force knew the entirety of the defensive scheme, 
and in fact the tests were designed to probe those areas where, 
based on a full evaluation of the defensive scheme, our experts 
had some questions about the adequacy of the defensive 
strategy. So they probed exactly at the sensitivities.
    I think it's very doubtful that a real attacking force 
would have the level of knowledge to be able to design an 
attack in that way. Nonetheless, we are undertaking a 
reexamination of the entirety of the way in which we're doing 
exercises and there is a staff paper on the resumption process 
that is expected to the Commission later this week. We will be 
starting the tabletop process, I would anticipate, in the 
summer, then go to the full force on force exercises and resume 
them later this year. The Commission has not had the 
opportunity to examine the budgetary implications of increased 
frequency. But I think it is very likely that the frequency of 
the exercises will be significantly increased.
    Senator Jeffords. What is your budget request for fiscal 
year 2003 regarding additional security measures and how do you 
anticipate it will be used?
    Dr. Meserve. We received a supplement for fiscal year 2002 
of about $36 million. My recollection for fiscal year 2003 is 
that it was on the order of $29 million or $30 million for our 
security efforts. That would involve our continuing work on 
evaluation of vulner-
abilities, enhancements of the communications capabilities and 
security, and our own capacity to deal with confidential 
information and things of that nature.
    I know you're accustomed to hearing about billions of 
dollars in the security area, and I think it's important to 
recognize that we are a regulatory Agency, and the substantial 
part of the costs associated for security are borne by the 
licensees and, of course, don't appear in our budget. Our 
licensees have spent many millions of dollars since September 
11 dealing with the requirements that we have imposed.
    Senator Jeffords. Well, thank you. We have some additional 
questions which we will submit to you for you and your staff to 
answer. I now turn to Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. I appreciate the 
testimony.
    But I have some concerns about how your arguments flow with 
regard to S. 1746, particularly the federalization of security. 
Quite frankly, I have a hard time understanding how defensive 
resources that might be dedicated to preserving the safety of 
our nuclear power plants would undermine on a relative risk 
basis other activities in our society. It just strikes me that 
one has to assess the kinds of problems that could occur, you 
speak about Indian Point, with 20 million people in the 
immediate area.
    I don't understand the flow of that logic with respect to 
chemical plants or other kinds of issues. It's either a 
priority and a serious risk to the public, which I think the 
public believes it is, or it isn't. I don't think we're talking 
about relative risk here, we're talking about a risk of 
something that generally is accepted as something that could be 
extraordinarily dangerous, both by identification by our 
enemies and also by our Nation itself.
    Then I add to that your third argument that somehow or 
another the unintended consequence of detracting from the 
mission of protecting public health and safety, nothing would 
be more seriously detracting or contributing to public health 
and safety than a terrorist attack that tries to use our 
infrastructure as a weapon. I'm not sure where I come out on 
the federalization of security forces. But I don't see those 
arguments holding any weight whatsoever in the context of a 
major issue with regard to public health and safety.
    First of all, I'd like to hear your comments on that.
    Dr. Meserve. Well, you've flagged a few of the arguments 
that I presented. With regard to the comparative risk issue, 
I'm not suggesting that we should not take the risks of 
security at nuclear plants seriously. What I am suggesting is 
that we have a societal issue, in fact it's one that you raised 
in your opening statement, that we have other types of 
facilities at which there are security issues. You mentioned 
the chemical plants which could have consequences that are 
equally as severe as a nuclear plant if there were a successful 
attack.
    Somehow or another, we need to develop a strategy for how 
we defend critical infrastructure of all kinds. The argument is 
by focusing just on nuclear plants, we may greatly enhance the 
security in one area, but we may be missing other areas of 
vulnerability. We need to have some sort of a comprehensive 
strategy.
    That's not the NRC's responsibility. Our responsibility is 
for the nuclear plants. But I think as a society we have an 
issue of recognizing we have limited assets to be able to spend 
on security, and somehow we need to allocate those in some 
rational way. It's a policy issue which I think is ultimately 
one for the Congress.
    With regard to the third point on the deflection----
    Senator Corzine. You could agree with your presumption that 
there are other assets in this society that need security, and 
maybe are not even meeting the kinds of standards that we're 
now meeting with regard to our nuclear power plants, and still 
argue that federalization is a good thing because it would 
provide even enhanced security on those relative merits. I 
don't know why that would dismiss it as an initiative.
    Dr. Meserve. I think that's a fair comment. But I think it 
does lead you on the path, if you're federalizing security for 
nuclear plants, to look around the corner about the 
implications of that and whether you want to do that for the 
entirety of civilian infrastructure. It does set you in a 
certain mode of how you're going to deal with these problems, 
and it might be appropriate to think about how we deal with the 
integrated set of issues, rather than just one sub-part of the 
total problem that we confront.
    The third point which I raised was the possibility of the 
deflection of the NRC. This is just to recognize the reality 
that if we were to have responsibility for over 5,000 security 
guards and implementing security plans and ensuring their 
adequacy, and putting in the equipment that's necessary, we 
would have an activity that would involve more than twice the 
number we currently have. We would become an Agency that would 
have new and demanding responsibilities in the security that we 
have not held in the past. I wouldn't want to suggest that we 
wouldn't succeed, but one of the things we'd have to fight 
against is that we could not devote the time and attention to 
the ordinary safety issues that are the matters that we deal 
with on a day-to-day basis.
    Senator Corzine. It might come with some of the advantages 
that Congressman Markey talked about, though, whistleblower 
protection, greater consistency across the Nation, a number of 
other elements that I think are possible. Since the fundamental 
issue is protecting the public from the hazards, as you had 
talked about, radiological hazards, I'm not sure that that 
isn't a stronger argument for federalization, to make sure that 
we have a common approach to protecting security.
    Let me ask one other question about spent fuel issues, 
which are certainly a topic of the day. The idea that there 
aren't force-on-force tests with regard to commissioned plants, 
is that something that is one of the options that you are 
considering? Where are you with regard to that? Is that 
similarly, is there an intention to work on the dry cask 
storage of spent fuel which, whether it's decommissioned or 
it's not decommissioned, in the current world seems to be one 
of the few options that we have that's available and certainly, 
we've got a major controversy going on in the State of New 
Jersey about Oyster Creek's storage of spent fuel in dry casks 
next to one of our major thoroughfares being an issue. Would 
you give us some comment on both decommissioned plants and 
protection with regard to dry casks?
    Dr. Meserve. I'd be glad to. Let me just note before I turn 
to that, however, that things like whistleblower protections 
are provided now. If there's an allegation of a problem at a 
nuclear plant, we provide protection to those people. It's a 
very important channel for communication.
    Senator Corzine. I'll just give anecdotal information. I 
did, as Senator Voinovich, spent time touring one of the 
nuclear power plants and spent time with individual guards. 
They did not--it was the only weakness that I actually saw in 
this whole process--is that they did not feel that they were 
plugged into the structure of protection as securely as they 
might in other ways. So I'm concerned about that.
    Dr. Meserve. It is in fact the case that since September 
11, the concern about spent fuel and possible vulnerability of 
spent fuel has been something that has received a great deal of 
attention by the NRC. One of the consequences of that is that 
we have significantly upgraded the security that is provided 
for spent fuel, and that has been an ongoing process. There is 
significantly enhanced protection of spent fuel today as 
compared to before September 11.
    We have not worked out all the implications in terms of how 
that would affect future exercises, but I would anticipate that 
future exercises will encompass a variety of aspects of the 
nuclear industry that were not so much the focus before, 
including spent fuel.
    Senator Jeffords. Senator Clinton.
    Senator Clinton. Thank you. Thank you, Chairman Meserve.
    As I listened carefully to both your testimony and the 
answers to questions, there were two statements you made that 
caused me some concern. It's not a reflection on the NRC so 
much as it suggests some of the continuing challenge we face to 
preparing for whatever might happen.
    The first is your reference in your written testimony and 
in response to Senator Corzine that we have to make hard 
choices because we have limited resources for security. I think 
that's the wrong way to go about this issue. We ought to figure 
out what is it we need, not only to secure nuclear power plants 
but chemical plants and the rest of our critical infrastructure 
that might be vulnerable to any kind of attack or even 
accident. We ought to say to ourselves, OK, that is the cost of 
security in the 21st century.
    Now, I understand that there are budgetary constraints that 
are imposed, but I certainly don't believe we should be 
limiting ourselves before we even understand completely what 
our functional needs are and then put price tags on them. 
That's not an NRC issue, that's a larger congressional issue. 
But I believe it's imperative that we do an analysis that is as 
honest and straightforward and as clear about the costs as we 
possibly can. Then it's up to the Congress and the American 
public to decide whether they want to bear the costs. But I 
don't think anyone in any Agency should be in any way 
constrained about what is needed before we get to that final 
point.
    The second concern I had is in response to a question by 
Chairman Jeffords. You were talking about the force-on-force 
exercises, and made the statement that it was doubtful that 
attackers would have such intimate knowledge of the nuclear 
power plants. I just think that's a false assumption. I don't 
think that's an assumption we can make today. I don't believe 
any of us should be assuming any limited knowledge or capacity 
on the part of our adversaries.
    So I would reverse the presumption and start from a basis 
that we have to presume that our adversaries know everything 
there is to know, and therefore we have to take action to 
protect ourselves against that presumption of knowledge.
    Now, with respect to the design basis threat time line, 
which apparently has been pushed back, it's already been 9 
months. Can you give us an estimate today as to how much longer 
it will take on the design basis threat re-evaluation? And 
then, after the DBT is revised, how long will it be before we 
see new security plans at plants? Will it be a matter of 
months? Will it be a matter of years? Can you give us some ball 
park estimate as to when whatever you eventually decide is the 
new design basis threat will be implemented at plants across 
the country?
    Dr. Meserve. Let me respond, if I may, first to your 
concerns, because I think there may have been some 
misunderstanding of what I intended to say. My comment about 
the need for allocation of resources was not that this has been 
a constraint on how the NRC has examined the security issue. We 
have looked at what we have thought has been necessary to 
provide adequate protection of public safety and we have 
imposed those requirements without examination of the cost 
implications of those actions.
    My comment was really a broader societal one, and it was in 
the context that Congress is going to have to decide about how 
much our society in the broad sense should spend on security as 
a whole. It wasn't that I was purporting to make that as a 
decision or a factor for the NRC to be making.
    Second, my comment about force-on-force exercises may also 
have been misunderstood. Our pre-September 11 DBT did include 
and does include inside assistance to the attackers. We 
conducted the exercises, therefore, assuming detailed knowledge 
of the details of the security plan. You and I may differ as to 
our sense of how likely it is that a terrorist attacking force 
would have that knowledge. But we have assumed that knowledge 
exists, as it's obviously a conservative approach to be taken.
    With regard to the design basis threat, this is something 
that is subject to evaluation by the Commission now. I think 
that we're talking about a period of months for us to chart a 
new course. There are implications for the DBT in terms of how 
in fact we put it in place. There are some components of it 
that obviously have to be classified, some components may 
require some regulatory changes. So there are some details that 
certainly will have to be worked out. How exactly we proceed I 
think is going to be guided by the deliberations that are 
underway before the Commission now.
    In the meantime, however, I think the most important point 
is that we have not waited all these months to make sure that 
we have put in requirements at the plants to significantly 
increase the security. We did that on a prescriptive basis, in 
that we made demands for additional guards and additional 
weapons and additional patrols, as well as consideration of 
additional modes of attack, with larger vehicle bombs, and 
things of that nature. Those are all in place at nuclear power 
plants today.
    Senator Clinton. Well, let me then just clarify, Mr. 
Chairman, because in your written testimony, you state that 
requests have been received by the NRC for extensions of the 
deadline to submit a schedule for implementation of the new 
orders that were issued back in February. How many such 
requests for extensions of time were received by the NRC and 
how many requests were granted?
    Dr. Meserve. There may be some misunderstanding of the 
testimony on that point. We have probably 30 requirements of 
that order of magnitude that we imposed on the licensees. We 
asked them to come in within 20 days and give us the schedule 
for completion of implementation and we set an absolute 
deadline of August 31 for the completion of everything.
    Some have come in and asked for an extension of the 20-day 
period within which they would give us the schedule for 
completion of all of the activities. The requests focused on 
one particular measure that required some detailed analysis of 
blast effects in order to determine what engineering changes 
would be needed. The licensees made the case that it was going 
to take them longer than 20 days to be able to complete that 
work. We have not had a request from anyone to extend the 
absolute outer limit of completing the work, which was August 
31. I apologize if there is some confusion in the statement.
    Senator Clinton. Thank you.
    Senator Jeffords. Senator Boxer.
    Senator Boxer. Thank you.
    Mr. Chairman, I'm a little concerned about a few things 
here. I just perhaps want to make a couple of statements and 
ask a couple of questions. I am asking you, as one Senator who 
has four nuclear power plants, please don't spend your time on 
the issue of the broad question of how much we want to spend 
protecting our people. That is a decision that will be made by 
the President and by the Congress as we do our budget.
    Your job is to tell us what you need to do to protect the 
people from the disaster that would follow an attack on a 
nuclear power plant. I want to stress that. We need you to tell 
us that. I frankly don't need to hear that you don't think you 
should federalize employees. You know, to me that is an issue 
that I can go any way on. I just want to make sure the people 
we hire aren't coming from the cells of Al Qaeda, whether they 
join the Federal Government or they join a private security 
force, OK?
    So I am worried. Then I put that together with your point, 
we need to look at all the threats, you said, don't just do 
something special for the nuclear industry, and you oppose this 
legislation, which is your right, I respect that. But why don't 
you want to be a model of safety? Listen to what happened in 
New York as our colleague, Senator Clinton well knows. The 
World Trade Centers were designed for fire protection, but 
according to the engineers, much of the fire protection 
materials were displaced after the plane hit the building.
    Now, you have said in your testimony that nuclear power 
plants are designed to withstand tornadoes, hurricanes, fires, 
floods and earthquake. As a result, the structures inherently 
afford a measure of protection against deliberate aircraft 
impacts. I would suggest to you, in light of what we learned 
from the World Trade Center, that kind of rationale doesn't sit 
well. Are you--I'm not going to ask this question because I 
think I have to ask other questions in the closed briefing 
which I will attend. But I am just going to say then that I 
trust that you are doing computer modeling to see whether the 
lessons that we learned after the World Trade Center would not 
apply to this situation. So I'm not going to ask you a question 
here. In fact, I'm just assuming you are doing this.
    But I guess my point is then you say you don't know of any 
particular threat against nuclear power plants, but yet you 
made these pills available to the people, which I'm very 
grateful you did that. So I hear mixed messages. I think the 
best thing that we can do is to send a very clear message to 
everyone in the world that we are doing everything we can, as 
you say, that we are acting conservatively. I agree with that. 
That means you do more, not less.
    You know, the President announced that the nuclear power 
plants were listed as targets. We've all seen the actual 
documents that came out of the search of the caves by our brave 
men and women in uniform. So we know that.
    So you're not suggesting that nuclear power plants are not 
a target, are you, in saying you have no information? That's 
one question. Second, are you briefed by the FBI and the CIA on 
a regular basis? Do you feel comfortable with the type of 
briefings that you are getting, given all the news that is 
coming out?
    Dr. Meserve. Let me respond to several points you've made. 
I think that we've gone off in a direction I had not intended. 
I was not suggesting that the NRC should make the judgment as 
to how much society should spend for security. That is clearly 
something for the Congress.
    With regard to the aircraft, we are undertaking a very 
major effort to examine the engineering features associated 
with aircraft vulnerability of nuclear plants. That is 
something on which I would be prepared to give you a briefing 
in a closed session. That has been a major activity for the NRC 
and our contractors in the period since September 11, to assess 
the vulnerabilities and assess mitigation measures that should 
be taken.
    We have very close coordination with the FBI and the 
intelligence community and we have analysts who are intimately 
connected with assisting those agencies in evaluating threat 
information. As part of our advisory system, when a licensee 
observes something that is occurring at the plant, they report 
it to us, we coordinate with the FBI and the intelligence 
community for its evaluation. There is a very close connection 
involving security experts at the NRC, working with their 
counterparts in these other agencies, to assure that we have 
detailed information that we share with each other. My comment 
that they are not aware of a credible threat directed at a 
nuclear power plant is consistent with the information that we 
have been receiving from the intelligence community.
    I very much agree with your notion that the nuclear 
industry should be a model for society in security. I think in 
fact we are. I would invite all of you to visit a nuclear plant 
and to see the level of security that exists at these 
facilities. I think it would be very reassuring to you to visit 
a plant and see on the ground all that is in place. I can't 
obviously describe it in this session, but I very much welcome 
helping to assist you in a visit if that were necessary.
    Senator Boxer. Mr. Chairman, I know my time is up, but I 
just want to make one point. I want to join with you and other 
members. We want to work with you for, you know, if there is a 
time when you don't feel that you're getting the information, 
these are the kinds of things we can help with. I wanted, and I 
will in written questions, ask you about, I have 100,000 
people, far less than Senator Clinton, living within a 10-mile 
radius of my plants. But I have many, many more living within 
50 miles.
    So I'm going to ask you to answer in writing if you will, 
what measures you're taking beyond the 10-mile rim. I thank you 
very much.
    Senator Jeffords. Thank you.
    Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    I just want to say to the chairman, thank you for joining 
us today and for your stewardship and for your testimony.
    In your testimony, your written testimony and also I think 
in part of your oral testimony, you talked about what we can do 
to help you and your colleagues to enhance the security of our 
nuclear facilities. You talked specifically about legislation 
introduced by several of our colleagues which has been 
introduced in this Congress which has not yet been acted on. In 
your testimony, you discuss several of the provisions of that 
legislation.
    Can you just tell me, what is the status of that 
legislation today with respect to having held hearings, 
scheduled markups? What is the status?
    Dr. Meserve. The NRC legislative proposals on security, 
passed the Senate last year, but did not succeed in passage 
through the House. They were re-introduced here again by 
Senators Smith and Inhofe.
    Senator Carper. Which Senator Smith?
    Dr. Meserve. Pardon me?
    Senator Carper. Which Senator Smith?
    Dr. Meserve. Senator Smith from New Hampshire, who was with 
us earlier. We have suggested an additional provision to that 
legislation, which has been described in our testimony. We have 
not had an opportunity for a hearing in this session of the 
Senate to discuss this. So there has not yet been a markup on 
that legislation.
    Senator Carper. Is the committee jurisdiction for the bill 
this committee?
    Dr. Meserve. I will defer to you as to the jurisdiction of 
the committees. But I believe that the jurisdiction is this 
committee.
    Senator Carper. Mr. Chairman, is that correct?
    Senator Jeffords. I believe that's correct. We always claim 
it anyway.
    [Laughter.]
    Senator Carper. Let's talk about the legislation that has 
been assigned to this committee over which we have 
jurisdiction. Take several pieces of it and talk with me about 
why they are necessary. Also what criticisms of those proposals 
that you might be aware of, that we should be aware of. Don't 
go into great detail, but just give me an overview, the key 
pieces of the legislation, why they're critical and any 
opposition or criticism of those that you're mindful of.
    Dr. Meserve. I think that I described in my testimony the 
NRC proposals and why we think that those are wise and how they 
would be supplemented. So those are things that--they've also--
we have solicited and obtained the support of the executive 
branch for those components of the legislation. So those would 
be the three parts that were in Senator Smith's and Senator 
Inhofe's bill as supplemented by the additional component, 
which is the attachment to my written testimony.
    The other bill that is before this committee is the 
legislation that would govern the federalization of the guard 
forces. My testimony discussed why we have concerns that we 
have with regard to federalization.
    There's one aspect of that argument that may require some 
amplification. There is a command-and-control issue that we 
take very seriously that would arise if the troops were 
federalized at the commercial power stations. The reason is 
that it is the obligation of the licensee to assure the safe 
operations of the facility. So all of the control room staff 
and so forth are licensee employees taking instructions from 
the licensee within the regulatory environment that we 
establish. But nonetheless, it's the licensee that has the 
fundamental obligation to assure safe operations.
    The legislation would take security and rip that out of the 
responsibility of the licensee and make that a Federal 
responsibility. So that some of the employees at the site would 
work for the NRC as our employees, responsible for security, 
and the people responsible for safe operations would report to 
the licensee. You can imagine in an emergency, heaven forbid, 
if there was a terrorist attack at a facility that took out 
some equipment, we would need clear command and control as to 
responsibilities, and what actions needed to be taken. The 
licensee actions to assure bringing the plant to a safe 
condition are ones that would have to be coordinated with the 
security actions. Fracturing the chains of command in those 
circumstances, we think, would be a serious mistake. That 
should be integrated. Having that responsibility integrated 
together in the licensee organization we think is appropriate.
    Senator Carper. I want to go back to the legislation that 
you mentioned at the outset, and that is the legislation co-
sponsored in part by Senator Smith of New Hampshire. Part of my 
question was, what are the criticisms, maybe the legitimate 
criticisms of the legislation, and how would you respond to 
those criticisms?
    Dr. Meserve. I must admit that it has been a complete 
puzzle to me in that the NRC for years has been pursuing this 
legislation. It passed the Senate last year, and I have not 
heard any criticism of the legislation, but we don't seem to be 
able to get it done.
    Senator Carper. Why do you think that is?
    Dr. Meserve. I have no idea. I think that part of the 
concern may be that it is not seen as dramatic enough. I don't 
know. It seems to me that these are changes that are 
appropriate steps to take and they are ones that I would urge 
Congress to enact. I am not aware of any criticism of them.
    Senator Carper. I would just say to my colleagues, we've 
talked a lot, seen a lot about reports that came out of the 
FBI, and I guess it was in Minnesota and Phoenix and things 
that we're mindful of and in retrospect we should have paid 
more attention to. Someone should have done something as a 
result of that. I would just hope here in this case that we not 
be guilty of not pursuing an agenda once we've discussed it and 
decided it's worth pursuing, that we not be negligent.
    Senator Jeffords. I thank the Senator for his words. I 
commend you for your testimony and it's been an enjoyable 
experience to work with you. You and your members have been 
very forthright. We will be having another closed session, so 
that any questions that the members had that they didn't feel 
appropriate to ask can be answered.
    Thank you, and we'll move to the next panel. I also ask 
unanimous consent that this Nuclear Security General Aviation 
is Not a Threat document by Senator Inhofe be made a part of 
the record. Without objection.
    [The information referred to follows:]

           Nuclear Security--General Aviation is not a Threat
 (A Report by Nuclear Safety and Security Consultant Robert Jefferson)

    Summary: The Aircraft Owners and Pilots Association commissioned 
internationally recognized nuclear safety and security expert Robert M. 
Jefferson to examine the potential threat from a general aviation 
aircraft to a nuclear power facility. Jefferson concluded that even if 
a general aviation aircraft were loaded with explosives, it ``would 
fail to produce the damage necessary to cause any radiological 
involvement of the public. Certainly, if a terrorist organization were 
inclined to undertake such an effort, a light aircraft would quickly be 
dismissed as a possible vehicle due to its impracticality.''
    Specifically, Jefferson's study concluded that:
    A general aviation aircraft could not penetrate the concrete 
containment vessel protecting the nuclear reactor. While many 
containment vessels were not specifically designed to withstand an 
aircraft impact, all vessels are designed to withstand the impact of 
tornado-propelled ``missiles.'' Such missiles exceed the force of a GA 
aircraft impact.
    In one test, a 45,000-pound F4 fighter was propelled into simulated 
containment wall at over 450 miles per hour. The aircraft was 
destroyed; the concrete wall was ``uncompromised.'' (An F4 is 18 times 
heavier than a Cessna 172, the most popular GA aircraft. Even in a 
dive, a Cessna 172 can't go much faster than 200 mph.)
    Even a large commercial airliner such as a Boeing 757 would not 
likely penetrate the outer containment vessel of a nuclear power plant. 
But even if it did, the reactor vessel, which contains the nuclear 
fuel, would remain intact, according to Jefferson.
    A general aviation aircraft loaded with explosives would not likely 
cause a release of radiation. Most GA aircraft have payloads of less 
than 1,000 pounds. Any explosives would have to be carried in the 
passenger or cargo compartments. Even if a terrorist were able to rig a 
contact fuse on the nose of the aircraft, the explosion would be 
several feet away from the reactor containment building. That distance 
would reduce the damage to the point that even if the containment 
vessel were breached, there would be little or no damage to the reactor 
vessel inside.
    An aircraft attack on auxiliary buildings would not likely cause a 
release of radiation. Nuclear power plants are designed so that a 
``single failure'' cannot cause the loss of critical safety systems. 
Support systems are not co-located at a single point. An aircraft crash 
could not destroy every safety and control system at once.
    A GA aircraft could not ignite the Zirconium cladding on spent 
nuclear fuel. Spent nuclear fuel is stored in deep pools, covered with 
up to 50 feet of water. The pool walls are concrete and steel, The pool 
itself is a relatively small target. Even if the aircraft could hit the 
pool, it would not likely disturb the spent fuel. To ignite the fuel 
cladding, the aircraft would first have to displace all the water, and 
then create a fire that would burn for about 20 hours. That would take 
some 176,000 gallons of aviation gasoline, The typical GA aircraft 
carries 60 gallons of fuel.
    Following the attacks of September 11th, the United States 
government has struggled to identify potential threats and targets for 
future terrorist activities. Potential targets identified by security 
officials have included shopping malls, banking institutions, water 
reservoirs, federal buildings, fairs, festivals, sporting events, and 
nuclear facilities. Some public officials have focused their attention 
on the potential use of light, general aviation aircraft to launch 
attacks against national assets. Specifically, claims have been made 
concerning the nation's nuclear power plants and their theoretical 
vulnerability to attacks from light aircraft.
    As a result, the government and others continue to examine the 
issues surrounding both real and perceived weaknesses in nuclear 
security. One such example of these efforts is the study initiated by 
U.S. Representative Edward J. Markey titled Security Gap: A Hard Look 
At the Soft Spots in Our Civilian Nuclear Reactor Security. In this 
``study'', Representative Markey, who has historically proven to be an 
opponent of nuclear energy, attempts to establish a supposition that 
general aviation poses a national threat based on its potential for use 
in strikes against nuclear power plants.
    In reality, general aviation is a safe and important component of 
the United States transportation system. Moreover, light, general 
aviation aircraft do not pose a threat to domestic nuclear power plant 
security, and the facts presented in this report explain and illustrate 
this while refuting these accusations.

                   NUCLEAR FACILITY DESIGN STANDARDS

    It has been suggested that the design standards of nuclear power 
plants offer inadequate protection in resisting airborne attacks. One 
point raised was the fact that few nuclear reactor facilities were 
designed specifically against threats from light, general aviation 
aircraft. This point is misleading, because it overlooks the fact that 
by their very design, nuclear power plants are inherently resistant to 
such strikes. For example, in the late 70's, the Japanese government 
conducted a test in which a 45,000-pound F-4 Phantom jet was impacted 
at over 450 miles per hour into a concrete wall about the thickness of 
the containment vessel of a nuclear power plant. The results were 
dramatic. While the aircraft was completely destroyed upon impact, the 
integrity of the wall remained uncompromised. To relate this to general 
aviation, it is important to note that the F-4 Phantom jet weighs 7 
times as much as the average general aviation aircraft and was flown 
into the wall at speeds exceeding two and one half times that of a 
general aviation aircraft.
    Parallels can also be drawn to one of the standard accident 
scenarios used in the design of nuclear power plants, the impact of 
tornado-propelled missiles such as power line poles. In a series of 
tests conducted by Sandia National Labs in the 1970s, wooden power 
poles were hurled into a concrete target (simulating a containment 
wall) at speeds up to 120 miles per hour. The power pole was, in each 
case, reduced to splinters. However, the thick concrete targets were 
merely polished at the point of impact. A power pole impacting 
perpendicular to the surface of the concrete is certainly as effective 
or a more effective missile than a light (aluminum), general aviation 
aircraft.
    These tests serve to support a statement made by Chairman Richard 
Meserve of the U.S. Nuclear Regulatory Commission in which he remarked, 
``Nuclear power plants are among the most formidable structures in 
existence. Nuclear power plants are certainly far more capable to 
respond to an aircraft attack than other civilian facilities.'' This is 
not to imply that such structures are indestructible but that they are 
indeed very robust hard targets,
    The Markey report implied that a general aviation aircraft impact 
to the containment structure of a nuclear reactor could cause a full-
scale core meltdown. However, engineering data, supported by ``real-
world'' tests, refute these claims. The conclusions to be drawn are 
clear. Given that aircraft size and speed are two crucial elements in 
the damage equation, a light, general aviation aircraft weighing less 
than 6,000 pounds traveling at under 300 miles per hour simply lacks 
the energy to cause significant damage. In comparison, a commercial 
aircraft like the Boeing 757 weighs upwards of 250,000 pounds and 
travels at speeds in excess of 500 miles per hour. Most experts agree 
in the event an aircraft similar in size to a Boeing 757 airliner were 
to strike a nuclear power plant, in all likelihood, it would be unable 
to penetrate the outer containment vessel. But, even if it did manage 
to do so, the reactor vessel, which contains the nuclear fuel, would 
remain intact, eliminating the threat of public exposure to radioactive 
materials.
    Others have speculated a light aircraft laden with explosives might 
be used to breach a reactor containment building, again implying this 
would result in a full-scale core meltdown. Again, the capabilities of 
light aircraft argue against such an attack being successful. Very few 
general aviation aircraft have a payload as high as 1,000 pounds, even 
if flown by a small pilot and carrying minimum fuel. Further, the 
explosives would be carried in the cabin placing them at a distance 
from the point of impact. Modem explosives must be detonated, and 
impact has a small probability of causing detonation. So, even if the 
terrorist rigged a contact fuse on the nose of the airplane to set off 
the explosives, there would be several feet between the reactor 
building and the detonation. That distance would reduce the damage to 
the point that, even should the containment building be breached, there 
would be little damage inside (and no aircraft fuel to cause a fire). 
Again, such an attack would be an exercise in futility as there would 
be no radiation release and no public involvement.
    Hypothetically, a larger aircraft (not the typical general aviation 
aircraft) carrying thousands of pounds of explosives may be able to 
penetrate the outer containment vessel of a nuclear power plant, 
causing severe damage to systems inside. However, this would affect an 
immediate shutdown of the reactor, which would remain intact in such a 
scenario.
    It has been asserted that, ``NRC recognizes aircraft crashes may 
result in multiple-failure initiating events, and that non-safety 
system malfunctions could contribute to such events.'' The regulations 
for analyzing the safety of nuclear power plants require every 
conceivable element that could contribute to safety degradation must be 
considered a ``safety system.'' Further, nuclear power plants must be 
designed to prevent ``single failures,'' no matter how they propagate, 
to cause loss of critical safety systems. It is inconceivable that the 
crash of a general aviation aircraft could accomplish such broad safety 
problems in a nuclear power plant.
    Others have postulated that it would only take two hours after loss 
of ``on-site power'' at a nuclear facility for core damage to begin. 
This assumes not only loss of on-site power but also loss of standby 
power and loss of emergency core cooling. Piling one miniscule 
probability on top of another quickly stretches the limits of 
believability. These entities have also proposed that support systems 
and auxiliary buildings as also vulnerable to a successful attack. This 
assertion assumes that all support systems are co-located at a single 
point, allowing an aircraft crash to destroy everything at once. This 
is a simplification that serves the alarmist argument, but it is simply 
untrue.

SPENT FUEL STORAGE AND UNSUBSTANTIATED RISK OF FIRE RESULTING FROM THE 
                     IGNITION OF NUCLEAR MATERIALS

    Another possibility discussed regarding nuclear power plants 
involves the scenario of an aircraft crash somehow igniting the 
Zirconium cladding on the nuclear fuel elements. Unlike Sodium, which 
bums on exposure to air, or Magnesium, which ignites at relatively low 
temperature, solid Zirconium will not burn. Zirconium doesn't melt 
until approximately 3,330 degrees Fahrenheit. However, fine Zirconium 
shavings or dust will bum. In order to cause a Zirconium fire, it would 
be necessary for a terrorist to fracture the nuclear fuel cladding into 
small pieces before subjecting it to a source of ignition. Even 
assuming that the Zirconium was fragmented into chips, the spent fuel 
elements are either under water (upwards to 50 feet in many cases) or 
contained in massive shielding systems. This means that it would take 
an incredibly large quantity of heat to raise the temperature of the 
Zirconium and the surrounding shielding to the point of ignition.
    Moreover, since aviation gasoline burns at approximately 2,000 
degrees Fahrenheit, it would take an extended period of time to achieve 
the temperatures needed to ignite Zirconium shavings. A fire that 
persists for a long time (twenty hours has been mentioned) requires a 
substantial fuel source. In an open configuration, such as might take 
place on the ground surrounding a dry storage facility, gasoline will 
burn at a rate close to \1/3\ inch per minute (i.e., a large pan of 
gasoline burning will reduce the level of the fuel in the pan about \1/
3\ inch per minute). Given that even the largest light aircraft carries 
less than 300 gallons of fuel, the possibility of such a condition is 
practically non-existent.
    Further, to provide an optically opaque fire and transmit as much 
heat as possible, the flames have to be at least ten feet thick. Thus, 
to engulf a dry storage cask in flames (one model is about 10 feet in 
diameter, others are larger) would require a pool at least 30 feet in 
diameter. At \1/3\ inch a minute, this would consume almost 150 gallons 
a minute even if there were no runoff. At that rate, a 20-hour fire 
would consume 400 inches of fuel, or slightly over 176,000 gallons 
(equaling one million pounds). Not even the largest military tanker can 
transport that much fuel. Using the figure of 20,000 gallons of fuel 
mentioned in the Markey report, a fire 30 feet in diameter would bum 
for a maximum of about 2.3 hours. Since light general aviation aircraft 
carry only a fraction of the cited fuel volume plus, considering 
runoff, the resulting fire from a small airplane crash would be mere 
minutes. The possibility of a fuel explosion igniting the Zirconium is 
refuted by carefully reviewing the dynamics of such an event. The 
temperature of a fireball is again about 2,000 degrees, but the 
exposure lasts for only milliseconds. This would produce insufficient 
heat to raise the temperature of the Zirconium more than a degree or so 
even if directly exposed to the fireball.
    It is hard to conceive that even a deliberate attempt to 
continuously provide additional combustible fuel to the fire over a 
prolonged time could ever ignite the Zirconium cladding on the reactor 
fuel elements. If the combustible fuel is to be delivered by an 
aircraft impacting the facility, the crash will disburse the fire over 
a wide area, and, thus, present absolutely no hazard to the spent fuel 
in either the fuel pool or the dry storage casks.

           ANTI-AIRCRAFT DEFENSE UNWARRANTED AND INEFFECTIVE

    One of the most unreasonable ideas presented to the public calls 
for anti-aircraft capabilities around nuclear power plants. The idea 
begs careful analysis focused on the potential for the unintended 
consequences of shooting down an innocent civilian aircraft. The claim 
that other countries have adopted this strategy does little to quell 
the fears of general aviation pilots or the air traveler. The volume of 
general aviation traffic and the freedom with which it is utilized is 
unique to the United States, rendering such comparisons of little 
value. The entire concept is flawed for a more significant reason. The 
federal government has a finite amount of capital available to protect 
its citizens, and, when it is spent in support of irrelevant strategies 
(leaving the more critical considerations unprotected), the nation 
becomes far more vulnerable to terrorist threats.

         ATTACK BY LIGHT GENERAL AVIATION AIRCRAFT IMPRACTICAL

    General aviation aircraft would prove ineffective in an attack, 
similar to those carried out on September 11th. The World Trade Center 
towers and the Pentagon were large, conspicuous landmarks and, as such, 
were more easily targeted in an aerial attack than would be a nuclear 
power plant. The success of these attacks was predicated on the use of 
large, turbine-powered commercial aircraft with immense fuel carrying 
capacity. A general aviation aircraft, at only a fraction of the 
weight, speed and fuel load, would be unable to inflict damage on the 
scale witnessed on that tragic day.
    In spite of this fact, concerns have been raised regarding the 
perceived threat of general aviation to nuclear power plants. For 
example, it was reported that 21 power plants lay within 5 miles of an 
airport, implying that these airports present an inherent threat based 
on their proximity to nuclear power plants. Common sense would dictate 
that proximity is hardly the issue in such cases. It is unlikely that a 
terrorist would rule out a given target based on the travel time 
involved in reaching it. The reality is that the proximity of these 
power facilities to active airfields does not increase their exposure 
to terrorist threats.
    However, since the point has been raised, these airports (many of 
which are small general aviation facilities) serve as excellent 
examples as to why general aviation is not a threat. The light aircraft 
flown into small general aviation airports throughout the United States 
are ill suited for terrorist use, given they lack the weight, speed, 
fuel and load carrying capacity to do significant damage to a target.
    Of the 23 airports listed in the government study, 5 are so small 
that they do not even appear in AOPA's Airport Directory, a 
comprehensive compendium of civil airport data. Eleven of the airports 
are small private airstrips, most with turf (unpaved) runways. Five of 
the airstrips have runways too short to permit operations by large, 
turbine-powered aircraft. In reality, only two of the airports listed 
in the report have runways large enough to allow operation by large, 
transport-category aircraft. One of these is located proximate to the 
Three Mile Island facility in Harrisburg, Pennsylvania, which was 
specifically designed to sustain an impact from a large aircraft. The 
Markey report implies to a large degree that nuclear security concerns 
rest squarely with general aviation. However, scientific evidence to 
the contrary demonstrates that the concerns raised have no basis in 
fact and are completely unwarranted.

                               CONCLUSION

    General aviation is a safe and important part of the United States 
transportation system. For the reasons cited in this report, it is 
unlikely that a terrorist would choose a light, general aviation 
aircraft to threaten a nuclear power plant. The result of such an 
endeavor would fail to produce the damage necessary to cause any 
radiological involvement of the public, Certainly, if a terrorist 
organization were inclined to undertake such an effort, a light 
aircraft would quickly be dismissed as a possible vehicle due to its 
impracticality.

    Senator Jeffords. Thank you, Mr. Chairman. I enjoy working 
with you. We'll be back with you soon.
    Dr. Meserve. Thank you.
    Senator Jeffords. Our next panel consists of five 
witnesses. Our first witness is David Lochbaum, a nuclear 
safety engineer with Union of Concerned Scientists. Our second 
witness will be Mr. Jack Skolds, chief nuclear officer at 
Exelon Corporation. Next we will have Danielle Brian, executive 
director of the Project on Government Oversight. After Ms. 
Brian, Donna J. Hastie, a specialist in emergency preparedness, 
will testify. Finally, Dr. Irwin Redlener, president of the 
Children's Health Fund, will finish our committee's testimony 
this morning.
    Each witness is requested to keep his or her testimony to 
no more than 5 minutes. After the conclusion of all testimony, 
members will be free to ask questions. Please, speak clearly 
into the microphone to all of you. Sometimes it's difficult to 
hear from here. We greatly appreciate all of your time and your 
willingness to share your expertise with the committee and 
thank you for being here.
    Mr. Lochbaum, please proceed with your testimony.

STATEMENT OF DAVID LOCHBAUM, NUCLEAR SAFETY ENGINEER, UNION OF 
                      CONCERNED SCIENTISTS

    Mr. Lochbaum. Good morning, Mr. Chairman and members of the 
committee. My name is David Lochbaum. I have been the nuclear 
safety engineer for the Union of Concerned Scientists since 
October 1996. Prior to joining UCS, I worked for over 17 years 
in the nuclear power industry.
    The issue before you today is the security of our nuclear 
facilities. As with many nuclear power issues, we have firmly 
staked out middle ground on this one. We disagree with industry 
representatives who contend that nuclear power plants are 
hardened structures, virtually immune from attack, and who 
claim that the health consequences from a successful attack 
would be insignificant.
    But we also disagree with those who contend that nuclear 
power plants are an undue hazard that can only be dealt with by 
immediately shutting them down. We view nuclear power plants as 
being vulnerable to sabotage and advocate taking all reasonable 
steps to reduce the chances of a successful attack and to 
minimize the harm from a successful attack.
    We are therefore pleased to support the legislation 
proposed in S. 1586 and S. 1746. Once enacted into law, these 
bills would provide millions of Americans with greater 
protection against nuclear sabotage.
    The Price Anderson Act proves the need for adequate 
security. Price Anderson was created because the liability from 
a nuclear plant accident could be so large as to prevent 
private insurance companies from underwriting that risk. 
Congress is in the process of renewing Price Anderson because 
nuclear power plants remain immense risks, hazards. The 
chemical industry and other industries do not receive 
comparable Federal liability protection.
    The 1975 fire at the Browns Ferry nuclear plant illustrates 
their vulnerability. A worker checking for air leaks with a 
candle started a fire that burned out of control for nearly 7 
hours. The blaze disabled all of the emergency core cooling 
systems for Unit 1 and nearly all of these systems for Unit 2. 
Only innovative efforts by workers to cobble together a 
makeshift scheme for adding water to the Unit 1 reactor 
prevented a core meltdown.
    It is not farfetched to think that one or more attackers 
armed with explosives or a large aircraft fully loaded with jet 
fuel might be able to cause more damage than one worker with 
one candle. While all provisions of both bills have merit, the 
most valuable portion of the proposed legislation is section 
four of the Nuclear Security Act. This section requires the 
Nuclear Regulatory Commission to conduct force on force testing 
at each nuclear facility at least once every 2 years. The force 
on force tests pit mock intruders against the plant's barriers 
and defenders.
    How do teachers evaluate their students' academic 
performance? Do they use a checklist to verify that students 
attend classes and have textbooks, pencils, paper and 
calculators? No. They use tests that demonstrate their 
students' capabilities. Textbooks and class attendance are the 
pathway to knowledge, while tests are the best measure of 
progress along that pathway.
    Likewise, security checklists show that a nuclear power 
plant has gates, guards and guns. But they don't provide enough 
insight on progress toward security.
    Force on force tests demonstrate whether adequate security 
has been achieved. Frequent demonstration of adequate security 
performance is invaluable. The Nuclear Security Act also 
requires potassium iodide stockpiling for people living within 
50 miles of each nuclear facility. This provision is urgently 
needed to eliminate current inequities.
    That potassium iodide has value is clearly demonstrated by 
the fact that it would be distributed to nuclear plant workers 
and Federal, State and local officials responding to an 
accident. It would seem unwise not to provide equivalent 
protection for Americans living downwind of the facilities. But 
according to the NRC, only 13 States currently stockpile 
potassium iodine for people living within the emergency 
planning zones. The NRC protecting only some Americans makes 
about as much sense as the U.S. Coast Guard requiring lifeboats 
in only some cruise ships.
    Expanding the potassium iodide inventory to cover a 50-mile 
radius, rather than a 10-mile radius, increases the likelihood 
that all people in harm's way will be protected. No matter 
where the line is drawn, the question will remain about people 
living at N plus 1 miles. The 50-mile radius seems to be a 
reasonable compromise. Even if conditions affect people 60 or 
70 miles downwind of a plant, potassium iodide upwind could be 
redirected to the folks that are in harm's way.
    The proposed legislation would greatly improve nuclear 
facility security. The only element potentially missing from 
the proposed legislation is adequate protection against insider 
sabotage. There's language in the Nuclear Security Act touching 
upon insider sabotage, but it does not specifically address 
factors such as the two-person rule for vital areas, use of in-
plant security cameras, armed security guard escorts for 
visitors to vital areas, integration of security considerations 
into normal plant safety decisionmaking, and training for 
operators when responding to acts of sabotage.
    UCS recommends the committee consider strengthening the 
proposed legislation by explicitly incorporating these items, 
obtaining a firm commitment for the NRC to include these items 
in their top to bottom review, or by providing clear guidance 
on expectations regarding these items in the committee reports 
that accompany these bills.
    In closing, UCS supports S. 1586 and S. 1746 and hopes that 
both bills become law. I have testified before Congress several 
times. Until now, it has been always to oppose this or to 
complain about that. It is a welcome change to appear today in 
full support of these bills. The worst part about these bills 
is they address reasonable steps that could be taken but have 
not yet been taken. The best part about these bills is that 
they will solve problems once they're enacted. Thank you.
    Senator Jeffords. Thank you. Very good. You were almost 
right on the 5 minutes. I appreciate that.
    Mr. Lochbaum. I practiced more than once.
    [Laughter.]
    Senator Jeffords. Mr. Skolds.

STATEMENT OF JACK SKOLDS, CHIEF NUCLEAR OFFICER, EXELON NUCLEAR

    Mr. Skolds. Thank you, Mr. Chairman and members of the 
committee. Thank you for the opportunity to appear before you 
today to discuss this important issue.
    I would also like to thank several members of the committee 
for investigating the issues of nuclear plant security first-
hand. Senators Graham, Clinton, Corzine, Smith, Voinovich and 
Specter have all toured nuclear power plants to receive 
briefings on plant security since September 11, as have several 
members of the committee's staff members. In fact, Senator 
Specter has toured three of the five nuclear power plants in 
Pennsylvania, including two Exelon facilities.
    I will focus my comments today on the legislative proposals 
before the committee, though my written statement provides 
extensive background on security at commercial nuclear plants 
in the United States after September 11 and recommendations 
that the Federal Government should take to enhance security.
    Before addressing the legislation pending before the 
Senate, however, I would like to make a few comments. We 
believe that there are people interested in doing harm to 
nuclear power plants. We have the most at risk, and we take 
this issue very seriously. The nuclear power industry is 
absolutely committed to ensuring that our plants are operated 
safely and that all necessary steps are taken to protect the 
health and safety of the public and our employees. Thousands of 
our employees live within the 10-mile EPZ surrounding the 
nuclear plants and no one has a greater interest than we do.
    Second, commercial nuclear power plants are the most well 
protected industrial facilities in the United States today and 
in fact, many businesses are turning to us as a model for 
security and emergency planning at their industrial complexes. 
Third, as the United States acts to strengthen homeland 
security in light of the new threats to the Nation's security, 
it's imperative that Federal, State and local officials work 
cooperatively with nuclear plant operators to build on the 
solid foundation of emergency response capabilities that 
existed prior to September 11.
    Let me turn my specific comments to the legislation. On S. 
1586, the nuclear industry is on record as supporting the 
provisions included in S. 1586. While some NRC licensees have 
recently expressed concern about the possible legal 
implications of providing wide ranging arrest authority to 
private security forces, the industry stands ready to work with 
the committee to resolve these concerns.
    Concerning S. 1746, it makes sweeping changes in the manner 
in which security at commercial nuclear facilities is 
addressed. Unfortunately, this legislation puts the proverbial 
cart before the horse by mandating radical legislative 
solutions to issues that have not been identified as problems.
    Section 3 of the bill would substitute a statutorily 
mandated design basis threat for that developed by the NRC and 
would federalize security at commercial nuclear power plants by 
establishing a nuclear security force within the NRC and by 
requiring the Commission to develop a security plan for each of 
the Nation's sensitive nuclear facilities. Section 3 also 
levies a tax on sensitive nuclear facilities to fund a newly 
created nuclear security fund.
    Before legislating the details of a design basis threat, 
Congress should first direct the President to conduct a 
comprehensive review with the various energy, intelligence and 
law enforcement agencies of the various threats facing nuclear 
power plants. Once such a review is completed, the NRC should 
be directed to adjust the design basis threat accordingly.
    With regard to federalization of nuclear security forces, 
Exelon strongly opposes such a drastic and unjustified change 
in the security requirements. Security forces at nuclear power 
plants are highly trained professionals. Substituting Federal 
employees to safeguard sensitive nuclear facilities may 
actually degrade security. We believe that the integrated 
command and control of plant security forces is an important 
aspect of our operations, and plant operations personnel, and 
it's essential to ensure the protection of the public health 
and safety.
    Similarly, requiring the NRC to develop the security plans 
for each of the Nation's sensitive nuclear facilities within 
180 days would be a significant task that would result in an 
unnecessary and perhaps dangerous diversion of Commission 
resources. As with federalization of the nuclear plant security 
forces, requiring a federally developed security plan for 
several dozen sites is unnecessary given the lack of evidence 
that the current system is deficient.
    Finally, a tax on nuclear power plant operators would fund 
a new and unnecessary Federal bureaucracy and would be 
unparalleled in the private sector. Simply put, this $700 
million tax would fund an activity that is effectively managed 
by the private industry.
    Section 4 establishes an operation safeguards and response 
unit at the NRC. The existing NRC operational safeguards and 
response evaluations, or OSRE, has been applied and interpreted 
in an inconsistent and at times arbitrary manner. Anti-nuclear 
groups and the NRC have at times inaccurately characterized 
licensee performance under the existing program by claiming 
that we have failed.
    Now, these programs have been conducted for approximately 
15 year. If the report had been that we had found no areas for 
improvement, I'd be very concerned. There are areas for 
improvement, and these exercises are very rigorous, these 
exercises are very detailed, and they're intended to identify 
areas for improvement.
    Senator Clinton [assuming the chair]. Mr. Skolds, you'll 
have to sum up, you're at the end of your time.
    Mr. Skolds. All right. I'll stop right there then. Thank 
you for the opportunity.
    Senator Clinton. Thank you very much.
    Ms. Brian.

  STATEMENT OF DANIELLE BRIAN, EXECUTIVE DIRECTOR, PROJECT ON 
                      GOVERNMENT OVERSIGHT

    Ms. Brian. The Project on Government Oversight, an 
investigative organization that works with insiders in order to 
improve public policy, first began investigating nuclear 
security by looking at the Department of Energy's nuclear 
weapons facilities. This work caused security guards at 
commercial reactors, current and former NRC security officials 
and contractors with military experience to contact POGO about 
inadequate security at commercial nuclear plants.
    My testimony is based on information and documents from 
these insiders. I must strongly emphasize that our sources of 
information are not anti-nuclear. In fact, most of them have 
spent their entire professional lives working and supporting 
the nuclear industry. We applaud the sponsors of Senate Bills 
1586 and 1746, the Nuclear Security Act, for several important 
provisions contained in these bills.
    The NRC's current DBT is wholly inadequate. According to 
published sources, the NRC's DBT requires protection against 
fewer than a handful of outside attackers. This is absolutely 
absurd, given the September 11 attack. I'd suggest that the 
fuss about disclosing the already very public number of 
attackers nuclear plants are currently planning to defend 
against appears more that the NRC and utilities are embarrassed 
about this ridiculously low number.
    Half the nuclear power plants cannot even protect against 
these paltry current threat assumptions. Let me caution the 
committee, despite what Chairman Meserve said earlier, these 
tests are seriously dumbed down. They are not hard tests. They 
first do not go beyond this paltry threat assumption. I outline 
in my written testimony many of the other artificialities, 
including, as I think you, Senator, mentioned, that they give 6 
to 10 months advanced warning, which obviously a terrorist 
would not do.
    Can the guard force protect the integrity of the plant from 
a suicidal terrorist attack? The statistics say no. How much 
worse would those statistics be if the DBT accurately 
represented the threat we now face?
    The NRC has never tested a power plant guard force's 
ability to protect spent fuel pools, possibly the prime target 
of a terrorist attack. It is estimated that a terrorist could 
penetrate the fence line and breach a secured spent fuel pool 
in less than 60 seconds. We encourage the NRC to immediately 
recognize spent fuel pools as a primary terrorist target.
    Military special forces have told us about obvious 
vulnerabilities at most nuclear power plants that I would be 
very happy to discuss with Senators or staff. I'm 
uncomfortable, however, outlining them in public testimony. In 
very general terms, a terrorist carrying an explosive could 
blow a sizable hole in the reinforced concrete around a spent 
fuel pool. At one third of our reactors, the spent fuel pools 
are above ground, where they could be targeted from outside the 
fence line, resulting in the immediate release of high levels 
of radiation, quickly turning into an uncontrolled radioactive 
fire.
    The Nuclear Security Act requires a plant to increase 
security of these spent fuel pools. In the meantime, we 
recommend barriers and delay mechanisms to supplement security 
until the spent fuel is placed in dry casks underground. Guards 
at one plant told POGO that their only firearms training was 
firing 96 rounds or shots with their handguns, and far fewer 
with their shotguns. Standard training requires only that they 
can stand and hit a stationary target 25 years away. They have 
no training shooting on the run at a moving target.
    Recently, some of the facilities, because of the more 
advanced attention to this issue in the last few months, have 
introduced a running man across the target, where the standing 
shooter is allowed to have 10 shots trying to hit the target. 
Guards have admitted that their training is so inadequate in 
the face of a real terrorist attack, many would simply use 
their guns to protect themselves while they escaped.
    Additionally, nuclear power plant guards are severely 
outgunned. Even the NRC's DBT assumes that attackers will be 
armed with automatic weapons and explosives. Yet many guards 
are equipped only with shotguns and revolvers. Contrary to the 
ads in the Washington Post, placed by the nuclear industry 
lobbyist, NEI, guards do not normally wear flak jackets nor 
carry semi-automatic weapons. At one-third of nuclear power 
plants, the guards only have access to shotguns that are locked 
up at a distant central location.
    POGO strongly agrees with the Nuclear Security Act's 
provision reviving the OSRE program and requiring that mock 
attacks occur no less than every 2 years. Chairman Meserve also 
mentioned that the NRC is in the process of revitalizing the 
OSRE process of testing facilities. I'd like to mention that 
the NRC has twice closed that shop down because they didn't 
like what they were finding out. I would not frankly trust the 
NRC without congressional involvement to make the decisions on 
how they are going to revive that office.
    Anti-terrorism experts tell us that the worst enemy of any 
guard force is the daily grind of nothing happening. A simple 
solution is to add unannounced tests, which aren't happening 
right now by the NRC.
    Senator Clinton. You'll have to wrap up.
    Ms. Brian. Yes. POGO believes the goals achieved by 
federalizing could instead be accomplished through the 
following improvements. Security guards are among the lowest 
compensated employees. I spoke with one last night who is 
getting $2 less an hour than custodians at his facility. Guards 
must be given whistleblower protections. Despite what the 
chairman said, only Federal employees have legal whistleblower 
protection. Currently, utility and security subcontract 
employees do not.
    The Federal Government's expanded role should be to provide 
independent oversight rather than managing security and we 
strongly recommend taking the security oversight function out 
of the NRC. I'd also just like to conclude that we support S. 
1586 as it's intended to remedy some obvious failures in the 
ability of guards to protect against attacks.
    Senator Clinton. Thank you very much.
    Ms. Hastie.

  STATEMENT OF DONNA J. MILLER HASTIE, EMERGENCY PREPAREDNESS 
                   SPECIALIST, MARRIETTA, GA

    Ms. Hastie. Thank you, Senator Clinton.
    I appreciate the opportunity to talk to you today about the 
status, the current status at commercial nuclear power plants 
in the United States. I'd like to make three points today.
    First, commercial nuclear power plants have comprehensive, 
well developed and regularly tested emergency preparedness 
programs. The full scope of regulation pertaining to our 
nuclear emergency programs would cover a length of about 28.7 
feet. The bibliography alone for these plans is well over an 
inch thick. I've provided a description in my written testimony 
of the comprehensive programs.
    Currently, there is strong inter-agency coordination among 
the Federal, State and local agencies and with the utility to 
carry out their specific response. I believe that many of these 
Federal agencies are under the oversight of this committee.
    Nuclear power plants have to participate in an 
independently reviewed, full scale exercise every 2 years. We 
have conducted over 1,000 full scale exercises in the past 25 
years. We provide training to local workers through the 
cooperation of State agencies, and that includes firefighters, 
police, medical personnel, ambulance personnel, school 
personnel, school bus drivers and even local farmers. These 
integrated training programs are an excellent way that we build 
trusting relationships with the local communities that surround 
our power plants and also credibility with our State and 
Federal regulators and personnel.
    Second point is that the emergency preparedness programs 
are founded on a strong scientific and technical basis. This 
includes the two emergency planning zones around nuclear power 
plants. In 1976, a joint EPA and NRC task force developed a 
planning basis for offsite emergency preparedness. The task 
force performed a detailed analysis of the full range of 
possible reactor accidents to determine the appropriate 
distances from the plant that should be used for planning 
purposes. The task force received substantial input from all 
Federal agencies and relevant State agencies that would be 
responsible for implementing these protective actions.
    Following a 2-year plus study, the task force concluded 
that it was highly unlikely that prompt protective actions for 
the public would need to be taken beyond the 10 miles. That 
study led to the 10-mile and the 50-mile emergency planning 
zones that are currently used today. We know our emergency 
response plans work. Because emergency response plans developed 
by nuclear plants have been used for many non-nuclear 
emergencies.
    Evacuation of 10,000 people from Cedar Rapids, IA, 
following a fire, used the Dwayne Arnold plant. There were 
17,000 residents in St. Charles Parish in Louisiana that were 
evacuated following a leak from a nearby chemical plant, using 
Intergy's water for a three nuclear power plant plan. We've had 
hurricanes, evacuations caused by a volcano at Mount St. 
Helen's. We've used Hurricane Andrew at Turkey Point. So we 
have tested these plans many times in real events. We have 
never had to use them for a nuclear plant evaluation.
    Over the years, as new insights and experience regarding 
reactor safety have been analyzed, the 10- and 50-mile planning 
zones have continued to be found valid for our emergency 
preparedness programs. I am not aware of any new scientific or 
technical information, even post-9/11, that would support 
fundamental changes to the existing 10- and 50-mile planning 
zones.
    My third point is brief. Continual learning is an integral 
part of each of our emergency preparedness programs. We have a 
commitment to excellence throughout the industry, coupled with 
continued training, self-assessment and testing that has 
produced a high level of preparedness.
    In summary, in the past 30 years, the nuclear industry has 
conducted, as I said, over 1,000 full scale graded exercises. 
We have evidence that our emergency preparedness programs are 
effective. We continue to strive for new levels of safety.
    I thank you for the opportunity today to provide testimony 
at this hearing. I am sure that everyone here shares a common 
goal, and that is to protect the health and safety of the 
public. That's the commitment that binds us all. Thank you.
    Senator Clinton. Thank you very much, Ms. Hastie.
    Dr. Redlener.

     STATEMENT OF DR. IRWIN REDLENER, M.D., PRESIDENT, THE 
CHILDREN'S HOSPITAL AT MONTEFIORE AND PRESIDENT, THE CHILDREN'S 
                          HEALTH FUND

    Dr. Redlener. Thank you, Senator Clinton and Senator 
Carper. I'm also pleased to be here, and I'm anxious to be 
supportive of the Nuclear Security Act and so glad that it has 
been proposed.
    As a pediatrician, and as a public health expert who's been 
involved in public health for 30 years, I have been increasinly 
involved locally in New York and nationally in a variety of 
efforts with respect to the public health and general 
preparedness planning for ongoing terrorism. Specifically, 
among my most important concerns now has been the growing 
awareness of potential terrorist attacks on nuclear power 
facilities. Clearly, the events of September 11 demand a 
reexamination of all aspects of the vulnerability and security 
of these facilities. The fact is that because of the potential 
human consequences of a successful attack on power plants, this 
issue represents one of the most important public health 
challenges of our time.
    Here in a nutshell is what we know about the public health 
and health risks of nuclear attacks. Depending on the specifics 
of the projected attack scenarios and the extent of damage to a 
reactor, its support systems and/or the spent fuel containment 
systems, immediate civilian fatalities can range from 100 or so 
to 5,000 or more plus long term excess cancers from radiation 
exposure ranging at least into the tens of thousands. Moreover, 
nuclear terrorism is in a special category of psychological 
horror, even different from chemical and other kinds of violent 
terrorist attacks, because nuclear terrorism is evocative of 
nightmare scenarios that we've lived with for decades.
    In addition to the human toll studies, which have been done 
by many independent experts, other experts have also concluded 
that thousands of square miles could be contaminated and 
uninhabitable for years or decades under a variety of possible 
nuclear plant attack scenarios. In sum, the economic, 
psychological and societal consequences of such an event in a 
major population center would be almost incalculable.
    For all of these reasons, it's imperative that we take 
necessary and prudent steps, as we would with any other kind of 
major public health threat, to reduce the likelihood of a 
successful act of terrorism against a nuclear power plant.
    There are some steps that I believe can help us assure the 
public that we're dealing with this challenge preventively and 
effectively. Much of this is addressed in the legislation at 
hand. First and foremost, I believe strongly that the security 
at nuclear plants needs to be upgraded dramatically and 
immediately. Importantly, the upgrade of plant security needs 
to be commensurate with our new and totally different 
understanding of the capacity, ferocity and intelligence of 
terrorism as we've seen it on American soil. As a public health 
professional, having some understanding of what the public 
needs, practically and psychologically, I believe that 
federalizing the security forces at nuclear power plants is an 
urgent priority.
    Second, all spent fuel rods should be stored in hardened, 
onsite dry storage facilities pending more definitive solutions 
to the challenge of permanent storage. Unlike the reactor core 
itself, which is in a hardened containment structure, the spent 
fuel in many plants, for example, the Indian Point plant that 
Senator Clinton referred to, is in an adjacent, comparatively 
lightweight structure covered with nothing more than a 
corrugated steel roof. A significant terrorist-induced 
explosion and fire could potentially release massive doses of 
radioactive material into the atmosphere. Dry storage can 
reduce this risk dramatically.
    Third, there needs to be a top to bottom revision and 
upgrading of the emergency planning process with active Federal 
oversight. Planning for evacuation, especially in densely 
populated areas, is extremely difficult under any circumstance. 
The grossly inadequate emergency evacuation planning process 
around the Indian Point facility is a case study. The planning 
zone of 10 miles is entirely too limited and is inconsistent 
with potential expectations of damage, contamination and human 
behavior under crisis conditions.
    In fact, spontaneous, uncontrolled evacuations in a time of 
crisis, well beyond the 10-mile zone, could quickly result in 
chaos and paralysis of egress for people. Permanent relocation 
for evacuees in the event of substantial ground contamination 
would be an extraordinary challenge. Furthermore, children in 
school and day care would need to be reunited with their 
parents. Hospitalized patients, senior citizens, disabled 
persons, prisoners, persons refusing to leave the area, all 
represent some of the vexing real world challenges not met by 
the current evacuation plans.
    Finally, potassium iodide should be acquired and 
distributed on a point of use basis for a minimum of 50 miles 
from all the nuclear power plants.
    There is, of course, much more to talk about. I'm obviously 
available for whatever questions you might have.
    Senator Clinton. Well, I want to thank all of the 
witnesses. I know that other members could not stay, obviously 
the hearing went on longer than anticipated. But I think on 
behalf of every one of our members on this committee, I greatly 
appreciate your expertise, your testimony and the different 
perspectives that you have brought to bear on the issues 
confronting us.
    I think it would be very helpful for us to be able to 
submit questions to you for the record. I also would invite 
perhaps questions from the witnesses for other witnesses or for 
ongoing discussion. Because as one listened to this panel, you 
can see there is a very different perspective that I think is 
legitimately held in good faith. But it is our job to try to 
sort it out, to figure out exactly where we need to take action 
and encourage whatever steps are necessary to maximize the 
security of our nuclear power plants.
    So I thank you very much for your testimony today. I look 
forward to the questions being answered that I know I will be 
submitting to each of you. I wish that you would be, all of 
you, on call for further consultation by members and staff, 
because this is an extremely important issue. I don't think we 
can take anything for granted, no matter what worked in the 
past, I don't think we can take it for granted now and into the 
future.
    We need the extraordinary commitment that each of you 
brings to this issue to help us sort out what we should be 
doing in the future. Again, I thank you and I thank all of the 
audience, who's been very patient. I've seen heads nodding, 
depending on which perspective you agree with. But I think for 
all of us, we need to put aside preexisting attitudes, beliefs, 
experience, and take a new look at this, no matter what 
perspective we came into the hearing with today.
    With that, the committee is adjourned.
    [Whereupon, at 12:33 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow.]

        Statement of Richard A. Meserve, Chairman, U.S. Nuclear 
                         Regulatory Commission

    Mr. Chairman and members of the committee, I am pleased to appear 
before you on behalf of the United States Nuclear Regulatory Commission 
(NRC) to discuss safeguards and security for NRC-licensed commercial 
nuclear power plants as well as certain legislation that has been 
introduced to strengthen security at these facilities. I will discuss 
the current status of actions that NRC has taken in response to the 
terrorist acts that occurred on September 11, and will outline some of 
the work that lies ahead. I believe that the NRC's response to the 
attacks has been appropriate and thoughtful, and that the NRC's current 
programs continue to provide a very high level of security. l also 
believe that certain specific legislative proposals, which I will 
discuss later, would contribute further to the enhancement of nuclear 
plant security and l would urge the Congress to enact this legislation 
before adjourning later this year.
    The Commission recognizes the elevated concern of the American 
public about the potential for terrorist attacks on nuclear facilities 
and the use of radioactive materials for purposes of terrorism. I hope 
that my testimony today will provide a useful perspective for the 
Committee and will correct any erroneous perceptions on this important 
subject.
    For decades before September 11, 2001, nuclear power plants were 
among the best defended and most hardened facilities of the Nation's 
critical infrastructure. In the aftermath of the attacks, security has 
been enhanced even further. On September 11, the NRC immediately 
advised the licensees of nuclear power plants and certain other 
licensees to go to the highest level of security and they promptly did 
so. Our licensees have remained at the highest level of security since 
that time.
    We have maintained a steady flow of information with our licensees 
through over 30 updates to the original threat advisory. In February, 
we issued Orders to each operating power reactor licensee specifying 
actions they must take to continue the high level of security to 
protect the plants, and thereby to protect public health and safety and 
common defense and security.
    The NRC receives a substantial and steady flow of information from 
the intelligence community, law enforcement, and licensees that 
requires prompt evaluation to assess threats to facilities or 
activities regulated by the agency. The NRC routinely communicates with 
other Federal agencies, such as the Office of Homeland Security, the 
Federal Bureau of Investigation, the Federal Emergency Management 
Agency, the Federal Aviation Administration and the Department of 
Defense. The protection of nuclear power plants and other nuclear 
facilities and activities has been a matter on which the NRC has 
received assistance from across the Government.

                              ORGANIZATION

    Within a few weeks of the September 11 terrorist attacks, I, with 
the full support of the Commission, directed the staff to conduct a 
comprehensive re-evaluation of the current safeguards and security 
programs. The review encompasses analysis of the agency's threat 
assessment framework and design basis threat, evaluation of facility 
vulnerabilities, access authorization processes, and emergency 
preparedness and response, and review of NBC's infrastructure, 
programs, and communications.
    In this connection, I specifically directed the staff to review the 
agency's organizational structure, staffing, and training in the 
security and safeguards area. In early April 2002, the Commission 
established a new Office of Nuclear Security and Incident Response in 
order to consolidate NRC security, safeguards, and incident response 
capabilities and resources. The primary responsibilities of this new 
Office include safeguards and security programs and related policy 
development, threat assessment, and incident response operations.

                         ADVISORIES AND ORDERS

    As noted previously, after the events of September 11, 2001, 
the.NRC issued numerous safeguards and threat advisories to our major 
licensees in order to strengthen the licensees' capabilities and 
readiness to respond to a potential attack on their facilities. The 
advisories provide concise and relevant guidance relating to the need 
for a given category of licensee to take specific action to enhance 
security. Some of the specific measures implemented by the licensees in 
response to the advisories included increased patrols, augmented 
security forces and capabilities, additional security posts, 
installation of additional physical barriers, vehicle checks at greater 
stand-off distances, enhanced coordination with law enforcement and 
military authorities, and more restrictive site access controls.
    The advisory process, which was in place prior to September 11, was 
developed in order to ensure rapid communication and response to 
potential security concerns. It proved to be a quick and effective 
means for communicating with licensees. Subsequent inspections and 
audits by the NRC confirmed that licensees appropriately responded to 
the actions specified in the advisories issued after the September 11 
attacks. However, in light of the current threat environment, the 
Commission concluded that the additional actions to strengthen security 
at operating power reactors and other facilities should be embodied in 
an established regulatory framework. Therefore, on February 25, 2002, 
the NRC issued Orders that modified the operating licenses for each of 
the power reactors to require compliance with specified interim 
compensatory measures.
    A number of the Orders' requirements formalize measures specified 
in the advisories issued earlier, and have already been implemented. 
Other requirements provide additional security enhancements that have 
emerged from the on-going comprehensive safeguards and security program 
re-evaluation. Implementation of the requirements must be completed by 
August 31, 2002. A licensee would have to meet a very high threshold to 
receive an extension of that date, and no such extension has been 
granted thus far.\1\
---------------------------------------------------------------------------
    \1\ Licensees were also required to submit a schedule of 
implementation of the Orders' requirements within 20 days of the 
February 25 Order. Requests have been received for extension of that 
deadline, and are considered on a case-by-case basis. Granting an 
extension to the schedule submission does not change the requirement 
for implementation of the February 25 Order by August 31. Nor does 
granting an extension to the schedule submission deadline mean that a 
licensee cannot meet the August 31 implementation deadline. Any 
extension dates granted for schedule submissions have been set so as to 
leave sufficient time to meet the implementation date of August 31.
---------------------------------------------------------------------------
    An Order was also issued on March 25, 2002, to the licensee of the 
one existing uranium conversion facility. And, on May 24, the NRC 
issued Orders for the decommissioning reactor facilities. The NRC is 
also developing Orders or considering other actions that will require 
implementation of interim compensatory measures for other categories of 
licensees.
    The NRC will continue to evaluate whether further changes are 
needed as part of our ongoing comprehensive safeguards and security 
program re-evaluation.

                                 ISSUES

    I would now like to discuss briefly a number of specific issues 
that may be of interest to the Committee. These are: (1) the design 
basis threat used to assess security readiness at nuclear facilities, 
(2) the threat of airborne attack, (3) the adequacy of security 
exercises at nuclear facilities, (4) personnel access authorization and 
related security background checks, and (5) protection of spent nuclear 
fuel. This will be followed by a discussion of proposed legislation.
(1) Design Basis Threat
    Security programs at certain NRC-licensed facilities, including 
nuclear power reactors, are designed to protect against a specified 
level of threat called the Design Basis Threat (DBT). After September 
11, the NRC initiated a re-examination of the basic threat assumptions 
underlying the current civilian nuclear facility security programs, 
including its two established DBTs. The DBTs characterize the adversary 
force against which certain NRC licensees (power reactors, Category I 
fuel cycle facilities, and transportation of Category I special nuclear 
material) must design their physical protection systems and response 
strategies. The NRC continually assesses the threat environment and 
regularly reviews the adequacy of the DBTs in close coordination with 
the national intelligence and law enforcement community. Longer term 
revisions to the DBTs are now needed to reflect changes in the threat 
environment. Commission is currently developing specific guidance to 
the NRC staff for revising the DBTs. Any final decision on the DBTs 
will be considered with appropriate stakeholders and Federal and The 
State agencies. These revisions will lead to changes in the security 
requirements for licensed facilities and activities. The February 25 
Order referred to above includes enhancements to respond to the current 
threat environment.
(2) Airborne Attack
    Following the use of commercial jetliners as missiles on September 
11, many questions have been raised regarding the potential effects on 
public health and safety if an aircraft attack were made on a nuclear 
facility. As we have stated many times, nuclear facilities are among 
the most hardened industrial facilities. But no existing nuclear 
facilities were specifically designed to withstand a deliberate, high-
velocity, direct impact of a large commercial airliner.
    The capability of a plant to cope successfully with an aircraft 
impact will, in the first instance, depend upon the plant's specific 
design features. It should be recognized that nuclear power plants are 
massive structures with thick exterior walls and interior barriers of 
reinforced concrete. The plants are designed to withstand tornadoes, 
hurricanes, fires, floods, and earthquakes. As a result, the structures 
inherently afford a measure of protection against deliberate aircraft 
impacts. In addition, the defense-in-depth philosophy used in nuclear 
facility design means that plants have redundant and separated systems 
in order to ensure safety. That is, active components, such as pumps, 
have backups as part of the basic design philosophy. This provides a 
capability to respond to a variety of events, including aircraft 
attack.
    It is also important to note that nuclear power plants have a 
robust emergency preparedness program that includes biennial, evaluated 
exercises. In the event of a serious problem including a terrorist 
attack around a nuclear power plant, the plans and procedures that have 
been routinely exercised would be activated. This, provides a 
capability to respond to events of all types, including aircraft 
attack.
    In our recent Orders to nuclear power plant licensees, the 
Commission directed licensees to develop specific plans to respond to 
an event that results in damage to large areas of their plants from 
explosions or fire. In addition, mitigative measures required by the 
Orders include assuring the presence of Emergency Plan staffing and 
associated resources needed to respond to such an event. The NRC is 
also continuing a major engineering evaluation relating, to the 
vulnerabilities and potential effects of a large commercial aircraft 
striking a nuclear facility. This effort includes consideration of 
additional mitigative and protective measures.
    Suggestions have been made that anti-aircraft defenses should be 
installed at U.S. nuclear power plant sites. Such a step would present 
very difficult command and control issues, and the use of such weaponry 
could lead to significant collateral damage to plant workers and 
members of the public. Although the decision whether to deploy anti-
aircraft capability must rest with the military, the Commission 
believes that the best approach to dealing with threats from aircraft 
is through strengthening airport and airline security measures.
(3) Security Exercises
    The NRC has conducted force-on-force security exercises, known as 
Operational Safeguards Response Evaluations (OSREs), at nuclear reactor 
sites since 1991, and carried out similar tests before that time. These 
are tough, simulated commando-style raids, designed to identify 
shortcomings in security personnel performance or strategy 
Identification of a weakness during an exercise leads to immediate, 
corrective or compensatory measures. We are not aware of any comparable 
performance testing of security measures for any other commercial 
facilities in the United States.
    Following the September 11 attacks, force-on-force exercises were 
temporarily suspended because, in the heightened threat environment, 
the conduct of exercises would be a significant distraction to security 
forces. In addition, the NRC had diverted its limited security 
inspection resources to staff response centers and to monitor and 
evaluate the licensees' heightened security posture. We recognize, 
however, that force-on-force drills are an important means to assess 
security readiness. The NRC staff is currently preparing options for 
Commission consideration on how to reinstate security exercises. For 
example, in the future we may involve local and State law enforcement 
in the exercises and we may look at beyond-design basis threats and the 
ability of operator actions to mitigate any hypothetical damage caused 
by a beyond-design basis attack.
(4) Personnel Access Authorization
    The NRC's comprehensive security program re-evaluation includes an 
assessment of the personnel access authorization requirements and 
programs at nuclear power facilities. This effort is intended, in part, 
to address potential insider threats.
    Current NRC regulations, which are the toughest in any non-defense 
industry in this country and which were in place prior to September 11, 
generally require an individual seeking unescorted access to a nuclear 
power plant to undergo a background investigation to verify the 
individual's true identity and require the licensee to develop 
information about the person's background. The investigation includes 
review of the individual's employment history, education history, 
credit history, military service, and character and reputation, as well 
as a psychological assessment to evaluate trustworthiness and 
reliability. The background investigation also, includes a criminal 
history check conducted by the FBI.\2\ The requirements related to 
unescorted access are also supplemented by behavioral monitoring once 
on the job, and random drug and alcohol testing as part of a 
comprehensive fitness for duty program. Further, those who enter the 
protected area pass through portal monitors that detect weapons or 
explosives.
---------------------------------------------------------------------------
    \2\ Current NRC regulations allow an individual to obtain temporary 
unescorted access during the conduct of the criminal history check, but 
many of the other requirements for unescorted access must be satisfied 
in such a situation. The Orders issued to commercial nuclear power 
licensees in February required additional restrictions on the use of 
temporary unescorted access authorizations.
---------------------------------------------------------------------------
    We took additional steps after September 11. The NRC, in 
coordination with the FBI, checked NRC employees and licensee personnel 
against the FBI watch list established as part of the investigation of 
the events of September 11. Since that time, we have been working, with 
the Office of Homeland Security to facilitate information sharing among 
Federal agencies to enhance access to relevant information and improve 
the access authorization programs.
    The NRC is also coordinating with the Immigration and 
Naturalization Service (INS) in the effort to validate the employment 
eligibility of employees at nuclear power plants. We seek to ensure 
that only persons authorized to work in the U.S. are employed in 
nuclear power plants. However, there are limitations on the NRC's and 
its licensees' ability to obtain and use information available in INS 
and other Federal data bases for this purpose. For example, current law 
(8 U.S.C. Sec. 1342b) prohibits discrimination on the basis of alienage 
in the context of employment. This section has been interpreted to 
preclude asking non-citizens for more proof of identity than citizens. 
In addition, in the process of dealing with access authorization, the 
Constitutional rights of both citizens and non-citizens must be 
protected.
(5) Spent Nuclear Fuel
    Most of the radioactive material at power reactors is concentrated 
in the spent nuclear fuel that has been removed from the reactors. 
Spent nuclear fuel is stored at reactor sites in spent fuel pools or in 
dry cask storage facilities. Spent fuel pools use water to cool the 
spent fuel and shield personnel from radiation. The pools are robust 
structures constructed of very thick concrete walls with stainless 
steel liners, and are designed to withstand earthquakes. Spent fuel 
casks are also robust, typically constructed of a combination of 
concrete and steel that allow for air cooling of the spent fuel.
    Spent fuel stored at NRC-licensed facilities poses a lesser 
security challenge than an operating reactor because the risk to the 
public health and safety is diminished. NBC's comprehensive safeguards 
and security program re-evaluation includes the consideration of 
potential consequences of terrorist attacks using various explosives or 
other techniques on spent fuel pools and spent nuclear fuel dry casks 
at storage sites. The program also addresses the transportation of 
spent fuel and other significant quantities of radioactive material.
    The Orders issued by the Commision on February 25, 2002, to 
operating reactors, and on May 2, 2002, to decommissioning reactors and 
the General Electric spent fuel storage facility, enhance the security 
measures for spent fuel stored in spent fuel pools. The specific 
security measures are understandably sensitive, but generally include 
requirements for increased patrols, augmented security forces and 
capabilities, additional security posts, vehicle stand-off distances, 
and enhanced coordination with law enforcement and military 
authorities. We will shortly issue a similar Order to independent spent 
fuel storage facilities using dry cask storage.
    I would also like to address security during transportation. Our 
existing regulations currently contain significant safety and security 
requirements for the transport of radioactive material. After the 
September 11, 2001 event, we also issued advisories to increase 
security in transportation of specific types of radioactive material, 
including spent fuel shipments and shipments referred to as Highway 
Route Controlled Quantities of radioactive material. In order to codify 
the advisories, the Commission is currently in the process of issuing 
Orders to licensees shipping specific quantities of radioactive 
material and will be considering, expedited rulemaking in this area as 
well. We will also review transportation requirements as part of our 
comprehensive review of the safeguards and security programs that I 
previously mentioned.

                           LEGISLATIVE NEEDS

    Since the events of September 11, 2001, many Members of Congress 
have asked the NRC how they can help to improve the security at nuclear 
power plants and other facilities. In response, the Commission has 
requested that Congress enact several specific legislative proposals 
that would amend three sections of the Atomic Energy Act. These 
proposals were contained in an omnibus bill the Commission transmitted 
to the Congress in June of last year and in letters I sent to Congress 
this fiscal year. The NRC has been seeking enactment of most of these 
amendments for almost 15 years. Most of these provisions are contained 
in S. 1586, which was introduced by Senators. Inhofe and Smith at the 
end of last October. I should note that all of our proposals have been 
coordinated with the executive branch and enjoy the strong support of 
the Administration.
    One of the proposals would provide Federal authorization for guards 
to carry and use firearms at NRC-regulated facilities designated by the 
Commission, and to protect property of significance to the common 
defense and security located at, or being transported to or from, such 
facilities. The proposal would enhance national security by eliminating 
several weaknesses under the current safeguards and security regime. In 
particular, this amendment could provide some protection for licensee 
guards from State criminal prosecution for actions taken during the 
performance of their official duties. Ameliorating guards' concerns 
regarding State prosecution should make their actions more dependable 
in situations calling for use of their weapons.
    The Atomic Energy Act permits the Department of Energy (DOE) and 
its contractors and subcontractors engaged in the protection of 
property located at nuclear facilities, or being transported to or from 
such facilities, to carry arms, make arrests, and use force as the 
Department deems necessary in the interests of the common defense and 
security. As a result, DOE guards may be shielded from State criminal 
prosecution for actions taken during the performance of their official 
duties. However, this does not apply to guards at NRC-licensed 
facilities. State laws govern the use of weapons by guards at NRC-
licensed facilities, and some States laws do not permit guards to use 
weapons, except to protect against an immediate threat to their own 
lives or the lives of others. In such States, it may not be possible to 
shield the guards at NRC-licensed facilities from State criminal 
prosecution for actions taken during the performance of official 
duties.
    This difference between the protections offered to DOE guards and 
guard's at NRC-licensed facilities exists even where both are 
protecting special nuclear material. Several years ago, Congress 
extended the protections applicable to DOE guards to guards at the 
gaseous diffusion facilities. operated by the United States Enrichment 
Corporation. It would seem logical to extend equivalent protections to 
guards at NRC-licensed or certified facilities designated by the 
Commission.
    In addition, some State laws make it difficult for licensees or 
their security, contractors to use more effective weaponry. To 
alleviate this problem, the Commission has developed an addition to the 
proposed amendment establishing Federal authorization for guards to 
carry and use firearms at NRC-regulated facilities. This additional 
provision--not included in S. 1586--would authorize the guards to carry 
and use, where necessary to the discharge of their official duties, 
such weapons as the Commission may require, pursuant to guidelines 
issued with the concurrence of the Attorney General. A copy of the 
original proposal with additional language--to address this concern is 
attached to my written statement.
    Another provision would make it a Federal crime to bring 
unauthorized weapons and explosives into NRC-licensed facilities. There 
have been a number of reported incidents where persons without 
authorization have brought firearms into protected areas of NRC-
regulated sites. Although the NRC may impose sanctions against the 
licensee for violations of its security regulations, there is no 
Federal law permitting the imposition of criminal sanctions against the 
person responsible for bringing the weapon or other dangerous 
instrument to the site. This amendment would assist NRC licensees in 
their efforts to safeguard licensed nuclear facilities and materials 
that must be protected against radiological sabotage or nuclear theft. 
It would permit the NRC to promulgate regulations prohibiting the 
unauthorized introduction of weapons into NRC-regulated sites. 
Violation of the regulations would constitute a Federal crime, which 
could result in a fine or imprisonment, or both.
    Our final proposal would make Federal prohibitions on sabotage 
applicable to the operation and construction of such NRC-licensed or 
certified facilities as nuclear reactors and enrichment and fuel 
fabrication facilities. This amendment would provide criminal sanctions 
for sabotage or attempted sabotage of such a facility during its 
operation or construction where the action could affect public health 
and safety during the operation of the facility.
    We believe that the modest legislative changes that I have 
described will contribute to enhancing the security of nuclear 
facilities and material. S. 1586 contains provisions that are similar 
to these proposals, except that it does not contain the more recently 
developed provision I have described authorizing guards to carry and 
use, where necessary to the discharge of their official duties, such 
weapons as the Commission may require, pursuant to guidelines issued 
with the concurrence of the Attorney General.
S. 1746
    The Commission opposes S. 1746, which would Federalize the security 
forces at commercial nuclear facilities. There are several fundamental 
difficulties with this legislation.
    First, S. 1746 separates the strategy for the security of nuclear 
facilities from that of all other types of sensitive facilities (e.g., 
chemical plants, refineries, and dams). We believe society's defensive 
resources should be allocated in accordance with relative risk, and 
that the separation of nuclear facilities from all other types of 
sensitive facilities will fragment the overall consideration of risk 
inappropriately. Since resources are not infinite, disproportionate 
protection at one kind of facility may increase the risks at other 
kinds of facilities.
    Second, the requirement that the NRC establish a security force for 
sensitive nuclear facilities addresses a non-existent problem. S. 1746 
would require the hiring of thousands of new Federal guards to displace 
the private security forces now used by licensees. The private guard 
forces that exist today at such facilities are qualified, trained, and 
tightly regulated. There is no need, unlike the situation of airports, 
to Federalize security at such plants. There have been no failures in 
nuclear plant security that would warrant the creation of a new Federal 
security force for NRC-licensed facilities.
    Third, S. 1746 would bring about a fundamental shift in the 
responsibility and mission of the NRC. The demands of the legislation 
would refocus the NRC principally as an agency to ensure nuclear 
security, which could have the unintended consequence of detracting 
from the Commission's mission to protect the public health and safety 
from radiological hazards.
    Fourth, NRC's role as an independent regulator would be compromised 
by the bill's requirement that the NRC design security plans for all 
sensitive nuclear facilities, implement the plans with NRC employees, 
and then conduct safeguards evaluations of the efficacy of the 
implementation of those plans. In the security area, the legislation 
would force the, NRC to regulate its own activities.
    Fifth, the bill would create command and control difficulties 
because it would establish two classes of, employees at commercial 
nuclear sites, both of which would be responsible for safety in the 
event of a terrorist attack--licensee personnel responsible to the 
licensee for safe operations and Federal employees responsible to the 
NRC for security. In an emergency situation, these separate lines of 
authority could, in fact, lead to a diminution of the capacity to 
ensure safety.
    Sixth, making guards at nuclear facilities employees of the 
Commission (as S. 1746 would do) would require significant additional 
resources that could be used more effectively in other efforts to 
enhance the security of the nation's infrastructure. Moreover, given 
the enhancement in the security threat against which the guard force 
would be required to defend in accordance with the proposed 
legislation, the NRC would be required to hire more than 5,000 new 
Federal workers, which is nearly twice the number of staff now employed 
by the agency.
    These fundamental difficulties in S. 1746 argue against its 
adoption, but there are also other concerns raised by the bill, 
including the following:
    <bullet> S. 1746 does not alleviate concerns, arising from State 
law, similar to those described earlier in my discussion of differences 
between the situation of guards at DOE facilities and guards at NRC-
licensed facilities.
    <bullet> S. 1746 would create a ``Nuclear Security Fund,'' to be 
used to pay costs of salaries, training, and other expenses of the 
nuclear security force established by the bill as well as costs of 
developing and implementing security plans. To ensure that adequate 
amounts are available for these purposes, the Commission would be 
directed to assess licensees a fee ``not to exceed 1 mill per kilowatt-
hour of electricity generated'' by ``sensitive nuclear facilities''. 
This does not take into account that a significant portion of those 
facilities (for example, decommissioned nuclear power plants) do not 
produce electricity.
    <bullet> S. 1746 would create a new NRC Office (the Operations 
Safeguards and Response Unit) within the NRC. This aspect of the 
legislation has already been accomplished and thus the statutory 
provision is unnecessary. In early April of this year the Commission 
established a centralized security organization within the NRC--the 
Office of Nuclear Security and Incident Response. This office combines 
security responsibilities previously exercised by the Office of Nuclear 
Material Safety and Safeguards and the Office of Nuclear Reactor 
Regulation.
    <bullet> S. 1746 provides a new focus on Federal-State 
relationships. For example, until now States have borne the primary 
responsibility for emergency response. However, the bill would require 
the Commission to certify that stockpiles of potassium iodide (KI) 
tablets have been established within a 50-mile radius of sensitive 
nuclear facilities, and to develop plans for prompt distribution of the 
stockpiles in the event of a release of radionuclides. Thus, S. 1746 
would require intrusion by the NRC into the States' responsibilities in 
this area. In addition, Congress recently addressed the subject of KI 
distribution in the Public Health Security and Bioterrorism 
Preparedness and Response Act of 2002, which now awaits Presidential 
signature. No further legislation regarding Kl is warranted.
    In light of the above considerations, the Commission believes that 
the current system, with coordination of security and safety through, 
organizations subject to NRC regulatory scrutiny, is clearly preferable 
to that proposed by S. 1746.

                               CONCLUSION

    In closing, the events of September 11 have had, and continue to 
have, a significant effect on both the NRC and our licensees. 
Nonetheless, our licensees' primary responsibility of ensuring safe 
operation of their facilities, and the NBC's fundamental mission of 
protecting public health and safety, have not changed. Licensees' 
physical protection programs in place prior to September 11 continue to 
be effective in protecting the public, and have been appropriately 
enhanced since September 11. Moreover, the NRC continues to work with a 
variety of agencies, including the Office of Homeland Security, in an 
effort to develop an integrated national strategy to deal with critical 
infrastructure. We continue to believe that nuclear security would be 
enhanced by enactment of the legislation proposed by the NRC. We look 
forward to working with the Congress both on the enactment of the NRC 
legislative proposals I have discussed and on continuing to ensure 
adequate protection of the public health and safety and the common 
defense and security.
    I appreciate being here today to discuss the NRC's programs and am 
prepared to answer your questions.

                                 ______
                                 
                               Attachment

          SECTION. CARRYING OF FIREARMS BY LICENSEE EMPLOYEES

    Section 161 k. of the Atomic Energy Act of 1954 (42 U.S.C. 2201(k)) 
is amended to read as follows:
    ``Sec. 161. GENERAL PROVISIONS.
    ``In the performance of its functions the Commission is authorized 
to--
    ``k. (1) authorize such of, its members, officers, and employees as 
it deems necessary in the interest of the common defense and security 
to carry firearms while in the discharge of their official duties. The 
Commission may also authorize--
          ``(A) such of those employees of its contractors and 
        subcontractors (at any tier) engaged in the protection of 
        property under the jurisdiction of the United States located at 
        facilities owned by or contracted to the United States or being 
        transported to or from such facilities as it deems necessary in 
        the interests of the common defense and security; and
          ``(B) such of those employees of persons licensed or 
        certified by the Commission (including employees of contractors 
        of licensees or certificate holders) engaged in the protection 
        of (i) facilities owned or operated by a Commission licensee or 
        certificate holder that are designated by the Commission, or 
        (ii) property of significance to the common defense and 
        security located at facilities owned or operated by a 
        Commission licensee or certificate holder or being transported 
        to or from such facilities;
to carry firearms while in the discharge of their official duties. A 
person authorized to carry firearms under this subsection may, while in 
the performance of, and in connection with, official duties, make 
arrests without warrant for any offense against the United States 
committed in that person's presence or for any felony cognizable under 
the laws of the United States if that person has reasonable grounds to 
believe that the individual to be arrested has committed or is 
committing such felony. An employee of a contractor or subcontractor or 
of a Commission licensee or certificate holder (or a contractor of a 
licensee or certificate holder) authorized to carry firearms under this 
subsection may make such arrests only when the individual to be 
arrested is within, or in direct flight from, the area of such offense. 
A person granted authority to make arrests by this subsection may 
exercise that authority only in the enforcement of (A) laws regarding 
the property of the United States in the custody of the Department of 
Energy, the Nuclear Regulatory Commission, or a contractor of the 
Department of Energy or Nuclear Regulatory Commission or a licensee or 
certificate holder of the Commission, or (B) laws applicable to 
facilities owned or operated by a Commission licensee or certificate 
holder that are designated by the Commission pursuant to this 
subsection, and property of significance to the common defense and 
security that is in the custody of a licensee or certificate holder or 
a contractor of a licensee or certificate holder of the Commission, or 
(C) any provision of this chapter that may subject an offender to a 
fine, imprisonment, or both. The arrest authority conferred by this 
subsection is in addition to any arrest authority under other laws; The 
Secretary and the Commission, with the approval of the Attorney 
General, shall issue guidelines to implement this subsection;
    ``(2) authorize employees of persons licensed or certified by the 
Nuclear Regulatory Commission (including employees of contractors of 
licensees or certificate holders) who are trained and qualified as 
guards and whose duty is the protection of facilities designated under 
paragraph (1)(B)(i) or property described under paragraph (1)(B)(ii) to 
carry and use, where necessary to the discharge of their official 
duties, such weapons, devices, or ammunition as the Commission may 
require. Such employees shall have the power to carry and use such 
weapons while in the discharge of their official duties, regardless 
whether such employees have been designated as Federal, State, or;local 
law enforcement officers. Such employees shall have such law 
enforcement powers as are provided to them under this section and 
section 161 i. of this Act. The Nuclear Regulatory Commission shall 
issue guidelines, with the approval of the Attorney General, to 
implement this paragraph. The authority conferred by this paragraph 
with respect to employees of persons licensed or certified; by the 
Nuclear Regulatory Commission (including employees of contractors of 
licensees or certificate holders) who are trained and qualified as 
guards and whose duty is the protection of facilities designated under 
paragraph (1)(B)(i) or property described under paragraph (1)(B)(ii) 
shall not be implemented until such guidelines have become effective;''

                                 ______
                                 
         Responses by Chairman Meserve to Additional Questions 
                          from Senator Clinton

    Question 1. In your December 3rd letter to the Committee, you noted 
that NRC had a two-phase project to understand plant vulnerabilities to 
attacks by either commercial or general aviation aircraft, which you 
again mentioned today. The first phase was to be completed in January 
of 2002 and the second in June of this year. Can you please update the 
Committee on the progress of this project? Specifically, what have your 
studies determined about the ability of containment vessels to 
withstand assault by a modern aircraft?
    Response. The first phase of the project was completed in January 
2002. Simplified analyses were performed to estimate the response of 
key buildings and structures. Insights from the first phase were used 
to develop the interim compensatory measures. Specific insights from 
the first phase, including perspectives on the ability of containment 
to withstand various loads, have been classified as national security 
information.
    The staff used the insights from the first phase to develop plans 
for the detailed analyses in the second phase. Detailed models of 
representative structures and aircraft have been developed and 
calculations were performed to demonstrate the ability to perform the 
analyses. Aviation fuel combustion and fire propagation were also 
included in these analyses. These models are now being used to refine 
the insights from the first phase. The results of these analyses are 
also classified. I should also note that we are in contact with certain 
foreign governments, who are conducting similar classified 
vulnerability assessments, to peer review our results and to gain 
additional insights from their work.
    In my December 3, 2001 letter, I indicated that the need to perform 
additional work may be identified as the work progressed. Based on the 
insights gained to date, additional research and analyses are being 
planned to further refine vulnerability and consequence assessments, 
and to support evaluation of the effectiveness of compensatory 
measures. This work is currently planned through June 2003. NRC is also 
developing an experimental program to quantify more definitively the 
accuracy of the analysis methods in predicting (1) the performance of 
reinforced concrete structures under extreme loads, (2) dispersion of 
aviation fuel on impact, and (3) fire propagation. The experimental 
program is currently expected to continue through 2005.

    Question 2. NRC has not yet issued a revised Design Basis Threat, 
but has required that the nuclear industry implement interim security 
measures. As I understand it, in the normal course of events, security 
measures are based on a defined DBT. A DBT is defined first, and 
security plans are developed to meet that Threat. How were the interim 
security measures determined if a new DBT has not been defined? How can 
we be assured the interim measures are adequate if they are not based 
on an agreed DBT?
    Response. The design basis threat (DBT) for radiological sabotage 
was established in the 1970s and modified at various times since then 
so as to enable licensees to develop security plans to meet that 
threat. In the elevated threat environment that has existed since 
September 11, the Commission decided that immediate upgrades in 
security were necessary. Rather than change the DBT, the Commission 
issued advisories and then issued Orders to establish a variety of 
prescriptive requirements to enhance security. These enhancements 
include increased numbers of guards, increased weaponry, tightened 
access controls, increased standoff distances, as well as other 
changes. Because these prescriptive measures were highly specific, they 
were unambiguous and could be put in place quickly. The introduction of 
changes by way of modification to the DBT, by contrast, would have 
delayed implementation because of the need for the licensees to analyze 
the DBT to determine the additional measures that were necessary in 
order to satisfy it. In light of the comprehensive nature of the 
actions required by the Commission, the NRC is satisfied that an 
appropriate security capability is in place.
    The NRC is undertaking a revision of its security requirements and 
the DBT at this time. In fact, the staff expects to submit a first 
draft of the revised DBT to the Commission within the next few months. 
Changes to the DBT will be coordinated with the other agencies of the 
Government.

    Question 3. On the other hand, if the interim measures are in fact 
based on an assumed threat, then the NRC must already have a good idea 
of what a revised DBT should be. Why hasn't NRC issued the revised DBT 
yet?
    Response. No agency of Government has revised its DBT as yet as a 
result of September 11. The Commission has put in place a process that 
will lead to a staff recommendation for a revised DBT in the next few 
months. The NRC is coordinating with appropriate Federal agencies as it 
develops a revised DBT to ensure full consideration is given to 
information from the intelligence community and others.

    Question 4. In your recent letter to me on the damage that small 
planes could cause to a reactor, you noted that you do not expect a 
small plane attack to result in a ``serious threat to public health and 
safety.'' Please describe what kind of threat to public health and 
safety such an attack might pose, even if not deemed serious by your 
standards. Could such an attack disable several safety-related systems 
at once? Could such an attack conceivably result in ``total station 
blackout'', where all power to the reactor is cut off?
    Response. A small plane is extremely unlikely to penetrate nuclear 
power plant structures in a way that would disable several safety-
related systems at once. Therefore, the impact of a small plane into a 
site structure is unlikely to cause either core damage or containment 
failure, both of which are required for a significant offsite release. 
Such an impact thus does not post a serious threat to public health and 
safety.
    Such an attack could conceivably cause the loss of offsite power. 
The Commission's regulations require that each plant must be able to 
recover from a station blackout. Nuclear power plants are designed with 
redundant emergency electrical power sources, in particular emergency 
diesel generators, which provide electrical power to safety system 
equipment in the case off-site power is not available.

    Question 5. Does the NRC intend to continue to run the OSRE force-
on-force exercises? When do you think these exercises will resume? Who 
serves as the mock terrorists in these exercises? I understand that up 
until recently, these exercises were only run about once every eight 
years. How often will these exercises be performed at each facility in 
the future?
    Response. Following the September 11 attacks, NRC-evaluated force-
on-force exercises were temporarily suspended because, in the 
heightened threat environment, the conduct of exercises could create 
vulnerabilities and would be a significant distraction to security 
forces. Moreover, the NRC had diverted its security inspection 
resources to staff response centers and to monitor and evaluate the 
licensees' heightened security posture. We recognize that force-on-
force drills are an important means to assess security readiness and 
the NRC intends to re-initiate these drills. We are doing so by 
initially exercising the table top component of the exercises and will 
then expand the exercises to include a force-on-force component. Our 
goal is to evaluate an integrated security exercise at each site every 
three years. Licensees conduct more frequent exercises as part of their 
training programs.
    Throughout the OSRE program, the licensees have provided the 
personnel to make up the mock terrorist team for the exercises, subject 
to supervision by the NRC's experts. Some licensees trade teams of mock 
adversaries, which provides teams with the requisite expertise, but 
without the day-to-day knowledge of each site. This provides a more 
realistic simulation of the presumed expertise of the potential 
terrorists.

    Question 6. In your December 17 response to the Committee, the 
Commission indicated that the performance of more frequent periodic 
drills and exercises ``could enhance our licensees' capabilities to 
protect against the design basis threat of radiological sabotage.'' 
Have you budgeted for increased exercises in the future?
    Response. Yes, the NRC is budgeting for more frequent exercises and 
more oversight of the licensees' security programs in general.

    Question 7. Is the NRC looking into how spent fuel can be better 
secured through dry cask storage?
    Response. Spent fuel pools are robust structures constructed of 
very thick concrete walls with stainless steel liners, and are designed 
to withstand earthquakes. Spent fuel casks are also robust, typically 
constructed of a combination of concrete and steel that allow for air 
cooling of the spent fuel. Both pools and casks can be used to store 
spent fuel safely and securely in accordance with NRC requirements.
    The comprehensive safeguards and security program re-evaluation 
being conducted by the NRC includes the consideration of potential 
consequences of terrorist attacks using various explosives or other 
techniques on spent fuel pools and spent nuclear fuel dry casks at 
storage sites. The Commission continues to evaluate the need for 
additional interim compensatory measures.

    Question 8. When was the Design Basis Threat last revised?
    Response. The DBT was last revised in 1994 to include a vehicle 
threat. This change to the DBT was reflected in a revision to 10 CFR 
73.55 and required licensees to provide measures for protection against 
a vehicle being used as a means of transporting personnel or explosives 
to the proximity of vital areas. Certain of the guidance relating to 
the implementation of the DBT has been subject to subsequent revision.

    Question 9. Is it true that the current DBT does not include a 
waterborne component? Does it include an airborne component?
    Response. Title 10 of the Code of Federal Regulations, Section 
73.1(a) defines the design basis threat in general terms. Specific 
details of the DBT are considered sensitive Safeguards Information and 
cannot be included as part of the public record. We would be pleased to 
respond to the question in a different forum.

                                 ______
                                 
         Responses by Chairman Meserve to Additional Questions 
                         from Senator Voinovich

    Question 1. During the hearing, there seemed to be some confusion 
about the NRC's and your concerns regarding the federalization of a 
nuclear plant guard force. Can you please address this confusion?
    Response. The Commission opposes Senate bill S. 1746, which would 
federalize the security forces at commercial nuclear facilities. All 
NRC commissioners have given the matter careful consideration, and 
unanimously oppose federalization. The Commission's concerns are 
described in detail in Chairman Meserve's written testimony submitted 
for the June 5, 2002 hearing.

    Question 2. Could you please go into greater detail about the 
communication enhancements that have occurred following September 11th? 
Specifically, between the various federal agencies and NRC, the 
agencies and plants, and the plants and NRC.
    Response. The NRC has maintained steady communication with the 
intelligence community throughout the years. However, since September 
11, we have increased this communication to stay abreast of potential 
changes in the threat environment.
    Following the terrorist attacks of September 11, the NRC issued 
over 30 advisories to its licensees, focusing on the threat to the 
nuclear industry and providing guidance as to measures that should be 
considered by licensees to enhance the security at their facilities. 
Following these advisories, Orders have been issued to certain classes 
of licensees, including the licensees for power reactors, 
decommissioning power reactors, a uranium conversion facility, gaseous 
diffusion plants, and Category I fuel facilities, requiring the 
implementation of interim compensatory measures designed to protect 
against an adversary force in excess of the design basis threat. We are 
preparing Orders for independent spent fuel storage installations, 
Category III fuel facilities, and licensees who ship or receive large 
quantities of radioactive material. We are also evaluating the need to 
issue Orders to certain other licensees.
    The NRC has held various workshops with members of industry to 
discuss security at licensed facilities, including the means of testing 
the security programs that have been enhanced. Licensees have regularly 
provided information and reports to the NRC summarizing their security 
enhancements, the level of commitment of resources from the State and 
local agencies, and the weapons assigned to their security force. 
Licensees also regularly report suspicious activity, including cars and 
pedestrians approaching the facility, fly-overs by aircraft, and boats 
approaching by waterway.
    The NRC has participated in many of the Office of Homeland 
Security's working groups and workshops, conferences, and meetings 
regarding the status of various initiatives, such as the Homeland 
Security Advisory System. The agency's participation in these 
conferences and meetings has been very useful and the NRC will continue 
to support them.
    For several weeks following September 11, an NRC employee was 
assigned to the FBI's Strategic Information Operations Center (SIOC). 
The NRC has maintained regular communications with the Federal Aviation 
Administration, the Coast Guard, the Pentagon (particularly NORAD), and 
other Federal agencies to provide a forum for better information 
exchange on security issues.
    The NRC is in the process of deploying Secure Telecommunications 
Units (STU) and Secure Terminal Equipment (STE) at the offices of our 
Resident Inspectors at each nuclear power plant. This will allow the 
NRC to communicate sensitive and classified information to and from 
each site directly.
    The NRC continues to maintain a liaison with the Office of Homeland 
Security on matters relating to threats. In addition, the NRC continues 
to support national efforts in Continuity of Government (COG) and 
Continuity of Operations (COOP) programs.

    Question 3. In regards to the security forces at the nuclear 
facilities, the NRC has repeatedly asked for over 15 years that they be 
allowed to carry arms, use force, and make arrests. Can you please 
explain the current situation at facilities across our nation and how 
the lack of this authority jeopardizes our national security? For 
example, what do these forces have the ability to do today and what can 
they not do?
    Response. The security forces at the nuclear facilities are armed 
with sidearms for routine duties and tactical response weapons for 
responding to safeguards contingencies. The two principal changes that 
the Commission seeks is Federal authority to use deadly force and to 
carry weapons comparable to those used at Department of Energy 
facilities.
    One provision would authorize guards at NRC-regulated facilities to 
carry and use firearms to protect property of significance to the 
common defense and security. This provision is aimed at giving guards 
some protection from State criminal prosecution for actions taken 
during the performance of their official duties. Another provision 
would allow the Commission, in consultation with the Attorney General, 
to confer upon guards at NRC-designated facilities the authority to 
possess or use weapons that are comparable to those available to the 
Department of Energy guard forces. Some State laws currently preclude 
private guard forces at NRC-regulated facilities from utilizing a wide 
range of weapons. These provisions would allow guard forces to respond 
with comparable weapons in the event of an assault on a nuclear site by 
a sophisticated, well armed adversary group.

    Question 4. What kind of crime is it today to bring unauthorized 
weapons and explosives into an NRC-licensed facility? Also, please 
explain NRC's requested sabotage provisions and the expected effects.
    Response. At present, only individual State laws prohibit bringing 
weapons and explosives into an NRC-licensed facility. The NRC has 
requested legislation that would make it a Federal crime to bring 
unauthorized weapons and explosives into NRC-licensed facilities and to 
create Federal prohibitions against sabotage applicable to both 
operation and construction of nuclear facilities. The NRC has been 
seeking legislative authority for most of these changes for almost 
fifteen years.

    Question 5. Could you please speak to the claim that force-on-force 
tests by the NRC since 1991 have been below NRC's minimum expectations 
nearly half of the time?
    Response. The force-on-force drills that are conducted during an 
Operational Safeguards Response Evaluation (OSRE) are limited scope 
drills designed to test the licensee's ability to protect the plant 
against a violent external assault by a mock adversary force having the 
characteristics of the design basis threat. Typically, four drills were 
conducted at each site and results were documented.
    The attacking force is credited with detailed knowledge of the 
plant's lay-out, vulnerabilities and security force defense plans, 
acquired through table top exercises carried out before the force-on-
force drills. The overall goal of the OSRE is to improve the efficacy 
of facility security by immediate identification and correction of 
weaknesses.
    In 37 of 81 OSREs conducted between August 1991 and August 2001, 
the NRC identified weaknesses.\1\ In other words, the licensee did not 
get a perfect score. For those plants at which a weakness was found, 
the attacking force was typically able in one of the four drills to 
reach a target set and simulate destruction of that equipment. In 
general, these weaknesses occurred due to deficiencies in the 
licensee's contingency response plan, in training, or in executing the 
plan. No one issue dominates the weaknesses found.
---------------------------------------------------------------------------
    \1\ For the 15 OSREs conducted between April 2000 and August 2001, 
a total of 59 exercises were conducted. Weaknesses were identified in 9 
of 59 exercises or 15 percent of the time. Eighty-five percent of the 
time the attacking force was defeated.
---------------------------------------------------------------------------
    It is agency policy for NRC licensees to address identified 
weaknesses immediately through the implementation of compensatory 
measures and, where appropriate, permanent corrective actions. The NRC 
believes that the program has served an important function by 
contributing to the identification of areas for improvement in the 
licensees' security programs. The tests are considered challenging 
because they are designed to exploit potential vulnerabilities revealed 
in associated table top drills. They do not necessarily reflect the 
likelihood of success by a less informed attacking force.

    Question 6. In his testimony, Dr. Irwin Redlener alleges that 
``Immediate civilian fatalities [from an attack on a nuclear power 
plant] can range from a hundred or so to five thousand or more 
depending on the extent of damage to the reactor, its support systems 
and spent fuel containment systems. Excess cancers from radiation 
exposures can range into the tens of thousands.'' Does NRC agree with 
that statement?
    Response. No. We believe that Dr. Redlener's consequence estimates 
of immediate civilian fatalities and excess cancers do not consider the 
likely range of consequences from an attack on a nuclear power plant.
    The NRC has performed a large number of analyses of the risks and 
consequences from severe reactor accidents. From these studies, we 
conclude that the risks and consequences are generally dominated by 
events involving a sustained loss of cooling. Events involving a 
sustained loss of cooling would proceed, in terms of fuel damage 
progression, in much the same manner regardless of whether the 
initiator was an accident or an intentional terrorist act. Possible 
differences between core damage accidents initiated by terrorist 
attacks and those initiated by other accidental means are being 
assessed.
    From our past severe accident studies, we conclude that only events 
involving both rapid core melt and early failure of the enclosing 
containment building could lead to immediate public fatalities. It is 
unlikely that terrorist attacks will result in rapid core melt or early 
containment failure because of the reactor's diverse and redundant 
safety features and robust containment. Thus, the expected number of 
prompt fatalities among the public is zero. In the unlikely event that 
rapid core melt and early containment failure were to occur, 
preliminary analyses indicate only a few immediate public fatalities, 
if any, at a representative site. The number of immediate fatalities 
near the plant is expected to be small, because of the preplanned 
emergency response actions for this population and the high threshold 
dose for immediate fatalities. In this connection, it should be noted 
that the number of prompt fatalities from the effects of radiation of 
the Chernobyl accident, including plant workers and firemen, was about 
30.
    Public fatalities would not be expected in an attack on a spent 
fuel pool unless the pool were to drain rapidly with no cooling 
measures available for an extended period of time. Rapid draining of 
the pool as a result of a terrorist attack is highly unlikely because 
of the robustness of the spent fuel pool and its large inventory of 
water. The much lower decay heat of the spent fuel in the pool would 
permit emergency cooling of the fuel using readily available measures 
that could be accomplished without significant exposure of workers to 
radiation and would also provide additional time to evacuate the area 
near the plant to prevent immediate fatalities in the event the pool 
were to drain rapidly. Also, in comparison to an operating reactor, the 
spent fuel in the pool has a lower inventory of radioactive isotopes 
that contribute to early health effects. All of these factors make it 
unlikely that a terrorist attack on a spent fuel pool would result in 
any immediate public fatalities.
    Similarly, because it is unlikely that a terrorist attack would 
result in rapid core melt and early containment failure and failure of 
preplanned emergency response actions, we believe that the number of 
additional latent cancers, if any, resulting from a terrorist attack 
would likely not be detectable as an increase in the normal background 
cancer rate. Estimates of latent (long term) cancer fatalities are 
typically based on the assumption that increasing levels of exposure 
result in a proportional increase in the risk of cancer, even at very 
low radiation doses. This assumption, which is referred to as the 
linear-nonthreshold (LNT) hypothesis, may be conservative, but it is 
customarily used for purposes of regulatory decision making. The high 
normal background cancer rate makes refinement of the models that 
quantify the increase in cancer due to low levels of exposure 
difficult.
    The LNT hypothesis can predict large numbers of latent cancer 
facilities when very small exposures are received by a very large 
number of people. To put this in perspective, scheduled domestic 
airline travel totals about 500 billion passenger miles per year. 
According to the LNT hypothesis, the radiation exposure associated with 
the airline travel would result in thousands of fatal cancers in the 
following decades.
    In summary, we believe that Dr. Redlener's consequence estimates 
overstate the consequences from an attack on a nuclear power plant. 
Estimated consequences are very dependent upon a number of parameters 
including timeliness of evacuations, weather conditions and site 
specific characteristics. As indicated above, more realistic 
assumptions result in significantly smaller consequences than those 
suggested by Dr. Redlener.

    Question 7. In his testimony, Dr. Irwin Redlener alleges that 
``Studies . . . have concluded that thousands of square miles could be 
contaminated and uninhabitable for years or decades under a variety of 
highly plausible attack scenarios.'' Does NRC agree with that 
statement?
    Response. No. The only reactor events that could lead to a release 
of radioactivity that could potentially contaminate the land to levels 
that would make it uninhabitable involve both core melt and containment 
failure. However, as discussed in the response to the Question 7, a 
terrorist attack is unlikely to result in rapid core melt and early 
containment failure. More slowly evolving scenarios provide additional 
time for local authorities and reactor operators to intervene to 
prevent a release. Attacks on a spent fuel pool are less likely to lead 
to such a release because even if an attack could somehow drain the 
water from the spent fuel pool, the lower decay heat of the spent fuel 
in the pool would provide additional time for intervention to prevent a 
release.

    Question 8. S. 1746 would provide for mandatory stockpiling of 
potassium iodide tablets for use by populations within a 50-mile radius 
of nuclear power plants, as compared to the current NRC program for 
voluntary stockpiling within 10 miles and the provision for voluntary 
stockpiling up to 20 miles included in the ``Public Health Security and 
Bioterrorism Preparedness Response Act of 2002.'' What are the 
Commission's views on the need to stockpile potassium iodide for 
populations out to 50 miles from a nuclear power plant?
    Response. The Commission believes that distribution of potassium 
iodide (KI) within the 10-mile emergency planning zone (EPZ) is a 
reasonable and prudent measure for specific accident scenarios under 
conditions that involve a significant release of radioactive iodides. 
We do not agree that there is a need to stockpile KI for populations 
beyond the 10-mile EPZ.
    The objective of emergency response is to minimize the dose 
received by the public from a spectrum of accidents that could produce 
doses in excess of the Environmental Protection Agency (EPA) Protective 
Action Guides (PAGs). PAGs are radiation doses that warrant the 
implementation of protective actions for the public.
    There are two EPZs around nuclear power plants. These are the 10-
mile plume exposure EPZ and the 50-mile ingestion pathway EPZ. There 
are PAGs established for the 10-mile plume exposure EPZ as well as for 
the 50-mile ingestion pathway EPZ. Separate PAGs are established for 
each EPZ because the health risks to the public are different. The PAGs 
for the 10-mile EPZ are established to avoid early health effects. The 
protective actions include evacuation and sheltering, with 
consideration to be given of KI distribution. The PAGs for the 50-mile 
EPZ are established to reduce the risk of long-term or latent health 
effects. The protective actions include interdiction of contaminated 
food, relocation of a population out of a contaminated area, placing 
farm animals on stored feed, and access control to contaminated areas.
    The reason for the different approach is because only the 
population close (within the 10-mile EPZ) to the nuclear power plant is 
at meaningful risk of exposure to radiation and radioactive materials 
from exposure to the plume. Evacuation is the most effective protective 
measure in the event of a radiological emergency because it protects 
the whole body (including the thyroid gland and other organs) from all 
radionuclides and all exposure pathways. However, in situations when 
evacuation is not feasible, in-place sheltering is substituted as an 
effective protective action. In addition, administering potassium 
iodide is a reasonable, prudent, and inexpensive supplement to 
evacuation and sheltering for specific local conditions. When the 
population is evacuated out of the plume and potentially contaminated 
foodstuffs are embargoed, the risk from further radioactive iodine 
exposure to the thyroid gland is eliminated.
    Beyond the 10-mile EPZ, the primary radiation exposure route is the 
ingestion of radionuclides (including radioactive iodides) from water 
or contaminated foodstuff (including milk). Therefore, the primary 
protective action strategy beyond the 10-mile EPZ is eliminating 
consumption of contaminated food and water, as well as access controls 
and decontamination. While KI is a component of the protective strategy 
within the plume exposure pathway EPZ during the plume phase of the 
event, restricting consumption of contaminated foodstuff up to 50 miles 
from the plant in the direction of the release, as needed, is part of 
the overall protective strategy for all radionuclides. If ingestion is 
prevented, there is no benefit to KI administration. Moreover, the risk 
arises from ingestion of contaminated food or water over a long time. 
It is inappropriate to use KI to deal with chronic exposure.

    Question 9. S. 1746 would provide for planning of evacuation of 
populations from within a 50-mile radius surrounding nuclear power 
plants in the event of an emergency, as compared to the current Federal 
emergency program that includes planning for evacuation out to 10 miles 
from nuclear power plants. What are the Commission's views on the need 
to plan for evacuation out to 50 miles from a nuclear power plant?
    Response. The Commission does not support a requirement for the 
planning of evacuation of the population out to a 50-mile radius from a 
nuclear power plant. The Commission requires that two emergency 
planning zones (EPZs) be established around each nuclear power plant; 
an EPZ of about 10 miles in radius for planning to protect the public 
from airborne exposure (the plume exposure pathway) and an EPZ of about 
50 miles in radius for planning for actions to prevent radioactive 
material from entering the food chain (the ingestion pathway). The size 
of the EPZs represents a judgment as to the extent of detailed planning 
that must be performed to ensure an adequate response based on the 
consideration of the probabilities and consequences of a spectrum of 
accidents.
    For the 10-mile plume exposure EPZ, shelter, evacuation and 
prophylactic use of KI would be the likely principal immediate 
protective actions recommended to the general public. For the 50-mile 
ingestion pathway EPZ the planning effort involves the identification 
of major exposure pathways from contaminated food and water and the 
associated control points and mechanisms. The ingestion pathway 
exposures in general would represent a longer term problem, although 
some early protective actions to minimize subsequent contamination of 
milk or other supplies should be considered.
    The Commission evaluated several factors in establishing the size 
of the EPZs. These included risk, probability, cost effectiveness and 
the accident consequence spectrum. The Commission chose to base the 
size of the EPZs on the probability of a spectrum of accidents and the 
corresponding consequences. The Commission requires that emergency 
response plans be useful for responding to any accident that would 
produce offsite doses in excess of the EPA's Protective Action Guides 
(PAGs). These accidents include the more severe design basis accidents. 
After reviewing the potential consequences of these types of accidents, 
the Commission determined that emergency plans should be based upon a 
generic distance within which predetermined actions would minimize the 
dose received by the public. Based on the source term resulting from 
this spectrum of accidents and the applicable PAGs, a radius of about 
10 miles was selected for the plume exposure pathway and a radius of 
about 50 miles was selected for the ingestion exposure pathway. 
Although the radius of the EPZ implies a circular area, the actual 
shape would depend upon the characteristics of a particular site. The 
circular or other defined shape is assumed for planning purposes, 
whereas necessary response would likely involve only a portion of the 
total area because of meteorological conditions at the time of the 
accident. For example, there is no danger of plume exposure upwind of 
the site even within the 10-mile EPZ. Thus, in a particular emergency, 
protective actions would most likely be restricted to a small part of 
the planning zones.
    The need for evacuation beyond a few miles from the plant is 
extremely unlikely. If protective actions were needed beyond 10 miles, 
the action required would most likely be sheltering while the plume 
passes and then evacuation of relatively small areas based on the 
amount of deposition of radioactive materials on the ground from the 
passing plume. The risk is highly concentrated near the nuclear plant. 
Although there is no line at 10 miles beyond which radiation cannot 
pass, the hazard from an accident tends to decrease as one moves 
further from the plant. The Commission has concluded that beyond a 
distance of 10 miles the hazard is small enough that specific detailed 
planning for evacuation is not necessary.

    Question 10. S. 1746 would provide for emergency planning exercises 
out to 50 miles every three years. What is the current Federal and 
licensee program for conducting emergency planning exercises and drills 
at and around nuclear power plants, i.e., onsite and at 10 miles and 50 
miles?
    Response. Emergency planning regulations currently require 
emergency planning exercises to be conducted onsite for the 10-mile 
plume exposure pathway EPZ every two years, and for the 50-mile 
ingestion pathway EPZ with State involvement every six years, as 
described below.
    A full participation exercise, which tests as much of the licensee, 
State and local emergency plans as is reasonably achievable (without 
mandatory public participation), is conducted for each site. In such an 
exercise, appropriate offsite State and local authorities and licensee 
personnel physically and actively take part in testing their integrated 
capability to assess and respond adequately to a nuclear power plant 
accident. This exercise is conducted within 2 years prior to the 
issuance of the first operating license for full power (>5% power) and 
includes participation by each State and local government within the 
10-mile plume exposure pathway EPZ and each State within the 50-mile 
ingestion pathway EPZ. Subsequently, each licensee is required to 
conduct an exercise of its onsite emergency plan every 2 years. In 
addition, the licensee takes actions necessary to ensure that adequate 
emergency response capabilities are maintained during the interval 
between biennial exercises by conducting drills, including at least one 
drill involving a combination of some of the principal functional areas 
of the licensee's emergency response capabilities.
    Offsite plans for each site are also exercised biennially with full 
participation by each offsite authority having a role under the plan. 
(This may be included as part of the biennial onsite exercise.) Where 
the offsite authority has a role under a radiological response plan for 
more than one site, it fully participates in one exercise every two 
years, and at least partially participates in other offsite plan 
exercises in this period. Partial participation means that offsite 
authorities exercise sufficiently to test direction and control 
functions; i.e., (a) protective action levels, and (b) communication 
capabilities among affected State and local authorities and the 
licensee. A State should fully participate in the ingestion pathway 
portion of exercises at least once every 6 years.
    The following NRC regulations lay out the requirements:

10 CFR 50.47(b)(14)

    ``Periodic exercises are (will be) conducted to evaluate major 
portions of emergency response capabilities, periodic drills are (will 
be) conducted to develop and maintain key skills, and deficiencies 
identified as a result of exercises or drills are (will be) 
corrected.''

10 CFR 50, App. E, (F)(2)(b)

    ``Each licensee at each site shall conduct an exercise of its 
onsite emergency plan every 2 years. The exercise may be included in 
the full participation biennial exercise. In addition, the licensee 
shall take actions necessary to ensure that adequate emergency response 
capabilities are maintained during the interval between biennial 
exercises by conducting drills, including at least one drill involving 
a combination of some of the principal functional areas of the 
licensee's onsite emergency response capabilities. The principal 
functional areas of emergency response include activities such as 
management and coordination of emergency response, accident assessment, 
protective action decision-making, and plant system repair and 
corrective actions.''

10 CFR 50, App. E, (F)(2)(c)

    ``Offsite plans for each site shall be exercised biennially with 
full participation by each offsite authority having a role under the 
plan. Where the offsite authority has a role under a radiological 
response plan for more than one site, it shall fully participate in one 
exercise every two years, and shall, at least, partially participate in 
other offsite plan exercises in this period.''

10 CFR 50, App. E, (F)(2)(d)

    ``A State should fully participate in the ingestion pathway portion 
of exercises at least once every six years. In States with more than 
one site, the State should rotate this participation from site to 
site.''

    Question 11. In his testimony, Dr. Irwin Redlener questions why 
aircraft are not forbidden to fly over nuclear plants. Since NRC has 
worked closely and extensively with NORAD and FAA on this very topic, 
what are the Commission's views on the practicality of excluding 
nuclear power plants, as well as other sensitive targets (sports 
stadiums, chemical facilities, tall buildings, etc.) from fly zones?
    Response. On September 23, 2001, representatives of the Federal 
Aviation Administration (FAA), Department of Defense (DoD), and NRC met 
to discuss aviation security. The FAA determined that an FAA Notice To 
Airmen (NOTAM) was the appropriate vehicle to advise pilots about the 
need to avoid air space above sensitive sites, such as nuclear power 
plants. The NOTAM subsequently issued on September 26, 2001, and 
updated by later NOTAMs, strongly urged pilots ``to not circle or 
loiter over the following sites: Nuclear/Electrical power plants, power 
distribution stations, dams, reservoirs, refineries, or military 
installations, unless otherwise authorized by air traffic control or as 
required to land or depart at towered/non-towered airports.'' This 
notice is still in effect.
    Since September 11, 2001, nuclear plant licensees have reported 
aircraft flying in close proximity to their facilities. On October 12, 
2001, the NRC formalized the process by issuing an advisory to 
licensees which requested that they provide immediate reports of any 
flyovers to the FAA, FBI, local law enforcement agencies, and the NRC.
    The NRC contends that the most effective means of ensuring 
protection against attack by commercial aircraft is by interdiction at 
the airport (through personnel and baggage screening), hardened cockpit 
doors, support from the U.S. Air Marshal program, warning signals from 
aircraft that a high-jacking is underway, etc.
    No fly zones around nuclear power plants and other sensitive 
targets are not practical as a matter of routine. Because of nuclear 
power plants' location in areas of dense air traffic, such as the 
northeast corridor of the United States, such flight restrictions would 
significantly disrupt air travel. A 5- or 10-mile no fly zone would 
also provide very little warning of attack, insufficient for a combat 
air patrol aircraft to respond unless it were already in the immediate 
vicinity.

    Question 12. In his testimony, Dr. Irwin Redlener states that 
nuclear fuel rods are extremely vulnerable in the deep pools where they 
are currently stored. What are the Commission's views on the protection 
provided by the pools from aircraft or ground assault?
    Response. The Commission does not agree that spent fuel stored in 
pools is ``extremely vulnerable''. The construction of the spent fuel 
storage pools is robust. Spent fuel pool wall thicknesses typically 
exceed containment wall thicknesses and are frequently not exposed on 
the exterior wall of the building in which they are housed. Although 
the structures over spent fuel pools tend to be less robust than the 
pools themselves, attacks that damage the overhead structure are not 
likely to cause the pool water to drain down. In the highly unlikely 
event that an attack caused structural debris to fall into the pool and 
damage the stored fuel, the pool water would reduce the release of 
radioactive material to the environment. In addition, the location of 
system connections to the pools is designed to prevent uncovering spent 
fuel due to drain down if the connections should fail. Most pool drain-
down or heat-up scenarios develop slowly, thus providing time for 
operators to act to mitigate the event and prevent radiological 
release. As we stated in response to question 7, even if an attack 
could somehow rapidly empty the pool, the much lower decay heat of the 
spent fuel in the pool would permit emergency cooling of the fuel using 
readily available measures that could be accomplished without 
significant exposure of workers to radiation and would also provide 
additional time to evacuate the area near the plant to prevent any 
immediate fatalities.

    Question 13. In his testimony, Dr. Irwin Redlener states that 
nothing but costs prevent immediate transfer of spent fuel rods to dry 
cask storage. What are the Commission's views on this statement?
    Response. NRC believes that reactor licensees can safely store 
spent fuel in either spent fuel pools or in dry spent fuel storage 
casks. With respect to potential terrorist attacks, we believe that 
there is reasonable assurance that the health and safety of the public 
is protected against such attacks for both types of spent fuel storage. 
Licensees have implemented actions as a result of the NRC Orders and 
advisories to protect against a potential terrorist attack. 
Nonetheless, we are continuing to assess whether additional measures 
are needed to strengthen further the current capability to defend such 
structures against terrorism.
    NRC disagrees with the statement that ``nothing but costs prevent 
immediate transfer of spent fuel rods to dry cask storage.'' There are 
technical issues associated with dry cask storage that need resolution 
before transfer of all spent fuel rods to dry cask storage is 
practical. The dry cask storage systems currently approved by NRC have 
not been evaluated for all the different types of fuel currently stored 
in reactor pools. New spent fuel dry storage systems would need to be 
designed, and then evaluated and approved by NRC prior to their use. In 
addition, the current production capacity of dry cask storage system 
vendors is limited and time is needed to increase production capacity. 
Finally, in the case of a site specific license application, schedules 
must allow for contested issues to be resolved through hearings prior 
to a licensing decision.

    Question 14. In her testimony, Danielle Brian implies that the 
times needed for security officers to retrieve weapons and protective 
gear is not included in the timelines for security planning and is not 
simulated in actual drills and exercises. What are the Commission's 
views on this statement?
    Response. Ms. Brian's statement is incorrect. Prior to commencement 
of the exercise, licensees are expected to have their responding guards 
positioned about the plant in places normally occupied, and with 
equipment normally carried during routine duties. As an additional 
complement to realism, the guards assigned to respond to the exercise 
scenario are required to shadow the actual on-duty guard force until 
the drill commences, ensuring that they would not be pre-positioned in 
preparation for the exercise. The timelines that are used in measuring 
licensees' performance include the time required for the guards to 
retrieve their response weapons and report to their post.

    Question 15. In her testimony, Danielle Brian states that spent 
fuel pools are not presently included in target sets for purposes of 
security evaluations and drills at nuclear plants. What are the 
Commission's views on this statement?
    Response. OSREs conducted in the past have not specifically 
targeted spent fuel pools. However, the need for performance testing 
scenarios at spent fuel pools is being included as part of NRC's 
comprehensive re-evaluation of the security and safeguards program.

                               __________
    Statement of David Lochbaum, Nuclear Safety Engineer, Union of 
                          Concerned Scientists

    On behalf of the Union of Concerned Scientists (UCS), it is my 
pleasure to appear before the Committee and express our support for 
both S. 1586 and S. 1746. We believe that these bills, if enacted, 
would significantly reduce the risk of radiological sabotage by 
lessening the probability that attempted sabotage will be successful 
and by lessening the consequences should sabotage be successful despite 
all protective measures.
    My name is David Lochbaum. After obtaining a degree in nuclear 
engineering from The University of Tennessee in 1979, I worked more 
than 17 years in private industry, most of that time at operating 
nuclear power plants in Georgia, Alabama, Mississippi, Kansas, New 
Jersey, and Pennsylvania. I have been the Nuclear Safety Engineer for 
UCS since October 1996. UCS, established in 1969 as a non-profit, 
public interest group, seeks to ensure that all people have clean air, 
energy and transportation, as well as food that is produced in a safe 
and sustainable manner. UCS has worked on nuclear plant safety issues 
for nearly 30 years.
    Some representatives of the nuclear industry claim that nuclear 
power plants are such hardened structures as to be virtually immune 
from attack. Other industry representatives assert that even a 
successful attack would not endanger the American public because 
radioactive material released from the sabotaged nuclear plant would so 
diluted within 5 miles as to preclude the need for either sheltering or 
evacuation. There would be no need for the security upgrades specified 
in the proposed legislation if either of these claims were valid.
    Compelling circumstantial evidence creates more than reasonable 
doubt for the veracity of the industry's claims. Force-on-force tests 
of nuclear plant security administered by the Nuclear Regulatory 
Commission (NRC) since 1991 consistently demonstrated security 
capabilities below NRC's minimum expectations nearly half of the time. 
Nuclear plants cannot be considered immune from attack when security 
forces, given up to 6 months advance warning of the precise test date, 
are unable to prevent simulated reactor core damage from a very, very 
small band of mock attackers. On at least two recent occasions, a 
single mock intruder successfully simulated the destruction of the 
equipment needed to cool the reactor. Nuclear plants cannot be 
considered immune from attack when security forces are unable to 
prevent a lone saboteur from triggering a reactor meltdown. In the past 
2 years, I have attended numerous NRC public meetings where industry 
representatives contended that poor performance on a security test 
would not have occurred had an armed guard not taken a wrong turn while 
rushing to his or her response position. Again, nuclear plants cannot 
be considered immune from attack when a single mistake by a single 
guard means the difference between successful defense and reactor 
sabotage.
    With respect to the potential consequences from the successful 
attack on a nuclear plant, the industry's actions speak much louder 
than its rhetoric. If it were even close to being true that 
radioactivity releases would not endanger people living 5 miles or more 
away, then it would also be true that the nuclear power industry would 
not need Federal liability protection. Representatives of the nuclear 
power industry testified before the Congress that the Price-Anderson 
Act needed to be renewed for existing plants and expanded to cover any 
new nuclear plants that are built. The industry's need for Price-
Anderson protection is an implicit concession that the offsite 
consequences from a nuclear plant accident /attack could be extremely 
serious.
    It is our steadfast position that U.S. nuclear plants are 
vulnerable to attack and that the consequences from a successful attack 
could be dire. It is further our position that all reasonable measures 
must be taken to lessen this risk. The proposed legislation in S. 1586 
and S. 1746 represents reasonable steps that would reduce the 
probability of a successful attack and reduce the consequences 
following a successful attack. Thus, we support both bills and hope 
they become law.

                 OPERATION SAFEGUARDS AND RESPONSE UNIT

    While all provisions of both bills have merit, the most valuable 
portion of the proposed legislation is Section 4 of S. 1746 (the 
Nuclear Security Act of 2001). This section would amend Section 204 of 
the Energy Reorganization Act of 1974 (42 U.S.C. 5844) to create an 
Operation Safeguards and Response Unit within the NRC. Subsection 
(d)(3)(B) of the amended act requires the NRC to conduct force-on-force 
testing at each nuclear plant at least once every 2 years. Force-on-
force tests are the best measure of the integrated capability of 
security fences, locked doors, intrusion detection equipment, access 
control barriers, and armed guards to defend the plant from attempted 
sabotage. Absent such performance demonstrations, security must be 
evaluated via piece-meal audits of the various physical protection 
elements.
    How do teachers evaluate their students' academic performance? Do 
they use a checklist to verify that students attend classes with 
textbooks, pencils, paper, and calculators? No, they use tests that 
demonstrate their students' capabilities. Textbooks and class 
attendance are the pathway to knowledge while tests are the best 
measure of progress along that pathway. Likewise, security checklists 
show that a nuclear plant has gates, guards, and guns, but they provide 
little insight on how far the plant has progressed along the pathway to 
adequate security. Force-on-force tests demonstrate whether the desired 
performance objective of adequate security has been achieved. Frequent 
demonstration of adequate security performance is invaluable.
    The NRC initiated force-on-force testing in 1991. Due to resource 
constraints, the NRC only tested each nuclear plant about once every 8 
years. UCS heard from many NRC staffers and nuclear plant workers that 
security capabilities ramped up at some nuclear plants in advance of 
the force-on-force tests and rapidly declined shortly afterwards. More 
frequent testing levels out the peaks and valleys and assures more 
consistent security capabilities.
    Legislation directing the NRC to conduct frequent force-on-force 
tests ensures that the agency has the budget necessary to administer 
the tests. In July 1998, resource allocation issues prompted the NRC to 
cancel force-on-force testing. The ensuing public outcry reversed the 
NRC's decision with testing re-instituted in fall 1998. This 
legislation ensures that nuclear facility security tests are not 
discarded at the next budget crisis.
    This legislation also ensures that testing of nuclear facility 
security remains in the NRC's hands where it belongs. The nuclear 
industry has been campaigning to conduct the security tests themselves 
and to evaluate their performance on the tests. Nuclear facility 
security is too important to permit the equivalent of take-home tests 
that are self-graded. The industry's consistently poor performance on 
security tests since 1991 does not warrant self-assessment in this 
vital area.
    The very nature of nuclear plant security does not lend itself to 
industry self-assessment. The nuclear industry has successfully 
employed self-assessment in other areas. For example, requalification 
of control room operators is conducted by plant owners subject to audit 
by the NRC. The standards employed by the plant owners and the audit 
reports issued by the NRC are all publicly available for perusal by 
people living near the facility and by public-interest groups like UCS. 
In addition, NRC inspection reports covering control room operator 
performance during routine operations and during transient conditions 
are publicly available. This transparency makes it harder for self-
assessments to cover up poor performance.
    Conditions are significantly different when it comes to nuclear 
plant security. For obvious reasons, the public does not have the same 
access to either security standards or NRC audit reports. This 
necessary opaqueness makes it easier for self-assessment to cover up 
poor performance. The NRC must retain control over nuclear plant 
security tests to protect the public against inadequate security being 
masked by the self-assessment process.
    Subsection (d)(3)(F) of the amended act requires the NRC to submit 
an annual report on force-on-force testing results to the Congress and 
the President. This annual report facilitates oversight of this 
important public health issue. This report also provides the American 
public with the ``big picture'' it deserves regarding nuclear facility 
security. The anxiety level in America following 09/11 about potential 
vulnerabilities of nuclear facilities to terrorist attack would have 
been significantly lessened had the Federal Government been able to 
point to the information in this annual report as tangible evidence of 
security preparedness. People living near nuclear facilities that had 
performed well on robust security tests conducted by NRC would take 
comfort in that knowledge. People living near nuclear facilities that 
had not performed so well on security tests would also benefit, albeit 
in a different way. Anxiety about abstract security concerns would be 
replaced by more focused concerns. The ensuing discussions about 
actions taken to compensate for and correct problem areas would allay 
anxiety faster than press releases about hardened facilities and lack 
of credible threats against specific nuclear facilities.
    Subsection (d)(4) of the amended act requires NRC in conjunction 
with FEMA and other Federal, State, and local agencies to exercise 
response to a radiological emergency at each nuclear facility at least 
once every 3 years. Appendix E to 10 CFR Part 50 currently requires a 
full-scale exercise of the emergency response plan for each nuclear 
power plant at least once every 2 years. UCS believes that the key 
difference between the existing requirement in Appendix E to 10 CFR 
Part 50 and the intent of subsection (d)(4) is emergency response to an 
act of radiological sabotage. The exercises conducted to satisfy 10 CFR 
50 Appendix E simulate nuclear accidents that cause releases of 
radioactivity to the air and water. The emergency response to 
radiological sabotage would be similar, but it might be more 
complicated. For example, Federal, State, and local resources might be 
more challenged following a sabotage event because of the need to also 
provide protection of other potential targets in the region. In 
addition, protective measures of securing bridges and tunnels might 
impede evacuation efforts. Therefore, it seems prudent and reasonable 
to periodically assess whether emergency response plans for nuclear 
facilities can also handle acts of sabotage.

                          DESIGN BASIS THREAT

    The second most valuable part of the proposed legislation is 
Section 3 of the Nuclear Security Act of 2001 which would amend Chapter 
14 of the Atomic Energy Act of 1954 (42 U.S.C. 2201 et seq.) to add 
Section 170C, ``Protection of Sensitive Nuclear Facilities Against the 
Design Basis Threat.'' Subsection (c)(1) requires the NRC to revise the 
design basis threat from its 1960's-vintage level to a more realistic 
level. The current design basis threat was promulgated by the NRC 
nearly 40 years ago and has not been substantively changed other than 
the addition of the vehicle bomb requirement in 1993/1994. Subsection 
(c)(1) requires the NRC, in consultation with the Assistant to the 
President for Homeland Security and other appropriate Federal, State, 
and local agencies to review the design basis threat every 3 years and 
revise it as applicable. Subsection (c)(2) requires the NRC to report 
to Congress on changes made to the design basis threat. These 
provisions ensure that he design basis threat remains at the 
Goldilocks' level--not too high, not too low, but just right.
    Defining the design basis threat level appropriately is extremely 
important. The nuclear facility owner is responsible for protecting 
against an attack up to and including the design basis threat level. 
The Federal Government is responsible for protecting the facility from 
larger threats. This division of responsibility is both necessary and 
practical. The owner of a nuclear power plant situated along our coasts 
cannot be expected to defend the facility against an enemy destroyer 
cruising offshore. Likewise, the Federal Government cannot be expected 
to defend a privately owned nuclear power plant against sabotage by a 
handful of individuals or a small group of plant workers.
    The initial upgrade of the design basis threat is warranted. Left 
unchanged, the current design basis threat requires the Federal 
Government to protect Americans from radiological sabotage caused by as 
few as four persons or two plant workers. It requires the Federal 
Government to protect nuclear plants from a truck bomb of the size used 
by Timothy McVeigh in Oklahoma City. It's unrealistic to expect that 
the Federal Government could adequately defend against such a small 
attacking force.
    Subsections (d)(2)(B)(iv) and (d)(2)(B)(v) explicitly require 
security protection for spent fuel whether it is stored in wet-pools or 
dry casks. Highlighting the potential hazard from spent fuel, and the 
corresponding need for its protection, is very important. Since 1991, 
Over 300 force-on-force exercises have been administered by NRC at U.S. 
nuclear power plants. None of those exercises ever tested the security 
protection for spent fuel. We are not suggesting that the spent fuel 
hazard is equivalent to the reactor hazard; rather that the spent fuel 
hazard is not negligible and must be appropriately protected. Thus, it 
is beneficial that this proposed legislation clearly establishes that 
the design basis threat applies to both the reactor and its spent fuel, 
thus making it more likely that both hazards will be adequately 
protected.

                      POTASSIUM IODIDE STOCKPILES

    Section 5 of the Nuclear Security Act of 2001 amends Section 170 of 
the Atomic Energy Act of 1954 (42 U.S.C. 2210) to require stockpiling 
of potassium iodide for the population with a 50-mile radius around 
each nuclear facility. The amendment additionally requires distribution 
plans to be developed to get the potassium iodide to people as 
expeditiously as possible in event of a nuclear accident/attack.
    Potassium iodide does not provide immunity from all radioactivity 
that could be released following a nuclear accident/attack, but it does 
provide protection against thyroid damage caused by radioactive iodine 
(I-131). That potassium iodide has value is clearly demonstrated by the 
fact that it is distributed to nuclear plant workers and to Federal, 
State, and local personnel responding to the nuclear accident/attack. 
It would seem imprudent public policy not to provide equivalent 
protection for the innocent people living downwind of the facility.
    According to the NRC, 13 states currently stockpile potassium 
iodide for the people living within the emergency planning zone around 
nuclear power plants. The proposed legislation eliminates the inequity 
associated with some Americans being protected while many other 
Americans are not protected. The NRC protecting only some Americans 
makes about as much sense as the U.S. Coast Guard requiring lifeboats 
on only some cruise ships. Given its low cost and long shelf life, it 
would seem exceedingly difficult for Federal, State, and local 
authorities to assure American victims that everything had been done to 
protect them from radiation if potassium iodide hadn't been stockpiled 
and distributed.
    Consider the following hypothetical situation. State X has two 
operating nuclear power plants. Plant A is located in the northern part 
of the State while Plant B is in the southeastern corner of the state. 
State X has not stockpiled potassium iodide, while State Y on its 
eastern border has done so. A serious accident at Plant B releases 
large amounts of radiation to the air necessitating both sheltering and 
evacuations. Residents in State Y living within the emergency planning 
zone are also provided potassium iodide. Residents in State X living 
within the emergency planning zone do not receive potassium iodide.
    In all likelihood, the post-mortem for this accident would cause 
potassium iodide to be stockpiled in State X for the people within the 
emergency planning zone around Plant A. Federal and State X authorities 
would have a very tough time explaining why the people in State Y 
received greater protection. Parents in State X will never know whether 
their children's thyroid illnesses might have been prevented had they 
just been given a dollar's worth of potassium iodide like their friends 
with healthy kids over in State Y received. Enacting the proposed 
legislation will prevent this hypothetical situation from becoming a 
tragic reality.
    Expanding the potassium iodide inventory to cover a 50-mile radius 
rather than a 10-mile radius decreases the likelihood that affected 
people will not be protected. No matter where the line is drawn, the 
question will remain about people living at N+1 miles. The 50-mile 
radius seems to be a reasonable compromise. Even if conditions affect 
people 60 or 70 miles downwind, the 50-mile inventory makes it more 
likely that potassium iodide can be redirected from people living 40- 
to 50-mile upwind to affected people downwind.

        CARRYING OF FIREARMS BY NUCLEAR FACILITY SECURITY FORCES

    Section 1 of S. 1586 would amend Chapter 14 of Title I of the 
Atomic Energy Act of 1954 (42 U.S.C. 2201 et seq.) to replace 
subsection k with a subsection authorizing security guards to carry 
firearms. Another subsection would be added to authorize security 
guards to make arrests, subject to limitations, of persons committing 
felonies or reasonably believed to have committed felonies. This 
legislation ensures security guards are properly equipped and 
authorized to carry out their protective assignments.

              FEDERALIZATION OF THE NUCLEAR SECURITY FORCE

    Section 3 of the Nuclear Security Act of 2001 would amend Chapter 
14 of the Atomic Energy Act of 1954 (42 U.S.C. 2201 et seq.) to add 
Section 170C, ``Protection of Sensitive Nuclear Facilities Against the 
Design Basis Threat.'' Subsection (b)(1) requires NRC to employ the 
nuclear security force at sensitive nuclear facilities. This provision 
is our least favorite part of the proposed legislation. Our concern is 
in having the NRC responsible both for providing security and for 
assessing whether security is adequate. It would seem to create at 
least organizational tension if not an outright conflict-of-interest 
for the NRC staff to do both.
    Federalization of the nuclear security force provides gains to 
offset the conflict-of-interest concern. For example, subsection 
(e)(2)(A) requires the NRC to establish minimum qualification standards 
for members of the nuclear security force. Currently, the qualification 
standards for security personnel are established by the plant owners or 
the companies they've contracted with for security. Consequently, 
there's a very wide range of ``minimum'' qualification standards.
    There is also a wide range of working conditions for security 
guards at nuclear plants. Security guards at some plants have told me 
about good working conditions. They get fair compensation and benefits 
and receive good initial and follow-up training. They reported security 
staffing levels sufficient to permit adequate coverage of all posts and 
to avoid fatigue associated with chronic overtime. Unfortunately, I 
have also heard from security guards complaining about poor training, 
defective equipment, insufficient staffing levels, low pay, lack of 
medical benefits, and other factors contributing to bad morale. 
Federalization is unlikely to make all security guards content all the 
time, but it should serve to narrow the gap between the guard forces at 
facilities where management recognizes their importance and the guard 
forces at facilities where management views them as undesired financial 
drains.
    The periodic force-on-force testing conducted by the NRC as 
proposed in Section 4 of the Nuclear Security Act of 2001 could achieve 
the same positive gain as would result from federalizing the nuclear 
security force. Plant owners who currently undervalue their security 
guards would likely have to change that outlook in order to attain the 
required performance levels on the 2-year force-on-force tests.

                  PROTECTION AGAINST INSIDER SABOTAGE

    As detailed above, the proposed legislation contains many 
provisions that individually and collectively improve nuclear facility 
security. The only element potentially missing from the proposed 
legislation is adequate protection against insider sabotage. Subsection 
(c)(1)(A)(iv) of the proposed amendment to Chapter 14 of the Atomic 
Energy Act of 1954 (42 U.S.C. 2201 et seq.) outlined in Section 3 of 
the Nuclear Security Act of 2001 requires the NRC to revise the design 
basis threat to include several nuclear workers assisting in an attack. 
Subsection (b)(2) requires the NRC to ``develop and implement a 
security plan for each sensitive nuclear facility to ensure the 
security of all sensitive nuclear facilities against the design basis 
threat.'' UCS recommends that the Committee consider strengthening the 
proposed language by revising it to explicitly incorporate the 
following items, obtaining a firm commitment from the NRC to include 
these items as appropriate in the security plans, or providing clear 
guidance on expectations regarding these items in the Committee reports 
accompanying the bills:
    <bullet> Two person rule for vital areas.--Authorized individuals 
typically gain entry to vital areas within nuclear facilities using 
computerized access cards. An authorized individual could thus enter 
vital area(s) alone and tamper with safety equipment. Adoption of the 
two-person rule for vital area entry would eliminate the opportunity 
for a single person acting alone to attempt sabotage.
    <bullet> In-plant security cameras.--The majority of security 
cameras in use today at nuclear facilities protect against unauthorized 
intrusion to the site. Fewer security cameras are deployed inside the 
facility to protect against sabotage. Installation of additional 
security cameras within the nuclear facility would provide greater 
protection against sabotage by workers.
    <bullet> Security guard accompanying visitors in vital areas.--
Under certain conditions, a single authorized individual can escort 
five visitors into vital areas without being accompanied by a security 
guard. These visitors have had no background investigations other than 
a perfunctory check using the social security numbers they provide. The 
potential exists for an insider to arrange for the external attackers 
to enter the facility as visitors and then escort them into vital 
areas. Requiring all visitors into vital areas to be accompanied by a 
security guard provides substantive protection against this threat.
    <bullet> 50.59 screenings for insider sabotage.--10 CFR 50.59 
requires proposed modifications to nuclear facilities and planned 
changes to procedures to be reviewed for possible erosion of safety 
margins. Safety margin reductions must be approved in advance by the 
NRC. But these 50.59 screenings do not specifically require an 
evaluation of whether the changes provide insiders with greater 
opportunities for sabotage. For example, a temporary configuration 
during a refueling outage may reduce response time to less than that 
available when the plant is operating. The insider may elect to attempt 
sabotage during this vulnerable period. If this vulnerability was 
identified, it would be possible to compensate for it by posting a 
security guard by essential equipment during the temporary alignment. 
Requiring 50.59 screenings to explicitly assess insider sabotage 
provides substantive protection against this threat.
    <bullet> Compensation for longer testinglinspection intervals.--In 
recent years, the NRC has allowed plant owners to lengthen the interval 
between tests and inspections of safety equipment. The reductions in 
testing/inspection frequencies have been justified using actual 
experience of component failure rates. Longer testing/inspection 
intervals-particularly when their schedules are readily available-
provide insiders with ample opportunities to plan and execute a 
campaign of tampering with safety equipment over time with the aim of 
disabling all mitigating and containment systems when sabotage is 
ultimately attempted. These opportunities should be lessened by the NRC 
(a) recognizing that equipment tests and inspections also guard 
against-sabotage and therefore intervals must not be solely based on 
observed failure rates, or (b) requiring random tests/inspections to be 
conducted if the intervals are solely based on observed failure rates.
    <bullet> Providing operators with anti-sabotage training.--The 
NRC's Generic Fundamentals Examination Question Bank for boiling water 
reactor (BWR) operator license candidates has 959 pages of questions 
while the NRC's Generic Fundamentals Examination Question Bank for 
pressurized water reactor (PWR) operator license candidates has 977 
pages of questions Not a single one of the literally hundreds of 
questions directly deals with how to defend the plant from an insider 
attempting radiological sabotage. Operator candidates receive classroom 
instruction and control room simulator training on how to cope with 
postulated pipe breaks, pump failures, and power outages. Licensed 
operators receive annual retraining on these subjects. Training 
operator candidates and licensed operators on how to respond to 
scenarios such as an insider attempting to take over the control room 
or an insider manipulating switches from the remote shutdown panel 
would supplement the skills they develop to handle nonsabotage 
emergencies.
    In summary, UCS supports both S. 1586 and S. 1746 and hope that 
both bills become law. If only one part of the bills became law, we'd 
prefer that it be the part requiring the NRC to conduct force-on-force 
security tests at each nuclear facility at least once every 2 years. If 
only one part of the bills didn't become law, we'd least miss the part 
federalizing the nuclear security forces.

                                 ______
                                 
          Responses by David Lochbaum to Additional Questions 
                          from Senator Clinton

    Question 1. In your testimony, you stated that you thought ``the 
most valuable portion of the proposed legislation is Section 4'' to 
create on Operation Safeguards and Response Unit within the NRC. Can 
you please comment on Chairman Meserve's testimony, which indicated 
that this aspect of the legislation has already been accomplished and 
is therefore unnecessary?
    Response. On April 7, 2002, the Nuclear Regulatory Commission 
established an Office of Nuclear Security and Incident Response to 
consolidate the agency's efforts for nuclear facility security. This 
office is in many ways superior to the Operation Safeguards and 
Response Unit described in the proposed legislation. For example, it 
reports at a more senior level within the NRC than was proposed for the 
Operation Safeguards and Response Unit. However, we disagree with 
Chairman Meserve that the objective of the proposed legislation has 
already been accomplished. The proposed legislation in Section 4 of the 
Nuclear Security Act did not merely shuffle and rename bureaucratic 
pieces. It charged the Operation Safeguards and Response Unit with 
performing force-on-force security exercises at all nuclear facilities 
under NRC's purview at least once every 2 years. The newly established 
Office of Nuclear Security and Incident Response would conduct these 
security exercises, but the NRC did not require it to conduct exercises 
at all, let alone once every 2 years. Thus, the actions taken by the 
NRC on April 7th were a step in the right direction, but they remain 
several steps shy of the destination. The proposed legislation in 
Section 4 will move the agency the remaining steps. Absent this 
legislation, those steps might not be taken.

    Question 2. In your testimony, you talked about NRC's resource 
constraints, which apparently inhibited the Commission's ability to run 
force-on-force exercises at the plants. Can you provide more detail on 
this issue and explain how the legislation we are considering today 
addresses that issue?
    Response. In June 1998, the Senate Appropriations Committee 
suggested that it would cut the NRC's budget by approximately 40 
percent. In the ensuing discussions regarding this suggestion, the 
budget cut was scaled back to a much more modest reduction. The 
Appropriations bill authorizing the NRC's budget required the agency to 
report monthly to the Congress on its progress in handling specific 
activities. For example, the NRC reported on goals of completing 95 
percent of all license amendment applications within 1 year and 100 
percent of all such applications within 2 years. The NRC did not want 
to miss goals it was reporting to Congress each month. Therefore, the 
agency reallocated staff so as to provide greater assurance that these 
tasks would be completed on time. The NRC was not required to report to 
Congress on its progress in other areas, such as how often it tested 
nuclear plant security. Thus, the aforementioned staff reassignments 
were from non-reported areas to reported areas. In July 1998, the NRC's 
Director of the Office of Nuclear Reactor Regulation canceled the 
force-on-force security testing program that the agency had been 
conducting since 1991. This cancellation was part of the staff 
reassignments made following the June 1998 budget debates.
    The proposed legislation would address the problem by providing the 
NRC with a mandate to conduct force-on-force security tests at all 
nuclear facilities at least once every 2 years. The NRC would have to 
request in its annual budget sufficient funding to accomplish this 
mandate.

    Question 3. You and others today have expressed concerns about 
federalizing security at our Nation's nuclear power plants, but you 
have also indicated that there are certain threats against which plants 
cannot be expected to defend as has the NRC. So how do we best provide 
seam-less security at these facilities?
    Response. UCS views the Design Basis Threat (DBT) as the line 
between the threat level that individual plant owners must defend 
against and the larger threat level that the Federal Government is 
expected to defend against. The best way to provide seam-less security 
would be to require the NRC to promulgate regulations analogous to 
those in Appendix E to Title 10 of the Code of Federal Regulations. The 
NRC promulgated Appendix E to require all nuclear plant owners to have 
an emergency plan in case of accidents. The regulations include 
provisions for periodically testing the emergency plan with exercises 
involving local, state, and Federal agencies. Collectively, these 
regulations help assure that all of the entities that would need to 
function following a nuclear plant accident have procedures in place 
along with adequate training. During the hearing on June 5th, the 
Committee heard testimony praising the effectiveness of emergency 
planning.
    Comparable regulations could require nuclear plant owners to have 
formal plans in case of larger than DBT attacks. Periodic exercises of 
the plans would enable U.S. military, State National Guardsmen, local 
law enforcement, U.S. Coast Guard, and other entities to demonstrate 
their proficiencies. As in the case of emergency planning, it would 
seem most appropriate for the NRC to be responsible for bringing these 
various authorities together to ensure adequate nuclear plant security. 
If it promulgated comparable regulations, the NRC would be positioned 
to assure that plant owners could defend against threats up to and 
including the DBT and that other entities could defend against larger 
threats.

    Question 4. In your testimony, you indicate that the qualification 
standards for security personnel are established by the plant owners or 
the companies that the have contracted with for security resulting in a 
wide range of minimum qualification standards. Is this something that 
needs to be addressed and if so, how? In your opinion, does the 
legislation being considered today address this issue?
    Response. We believe that the proposed legislation does address the 
concern about diverse qualification standards. The force-on-force 
security tests conducted at least once every 2 years as specified in 
Section 4 of the Nuclear Security Act represent a performance standard 
that is superior to minimum qualification standards. Poor performance 
on the security tests would require plant owners to fix the problems, 
either by upgrading the caliber of security guards or by increasing the 
security guard staffing levels to compensate for qualification 
shortfalls. With respect to public health and safety, either option is 
acceptable as long as adequate overall performance is demonstrated by 
the force-on-force testing.

                                 ______
                                 
          Responses by David Lochbaum to Additional Questions 
                         from Senator Voinovich

    Question 1. In your testimony, you stated that the second most 
valuable provision of S. 1746 deals with amending the design basis 
threat. One of the sections provides for a NRC report to Congress about 
the changes made to the design basis threat. In your opinion, what do 
you think the value of making the changes public will have?
    Response. UCS did not envision the NRC's report to Congress being 
publicly available. Congress receives information from other agencies 
that is not made public. We thought this report would also be treated 
confidentially. We considered this report as providing Congress with 
essential information needed to make informed oversight decisions and 
helping to ensure that the design basis threat remained neither too 
high nor too low.

    Question 2. Specifically, what impact does this have on our 
national security by publishing these changes, and do you think Members 
of Congress should be involved in making decisions about the adaptation 
of this threat analysis?
    Response. As indicated in our response to Question 1, UCS did not 
envision that the NRC's report would be publicly available. In that 
context, we see no adverse impact to national security. We feel the 
report would enhance national security by affording Congress the 
opportunity to evaluate threat management for nuclear power plants with 
threat management in other areas. Armed with this information Members 
of Congress would be better positioned to shore up identified 
vulnerabilities through better definitions of where security surpluses 
exist.

    Question 3. In terms of retired military and law enforcement 
officials, such as the FBI, what impact do you think federalizing the 
nuclear security force would have on personnel?
    Response. Based on statements by nuclear industry representatives 
about their high retention rate for security personnel and our own 
discussions with security personnel at several nuclear plant sites, UCS 
believes that the majority of people guarding nuclear plants today 
would be guarding nuclear plants tomorrow in Federal hats if the 
proposed legislation were enacted. Some of the security personnel have 
told us they are pleased with their labor contacts and are apprehensive 
about ``trading down'' if federalization occurred. But most of the 
security personnel we have talked with complain about low wages, poor 
health plans, insufficient training, and long working hours. They 
consider federalization was one way, but not the only way, to remedy 
unsatisfactory working conditions.
    As noted in our written testimony, if one part of the proposed 
legislation was not enacted, we'd hope it was the federalization part. 
If the force-on-force security testing part was enacted, we believe it 
would cause those plant owners who may be currently undervaluing their 
security personnel to remedy any unsatisfactory working conditions.

                               __________
    Statement of Jack Skolds, Chief Nuclear Officer, Exelon Nuclear

    Mr. Chairman, members of the committee: I am Jack Skolds, Chief 
Nuclear Officer for Exelon Nuclear, the nuclear division of Exelon 
Generation Company. Exelon Generation is a wholly owned subsidiary of 
Exelon Corporation, which was formed in 2000 by the merger of Unicom 
Corporation of Chicago and PECO Energy Company of Philadelphia. Exelon 
Generation currently owns and operates approximately 37,000 megawatts 
of diversified electrical generation, including 17 nuclear reactors 
that generate 16,970 megawatts of electricity. Exelon is the largest 
nuclear generation operator in the country with approximately 20 
percent of the nation's nuclear generation capacity, and the third 
largest private nuclear operator in the world. We also own 50 percent 
of AmerGen Energy, which is a partnership with British Energy of 
Edinburgh, Scotland. AmerGen owns 3 of the 17 units in the Exelon 
fleet, with plants in Illinois, New Jersey and Pennsylvania.
    Thank you for the opportunity to appear before you today to discuss 
legislative proposals addressing several important security issues at 
commercial nuclear power plants.
    I would also thank several members of the committee for their 
efforts to investigate the issue of nuclear plant security first-hand. 
Senators Graham, Clinton, Corzine, Smith, Voinovich and Specter have 
all toured nuclear power plants to receive briefings on plant security 
since September 11, as have several of the committee's staff members. 
In fact, Senator Specter has toured three of the five nuclear power 
plants in Pennsylvania, including two Exelon facilities.
    My testimony today will focus on three areas:
    First, I will address legislative proposals pending before the 
Senate on nuclear plant security.
    Second, I will provide the Committee with an overview of nuclear 
plant security.
    Third, I will provide the Committee with recommendations regarding 
actions the Federal Government can take to address nuclear plant 
security issues in the post-September 11th environment.
    Before addressing these issues, however, let me make a few 
preliminary comments.
    Let me begin by assuring the Committee that the nuclear power 
industry is absolutely committed to ensuring that our plants are 
operated safely and that all necessary steps are taken to protect the 
health and safety of the public and our employees. No one has a greater 
interest in protecting the safety and security of nuclear plants than 
the owners and operators of those facilities.
    In addition, it is important for the Committee to understand that 
commercial nuclear power plants are the most well-protected industrial 
facilities in the United States today. In fact, many businesses are 
turning to the nuclear industry as a model for providing security and 
emergency planning at their industrial complexes.
    Finally, as the United States acts to strengthen homeland security 
in light of new threats to the nation's security, it is imperative that 
Federal, State, and local officials work cooperatively with nuclear 
plant operators to buildupon the solid foundation of emergency response 
capabilities that existed prior to September 11th.

                     PENDING LEGISLATIVE PROPOSALS

    The Committee's letter of invitation requested comments on two 
legislative proposals pending before the Senate: S. 1586, ``a bill to 
amend the Atomic Energy Act of 1954 to authorize the carrying of 
firearms by employees of licensees, and for other purposes'' and S. 
1746, ``a bill to amend the Atomic Energy Act of 1954 to strengthen 
security at sensitive nuclear facilities.'' My comments will address 
these bills, as well as H.R. 2983, legislation to reauthorize the 
Price-Anderson Act of 1954, which was passed by the U.S. House of 
Representatives and which is awaiting action by the Senate.
S. 1586
    S. 1586, introduced by Senator Jim Inhofe, amends the Atomic Energy 
Act to authorize NRC licensee employees to carry firearms, provides 
limited arrest authority to such employees, and establishes a fine or 
imprisonment for the sabotage of commercial nuclear facilities. These 
provisions were submitted to Congress by the Nuclear Regulatory 
Commission several years ago and were approved by the Senate during the 
106th Congress as part of S. 1627, the NRC Fairness in Funding Act of 
2000, and as part of separate appropriations legislation.
    The nuclear industry testified in support of the provisions as part 
of its testimony on S. 1627 during the 106th Congress, though some NRC 
licensees have recently expressed concern about the possible legal 
implications of providing wide-ranging arrest authority to private 
security forces. The industry stands ready to work with the Committee 
to resolve these concerns.
S. 1746
    S. 1746, introduced by Senator Harry Reid and other members of the 
Committee, makes sweeping changes in the manner in which security at 
commercial nuclear facilities is addressed. Unfortunately, S. 1746 puts 
the proverbial cart before the horse by mandating radical legislative 
solutions to issues that have not been identified as problems.
    Section 3 would substitute a statutorily mandated design basis 
threat for that developed by the independent Nuclear Regulatory 
Commission and would federalize security at commercial nuclear power 
plants by establishing a nuclear security force within the NRC and by 
requiring the Commission to develop a security plan for each of the 
nation's sensitive nuclear facilities. Section 3 also levies a tax on 
sensitive nuclear facilities to fund a newly created Nuclear Security 
Fund within the Treasury to pay for these massive and sweeping new 
Federal responsibilities.
    Exelon is concerned about the imposition of a statutorily mandated 
design basis threat which prejudges the nature of the design basis 
threat without a comprehensive review by the NRC in conjunction with 
Federal intelligence and law enforcement agencies. If legislative 
action in this area is deemed necessary, Congress should first direct 
the President to conduct a comprehensive review with the various 
energy, intelligence and law enforcement agencies of the various 
threats facing nuclear power plants. Once such a review is completed, 
the NRC should be directed to adjust the design basis threat 
accordingly.
    With regard to federalization of nuclear plant security forces, 
Exelon strongly opposes such a drastic and unjustified change in 
security requirements. Security forces at nuclear power plants are 
highly trained professionals. Substituting Federal employees to 
safeguard sensitive nuclear facilities may actually degrade security. 
The background check requirements, hiring qualifications, and training 
standards in the bill are actually less stringent than those currently 
enforced by the NRC.
    Federalizing the nuclear security forces would also eliminate some 
of the best candidates for nuclear security forces by effectively 
barring recipients of Federal pensions from serving as Federal 
employees. Some of the current members of nuclear security forces are 
military retirees who would be forced to choose between resigning their 
position or giving up their Federal pensions. In addition, nuclear 
power plant security forces work in an integrated manner with plant 
operators during a security event to coordinate responses to security 
threats. Integrated command and control of plant security forces and 
plant operations personnel is essential to assure the protection of 
public health and safety. Finally, federalizing nuclear security forces 
would fundamentally change the mission of the Nuclear Regulatory 
Commission. Hiring, training, and managing a security force of 7,000 
employees would be a massive undertaking and might well detract from 
the Commission's core mission of assuring that plants are operated in a 
manner that protects the public health and safety. It also places the 
NRC in an active role in day to day operations at the nation's nuclear 
power plants--a dramatic reversal of the efforts the Congress, the 
executive branch, the Commission, and the industry have made over the 
past 30 years to ensure the NRC is a regulator, not an operator.
    Similarly, requiring the NRC to develop security plans for each of 
the nation's sensitive nuclear facilities within 180 days would be a 
significant task that would result in an unnecessary--and perhaps 
dangerous--diversion of Commission resources. The NRC currently has 
detailed regulations governing security requirements at plants, and 
plant personnel can best handle the coordination of plant security 
forces with State and local law enforcement officials. As with 
federalization of nuclear plant security forces, requiring a federally 
developed security plan for several dozen sites is unnecessary given 
the complete lack of evidence that the current system is deficient.
    Finally, a tax on nuclear plant operators would fund a new and 
unnecessary Federal bureaucracy and would be unparalleled in the 
private sector. Simply put, the tax would fund an activity that is 
currently being effectively managed by the private industry. In 
addition, the tax potentially would force nuclear power plant customers 
to inappropriately fund national defense activities and would likely 
result in some nuclear plants subsidizing the cost of security at other 
plants.
    Section 4 establishes an Operation Safeguards and Response Unit at 
the NRC. The existing NRC Operational Safeguards and Response 
Evaluations (OSRE) program has been applied and interpreted in an 
inconsistent and at times arbitrary manner. Anti-nuclear groups and the 
NRC have at times inaccurately characterized licensee performance under 
the existing OSRE program by claiming that licensees have ``failed'' a 
significant portion of force-on-force drills.
    It is important to note that the OSRE program evaluates plant 
security, and not plant safety. Given the ability of plant operators to 
safely shut down an operating reactor in a matter of seconds, OSRE 
drills alone are not an accurate reflection of plant safety.
    The NRC has been striving to develop a more objective methodology 
for determining the ability of nuclear plants to respond to design 
basis threats. The program would potentially result in more frequent 
force on force drills than in the past. The Commission has also moved 
to enhance its organizational structure with respect to security by 
creating a new office dealing with security policies and programs.
    Senator Reid's legislation seeks to address problems with the 
current program by mandating a highly prescriptive program that could 
prevent the Commission from establishing amore effective and more 
appropriate program to evaluate the performance of plant security 
forces.
    Section 4 also inappropriately expands the emergency planning zone 
around sensitive nuclear facilities from a 10-mile radius to a 50-mile 
radius. There has been no evidence to suggest that such a radical 
change in the current regulatory system is warranted to protect public 
health and safety. Extending the 10-mile emergency planning zone to a 
50-mile radius would require planners to address an area of 7,857 
square miles (as opposed to the current emergency planning zone which 
encompasses 315 square miles). Such an expansion would only serve to 
diffuse the resources available to and distract the personnel 
responsible for emergency planning from focusing on enhancing planning 
that may have been ignored in other sectors prior to 9/11 and from 
continuing to ensure current planning is satisfactory. Again, absent 
compelling evidence on the need to undertake such a massive effort, 
Congress should defer to the NRC, FEMA, and EPA in determining the 
appropriate radius for emergency planning purposes.
    Section 5 directs the Commission to establish a stockpile of 
potassium iodide tablets and to develop plans for the prompt 
distribution of potassium iodide tablets within a 50-mile radius of all 
sensitive nuclear facilities; The NRC, in conjunction with the 
Environmental Protection Agency, the Department of Health and Human 
Services, and the Federal Emergency Management Agency, has recommended 
that potassium iodide be made available at the request of State 
governments for distribution within the 10-mile emergency planning zone 
around commercial nuclear power plants. There is no scientific basis 
for expanding the distribution of potassium iodide to an area within 50 
miles of a sensitive nuclear facility.
    Section 6 of the legislation directs the Commission to request 
assistance from Governors and the President in the event of war or 
other national emergency. While such assistance may be appropriate in 
the event of war or other national emergency, the Commission is not 
barred under current law from requesting such assistance. In addition, 
as the Commission stated in its review of the legislation, such 
assistance may not be appropriate in all circumstances and could divert 
resources from more vulnerable parts of the nation's infrastructure.
H.R. 2983
    H.R. 2983, which was passed by the U.S. House by voice vote last 
year, includes an amendment by Representative Ed Markey to address the 
nuclear security issue. Under the Markey amendment, the President is 
directed to conduct a study to identify the types of threats that pose 
an appreciable risk to NRC licensed facilities. The legislation 
includes a number of issues to be considered during this study, 
including each of the issues enumerated in Section 3 of S. 1746. The 
President is also required to classify each type of threat as being the 
responsibility of the Federal Government or of NRC licensees.
    Exelon strongly supports the Markey amendment as an appropriate 
first step in identifying what additional changes maybe necessary to 
protect commercial nuclear facilities in he aftermath of September 
11th. The amendment allows the White House to tap all Federal 
intelligence and law enforcement resources to assess the nature of the 
threats that are faced by commercial nuclear facilities. The amendment 
also directs the White House to clearly delineate between threats 
against which licensees must defend and threats against which law 
enforcement officials and the Federal Government must defend. Only 
after such an assessment is conducted can Congress make a well-informed 
decision regarding what additional resources and requirements are 
necessary to protect commercial nuclear facilities.

           THE INDUSTRY'S APPROACH TO NUCLEAR PLANT SECURITY

    Protection of public health and safety requires both the safe 
operation of nuclear plants and the physical protection of the plant 
against potential threats.
    The industry today is operating the nation's 103 nuclear reactors 
more efficiently and safely than ever before. The average capacity 
factor for nuclear plants reached an all-time high of 91 percent in 
2001 according to preliminary data from the Nuclear Energy Institute, 
while the industrial safety accident rate for nuclear plants in 2000 
was a record-low 0.26, compared to an average accident rate in the 
manufacturing sector of 4.0.
    As another measure of safety, the Nuclear Regulatory Commission 
monitors the number of ``significant events'' at each nuclear reactor 
(broadly defines as occurrences that challenge a plant safety system). 
The average number of significant events per unit has declined from 
2.37 per year in 1985 to 0.03 per year in 2000, the latest year for 
which data is available.
    Nuclear power today provides 20 percent of the nation's electricity 
each year, and it does so without emitting any of the pollutants 
associated with acid rain or global warming. In fact, nuclear power has 
played a major role in allowing many regions of the country come into 
compliance with Clean Air Act requirements.
    The industry's commitment to safety also extends to plant security. 
In fact, commercial nuclear power plants are regarded by many to be the 
most well protected industrial facilities in the United States today. 
Indeed, many other industries are turning to the nuclear industry as a 
model for providing security at a variety of commercial facilities. For 
example, in addition to unique physical protections employed at 
commercial nuclear facilities, the nuclear industry is alone among 
critical infrastructure industries in using the Federal Bureau of 
Investigations to run criminal background checks on applicants for 
positions at sensitive facilities.

Current Law
    Existing Federal statutes and regulations provide strict standards 
requiring licensees to take actions necessary to protect the public 
health and safety. NRC requirements and industry programs are 
predicated on the need to protect the public from the possibility of 
exposure to radioactive release caused by acts of sabotage.
    The current design basis threat--the threat against which a plant 
licensee must be able to protect--assumes a suicidal, well-trained 
paramilitary force, armed with automatic weapons and explosives, that 
is intent on forcing its way into a nuclear power plant to commit 
radiological sabotage. The design basis threat also assumes that the 
attackers will have insider knowledge of plant systems and plant 
security plans and even insider assistance.
    This assumed threat forms the basis for security response plans and 
training drills. These plans and drills are tested regularly by the NRC 
as part of their Operational Safeguards Response Evaluation (OSRE). The 
OSRE program has also provided the industry with the opportunity to 
identify areas where security can be improved and enhanced.

Physical Design of Plants
    A number of defenses exist to counter such a threat. Nuclear 
plants, by their very design, provide a redundant set of physical 
barriers designed both to keep radiation and radioactive materials 
inside the plant and to keep intruders outside' the plant. The reactor 
core is protected by a containment structure comprised of several feet 
of thick reinforced concrete walls, a steel liner, additional concrete 
walls within containment, and a several inches-thick high tensile steel 
reactor vessel. The metal cladding on the fuel itself also serves as an 
additional protective barrier. In addition, there are multiple systems 
of the safety equipment needed to safely shut down the reactor. This 
``defense in depth'' design explains why the FBI considers nuclear 
plants to be ``hardened targets.''
    Nuclear plant sites have three distinct zones, each of which has 
different levels of physical and human defenses. The first zone, called 
the ``owner-controlled area,'' includes all of the property that is 
associated with the plant. The owner controlled area typically ranges 
in size from several dozen to hundreds of acres of land and serves as 
an effective buffer zone around the critical areas of the plant.
    The second zone, the ``protected area,'' is a physically enclosed 
area' surrounding the plant into which access in controlled. Physical 
barriers to intrusion include barbed wire and razor' wire fences, 
microwave and electronic intrusion detection systems, closed circuit 
television systems, isolation zones, extensive lighting, system 
monitoring by redundant alarm stations, and vehicle barrier systems. 
Access to the protected area is restricted to a select population of 
site personnel with a need for entry.
    To access the protected area, plant employees and visitors must 
pass through a metal detector and an explosives detector. X-ray 
machines are also used to screen material brought into the protected 
area by employees and visitors. In addition, employees must utilize a 
hand-geometry device to confirm their identity before entering the 
protected area.
    The third zone, the ``vital area,'' includes those areas within the 
protected area containing equipment essential for operating the plant 
safely and successfully shutting, down in the case of an event. 
Additional barriers are in place to protect vital areas of the plant; 
including concrete floors, walls, and ceilings; steel locked and 
alarmed doors; and key card access doors. Access to the vital area is 
even further restricted to a select population of site personnel with a 
need for entry. These access lists are routinely reviewed to confirm 
the need for access. The defensive contingency plans used by security 
forces are geared toward protection of these critical areas:

Security Forces
    In addition to the robust physical structures protecting the plant, 
licensees maintain a highly trained, well-equipped security force to 
guard each facility. Security personnel, many of whom have law 
enforcement or military experience, must undergo extensive background 
checks, including fingerprint submittal for an FBI criminal record 
check; physical and psychological testing and screening; credit and 
reference checks; education and work history verification; and routine 
drug and alcohol screening. The nuclear industry is unique among energy 
industries in having a cooperative relationship with the FBI to 
facilitate such criminal record checks.
    In addition, security personnel are subject to rigorous training 
requirements. Initial nuclear security officer training includes a wide 
variety of topics, including NRC requirements for nuclear--facility 
physical security, recognition of sabotage devices and equipment, 
contraband detection devices and operation, firearms training and 
tactical response training. Annual supplemental training covers areas 
such as weapons proficiency, physical readiness, stress fire course, 
force-on-force drills, and table top drills. A significant amount of 
annual training focuses on force-on-force training, which covers such 
topics as threat assessment and tactical response, response force 
deployment and interdiction, protection of specified vital equipment 
and protected areas, multiple target acquisition and engagement, and 
the use of armored body bunkers, ballistic shields, and other 
specialized security equipment.
    As a further protection to the public, each nuclear power plant has 
an extensive and well-honed emergency response organization and systems 
in place to respond to and mitigate any emergency that arises. 
Emergency response plans are tightly integrated with local, State and 
Federal regulatory and emergency authorities and undergo regular 
training and drilling. The emergency planning zone includes an area 
within a 10-mile radius of the plant, an area encompassing roughly 315 
square miles. Since September 11, Exelon Nuclear has conducted security 
briefings for State and local officials in each of the States in which 
we operate to reinforce the coordination and response plans in the 
event of an emergency.

September 11 and Its Aftermath
    Upon notification by the Nuclear Regulatory Commission on September 
11, all nuclear plants immediately increased their security to Level 3, 
the highest level of security maintained at commercial nuclear 
reactors. All U.S. commercial reactors remain at Level 3.
    Since September 11, nuclear plants have also extended the point of 
initial screening of people entering the plant site from the protected 
area boundary to a point in the owner controlled area boundary. This 
initial screening includes an identification check, confirmation of the 
purpose for entering the site, and a thorough vehicle inspection for 
all visitors. State police and, in some cases the National Guard, have 
augmented this effort. In addition, armed patrols have extended their 
patrols to include a larger portion of the owner-controlled area. These 
patrols are coordinated with onsite personnel to enhance detection and 
deter potential threats.
    Given the uncertain nature of potential attacks, Exelon Nuclear and 
other reactor operators took a variety or protective measures in 
conjunction with NRC guidance. These included actions to harden site 
access, increase security resources, and improve operational readiness.
    To harden site access, Exelon has: established armed owner control 
area checkpoints for all vehicles entering the site; implemented 
additional vehicle pre-screening and control of all onsite deliveries 
upon entry to the owner-controlled area; positioned barriers to prevent 
access at alternate Owner Controlled Area entrances; restricted visitor 
access to those required for essential plant work; extended background 
checks for all personnel with temporary unescorted access; checked 
employee data bases against FBI watch lists of suspected terrorists 
from all known terrorist organizations.
    To increase security resources, Exelon has: increased the number of 
security officers; procured additional weapons and upgraded armaments; 
added armed security posts at key plant locations; increased the 
security presence at each site entrance; added local law enforcement, 
and at times National Guard, posted at site entrances.
    To enhance operational readiness, Exelon has: enhanced plant 
procedures and operator training for use during an attack or credible 
threat; implemented a fleet-wide threat assessment procedure to respond 
to threat situations; elevated attention to security and fire 
protection related equipment; established protocol for augmented 
Federal and State law enforcement assistance and intervention.
    Since shortly after September 11, the Nuclear Regulatory Commission 
has been engaged in a top-to-bottom review of the Design Basis Threat 
to reevaluate its adequacy. As an interim measure, the Commission 
issued Orders on February 25th of that year which imposes significant 
additional requirements on licensees pending the completion of a more 
comprehensive review of safeguards and security program requirements.
    While many of the specifics regarding the NRC Orders are classified 
as safeguards information and cannot be disclosed to the public, issues 
addressed by the Orders include security officer staffing levels, 
protection against potential vehicle and waterborne threats, protection 
of used fuel, enhanced access authorization controls, and mitigation 
efforts in the event of an attack.

           ADDITIONAL SECURITY CHALLENGES AND RECOMMENDATIONS

    As the United States acts to strengthen homeland defense in light 
of new threats to the nation's security, it is imperative that Federal, 
State, and local officials work cooperatively with nuclear plant 
operators to buildupon the solid foundation of emergency response 
capability that existed prior to September 11.
    In particular, there are several steps that we believe the Federal 
Government should take to address security issues at nuclear power 
plants.
    <bullet> There must be a clearer delineation of responsibility 
between government and plant licensees. Federal law currently requires 
NRC licensees to protect against a variety of potential threats to 
commercial nuclear power plants, but the law also considers many 
threats to be outside the scope of licensee responsibility and instead 
relies on law enforcement agencies and the military to protect against 
certain threats. Congress and the Administration must determine where 
the line between licensee and government responsibility lies in light 
of the new threats faced by nuclear power plants and other facilities 
that make up the nation's critical energy infrastructure.
    <bullet> There must be improved communication and coordination 
among licensees and the various Federal, State and local agencies 
involved in emergency response planning. The Federal Government has a 
role in financially supporting many of the actions necessary to 
accommodate this improved communication and coordination.
    <bullet> The Nuclear Regulatory Commission has incurred--and will 
continue to incur--additional costs to address new security concerns. 
Congress should support the NRC's request for additional funding to 
support additional actions undertaken in support of homeland defense.
    <bullet> The Nuclear Regulatory Commission should revise its 
protocol of threat levels to conform with that used by the Office of 
Homeland Security.
    <bullet> In determining the resources necessary to protect nuclear 
power plants, the Federal Government should consider the potential 
vulnerability of these plants relative to other potential critical 
infrastructure targets and allocate limited Federal resources to those 
facilities deemed to be most vulnerable to terrorist attack.

Delineation of Government and Licensee Responsibility
    The most pressing challenge facing Congress and other Federal 
policymakers is ow to allocate responsibility for protecting the 
nation's critical infrastructure against attacks by terrorists and 
other enemies of the state. Federal law currently requires Nuclear 
Regulatory Commission (NRC) licensees to protect against a variety of 
potential threats to commercial nuclear power plants. Federal law 
considers many potential threats to be outside the scope of licensee 
responsibility and instead relies on law enforcement agencies and the 
military to protect against certain threats. The question facing 
Congress and the Administration is where the line between licensee and 
government responsibility lies in light of the new threats faced by 
nuclear power plants and other facilities that make up the nation's 
critical energy infrastructure.
    The events of September 11 have presented the Nation with a variety 
of new challenges. Protection of the country's critical infrastructure 
is among the most important of these challenges, but it is a challenge 
that I am confident the nuclear energy industry can and will continue 
to meet.
    Exelon Nuclear fully supports the NBC's efforts to conduct a top-
to-bottom review of security requirements pertaining to nuclear 
facilities. We continue to assess security at our plants and have taken 
appropriate steps to increase security measures as a result of the 
heightened State of alert.
    As Congress and the Administration debate what changes in Federal 
law and policies are appropriate in the aftermath of the September 11 
attacks, strong consideration should be given to building upon the 
existing regulatory system which distinguishes between threats for 
which licensees are responsible and threats for which law enforcement 
and the military are responsible.
    As I mentioned earlier in my testimony, the House of 
Representatives endorsed one such approach last year as part of H.R. 
2983, the Price-Anderson Amendments Act, which passed by the House by 
voice vote. The House legislation directs the President to conduct an 
assessment of potential threats against nuclear facilities and to 
classify each threat as one for which the Federal Government should be 
responsible or as one for which NRC licensees should be responsible The 
measure also requires the Nuclear Regulatory Commission to promulgate a 
rulemaking to ensure that licensees address the threats identified in 
the report as a licensee responsibility.
    Exelon strongly supports the Price-Anderson provisions as a 
reasoned approach to this very important issue. The Presidential study 
will allow the White House to coordinate the efforts of a number of 
Federal agencies to conduct a comprehensive threat assessment. Such an 
approach will also allow personnel knowledgeable in security matters to 
make decisions in coordination with intelligence officials to ensure 
that nuclear facilities are treated in a manner consistent with the 
protection of other critical infrastructure facilities.

Improved Communication and Coordination
    The need for improved communication and coordination among 
licensees and Federal, State and local government agencies is perhaps 
best illustrated by an event at AmerGen's Three Mile Island (TMI) plant 
last year. The Nuclear Regulatory Commission notified AmerGen on 
October 17, 2001, that the Federal Government had received information 
that it believed constituted a credible threat against the plant. A 
number of Federal agencies and organizations, including the NRC, the 
FBI, the FAA, and NORAD, were involved in the subsequent response to 
what was later determined not to be a credible threat.
    Site personnel took immediate action to secure the plant, which was 
in the midst of a maintenance and refueling outage. The company also 
requested--and received--additional security assistance from the 
Pennsylvania State Police.
    The ``threat'' against Three Mile Island showed that the regulatory 
system currently in place can work effectively in response to a 
potential threat. As the licensee, AmerGen took immediate action to 
secure the site physically and called in additional assistance from the 
law enforcement community, while the Federal Government and the 
military took action to protect the plant against potential threats 
that fell outside the design basis threat against which AmerGen is 
responsible for defending.
    At the same time, the TMI event also provided both the industry and 
the government with some valuable ``lessons learned,'' including the 
need to work more closely with Federal officials to clarify the nature 
of threat information, the need to develop coordination procedures with 
multiple Federal agencies, and the need to communicate effectively with 
local elected officials and emergency services personnel.
    The Commission took a step toward addressing some of these issues 
earlier this year when it established an Office of Nuclear Security and 
Incident Response to consolidate and streamline selected NRC security, 
safeguards, and incident response responsibilities and resources. While 
this should address some coordination and communications issues, other 
Federal agencies must engage in similar efforts.
    Finally, it is important that the NRC be integrated into the 
intelligence community's process for assessing and communicating 
potential threats against commercial nuclear facilities and other NRC 
licensees. Nuclear plant licensees are highly dependent on receiving 
threat information from the NRC, so it is essential that the Commission 
itself be fully integrated into the intelligence community's threat 
assessment process.

Expansion of NRC Mission
    The Nuclear Regulatory Commission has incurred--and will continue 
to incur--additional costs to address new security concerns. While the 
Commission plans to reallocate existing resources to support the new 
Office of Nuclear Security and Incident Response, the NRC's mission 
with regard to security is likely to expand as the Federal Government 
reassesses the responsibilities of various parties for providing 
nuclear security. NRC's efforts should be coordinated with the broader 
efforts of the Office of Homeland Security. Congress should support the 
NRC's request for additional funding to support additional actions 
undertaken in support of homeland defense.

Security Protocols and Procedures
    As I noted earlier, the NRC currently uses a three level security 
classification system. Each of the nation's 103 reactors have been at 
the top level, Level 3, since September 11 and the Commission has 
indicated that plants will remain at Level 3 for the foreseeable 
future. This situation begs the question of how meaningful the 
different security classifications are if the highest level of alert 
effectively becomes the only level of security. Given these concerns 
and the need for consistency in communicating the urgency of potential 
threats, the Commission should revise its protocol of security levels 
to conform to the five level classification system established by the 
Office of Homeland Security. Such a system would also allow the 
Commission and licensees to distinguish between the current generalized 
heightened State of alert and a more specific threat against a plant or 
plants.
    As the NRC develops a new security level classification; it should 
establish security requirements that correspond appropriately to the 
various threat levels. In essence, the Commission must redefine the 
baseline security requirements for plants assuming a ``green'' alert 
level where no threat exists. The Commission should then require 
appropriate additional security requirements as alert levels are 
upgraded. This will allow plant operators and emergency response 
officials to develop readiness levels commensurate with the threat 
level that exists.

Balancing the Need for Enhanced Security and Limited Federal Resources
    In determining the resources necessary to protect nuclear power 
plants, the Federal Government should consider the potential 
vulnerability of these plants relative to other potential critical 
infrastructure targets and allocate limited Federal resources to those 
facilities deemed to be most vulnerable to' terrorist attack.
    For example, some in Congress have advocated federalizing nuclear 
plant security forces. As I mentioned earlier in my testimony, the 
industry has a highly trained force of security personnel guarding 
commercial nuclear plants. Replacing these forces with Federal 
employees is unnecessary and would complicate the ability of licensees 
to coordinate the response of plant and security personnel in the event 
of a terrorist attack. Federalizing nuclear security forces would also 
unnecessarily limit the pool of potential guards by prohibiting retired 
military and other government officials who would' be prohibited from 
serving as Federal security personnel and continuing to draw, their 
Federal pension.
    Others in Congress and elsewhere have advocated placing anti-
aircraft artillery installations at nuclear plants to protect against 
an air attack. The industry believes that Federal resources would be 
more properly focused on increased airport security to ensure that 
terrorists are denied access to the large commercial airliners that are 
of most concern.
    Given the strong physical structures at nuclear plants and the 
highly trained guard force to protect commercial nuclear facilities, 
resources may be more appropriately focused on other critical 
infrastructure facilities.
    Mr. Chairman, thank you for the opportunity to discuss these issues 
with you. Let me close by reiterating that the nuclear industry 
recognizes our responsibility, for protecting the public health and 
safety, and we are committed to taking the steps necessary to do so.
    I would be pleased to answer any questions you may have.

                                 ______
                                 
Responses by Jack Skolds to Additional Questions from Senator Voinovich

    Question 1. Please explain your claim that the owners and operators 
of nuclear facilities have the greatest interest in protecting the 
safety and security of the plants.
    Response. As the owner and operator of a commercial nuclear 
reactor, Exelon's foremost responsibility is to the protection of the 
health and safety of the public and of our employees. Exelon Nuclear's 
commitment is outlined in our Conduct of Operations policy, which 
states that we ``will operate and maintain nuclear power plants with 
the full commitment to public and employee health and safety.''
    Thousands of nuclear plant workers and their families live within 
the 10-mile emergency planning zone which surrounds commercial nuclear 
reactors. Clearly, these employees have an overriding personal interest 
in making sure that they do not take any action that would threaten the 
safety or security of the plant.
    From a business perspective, nuclear plants represent the largest 
corporate asset of most nuclear plant owner and operators. The 
management of the corporation would never place these assets at risk by 
cutting back on necessary safety and security measures. The safe 
operation of our plants is the first priority of plant operators.
    Thus, while the general public undoubtedly shares our strong 
interest in assuring that nuclear plans are operated safely and 
securely, the combination of personal and business factors mentioned 
above make it clear that the owners and operators of nuclear facilities 
have the greatest interest in protecting the safety and security of the 
plants.

    Question 2. What are the specific concerns with Congress being 
involved with, and possibly even setting, the design basis threat?
    Response. Congress has the responsibility to provide guidance to--
and to conduct oversight of--the Nuclear Regulatory Commission (NRC) 
and other Federal agencies regarding the level of security and safety 
expected by the American public, but establishing the details of the 
design basis threat is best accomplished by experts in nuclear safety 
who have access to the full range of intelligence information regarding 
threats to nuclear facilities.
    Establishing the details of the design basis threat through the 
regulatory process is beneficial for several reasons:
    First, establishing the design basis threat requires a significant 
amount of expertise in the area of threat assessment. The NRC and other 
Federal agencies have an established relationship with the intelligence 
community and have established a process for gathering and evaluating 
threat information.
    Second, it is important that the NRC have the ability to update the 
design basis threat without the enactment of legislation, a difficult 
task in the best of times. The design basis threat is currently 
codified in NRC regulations and can be changed through the rulemaking 
process.
    Finally, although the regulatory process can be lengthy, it 
provides for significant input from all stakeholders and interested 
parties in a manner that cannot be duplicated by the Congress. 
Regulations are typically issued in draft form, with an opportunity for 
public comment and, in some cases, public hearings.
    The industry recognizes that Congress is responsible for assuring 
that the NRC and the nuclear industry are examining and responding to 
the events of September 11th, including the nature of the potential 
threat to our national infrastructure.
    The nuclear industry would welcome the opportunity to provide to 
the Committee with more details on the nature of plant security and 
information regarding the many improvements in plant security 
operations that have been made since last year in a closed session.

    Question 3. Could you please explain specifically why you believe 
the requirements, standards, and qualifications of a federalized 
security force would degrade security?
    Response. Following the introduction of legislation in both the 
Senate and the House of Representatives calling for the federalization 
of the security forces at nuclear power plants, the industry conducted 
a review of this issue through its trade association, the Nuclear 
Energy Institute (NEI). NEI issued a lengthy report on the issue 
(``Implications of Security Force Federalization on Nuclear Plant 
Security Safety''), which I am attaching to this response. The report 
concludes that federalizing nuclear power plant security could have 
several negative impacts:
    <bullet> It could diminish and disrupt plant security by 
bifurcating the management responsibilities over the security forces.
    <bullet> It could unnecessarily distract the NRC from its NRC's 
primary mission of protecting public health and safety through the safe 
operation of nuclear plants by creating one of the largest law 
enforcement and security agencies in the country.
    <bullet> It could reduce the stringent hiring standards, extensive 
background checks, training and performance reviews that are already in 
place for our private security forces since existing standards exceed 
the minimum standards specified in proposed legislation.
    <bullet> It could squander vital experience that current forces now 
have by replacing these private security forces with Federal personnel 
with little or no experience at nuclear plant facilities.
    <bullet> Federalizing nuclear plant security forces when nuclear 
plants are already among the most secure privately owned facilities in 
the country may easily result in a mis-allocation of limited Federal 
security forces. For this reason, the industry believes that Congress 
and the Administration should conduct a comprehensive review of 
security at all critical energy infrastructure before making patchwork 
changes in security requirements.

    Question 4. Can you explain the concerns of NRC licensees about he 
possible legal implications of providing arrest authority to private 
security forces and the possible remedies to these concerns?
    Response. The nuclear industry largely supports the efforts of the 
NRC to increase the legal authority of our security forces. We are 
concerned, however, that efforts to blur the distinction between local 
law enforcement agencies and private security forces may have 
unintended consequences. For example, a wide body of State and Federal 
law has developed to establish the rights and responsibilities 
associated with the arrest authority of local law enforcement agents, 
but it is not clear how the underlying principles would be applied to 
private security forces. For example, would the arrest authority of our 
private security forces extend beyond our perimeters to permit the 
arrest of demonstrators that might block access to our facilities? In 
addition, would granting arrest authority to private security forces 
restrict their ability to engage in interviews of individuals or 
conduct searches of an individual's property on the plant site?
    Notwithstanding the authority to arrest or not arrest, our nuclear 
plant security officers are currently fully prepared to perform their 
duties to protect our facilities.

    Question 5. As the largest nuclear operator in the country, can you 
speak to how the NRC and the facilities have responded to various 
threats and concerns following Three Mile Island up to September 11?
    Response. Since the Three Mile Island incident, a significant 
number of security measures have been taken. Improved vehicle barriers 
have been installed, improved training of security officers has been 
employed, and strengthened physical barriers have been erected.

                               __________
Statement of Danielle Brian, Executive Director, Project on Government 
                            Oversight (POGO)

    Mr. Chairman and members of the committee, POGO first began 
investigating security at nuclear facilities over 16 months ago. We are 
an investigative organization that works with insiders in order to 
improve public policy. We have neither a pro- nor an anti-nuclear 
agenda. We began investigating the Department of Energy's (DOE) nuclear 
weapons facilities because more than a dozen insiders--current and 
former DOE and contractor security officials, contractors with military 
experience who test and evaluate the security at these facilities, and 
members of various guard forces--came to us with grave concerns 
regarding inadequate security pre-September 11.
    Just prior to September 11, we completed our report ``U.S. Nuclear 
Weapons Complex: Security at Risk,'' concluding that our nation's ten 
nuclear weapons facilities, which house nearly one thousand tons of 
weapons-grade plutonium and highly enriched uranium, regularly fail to 
protect this material from mock terrorist attacks. Once security became 
a national priority, we briefed these alarming findings with the 
National Security Council, the Office of Homeland Security, the 
Pentagon Nuclear Command and Control staff, the staff of the Scowcroft 
End-to-End Review, the Office of Management and Budget, numerous 
Congressional Committees and Members, and at Rep. Chris Shays' request, 
the General Accounting Office.
    Because of this work, guards from commercial nuclear power plants 
across the country began contacting POGO with similar concerns about 
inadequate security at the plants where they work. In April, POGO 
accompanied a group of nuclear power plant security guards to brief a 
dozen Congressional offices and Committee staff about their first hand 
concerns. We then began working with current and former Nuclear 
Regulatory Commission (NRC) security officials and contractors with 
military capabilities who test and evaluate security at commercial 
reactors. These people echo the same concerns about ongoing inadequate 
security at commercial nuclear power plants.
    My testimony is based on the information and documents gathered 
from these insiders. Again, I believe it is important to emphasize that 
our sources of information are not ``anti-nuclear.'' In fact, most of 
them have worked in the nuclear energy field for most of their adult 
lives. We applaud the sponsors of Senate Bills 1586 and 1746, the 
``Nuclear Security Act,'' for several important provisions contained in 
these bills.

                        THE DESIGN BASIS THREAT

    Nuclear facilities are required to protect against a specified 
level of threat (known as the Design Basis Threat or DBT) from outside 
attackers and inside conspirators using a specific set of weapons. 
NRC's current DBT is wholly inadequate and must be made more realistic. 
According to published sources including U.S. News and World Report, 
the NRC's DBT requires protection against only three outside attackers 
with the help of one passive insider. This is absurd given the 19 
terrorists involved in the highly coordinated, technologically advanced 
September 11 attack.
    Rumors are that DOE will increase its DBT to approximately ten 
outside attackers and significantly upgrade the weaponry and tools that 
adversaries can be expected to use in an attack; However, although some 
in NRC have also recommended an increase tots DBT, there seems to be 
resistance within the senior ranks of the NRC to committing to making 
these improvements. There appears to be no justification for the NRC to 
have a less robust DBT for nuclear power plants than DOE has for 
nuclear weapons facilities. A successful attack on either a nuclear 
power plant or weapons facility would cause unfathomable damage to 
surrounding populations. We believe that the provisions in the 
``Nuclear Security Act'' for a new and significantly upgraded DBT are 
absolutely essential.
    In addition to the inadequate number of attackers to be protected 
against, the current DBT does not require protection against some of 
the most dangerous weapons that are available on the open market today, 
such as 50 caliber API sniper rounds that can penetrate hardened guard 
posts and vehicles, nor do they use simulated chemical or biological 
agents that would require the guard force to be trained with gas masks. 
Furthermore, performance tests do not employ diversionary tactics that 
are likely to be used during an attack, such as remote controlled 
explosives. POGO agrees with the Nuclear Security Act's provisions that 
the new DBT include enhanced requirements for more realistic weapons, 
explosives, tools, and tactics, as well as more outside attackers and 
active inside collaborators.

                            POOR PERFORMANCE

    Though the DBT is severely inadequate compared to what we now 
recognize as the threat, half the nuclear power plants cannot even 
protect against this current standard of three outside attackers. David 
Orrik, the head of the Operational Safeguards Response Evaluation 
(OSRE) program, testified before the House Commerce Committee on April 
11, that in 46 percent of the force-on-force security tests:

        ``the expert NRC team identified a significant weakness--
        significant being defined as the adversary team simulating 
        sabotaging a target set, which would lead to core damage and in 
        many cases, to a probable radioactive release. It is important 
        to note that, even with adequate time for the plants to prepare 
        and make themselves ready for the OSRE, that 46 percent still 
        had--a weakness in armed response.''

    Let me caution the Committee--these tests are seriously dumbed down 
to favor the guard forces. The utilities are informed of an upcoming 
test six to 10 months in advance giving them plenty of time to prepare, 
the guards are usually aware of the attack scenarios, the mock 
terrorists are allowed to be made up of the utilities' own management 
staff, and the weapons used in the tests are not nearly as dangerous as 
those that can easily be found on the open market.
    Despite their clear artificiality and imperfections that favor the 
guard forces, force-on-force performance tests are still the best test 
of the performance of a guard force in protecting key targets at a 
nuclear facility. This is the key issue that cannot be forgotten--can 
the guard force protect the integrity of the reactor and the spent fuel 
pools from a suicidal terrorist attack? The statistics say no. How much 
worse would those statistics be if the DBT accurately represented the 
very real and sophisticated threat we know we are now facing?
    The mindset of both the utilities and the NRC is far too 
compliance-oriented--rather than performance tested. Our security 
guards are regularly told that security upgrades are unnecessary 
because the utility is already in ``compliance'' with NRC regulations. 
In other words, if a checklist of requirements for detection, delay, 
and response is met--to include such items as a double-fence, alarms, a 
certain number of guards--the facility is deemed secure. However, 
performance tests repeatedly reveal that despite this ``compliance'' 
with requirements, physical security and the guard forces cannot stop 
terrorists from causing catastrophic damage to the reactor. This 
institutionalized bureaucratic complacency may be the biggest 
impediment to adequate security.
    A post-September 11 example of this phenomenon is that armed guards 
are now required to accompany all visiting trucks coming onto the site. 
We are told, there is often no extra guard available, and therefore, a 
guard is required to leave his post uncovered to accompany the truck. 
In these cases, the facility may be in compliance with this new 
requirement, yet guards are concerned that there is a hole in their 
defensive posture.

             SPENT FUEL POOLS ARE SECURITY'S POOR STEPCHILD

    The NRC has never tested a power plant guard force's ability to 
protect spent fuel pools--possibly the prime target of a terrorist 
attack. In October of 2000 the NRC started to recognize the problem of 
spent fuel fires in a study of the effects of accidents. However, in 
100 pages of analysis, they never considered sabotage by terrorists. 
The NRC needs to create a target/assets list prioritized by importance.
    Several spent fuel pools at nuclear power plants across the country 
are only 50 yards from the double fence line. In a terrorist attack, 
the initial strike would likely be extraordinarily violent, fast, and 
with a significant level of human carnage. According to Sandia National 
Lab's ``Barrier Technology Handbook,'' it is estimated that a terrorist 
could penetrate the fence line and breach a door or side of a secured 
building in less than 60 seconds. We encourage the NRC to immediately 
recognize spent fuel pools as a primary terrorist target.
    We have been advised by military Special Forces sources of specific 
and obvious vulnerabilities at most nuclear power plants that I would 
be happy to discuss with Senators or staff. I am uncomfortable, 
however, outlining them in public testimony.
    To explain in general terms, a certain type of explosive, which a 
terrorist could carry on his back, would allow him to blow a sizable 
hole in the reinforced concrete bottom or wall of the spent fuel pool. 
At nuclear plants that have boiling water reactors (BWR)--about one-
third of the existing reactors are BWRs--things could be even worse. 
These reactors have the spent fuel pools above ground. In these cases, 
a certain kind of explosive could even be launched from outside the 
fence line into the side of the pool. According to an unclassified 
study by Brookhaven National Lab, under certain conditions, the pool 
would start draining immediately, which could result in the immediate 
release of high-levels of radiation, quickly turning into an 
uncontrolled radioactive fire, and the plant could do nothing effective 
about it.
    The Nuclear Security Act does require a plan to increase security 
of these spent fuel pools. In the meantime, we would encourage the 
addition of barriers and delay mechanisms to supplement security until 
the spent fuel is placed in dry casks underground.

                    INADEQUATE TRAINING AND WEAPONRY

    Guards from several of the power plants have registered complaints 
with POGO about inadequate training as well. For example, one facility 
hired a new class of guards after September 11. The vast majority of 
the new recruits had never fired a gun before. During their training, 
they were limited to firing 96 rounds with their handgun, and far fewer 
with their shotguns. Two guards quit after 2 months on the job 
believing they couldn't protect the plant in the case of a terrorist 
attack. They told POGO, and other guards have admitted to NRC 
inspectors, that their training is so inadequate; in the face of real 
terrorist attack, many guards would use their guns simply to protect 
themselves while they escaped from the plant. Other guards with decades 
of experience protecting nuclear power plants bemoaned the lack of 
training outside the classroom, as well as the lack of modern tactical 
training. For example, their firearms training requires only that they 
be capable of standing and hitting a stationary target 25 yards away--
they have no training shooting on the run at a moving target.
    Additionally, the guard forces at nuclear power plants are severely 
out-gunned. Even the NRC's DBT assumes that attackers will be armed 
with automatic weapons and explosives, yet many guard forces around the 
country are equipped only with shotguns and revolvers. We understand 
that the NRC is working with the Committee on legislative language to 
address this discrepancy.

               SECURITY TESTS: MORE OFTEN AND MORE ROBUST

    NRC's virtually defunct Operational Safeguards Response Evaluation 
(OSRE) program conducts force-on-force tests using mock attackers only 
once every eight years at each plant. According to the nuclear power 
plant security guards and NRC inspectors we have interviewed, this 8-
year hiatus creates a woeful lack of focus on security between tests. 
According to the guards with whom we have been working, because the 
tests are announced so far in advance, the utility management has time 
to quickly invest in security training consultants to improve their 
posture and chances of success. The guards advise us that after OSRE 
force-on-force tests, the security posture regularly returns to a bare 
minimum.
    POGO agrees with the Nuclear Security Act's provision to require 
that such tests occur no less than every 2 years to ensure that 
heightened standards remain in effect. POGO additionally recommends 
that the utility only be given 24- to 36-hour notice and that the 
utility be required to freeze in place the guard force to be tested at 
the moment of notification, rather than being allowed to call in the 
youngest or most capable guards.
    Currently, the mock terrorists and the attack scenarios to be 
tested are chosen by the utilities. The mock terrorists can be county 
or State police, the utility's own training staff, or even their own 
utility management staff--the very people who have a stake in ensuring 
success. With all due respect to these people, and as genuine as they 
may be in trying to test the physical security of the facility, none of 
them are trained to have the mindset or skills of highly trained 
terrorists. POGO recommends the use of military Special Forces units 
that are already trained to act as the adversarial team in force-on-
force tests.
    According to the guards, they know within an hour or two when a 
test will take place and what part of the plant the mock terrorists 
will attack. They tell us that contrary to the full-page ads in the 
Washington Post and other newspapers, they do not normally wear flack 
jackets or their communications gear, nor do they carry their semi-
automatic weapons. Sometimes, the guards are more than a football 
field's distance away from their weapons and flack jackets. However, 
when the mock attack is about to take place, the guards are magically 
wearing their flack jackets and communications gear and have their 
weapons in hand. Even more troubling is the fact that, at one-third of 
nuclear power plants, the guards only have access to shotguns, and they 
are locked up at a central location. In case of a real attack, the 
guards would have to go to that location, unlock the cabinet, get their 
shotguns and protective gear, and return to their post. By that time, 
the terrorists would have achieved their goals and caused catastrophic 
damage. Ongoing, limited-scope performance tests should regularly be 
testing the timelines for terrorist access to critical components.
    If the facility fails a performance test, the Nuclear Security Act 
requires re-testing every 6 months until it passes. We would recommend 
immediately calling in a well-armed and trained National Guard unit as 
compensatory action to supplement security until the facility passes a 
new OSRE test.
    We have learned from anti-terrorism experts that the worst enemy of 
any guard force is the daily grind of nothing happening. Guards are 
only human. A simple way to combat this problem is to add unannounced 
checks by the NRC to security testing. Fast food chains and the Postal 
Service frequently use a ``mystery shopper'' to use a false ILK or 
exploit some other weakness. Because the guards know a ``mystery 
shopper'' may be in their midst at any time, they remain more alert. 
This would be a very low cost tool that would significantly supplement 
security.

                             FEDERALIZATION

    We recognize that federalizing the security force is a contentious 
issue. POGO believes that the same goals can be accomplished through 
far more vigorous Federal oversight, along with upgraded training, 
compensation, and authority granted to security forces.
    Currently, security guards who are risking their lives are among 
the lowest compensated employees at many plants. Pay scales and first 
responder benefits for security forces, including life and disability 
insurance, should be commensurate with those accorded to local police 
and fire departments. We cannot expect our security guards to give 
their all when we do not fairly provide for them in the event that they 
are injured while performing this dangerous and important job. Also, 
people working at nuclear power plants, including NRC and utility 
employees as well as contractor and subcontractor employees, should be 
given whistleblower protections. In the current climate of fear and 
whistleblower retaliation, it has been our experience that people have 
been deterred from coming forward with important information that could 
help fix security problems. The Paul Revere Act, introduced in the 
House; and soon to be introduced in the Senate, would strengthen 
whistleblower rights and extend them to Federal contractor employees.
    We applaud the introduction of Senate Bill 1586 that recognizes 
that security forces do not have enough authority to carry out their 
mission. Currently, guards are prohibited from using deadly force 
unless an intruder wields a gun; or they feel their life or the life of 
someone else is in danger, in accordance with State law. In other 
words, if an attacker jumps over the fence with a backpack and runs 
toward the reactor building or spent fuel pool, the guard can only 
attempt to chase down the attacker. We have been told of an instance 
when an NRC inspector observed a guard follow a mock terrorist during a 
force-on-force drill as he destroyed critical target sets in the 
reactor complex. When asked why he wasn't doing anything to stop him, 
the guard explained that he didn't have the authority to shoot an 
intruder who was only destroying property. The NRC has been trying to 
resolve this conflict for years. This legislation must remedy this 
obvious failure.
    Local law enforcement and first responders should also be given 
clearance to receive safeguard information so they can better 
coordinate emergency response plans. Currently, local law enforcement 
and first responders, in many cases, do not have adequate familiarity 
with the layout of critical areas of the plant that is necessary to 
respond to an emergency.
    If there is any expanded role for the Federal Government, it should 
be providing independent oversight, rather than management of security. 
Robust and credible Federal oversight is absolutely key to adequate 
security at both the nuclear power plants and nuclear weapons 
facilities. POGO has already recommended taking the security oversight 
function out of DOE, and we strongly recommend the same for NRC. NRC 
has historically been altogether too compliant with industry's wishes. 
For example, recently agreeing to industry's demands to replace OSRE 
with industry self assessments of security was totally irresponsible. 
History has shown that the critical job of security oversight cannot be 
adequately performed from within these agencies. Therefore we suggest 
that a small independent Office of Nuclear Security be created, perhaps 
housed in the Office of Homeland Security, or perhaps as an independent 
agency reporting to the Congress and President. Its purpose would be to 
provide oversight over and test the security of both government and 
commercial nuclear facilities.
    We would be happy to assist you and your staff as you work to 
refine these pieces of legislation, as well as making some of our 
inside sources available to you so that you can learn from their first-
hand experiences.

                                 ______
                                 
       Response by Danielle Brian to an Additional Question from 
                            Senator Clinton

    Question. In your testimony, you indicate that the mock terrorists 
and the attack scenarios to be tested at the plants are chosen by the 
utilities themselves. Can you explain further?
    Response. The OSRE does not use special forces military units, or 
their own trained adversary units, in their force on force tests of the 
power plant guard forces. The utilities are allowed to choose the 
adversary force--which is a key element of these tests. The utilities 
over time have chosen their own management personnel, their own 
training staff, and local and State police units as adversaries. This 
is a serious flaw in the tests. Even if these adversary forces are 
trained at all, they are not trained to have a terrorist mindset--as 
some military special forces units are. We strongly recommend that 
special military units, or OSRE's own trained adversary units be used 
for force-on-force tests. The utilities are also allowed to choose the 
scenario to be tested--for example, the location of the attack, as well 
as the target. In that the guard force has 6-9 months to practice these 
particular scenarios, the guards are never surprised by either the 
timing of the attack, or the tactics of the ``terrorists.'' When they 
are surprised by an unscripted tactic, the utility complains that the 
adversaries ``cheated.'' For these reasons, and others, we believe 
these tests are dumbed-down and not credible.
    One way to address these artificialities in the oversight would be 
to create a permanent Office of Nuclear Security in the new Department 
of Homeland Security. We have come to believe that the nuclear 
agencies, including the Department of Energy, are incapable of serious 
self-evaluation. We have talked to OMB and Homeland Security about this 
idea, and they believe it has merit. Moving the OSRE function out of 
NRC and into Homeland Security would be a quantum leap toward serious 
security oversight of our nation's nuclear power plants.

                                 ______
                                 
          Responses by Danielle Brian to Additional Questions 
                         from Senator Voinovich

    Question 1. In your testimony, you stated that a re-evaluation of 
the design basis threat is necessary. However, S. 1746 provides for a 
NRC report to Congress about the changes made to the design basis 
threat. In your opinion, what is the value of making these changes 
public?
    Response. I never suggested that the new DBT be made public. In 
fact, I believe it should not be public. However, the Congress should 
fully understand the basis for and the credibility of the new DBT--not 
only for the number of outside attackers, and the issue of passive/
active insiders, but also the kinds of weaponry, tools, explosives, 
etc. that can be used by the adversaries. Without informed 
Congressional oversight, agencies have historically been incapable of 
maintaining even adequate standards.

    Question 2. Specifically, what impact will publishing these changes 
have on our national security and do you think Members of Congress 
should be involved in making decisions about the adaption of this 
threat analysis?
    Response. I never suggested that the new DBT be made public. In 
fact, I believe it should not be public. However, the Congress should 
fully understand the basis for and the credibility of the new DBT--not 
only for the number of outside attackers, and the issue of passive/
active insiders, but also the kinds of weaponry, tools, explosives, 
etc. that can be used by the adversaries. Without informed 
Congressional oversight, agencies have historically been incapable of 
maintaining even adequate standards.

    Question 3. Currently, the NRC, like many other Federal agencies, 
is facing a human capital crisis to get people to work for the agency 
with the appropriate education, training, and experience. Many of the 
steps that you suggest in your testimony, such as training and testing, 
require more people with this specialized knowledge. How do you suggest 
that the NRC attract and keep these appropriate nuclear security people 
to meet these proposed requirements?
    Response. The NRC is currently in the process of hiring a number of 
new people in security, and we understand their applicants are highly 
qualified. Our testimony, however, referred specifically to the 
inadequate training provided to the security guards by the utility's 
security subcontractors. The poor pay, benefits and training afforded 
many nuclear security guard forces is a very serious issue that may 
require a legislative fix.

                               __________
     Statement of Donna J. Hastie, BS, MS, Emergency Preparedness 
                       Specialist, Marrietta, GA

    Thank you, Mr. Chairman. My name is Donna Miller Hastie. My 
experience in emergency planning includes 23 years in the commercial 
nuclear power industry in the U.S. and abroad. Before joining the 
nuclear industry, I supervised a nuclear medicine program in a 
hospital. During my career, I have served as an evaluator or observer 
at over 500 emergency preparedness drills and exercises. And, for many 
years, I have had the pleasure of co-sponsoring and teaching emergency 
preparedness in a continuing education course at Harvard University. I 
have also made presentations or taught at MIT, Rutgers, and the 
Leadership School at Wharton.
    My experience includes:
    <bullet> Manager of the Emergency Preparedness (EP) program for the 
Beaver Valley Power Plant in Pennsylvania, including onsite emergency 
response readiness and coordination with offsite State and local 
emergency response organizations. The 10-mile emergency planning zone 
(EPZ) for Beaver Valley included three States, three counties, 30 
municipalities, three NRC regions, two FEMA regions, and 37 Federal 
agencies that make up the Regional Advisory Council (RAC).
    <bullet> Program Manager in the emergency preparedness division for 
the Institute of Nuclear Power Operations (INPO). During my 14 years at 
INPO, I completed 280 plus plant visits and at the time of my 
retirement, was manager of the emergency preparedness program for the 
Institute. I have been to every plant in the United States at least 
once, many more than once, and many outside the US. INPO's EP program 
included identifying areas of strengths and recommendations for 
enhancements for emergency response programs at nuclear power plants.
    <bullet> Manager of the Emergency Preparedness program at PSEG, 
(Salem/Hope Creek plants) in New Jersey for 5 years. The 10-mile EPZ 
for PSEG included two States, four counties, one NRC region, two FEMA 
regions, and again, multiple other Federal agencies.
    Since my second retirement in August of 2001, I have worked as an 
emergency preparedness consultant in the nuclear industry.
    As you can see, most of my career has been in emergency planning in 
radiation-related fields. And, like many people whose career is devoted 
to one area, I am occasionally reminded that many people are not 
familiar with the extensive history and experience in emergency 
planning that is the standard for commercial nuclear power plants.
    I look at my testimony today as an opportunity to provide 
enlightenment about an area that has, since September 11, generated 
considerable concern and much speculation among many Americans, and 
that is, the history of emergency preparedness programs at U.S. nuclear 
power plants.
    Emergency planning for nuclear plants actually goes back to 1970. 
In my testimony today, I will review how the work of the past 30 years 
has put in place emergency preparedness program elements to protect the 
health and safety of the public. This will include sections on:
    <bullet> What is Emergency Planning?
    <bullet> What is the Regulatory History of Emergency Planning?
    <bullet> What are the Existing Roles and Responsibilities?
    <bullet> What are the Existing Emergency Preparedness Program 
Elements?
    <bullet> What is the Experience with Nuclear Plant Emergency 
Response Programs?
    What is the Nuclear Industry's Commitment to Emergency Planning?
    Any comprehensive history of emergency planning must include the 
regulatory history, complete with titles and citations that can often 
make for laborious reading. But to not detail that history would be a 
disservice to this committee.

                      A. WHAT IS NUCLEAR PLANNING?

    Emergency Preparedness has three goals: (1) to protect the plant 
worker; (2) to protect the plant equipment; and (3) to protect the 
health and safety of the general public. An emergency plan and 
implementing procedures provide the basis for safeguarding the 
population and the work force.
    Since 1980, every nuclear power plant in the United States has been 
required by Federal law to create an onsite emergency response plan and 
ensure that offsite plans exist to protect public health and safety. 
The Nuclear Regulatory Commission (NRC) approves onsite plans. Approval 
of offsite plans is coordinated between NRC and the Federal Emergency 
Management Agency (FEMA). Both onsite and offsite plans must be 
approved for the plant to obtain and retain an operating license.
    Total emergency preparedness requires plans for the response of 
both systems and people. The engineering design of the plant provides 
for safe operations. The operating procedures address appropriate 
systems response during emergencies. The emergency plan and 
implementing procedures provide the basis for safeguarding the 
population and the work force.
    In the nuclear industry, effective emergency preparedness depends 
on mutually supportive planning. The multi jurisdictional nature of the 
emergency planning zone (EPZ) plan requires that arrangements must be 
made at multiple governmental levels--contiguous counties within the 
10-mile EPZ cooperating with mutual aid agreements, joined by State and 
Federal agency coordination. Federal departments and agencies, State 
and local governments, voluntary disaster relief organizations, and the 
private sector work together to meet basic human needs and restore 
essential services after an emergency.

                         B. REGULATORY HISTORY

    In December 1970, the NRC (then the Atomic Energy Commission) 
introduced emergency planning requirements into the regulations. 
(35FR19568, December 24, 1970). The content of application, technical 
information section was amended to include Section 10CFR50.34 ``A 
discussion of the applicant's preliminary plans for coping with 
emergencies''. 10CF50.34 embodying the first emergency planning rules, 
required a discussion of plans for coping with emergencies, and set 
forth-minimum requirements. Also, Appendix E provided additional items 
that shall be included in these plans. (35FR19568, December 24, 1970).
    In 1973, the Federal interagency responsibility for radiological 
incident emergency response planning was identified in the Federal 
Register Notice of January 17. (38FR2356). The notice was revised 
December 24, 1975, and published in the Federal Register (40FR248).
    In the January 17, 1973 notice, the Environmental Protection Agency 
(EPA) was assigned the responsibility for:
    (1) establishing protective action guidelines; (2) recommending 
appropriate protective actions; (3) assisting State agencies in the 
development of emergency response plans; and (4) establishing radiation 
detection and measurement systems.
    In December 1974, the NRC developed NUREG75-111, ``Guide and 
Checklist for the Development and Evaluation of State and Local 
Government Radiological Emergency Response Plans in Support of Fixed 
Nuclear Facilities'' to assist in developing the offsite plans.
    In September 1975, the EPA issued EPA-520/1-75-001, ``Manual of 
Protective Action Guides and Protective Actions for Nuclear 
Incidents.''
    In 1975, the NRC published Regulatory Guide 1.101 that set out the 
format and content of onsite emergency plans. At that time, offsite 
emergency planning was required for licensing purposes only in the low-
population zone (LPZ) located within about a 3-mile radius of the 
plant. The EPZ was defined in 10CR100.11. At this time the only plan 
required to be submitted was the plant plan.
    In 1976, a Task Force of NRC and EPA representatives determined the 
appropriate degree of emergency response planning efforts. A joint EPA/
NRC document in December 1978: NUREG-0396, ``Planning Basis for the 
Development of State and Local Government Radiological Emergency 
Response Plans in Support of Light Water Nuclear Power Plants.'' 
introduced the concept of establishing emergency planning zones 
(EPZs)--the Plume Exposure Pathway (0 to 10 miles) and the Ingestion 
Pathway (0 to 50) miles.
    In December 1979, FEMA was assigned lead responsibility for the 
evaluation of offsite planning and response by President Carter in a 
White House statement and Fact Sheet. FEMA developed a review process, 
established in the 44 CFR350 regulations. These regulations were 
finalized in the Federal Register Notice on September 28, 1983 
(48FR44332). NRC retained jurisdiction over plant licensing and 
operation and onsite emergency preparedness.
    In August 1979, extensive changes were made to the NRC's 
regulations following the TMI accident. The changes were noticed in the 
August 19, 1979 Federal Register pages 55402--55418. There were several 
key changes to the regulations. These included the addition of 10CFR 
50.47 and major additions to Appendix E. The additions included 
detailed instruction for developing the emergency response 
organization, assessment action, activation of the emergency 
organization, notification procedures, emergency facilities and 
equipment, training, emergency procedures, recovery efforts and 
emergency computer systems.
    In November 1980, a joint NRC/FEMA document, NUREG-0654/FEMAEP-1, 
``Criteria for Preparation and Evaluation of Radiological Emergency 
Response Plans and Preparedness in Support of Nuclear Power Plants'' 
establishing the substantive basis for both onsite and offsite 
emergency planning. It required joint licensee/state/offsite agency 
participation in an annual simulated accident scenario (exercise) as a 
condition for an operating license.
    On December 16, 1980, memorandums of understanding written between 
the NRC and FEMA were formalized.
    In September 1984, the Federal Radiological Emergency Response Plan 
(FRERP), published as an interim document in the September 12, 1984, 
Federal Register (29FR35896) outlined the authority and responsibility 
of each of the 12 Federal agencies that have the resource and 
capabilities needed to respond to a radiological emergency. The plan 
was first tested in a full-scale exercise at the St. Lucie Nuclear 
Facility on March 6-8, 1984. FEMA published the final operational FRERP 
in the November 8, 1985, Federal Register (50FR46542).
    In February 1985, the NRC/FEMA response was published in NUREG-098 
1/FEMA-51, Rev. l, ``NRC/FEMA Operational Response Procedures for 
Response to a Commercial Nuclear Reactor Accident''.
    In November 1985, FEMA issued FEMA-REP-10, ``Guide for the 
Evaluation of Alert and Notification Systems for Nuclear Power 
Plants''. The Guide establishes the areas to be reviewed and the 
acceptance criteria.
    In November 1986, FEMA issued Guidance Memorandum EV-2, 
``Protective Actions for School Children''. The purpose of the guidance 
is to assist State and local government officials and administrators of 
public and private schools in developing emergency response plans for 
use in protecting the students.
    In 1992, the Federal Response Plan (FRP) was implemented. (This 
comprehensive plan may be implemented concurrently with the Federal 
Radiological Emergency Response Plan (FRERP), which details the Federal 
response to a peacetime radiological emergency). The FRP describes the 
policies, planning assumptions, concept of operations, response and 
recovery actions, and responsibilities of 27 Federal departments and 
agencies, including the American Red Cross, that guide Federal 
operations following residential declaration or emergency.
    In July 1996, a Federal Register notice announced the strategic 
review of FEMA's Radiological Emergency Preparedness (REP) program and 
requested comments.
    In 1999, the Environmental Protection Agency (EPA) published the 
EPA Radiological Emergency Response Plan (EPA-RERP) to replace the 
1986, EPA Radiological Emergency Response Plan. The EPA-RERP has been 
developed to reflect changes in EPA's programmatic and operational 
concepts for responding to radiological incidents and emergencies. The 
new plan represents EPA's integrated approach to management of 
radiological releases.
    In 1999, the NRC's risk significance program; the Reactor Oversight 
Process integrated the NRC's inspection, assessment, and enforcement 
programs. The Operating Reactor Assessment Program evaluates the 
overall safety performance of operating commercial nuclear reactors and 
communicates those results to licensee management, members of the 
public, and other government agencies.
    The assessment program collects information from inspections and 
performance indicators (PIs) in order to enable the agency to arrive at 
objective conclusions about the licensee's safety performance. Based on 
this assessment information, the NRC determines the appropriate level 
of agency response, including supplemental inspection sand pertinent 
regulatory actions ranging from management meetings up to and including 
orders for plant shutdown. The NRC's revised inspection program 
includes three parts: baseline inspections; generic safety issues and 
special inspections; and supplemental inspections performed as a result 
of risk significant performance issues.
    In April 2001, NRC published new EP inspection procedures to 
determine, in conjunction with the performance indicators, whether a 
licensee is meeting the Cornerstone Objective and Performance 
Expectation. The cornerstone objective is ``To ensure that the licensee 
is capable of implementing adequate measures to protect the public 
health and safety in the event of a radiological emergency''. The 
cornerstone performance expectation is ``Demonstration that reasonable 
assurance exists that the licensee can effectively implement its 
emergency plan to adequately protect the public health and safety in 
the event of a radiological emergency.''
    In September 2001, FEMA published the ``Radiological Emergency 
Preparedness: Exercise Evaluation Methodology'' (66FR47526), the 
Radiological Emergency Preparedness exercise evaluation areas and 
associated criteria, to be effective October 1, 2001.
    In April 2002, FEMA published corrections to certain provisions of 
the ``Radiological Emergency Preparedness Exercise Evaluation 
Methodology'' exercise evaluation areas.
    Since 1979, more than 2000 graded exercises have been conducted. 
In-depth critiques are conducted following each exercise and areas for 
improvement, as well as strengths, are identified. The improvement 
areas are corrected and tested in subsequent exercises to prevent 
recurrence.

                     C. ROLES AND RESPONSIBILITIES

    Before March 1979, accident at Three Mile Island (TMI), offsite 
emergency planning at nuclear power sites by utilities and local and 
State authorities was done under the NRC oversight and basically on a 
voluntary basis. Specific requirements for off-site emergency planning 
as a precondition for licensing had not been established, and as a 
result, the capabilities to respond to a radiological accident varied 
greatly.
    One of the major lessons learned from TMI was the need for a 
comprehensive, coordinated response plan, by every level of government 
and integration with onsite and offsite plans.
    To investigate these and other concerns, President Carter appointed 
a special investigative body, the Kemeny Commission, to study the Three 
Mile Island accident. Following the Commission's report, the President 
directed that principal Federal responsibility for off-site emergency 
planning around nuclear power plants would be transferred from NRC to 
FEMA.
    FEMA had been established in 1978 (prior to TMI) in order in order 
to create a single emergency planning and response manager for the 
Federal Government. FEMA coordinates offsite measures at all levels of 
government to safeguard the population, while NRC maintains 
responsibility to oversee emergency actions taken inside the nuclear 
plant boundaries. NRC maintains its authority as the licensing 
authority for commercial nuclear power plants; FEMA provides 
recommendations and findings to NRC for use in its deliberations. Both 
agencies have issued extensive instruction in the Code of Federal 
Regulations to explain how their respective responsibilities are 
carried out.
    Following is a brief description of licensee, state, local, and 
Federal responsibilities:
    <bullet> Licensees are responsible for operating the plant in a 
safe manner and for being prepared to respond to a radiological 
emergency in a manner such as to effectively mitigate the consequences 
of the emergency. If an accident should occur, the licensee is 
responsible for stabilizing the situation, bringing the plant to a safe 
condition, limiting the consequences, implementing on-site emergency 
planning, making off-site initial notifications and protective 
recommendations and providing sufficient plant status information to 
assist in off-site emergency response. The licensee is responsible for 
monitoring the plant and radiological parameters to determine the level 
of the emergency (unusual event, alert, site area emergency, or general 
emergency and recommend onsite and offsite protective actions.
    <bullet> State and local agencies are responsible for maintaining 
the offsite emergency preparedness. In case of an accident, the State 
and local designee will consider the emergency action recommendation of 
the licensee and make any off-site protective action decision, 
including sheltering and evacuation. The offsite authorities are 
responsible for activating the alert and notification systems. Having 
alerted the public, the State or local agency will provide additional 
information to the public through the electronic media including what 
protective actions should be taken.
    <bullet> State Emergency Management Agencies are the lead 
organization responsible for developing the State Radiological 
Emergency Preparedness Plan and for coordinating the development of 
associated county plans. They have a lead role and responsibility for 
the training of State and local emergency response organizations and 
for the conduct of public information and education. (In California the 
local agencies have the lead role).
    <bullet> State Departments of Health are the State technical 
agencies responsible for the assessment of the impact of a radiological 
emergency and the environment. These agencies also function as the 
technical advisor to the emergency management organization in 
radiological matters and protective actions.
    <bullet> County and municipal emergency management officials are 
responsible for the development and implementation of their respective 
emergency response plans. The Federal, state, county, and local 
governments have developed coordinated radiological emergency 
preparedness plans. The plans are coordinated with the licensee onsite 
emergency plan and periodically exercised to ensure a fully 
coordinated, effective response and the availability by the required 
offsite support for an onsite emergency. State and local emergency 
plans have been prepared for every commercial nuclear power site in the 
country. All have received FEMA 44CFR350 evaluation and have been 
tested in exercises.
    <bullet> The Federal Government's role is to support the licensee, 
State, and local agencies in an emergency.
    <bullet> The Nuclear Regulatory Commission (NRC) is the Cognizant 
Federal Agency when an event occurs at a commercial nuclear power 
plant. The NRC/FEMA response is documented in NUREG-0981 /FEMA 51, Rev. 
1, ``NRC/FEMA Operational Response Procedures for Response to a 
Commercial Nuclear Reactor Accident, `` February 1985. The agency 
maintains a 24-hour-a-day Headquarters Incident Response Center where 
the Operations Officer is an engineer or scientist specifically trained 
for that job. The Center functions as the NRC's point of direct 
communication through dedicated telephone lines with all operating 
commercial nuclear power plants. The Center notifies additional NRC 
personnel, including regional offices, and other Federal agencies as 
needed. During an emergency, the NRC establishes three teams:

        <bullet>  the Reactor Safety Team follows the course of the 
        plant event and attempts to anticipate future plant responses;
        <bullet>  the Protective Measures Team follows the event from 
        the radiological standpoint; and
        <bullet>  the headquarters Executive Team determines if or when 
        to escalate the NRC response.

    The teams also include Congressional, Government, and Public 
Affairs liaison. NRC participates in a licensee-graded exercise once 
each quarter.
    <bullet> The Federal Emergency Management Agency (FEMA) is 
responsible for off-site emergency plans and maintains the Emergency 
Information and Coordination Center (EICC) in Washington, DC, with 
communications capability to its regions and other Federal agencies. 
FEMA's Radiological Emergency Preparedness Program (REP) has a two fold 
emphasis: (1) assistance to State and local governments in developing 
emergency plans (44 CFR 350); (2) coordination of Federal agencies' 
assignments to carry out Federal functions (44 CFR 351).

     D. WHAT ARE THE ELEMENTS OF AN EMERGENCY PREPAREDNESS PROGRAM?

    All U.S. nuclear reactor facilities are required to participate in 
independently reviewed; full-scale emergency exercises every 2 years 
(and training drills in off years). For each exercise, the licensee 
creates a confidential emergency scenario to be played out by plant 
staff and local emergency response organizations, including law 
enforcement, local hospitals, radiological monitoring teams and others. 
Post-exercise critiques by the Federal agencies and exercise 
participants identify areas that need to be corrected in future 
exercises or improvements that need to be made to the plan itself. 
Following is a brief summary of the elements that are tested regularly:
    <bullet> Onsite Emergency Organization.--The licensee is 
responsible for developing the onsite emergency organization of plant 
staff personnel for all shifts. An emergency coordinator must be 
designated who shall be on shift at all times and have the authority 
and responsibility to immediately and unilaterally initiate any 
emergency actions required to protect the health and safety of the 
public. Certain responsibilities cannot be delegated to others in the 
organization, including the decision to notify and to recommend 
protective actions to authorities responsible for offsite emergency 
measures.
    <bullet> Emergency Classification System.--All utilities at all 
commercial nuclear power plants use a standard emergency classification 
system. The emergency classification system provides for graduated 
levels of response from minor events of low consequence to very severe 
events. Specific Emergency Action Levels (EAL) trigger each 
classification.
    <bullet> Emergency Communications and Notification Methods and 
Procedures.--The licensee must have the capability to notify 
responsible State and local government agencies within 15 minutes after 
declaring one of four emergency action levels. The licensee must also 
demonstrate that administrative and physical means have been 
established for alerting and providing prompt instructions to the 
public within the 10-mile plume exposure pathway. The notification 
system should have the capability to essentially complete the initial 
notification of the public within the EPZ within about 15 minutes once 
the offsite responsible State or local authorities decide to notify 
them. In November 1985, FEMA issued FEMA-REP-10, ``Guide for the 
Evaluation of Alert and Notification Systems for Nuclear Power Plants.
    Offsite Communications.--Each licensee is responsible for a primary 
and backup telephone system to make notifications to offsite agencies 
(e.g., NRC, State, and counties) within 15 minutes after recognition 
and classification of an emergency condition at the plant. A dedicated 
telephone line has been established between the plant control room and 
the NRC's headquarters Incident Response Center. IE Information Notice 
No. 86-97, ``Emergency Communications System,'' dated November 28, 
1986, defines the emergency communications requirements.
    Public Alerting Systems.--Off-site emergency agencies are 
responsible for notifying the public of an emergency and activating the 
notification system. However, the licensee must be able to demonstrate 
that a notification system is available within the 10-mile EPZ. Sirens 
are the predominant method of public alerting around the U.S. 
commercial nuclear plants and Federal regulations have established 
criteria for the design of acceptable siren systems. The number of 
sirens that are required for the 10-mile EPZ will depend on the 
population density, type of terrain and other limiting factors. The 
average site will have between 50 to 85 sirens positioned throughout 
their EPZ.
    Public Notification.--Once the public has been alerted to an 
emergency, the capability must be in place to provide an informational 
message or instructions to the public through out the 10 miles EPZ 
within 15 minutes. This capability must be available 24 hours per day. 
The most common method of providing instructions to the public is local 
radio and television stations. Another method of providing instructions 
to the public is by the Alert Notification System (ANS), a system of AM 
and FM radio stations which provide or are capable of providing, 24 
hours per day transmission and have backup power generation capability.
    In order to instruct the public to tune to a specific radio, 
television, or an EBS radio station for emergency information once 
alerted, emergency preparedness public information brochures are 
distributed throughout the 10-mile EPZ. The brochures identify the 
method of alerting and measures to be taken once alerted. The brochures 
discuss the various protective measures that residents may be asked to 
take, including sheltering, evacuation, and use of thyroid blocking 
agents or other precautionary measures.
    <bullet> Public Education and Information.--The responsibility to 
insure the education of the general public concerning radiological 
emergencies and protective actions is jointly shared by the licensee, 
the State and the local governments. Information is disseminated 
annually to the public within the 10-mile EPZ. Specifically, 
information is provided describing how they will be notified in the 
event of an emergency and what initial actions should be taken upon 
notification. In addition, educational information on radiation 
contacts and special needs for the handicapped are addressed, as well 
as how to obtain additional information.
    <bullet> Emergency Facilities and Equipment.--Adequate provisions 
must be made for facilities and equipment to support the response to a 
given emergency. This includes monitoring, assessment, decontamination, 
first aid treatment and transportation. The physical facilities include 
an onsite technical support center, an operational support center, a 
near-site emergency operations facility, an onsite and offsite 
communications system, and a media center.
Emergency Response Centers
    Control Room (Onsite).--The Control Room is the primary facility 
where plant conditions are monitored and controlled and where 
corrective actions are taken to mitigate degradation of reactor 
systems.
    Technical Support Center (Onsite).--The TSC is an emergency 
operations work area from that designated technical and engineering 
personnel trend plant conditions in order to predict further 
degradation and to devise appropriate corrective actions.
    Operational Support Center (OSC) (Onsite).--The OSC is the assembly 
point for personnel providing emergency assistance to the Emergency 
Organization. The purpose of the OSC is to provide an assembly. and 
staging area for essential operations support personnel who are 
deployed into onsite areas.
    Emergency Operations Facility (EOF) (Offsite).--The EOF is the 
primary offsite center for the management of the licensee's emergency 
response, coordination of radiological and environmental assessments, 
and determination of recommended public protective actions.
    Joint Public Information Center (JPIC) (Offsite).--The JPIC is the 
principal media contact point for the licensee, state, and local 
communities during a radiological emergency.
    State Emergency Operations Center (EOC).--This facility provides 
the management of offsite emergency responses. The State EOC will serve 
as a location from which local officials may request manpower and 
resource assistance.
    Local Community Emergency Operations Centers (EOC).--The local EOCs 
serve the purpose of maintaining a communications point within each 
community as well as providing this capability with other adjacent 
communities and the State. Each local chief executive can direct 
protective actions to be taken for his community and can activate the 
public alerting system for his community.
    <bullet> Accident Assessment.--The means for determining the 
magnitude of and for continually assessing the impact of the release of 
radioactive material must be available to respond to an accident. Dose 
assessment is performed using actual in-plant effluent radiation 
monitors to generate the radionuclide source term, meteorological 
instrumentation, and associated hardware to develop a dispersion model 
for an atmospheric release, hydrological instrumentation to develop 
dilution factos for a liquid release, and the assumption of appropriate 
dose conversion factors (DCF) to account for the isotopic mixture and 
its concurrent chemical and physical state.
    As part of the Radiological Environmental Monitoring Program, 
nuclear power plants maintain a fixed environmental monitoring system, 
within the 10-mile EPZ, consisting of Thermoluminescent Dosimeters 
(TLDs), air particle detectors and another environmental media sampling 
stations. During 12 and/or subsequent to emergency conditions, this 
program is modified to collect and analyze additional samples from 
existing stations. Results are used to confirm radiation exposure 
estimates and environmental calculations.
    <bullet> Protective Response.--A range of protective actions for 
emergency workers and the public have been developed for the 10-mile 
EPZ. Systems are available to warn and advise onsite individuals 
including employees not having emergency assignments, visitors, 
contractors, construction personnel, or others in public access areas. 
Provisions have been made for these individuals to leave the site by 
designated routes to some suitable offsite locations.
    If needed, monitoring and decontamination capabilities of 
individuals leaving the site have been established. Having requested 
non-essential personnel to leave the site, the licensee must have the 
capability to account for all individuals onsite and be able to provide 
the names of missing individuals within 30 minutes of the start of an 
emergency. The licensee must be able to account for all onsite 
individuals continuously after that time.
    The licensee will also make recommendations, if needed, to the 
affected State and local authorities. This may include sheltering, 
evacuation, or use of potassium iodide in a sector around the plant, 
early dismissal of school children, or relocating individuals in a 
specific sector. As part of this process, the emergency plan includes a 
designated evacuation route and relocation centers in most areas and 
shelter areas. People whose mobility is impaired and the means for 
registering and monitoring of individuals at relocation centers have 
been established.
    For the 50-mile ingestion pathway, the procedure for protecting the 
public from consuming contaminated foodstuffs is addressed. The 
requirement that dairy animals be put on stored feed is a protective 
action. Lists are available of the names and locations of all plants 
that process milk products and other agricultural products.
    <bullet> Radiological Exposure Control.--The licensee has 
established onsite exposure guidelines that are consistent with the 
EPA's Emergency Worker and Lifesaving Activity Protective Action 
Guidelines. These guidelines address providing first aid, performing 
assessment actions, and decontamination, removal of injured persons and 
providing transportation and medical treatment of the injured. As an 
example of guidance developed on this subject, FEMA issued Guidance 
Memorandum EV-2, ``Protective Actions for School Children'' dated 
November 13, 1986. The purpose of the guidance is to assist State and 
local government officials and administrators of public and private 
schools in developing emergency response plans for use in protecting 
the students.
    <bullet> Medical and Public Health Support.--Local and backup 
hospitals and medical services are identified for medical support of 
contaminated injured individuals. The licensee is responsible for 
having the onsite-first aid capability. Transportation arrangements of 
the injured persons to the medical facilities are also part of the 
emergencyplanning program.
    <bullet> Recovery and Reentry Planning and Post Accident 
Operations.--Following the accident and when the plant has.been 
stabilized, the licensee will go into the recovery phase of the event.
    <bullet> Exercises and Drills.--Each licensee is required to 
exercise its emergency plan annually. Each licensee is required to 
exercise with offsite authorities within the plume exposure pathway 10-
mile EPZ biennially. All parties within the ingestion pathway 50-mile 
EPZ must exercise its plan every 6 years.
    <bullet> Continual Improvement. Critiques and Corrective Actions.--
Following each exercise or drill, the licensee and Federal, State and 
local emergency response personnel conduct an in-depth critique. Areas 
for improvement are noted and placed in the licensee corrective action 
system. Corrective action attention is a year round responsibility.
    <bullet> Audits, Reviews, and Self Assessments.--One element 
assuring corrective actions is the audit or program review process 
through which all emergency preparedness programs work. Program reviews 
(checks) range from one end of the spectrum to the other . . . from 
quarterly communications checks (internally and externally) and 
equipment/facility checks to independent program reviews of the EP 
program. Periodic (on a set schedule) tests of the prompt public 
notification system are also a part of this process.
    Audits are conducted by the licensee's own quality assurance 
departments and inspections are conducted at various times by outside 
regulatory groups such as the NRC. These audits/inspections cover all 
aspects of the emergency preparedness program. In all cases, the 
associated emergency plans and procedures must be reviewed at least 
annually and revised as necessary.
    Licensee's periodically self-assess their program elements. 
Frequently the licensee will request a subject matter expert from 
another department or licensee to participate in the self-assessment.
    <bullet> Emergency Response Training.--Annual training of company 
personnel (onsite and offsite) and training of noncompany personnel 
(offsite at the local level) is conducted. This process is continual 
throughout the year. This element of emergency planning incorporates 
the following methods: classroom instruction; performance-based 
training, walk through for specific groups within certain emergency 
response facilities and between facilities; integrated drills; training 
drills; and medical drills.
    <bullet> Emergency Planning Zones (EPZ).--In 1978, a joint task 
force of the US Environmental Protection Agency (EPA) and US Nuclear 
Regulatory Commission (NRC) developed the planning basis for offsite 
emergency preparedness efforts considered ``necessary and prudent'' for 
power reactor facilities. During the development of the planning basis, 
the task force received substantial input from other Federal agencies 
and the Inter-organizational Advisory Committee on Radiological 
Emergency Response Planning and Preparedness of the Conference of State 
Radiation Control Program Directors, which also included 
representatives of the National Association of State Directors for 
Disaster Preparedness and the U.S. Civil Defense Council.
    Subsequently, the planning basis has been adopted by the Federal 
Emergency Management Agency, which assumed the Federal lead role in 
offsite radiological emergency planning and preparedness 
responsibilities under order from President Carter in 1979. This 
planning basis continues today as the primary basis utilized by the 
Federal Radiological Preparedness Coordinating Committee (FRPCC)\1\ 
with respect to coordinating all Federal responsibilities for assisting 
State and local governments in radiological emergency planning and 
preparedness activities.
---------------------------------------------------------------------------
    \1\ The FRPCC is chaired by FEMA, and includes representatives from 
the Departments of Commerce, Defense, Energy, Health and Human 
Services, Transportation, Agriculture, Interior, Veterans Affairs, 
State, Housing and Urban Development, Justice, and the General Services 
Administration, NASA, USEPA and USNRC.
---------------------------------------------------------------------------
    An important element of the planning basis developed by the NRC/EPA 
task force is that it defines the geographical area around nuclear 
power plants over which planning for predetermined actions should be 
carried out to protect public health and safety in the event of a 
radiological emergency at a nuclear power plant. In developing the 
planning basis, the task force did not attempt to define a single 
accident scenario. Rather, the task force considered a number of 
potential accidents, including the core-melt accident release scenarios 
of the Reactor Safety Study.
    The planning basis was related to two predominant pathways by which 
a population might be exposed to radiation released as the result of an 
accident. The two exposure pathways include the following:
    a. The plume exposure pathway includes direct exposure from 
radiation in a plume as it passes, as well as from radioactive material 
deposited on the ground or other surfaces. The pathway also includes 
exposure from inhalation of radioactive material in the passing plume. 
The recommended protective actions for the plume exposure pathway are 
evacuation from the area, or sheltering, if timely evacuation is not-
practical. More recently, the States are considering whether to include 
the distribution and use of potassium iodide to protect against 
exposure from radioactive iodine in the plume, as a supplement to 
evacuation and sheltering.
    b. The ingestion exposure pathway includes exposure from the 
consumption of contaminated water, milk, or foods. The recommended 
protective actions for the ingestion pathway include near-term actions, 
such as removing cows from pasture and putting them on stored feed 
supplies, as well as long-term actions such as monitoring and 
interdicting sources of water, milk and foods, as necessary to protect 
public health and safety.
    The areas, over which planning efforts are carried out, referred to 
as emergency planning zones (EPZs), are associated with the plume 
exposure pathway and the ingestion exposure pathway. The EPZs are 
defined as the areas for which planning is carried out to assure that 
prompt and effective actions can be taken to protect the public in the 
event of an accident. The two EPZs are discussed in more details below:
    (a) The plume exposure EPZ includes a radius of 10 miles (more than 
300 square miles) around the plant. The size of the plume exposure EPZ 
is based on the following conclusions by the NRC/EPA task force:
    <bullet> Projected doses to the public from design basis accidents 
would not exceed Protective Action Guide (PAG) levels\2\ beyond the 10-
mile zone;
---------------------------------------------------------------------------
    \2\ Protective Action Guide (PAG) levels refer to criteria that are 
established by the EPA. The PAG is a level of projected radiation dose 
from an unplanned release at which a specific protective action should 
be taken. For example, the PAG for initiating evacuation or sheltering 
is when members of the public are projected to receive 1 rem or more 
from an actual or anticipated release. The PAGs are published in EPA 
Report 400-R-92-001, Manual of Protective Action Guides and Protective 
Actions for Nuclear Incidents,'' 1992.
---------------------------------------------------------------------------
    <bullet> Projected doses from most core melt sequences would not 
exceed PAG levels beyond the 10-mile zone;
    <bullet> For the worst-case core melt sequences, immediately life-
threatening doses would generally not occur beyond the 10-mile zone;
    <bullet> Detailed planning within the 10-mile zone would provide a 
substantial base to support the expansion of emergency response efforts 
in the event this proved necessary.
    b. The ingestion exposure EPZ includes a radius of 50 miles (more 
than 2500 square miles) around the plant. The size of the ingestion 
exposure EPZ is based on the following conclusions by the NRC/EPA task 
force:
    <bullet> The downwind range within which contamination might occur 
will generally not exceed PAG levels beyond the 50-mile zone because of 
wind shifts during the release and travel periods;
    <bullet> There may be conversion of radioactive iodine suspended in 
the atmosphere during transit to chemical forms that do not readily 
enter the ingestion pathway;
    <bullet> Much of the particulate material in a plume will have 
deposited on the ground during transit within the 50-mile zone; and
    <bullet> The small likelihood of exceeding ingestion pathway PAG 
levels at 50 miles is comparable to the small likelihood of exceeding 
plume exposure PAG levels at 10 miles.
    The 10- and 50-mile EPZs are currently employed in nuclear power 
plant emergency preparedness programs as the basis for planning, 
testing and exercising predetermined emergency response capabilities.

    D. WHAT IS THE EXPERIENCE WITH NUCLEAR PLANT EMERGENCY RESPONSE 
                               PROGRAMS?

    Emergency response plans developed by the nuclear industry have 
been activated successfully by local officials for use in other 
emergencies. A few examples:
    <bullet> The evacuation of 10,000 people from Cedar Rapids, Iowa, 
in July 1985, following a fire at a city-operated sewage treatment 
plant that dispersed a black cloud of toxic fumes over the city. State 
and local officials used a draft plan developed for Alliant Energy's 
Duane Arnold nuclear plant.
    <bullet> The evacuation of 17,000 residents of St. Charles Parish, 
LA., following a leak from a nearby chemical plant in December 1982. 
State and local officials worked from a draft plan for Entergy's 
Waterford 3 nuclear plant, which was not yet operating.
  e. what is the nuclear industry's commitment to emergency planning?
    Emergency preparedness at U.S. nuclear power plants is an integral 
part of daily operations. A commitment to excellence throughout the 
industry coupled with continual training and testing, has produced a 
high level of preparedness. For example:
    <bullet> Emergency response plans are constantly upgraded through 
lessons learned from actual plan activation, as well as repeated 
drills, exercises and independent critiques.
    <bullet> Training programs are conducted annually for all emergency 
response personnel. The National Nuclear Accrediting Board accredits 
training programs for operators and technical staff.
    <bullet> Effective methods have.been developed to assess 
performance in drills and exercises, and to improve emergency 
preparedness through lessons learned.
    <bullet> State-of-the-art response facilities have been built and 
existing facilities upgraded to aid effective handling of emergencies.
    <bullet> Sophisticated plant computer systems have been developed 
to serve as effective tools for dealing with emergencies.
    <bullet> Advancements in communications technology have been 
incorporated to improve the industry's ability to respond to 
emergencies.

                                 ______
                                 
     Response by Donna J. Miller Hastie to an Additional Question 
                          from Senator Clinton

    Question.  Your testimony provides a great deal of detail on 
emergency preparedness and evacuation. It cites several cases of 
evacuations using response plans developed by the nuclear industry. 
However, these examples were all populations less than 17,000. What 
complications do you expect with populations much larger than this? 
What effect would population density have on the ability to evacuate an 
area?
    Response. The studies provided in NUMARC NESP-004 ``Identification 
and Analysis of Factors Affecting Emergency Evacuations,'' (Table 2-2) 
(Document Attached) provide a study of fifty evacuations of up to 
300,000 people.
    In addition, a 1989 Nuclear Energy Institute (NEI) study showed 
that during the 9-year period 1980-1988, the United States experienced 
250 emergencies that required the evacuation of more than 1,000 people. 
The emergencies ranged from hurricanes and floods to spills and leaks 
of toxic chemicals. Some critics have voiced skepticism that any large 
number of people could be evacuated in a short period of time, but 
experience demonstrates the contrary.
    The following are examples of successful evacuations of larger 
populations for non-nuclear emergencies. All the evacuations were 
performed safely and orderly.
    <bullet> 300,000 evacuees of Hurricane Elena (Pinellas, Florida) 8/
29/85.
    <bullet> 150,000 evacuees Hurricane Gloria (Monmouth County, NJ), 
37,000 evacuees from New Hanover County, NC, and 50,000 evacuees from 
Worcester, MD, 9/26/85.
    <bullet> 42,000 evacuees from Hurricane Alicia (Galveston, TX) 8/
16/83.
    <bullet> 25,000 evacuees from a transport accident (Cambridge, 
Ohio) 6/2/87.
    <bullet> 20,000 evacuees from a train derailment (Miamisburg, Ohio 
7/8/86.
    <bullet> 10,000 evacuees from a chemical explosion (Superior, WI) 
5/6/82.
    I am not aware of any evacuations in the United States that 
experienced significant problems. State and local emergency management 
personnel are well trained to effectively conduct safe evacuations, and 
take this responsibility seriously.
    The effect that a large population density would have on the 
ability to evacuate an area has been demonstrated on a number of 
occasions, such as frequent evacuations of 100,000 plus people from 
large sporting events. I believe the type of planning we currently 
perform for a nuclear power plant provides a sound basis for large 
population evacuations.

                                 ______
                                 
      Responses by Donna J. Miller Hastie to Additional Questions 
                         from Senator Voinovich

    The United States nuclear industry, in coordination with Federal, 
State and local agencies has the most advanced and demonstrated 
effective emergency preparedness programs in the country, perhaps the 
world. In partnership with our Federal, State and local colleagues, we 
are the recognized experts.
    Even with the expertise and history, we are not complacent. Our 
history is one of continuous improvement and we are currently 
evaluating and responding to the implications of September 11, 2001. 
Emergency Preparedness performed interim compensatory measures in 
response to September 11 that included specific actions to:
    <bullet> Determine the potential effect on the plant and on site 
evacuation strategies, modify procedures and equipment, as necessary.
    <bullet> Review site response plans and take actions to assure the 
response to terrorist threats is well planned, tested and available.
    <bullet> Provide emergency action levels (EALs) to ensure that a 
site-specific credible threat results in a declaration of at least a 
notification of unusual event. Review and validate the strategy for 
escalation to higher event classifications.
    <bullet> Implement site specific, credible threat EALs per November 
6, 2001 NRC recommended actions, as confirmed by the NRC letter to NEI 
February 4, 2002.
    We, the industry and involved local, State, and Federal agencies 
believe that we can help the country in the War on Terrorism and 
Homeland Security by serving as a model for other industries and 
critical infrastructure that have not had the same advantage of long-
term experience in testing and refining emergency preparedness 
programs.
    Question 1. In your testimony, you have provided an extensive list 
on the history of emergency planning. Could you briefly highlight the 
major changes the NRC and facilities have gone through in response to 
national security and other perceived threats since Three Mile Island? 
In your opinion, do they respond well and make the necessary changes?
    Response. The Three Mile Island (TMI)-related changes are only the 
beginning of immediate and continuous improvements the industry made in 
emergency preparedness. As an industry, we continue to actively 
identify and implement improvements to nuclear safety and emergency 
preparedness as an intended, industry safety culture that rests on 
continuing self-assessment and continuous learning.
    As a result of the accident in March 1979 at the TMI site, several 
study groups were formed to study the responses to the accident and to 
make recommendations for corrective actions.
    On April 11, 1979, in response to TMI, President Carter established 
a Commission to conduct . . . ``a comprehensive study and investigation 
of the recent accident involving the nuclear power facility on Three 
Mile Island in Pennsylvania.'' Dr. John G. Kemeny, then President of 
Dartmouth College chaired the Commission. The ``Report of the 
President's Commission on the Accident at Three Mile Island'' (Kemeny 
Commission) concluded that prior to the accident, emergency planning 
had not received sufficient priority and that programs needed to be 
upgraded.
    Recommendations made by the Kemeny Commission included:
    1. Responsibility for offsite emergency planning should be assigned 
to the Federal Emergency Management Agency (FEMA); before an operating 
license is granted the State must have an emergency plan approved by 
FEMA.
    2. Planning should involve the identification of several different 
kinds of accidents with different possible offsite radiological 
consequences; local communities should have funds and support adequate 
for preparing these plans
    3. Medical means should be developed for protecting the public 
against radiation.
    4. The public should be better informed about nuclear power and 
given clear information on what actions to take during emergencies
    5. Further studies should be conducted with reference to evacuation 
planning and methodologies.
    6. The role of various Federal support agencies must be specified.
    The industry made a strong and comprehensive response to the 
overall recommendation, ``Utilities must make sufficient advance 
preparation for the mitigation of emergencies . . .'' The industry's 
response included, but was not limited to, the following:
    <bullet> Utilities have established emergency response 
organizations using personnel with a wide variety of technical 
expertises useful in responding to emergencies. Members of emergency 
response organizations are designated and trained in advance regarding 
their roles during an emergency.
    <bullet> Using scenario information similar to a real event, 
practice emergency drills are held several times a year so emergency 
teams can develop and maintain proficiency in their emergency response 
roles. Each utility is also required to regularly pass a Nuclear 
Regulatory Commission (NRC) and Federal Emergency Management Agency 
(FEMA) graded exercise that tests the level of preparedness within the 
10-mile emergency planning zone. The exercises are conducted every two 
years involving utility, local, and state emergency organizations and 
response teams. Emergency preparedness programs within the 50-mile 
emergency planning zone are tested every six years.
    <bullet> Each plant now maintains an onsite technical support 
center that is activated and staffed during an emergency to assist the 
plant operations staff. Emergency off-site facilities have also been 
established that are activated and staffed by utility personnel during 
an emergency to coordinate off-site support for the utility. local, 
State, and Federal emergency response organizations.
    <bullet> The industry now has in place mutual assistance agreements 
in which all utilities agree to share their resources promptly in the 
event of a transportation accident or a plant emergency. An Emergency 
Resources Manual, maintained for the industry by the Institute of 
Nuclear Power Operations (INPO) lists emergency response points of 
contact at all utilities, identifies equipment and technical expertise 
available at various organizations, and provides copies of the 
agreements that specify the terms and conditions that apply to exchange 
of equipment or services provided.
    Another recommendation, ``Emergency plans must detail clearly and 
consistently the actions public officials and utilities should take in 
the event of off-site radiation doses resulting from release of 
radioactivity . . .'' also received strong industry response.
    <bullet> Each nuclear utility has developed station and corporate 
emergency plans to coordinate their response efforts in the event of a 
significant release of radioactivity off-site. These comprehensive 
radiological emergency response plans were developed in conjunction 
with State and local governments to define the actions to be taken by 
each party to protect the public's health and safety. Supporting 
implementation procedures provide guidance for accomplishing the 
detailed actions.
    <bullet> The effectiveness of these plans has been demonstrated 
through the successful completion of regular federally graded full-
scale exercises at all plants.
    <bullet> Emergency plans also include provisions for providing 
timely and accurate information to the public. Joint information 
centers have been established where utility and government 
representatives prepare press releases and hold briefings for the 
public and media.
    The Special Inquiry Group (Rogovin Report) reached many of the same 
conclusions as the Kemeny Commission. The report pointed out that the 
existence of adequate county and local emergency plans is a critical 
component of the overall emergency planning effort. The recommendations 
made in the report include:
    1. Workable evacuation plans must be considered a prerequisite to 
continued operation of existing and future reactors.
    2. Plant operations, however, should not be made absolutely 
contingent on approved local plans.
    3. Adequate funding must be provided to local emergency planning, 
perhaps by the utility.
    4. The emergency plan should be treated as if it were an engineered 
safety system. If a portion of the plan cannot be carried out 
(evacuation cannot be carried out due to a blizzard, for example) 
considerations should be given to limiting operations.
    5. Emergency planning zones should be developed on a site specific 
basis
    6. Existing reactors may be required to install additional accident 
mitigation systems to limit offsite consequences.
    These recommendations, and many more, have been successfully 
implemented and tested following the TMI accident. Additional post-TMI 
planning requirements are listed in Attachment 1. These are just the 
beginning of regulation regarding Emergency Preparedness programs. The 
regulations grew from these few to the current 28-feet of EP regulation 
in the Public Document room.
    In addition to Federal regulation, licensee applicants have to 
describe the emergency plan in their Preliminary Safety Analysis Report 
(PSAR) and submit as part of the Final Safety Analysis Report (FSAR). 
The PSAR must contain sufficient preliminary information to ensure that 
adequate emergency planning will exist. The plans must show 
compatibility of the onsite and offsite emergency plans, and of 
facility and site design with respect to roads, population distribution 
and land use. The FSAR must contain detailed plans for coping with 
emergencies. The information must be sufficient to provide the NRC with 
assurance of coordination among the licensee and supporting groups 
prior to issuing an operating license for the plant.
    The TMI-related changes are only a part of the scale and scope of 
emergency preparedness program improvements. The industry continues to 
actively identify and implement improvements to nuclear safety and 
emergency preparedness. This trend of continuous improvement is 
demonstrated in the included graphs.
    In conclusion, industry standards and NRC regulations and oversight 
require industry programs have the continuous capability to protect the 
public from possible exposure to radioactive release caused by an 
accident or a terrorist event. All plants have comprehensive measures 
for safety and security that include: Robust containment; Redundant; 
diverse plant safety systems; Trained plant staff, skilled in accident 
and event response; Comprehensive emergency plans; Rigorous security 
plans and well-trained and equipped security forces; Established 
facilities and equipment to support accident mitigation and 
communications with offsite emergency response organizations; Alert and 
notification systems, such as siren systems, to notify the public of an 
event; and Annual, communications with the population within the 10-
mile emergency planning zone describing what to do in the case of an 
emergency.

    Question 2. In your testimony, you discuss and provide several 
examples of situations where nuclear power plant emergency response 
plans have been activated successfully by local officials to support 
evacuations for other, non-nuclear events. Can you please provide a 
fuller set of examples and/or references that more fully describe such 
situations?
    Response. A 1989 Nuclear Energy Institute (NEI) study showed that 
during the nine year period 1980-1988, the United States experienced 
250 emergencies that required the evacuation of more than 1,000 people. 
The emergencies ranged from hurricanes and floods to spills and leaks 
of toxic chemicals. Some critics have voiced skepticism that any large 
number of people could be evacuated in a short period of time, but 
experience demonstrates the contrary.
    Evacuation plans have never been used to evacuate a nuclear power 
plant in the event of an emergency. Several nuclear emergency response 
plans, however, were activated successfully by local officials for use 
in non-nuclear emergencies. All the evacuations were performed safely 
and orderly. A few examples:
    <bullet> The evacuation of 10,000 people from Cedar Rapids, Iowa, 
in July 1985, following a fire at a city-operated sewage treatment 
plant that dispersed a black cloud of toxic gas fumes over the city. 
State and local officials used a plan developed for the now Nuclear 
Management Company's Duane Arnold nuclear plant.
    <bullet> The evacuation of 17,000 residents of St. Charles Parish, 
LA, following a leak from a nearby chemical plant in December 1982. 
State and local officials worked from a plan for the now Entergy's 
Waterford 3 nuclear plant, which was in the late stages of final 
construction.
    <bullet> The evacuation of 13,000 people from Naticoke, PA, in 
March 1987, when a fire from a metal plant blanketed the community with 
toxic smoke. Pennsylvania Power and Light's Susquehanna nuclear plant 
response plan was used.
    <bullet> The evacuation of about 6,000 residents and visitors from 
Grover City, CA, in July 1985, when a 10-day fire costumed more than 
75,000 acres of nearby grassland. The evacuation was based on the 
Diablo Canyon nuclear plant emergency plan produced by Pacific Gas & 
Electric Co.
    Examples of large numbers of people that can be evacuated in a 
relatively short period of time:
    <bullet> In August 1965, nearly all the 150,000 people living in 
Baton Rouge, LA, were evacuated in only two hours following an accident 
involving a chorine-carrying barge.
    <bullet> In June 1972, virtually all of Wilks-Barre, PA's, 75,000 
residents were evacuated in an hour after flood warnings were issued.
    <bullet> Several large-scale evacuations preceding on coming 
hurricanes have been carried out successfully, including: the 1980 
evacuation of 400,000 from Corpus Christi, TX, to escape Hurricane 
Allen; the 1985 evacuation of 300,00 from Pinellas County, FL, in 
advance of Hurricane Elena; the 1985 evacuations from Connecticut, 
Maryland, New Jersey, New York and North Carolina totaling 318,000 in 
the Path of Hurricane Gloria; and the 1992 evacuation of several 
100,000 from south Dade County, FL, as Hurricane Andrew approached.
    NEI's 1989 study of evacuations found that communities that have 
conducted field exercises of emergency plans performed better than the 
communities that had not. The study concluded that there was 
significant value in testing plans, because such plans revealed areas 
for improvement.
    The crash of USAir Flight 427 in PA in September 1994 called on the 
expertise of the emergency responders from Beaver County, who had 
trained and practiced through the many years with the now First 
Energy's Beaver Valley Nuclear Power Plant. Employees of Beaver 
Valley's emergency preparedness department worked with the State and 
local emergency management agency personnel in the recovery effort. The 
plant also filled the state emergency management agency's request for 
disposable suits, gloves, boots, etc. for use by the workers at the 
crash site, which had been declared a biological hazard.
    Additional information: NEI, (previously NUMARC) authorized an 
independent study ``Identification and Analysis of Factors Affecting 
Emergency Evacuations,'' NUMARC/NESP-004, February 1989.
    This study of the ``Identification and Analysis of Factors 
Affecting Emergency Evacuations,'' was undertaken in 1987-1988. The 
study effort entailed the compilation and analysis of data on emergency 
evacuations occurring in the United States since 1980. The study 
focused on 50 disaster events that required 1000 or more persons to be 
evacuated.
    The report shared insights, understanding, and knowledge gained 
from the collection and analysis of large scale, U.S. evacuations 
occurring in response to both natural and man-made hazards. The results 
of the study enhanced the level of understanding of the evacuation 
process.
    Evacuations of the public in connection with natural disasters or 
technological/industrial accidents are a frequent occurrence in the 
United States. Emergency evacuations involving 100 or more persons 
occur, on the average, more than once per week. These evacuations 
generally have proceeded smoothly and safely without plans and with 
little evacuation training.
    Following each United States census, utilities conduct new 
population density charts and could designate new evacuation routes, if 
significant changes occur in population densities or in critical 
locations such as schools, hospitals, elderly care facilities, etc. For 
example, when a minor bridge (not a primary evacuation route) was 
closed for repair near the St. Lucie Nuclear Power Plant in Florida, 
extensive compensatory measures were put in place.
    Communities around nuclear power plants are better protected in the 
event of all types of emergencies than other communities, by virtue of 
the emergency preparedness infrastructure that has been put in place.
    Question 3. S. 1746 would provide for mandatory stockpiling of 
potassium iodide tablets for use by populations within a 50-mile radius 
of nuclear power plants, as compared to the current NRC program for 
voluntary stockpiling within 10 miles and the provision for voluntary 
stockpiling up to 20 miles included in the ``Public Health Security and 
Bioterrorism Preparedness and Response Act of 2002.'' What are your 
views on the need to stockpile potassium iodide for populations out to 
50 miles from a nuclear power plant?
    Response. The current NRC/Federal program requires States and 
Tribal governments to consider including KI as a supplemental 
protective measure (i.e., the State and Tribal governments make the 
decision). The program is limited to covering populations in the 10-
mile emergency planning zone around nuclear power plants. NRC will 
provide an initial supply of KI tablets upon request, and may consider 
extending the program to fund replenishment supplies. Distribution of 
KI is a ``supplement'' to the primary protective actions of evacuation 
and sheltering in the 10-mile emergency planning zone and protecting 
food and water supplies in the 50-mile ingestion-planning zone.
    Attachment 2 is a listing of States that have agreed to stockpile 
or distribute potassium iodide.
    In my testimony I discussed the technical basis for the 10- and 50-
mile emergency planning zones. In 1978, a joint task force of the US 
Environmental Protection Agency (EPA) and the US Nuclear Regulatory 
Commission (NRC) developed the planning basis for offsite emergency 
preparedness efforts considered ``necessary and prudent'' for power 
reactor facilities. During the extensive two-year study the task force 
performed a detailed analysis of the full range of possible reactor 
accidents to determine the appropriate distance from the plant that 
should be used for planning prompt protective actions, such as 
evacuation and sheltering, as well as longer-term actions such as 
protecting food supplies.
    The task force received substantial input from all Federal agencies 
and relevant State agencies that would be responsible for implementing 
protective action. Even following the events of September 11, there is 
no credible scientific or technical information to indicate the need 
for a 50-mile distribution of KI or to suggest that the EPZs and 
related current regulatory system for emergency preparedness should be 
changed.
    The current KI distribution programs are voluntary and delegate 
decision-making authority to State and local governments. S. 1746 would 
abrogate the authority of the States to reflect the specific needs of 
their people and could create a Federal program that would likely be 
less effective. Used nuclear fuel discharged from the reactor is not a 
radioiodine KI issue.

    Question 4.  S. 1746 would provide for planning of evacuation of 
populations from within a 50-mile radius surrounding nuclear power 
plants in the event of an emergency, as compared to the current Federal 
emergency program that includes planning for evacuation out to 10 miles 
from nuclear power plants. What are your views on the need to plan for 
evacuation out to 50 miles from a nuclear power plant?
    Response. The above response contains answers to part of this 
question. The current NRC/Federal program includes provisions to extend 
protective actions such as evacuation and sheltering beyond 10 miles, 
if needed. The dilution of resources and refocus of priorities to plan 
for a 50-mile emergency planning zone, that does not have a credible 
scientific or technical basis, may degrade the current high level of 
protection that is provided to citizens that live within the 10-mile 
EPZ that is based on our best scientific and technical understanding of 
potential consequences.

    Question 5. S. 1746 would provide for emergency planning exercises 
out to 50 miles every three years. What is the current Federal and 
licensee program for conducting emergency planning exercises and drills 
at and around nuclear power plants, i.e., onsite and at 10 miles and 50 
miles?
    Response. Emergency exercises and drills are important as a test of 
the planning, procedures, and training of utility, State, and local 
community emergency capabilities. Planning, coordinating and evaluating 
drills and exercises are major undertakings involving significant 
resources both within and outside the utility.
    Utilities are required to conduct a full-scale; NRC graded exercise 
every two years. During the off year, the utility conducts a self-
evaluated exercise. In addition multiple training drills are conducted 
throughout the year.
    Under 10 CFR 50.47 and Appendix E the nuclear power licensees, 
State, and local emergency response organizations are required to 
exercise the 10-mile plume pathway emergency-planning zone biennially. 
The 50-mile ingestion pathway is exercised every 6 years. Conduct of 
the 50-mile ingestion-planning zone involves the full or partial 
participation of Federal, State and local agencies with the planning 
zone.
    The specific response capabilities for the 12 Federal agencies 
involved in responding to an emergency at a nuclear power plant are 
contained in the Federal Radiological Emergency Response Plan (FRERP), 
published as an interim document in the September 12, 1984, Federal 
Register (29FR35896). This plan outlined the authority and 
responsibility of each of the 12 Federal agencies that have the 
resource and capabilities needed to respond to a radiological 
emergency. The plan was first tested in a full-scale exercise at the 
St. Lucie Nuclear Facility on March 6-8, 1984. FEMA published the final 
operational FRERP in the November 8, 1985, Federal Register 
(50FR46542). This plan works in conjunction with the Federal Response 
Plan (FRP) that identifies the responsibilities of the Federal agencies 
involved in response to all emergencies. The FRP has been in place 
since April 1992, Public law 93-288, as amended. The FRP represents a 
concerted effort by the Federal Government to provide assistance in an 
expeditious manner to save lives and protect property.
    The FRP was developed through the efforts of 27 departments and 
agencies. The purpose of the FRP is to facilitate the delivery of all 
types of Federal response assistance to States to help them deal with 
the consequences of significant disasters. This plan outlines the 
planning assumptions, policies, concept of operations, organizational 
structure and specific assignments of responsibility to the department 
and agencies in providing Federal response assistance to supplement the 
State and local response.

                                 ______
                                 
                              Attachment 1

                     POST TMI-PLANNING REQUIREMENTS

    In July 1979 the NRC issued NUREG-0578, TMI-2 Lessons Learned Task 
Force Status Report and Short Term Recommendations. The report 
identified short-term engineering fixes to assure more reliable reactor 
operations, recommended the establishment of an onsite technical 
support center and operational support center, and specified improved 
in-plant monitoring and staffing.
    In September, 1979 the NRC issued NUREG-0610, Draft Emergency 
Action Level guidelines, which established the four classes of 
emergency action levels (Notification of Unusual Event, Alert, Site 
Area Emergency, and General Emergency.)
    On December 19, 1979, the NRC published for comment the proposed 
new regulations concerning emergency planning for power reactors (10 
CFR 50. Appendix E). The proposed rulemaking would incorporate the 
various NUREGs, recommendations, letters, and proposals which had been 
issued since March.
    In January 1980, the NRC published the first draft for comment of 
NUREG-0654, Criteria for Preparation and Evaluation of Radiological 
Emergency Response Plans and Preparedness in Support of Nuclear Power 
Plants. This interim document was based on the draft version of 
Appendix E and public comment was formally requested under Federal 
Register Notice 44 FR 9768 on February 13, 1980.
    On August 19, 1980, the final version of Appendix E was adopted by 
publication in the Federal Register (45 FR 55410). It became effective 
on November 3, 1980. Subsequently in October 1980, the final version of 
NUREG-0654 was published as NUREG-0654, FEMA-REP-1, Revision 1.
 Statement of Irwin Redlener, M.D., President, The Children's Hospital 
        at Montefiore; and President, The Children's Health Fund
    Thank you, Chairman Jeffords, Ranking Member Smith and Members of 
the Committee, for the opportunity to testify this morning. I am Dr. 
Irwin Redlener, a pediatrician and president of the Children's Health 
Fund headquartered in New York and the new Children's Hospital at 
Montefiore Medical Center in the Bronx. I have had a career in public 
health and health services delivery spanning more than three decades. 
However, allow me to share some background information with respect to 
my role in the matters before the Committee today.
    First, on September 11, 2001 I dispatched two mobile medical units 
from our New York programs to lower Manhattan to participate in the 
enormous emergency medical response to the terrorist attacks at the 
World Trade Center. We also assisted in a number of additional ways in 
the immediate aftermath in terms of medical services and continue to 
provide mental health support to families and children throughout the 
City who have been affected by the attacks.
    In addition, with a colleague who heads the Center for Pediatric 
Emergency Medicine at the New York University Medical Center, Dr. 
George Foltin, I established the New York City Task Force on Pediatric 
Disaster Preparedness in December. I am also a founding member of the 
Task Force on Terrorism of the American Academy of Pediatrics. Over the 
last 8 months I have been working to ensure that Federal efforts 
designed to improve preparedness for terrorist attacks include specific 
provisions to ensure the safety of children.
    In New York City I have had regular contact, formal and informal, 
with City and private sector officials responsible for disaster 
response. Since October of last year I have had continuous contact with 
Federal officials regarding various issues with respect to homeland 
security. These issues have included my ongoing concerns regarding the 
security of nuclear power plants in general and the Indian Point 
nuclear power plants in particular. Finally, during the 1980's, I was 
significantly involved in the analysis of Crisis Relocation Planning, 
the response proposed by the Federal Emergency Management Agency, to 
the threat of large-scale nuclear attack on the United States.
    The September 11 attacks on the United States have had remarkable 
consequences for Americans and for American society. In a real sense, 
on a beautiful day this past September, we were both invaded and 
profoundly shaken as a nation. For generations we have had a sense of 
detachment from the grim realities which plague so many parts of the 
world, where uncertainty and terror play out in daily life and the 
public consciousness is always aware, on some level, of the potential 
for deadly large-scale violence. Less than two dozen violent and 
suicidal fanatics, connected to a diffusive and elusive global network 
of terror, has essentially ended the American reverie of protected 
isolation.
    The cliche is that this is a ``new world'', and, indeed, it is. How 
we respond, what plans we make, how we adjust ourselves 
psychologically, what resources we ultimately bring to bear and how we 
reorganize our government systems and agencies to prevent, mitigate or 
reduce the impact of on-going terrorism in the United States remain 
open questions.
    We will see conflicts between civil rights and necessary 
intelligence gathering capability; we'll struggle with interagency 
communications and rivalries over areas of responsibility and control. 
And there `will be major debates over how to prioritize and balance the 
response to terrorism against the ongoing societal concerns which pre-
date September 11, 2001.
    However, no matter how these debates unfold, it is clear that the 
perceptions of risk, vulnerability and homeland security must rapidly 
evolve and adapt to the new realities of a Nation targeted by smart, 
committed agents of terror. There are, needless to say, a myriad of 
complex issues to be covered under the rubrics of the war against 
terrorism and the effort to enhance the security of the United States. 
One of these areas, the subject of this morning's hearings, concerns 
the potential risks and vulnerabilities of the 103 nuclear power plants 
currently operating throughout the country. Unfortunately, I also need 
to add that children, the elderly and the infirm bear a 
disproportionately high burden of vulnerability to consequences of and 
reactions to a successful terrorist attack on a nuclear power plant.
    Although the possibility of a catastrophic event occurring at a 
nuclear power plant as a result of accident, natural disaster or 
deliberate act of terrorism has always been on the table, the events of 
September 11 demand a re-examination of all aspects of the 
vulnerability and security of the nation's nuclear facilities. Simply 
put, what was improbable to the point of impossible, has become 
possible. Assessment of risk and specific planning scenarios need to 
evolve to new levels taking into account a much more aggressive, 
educated, trained and organized terrorist for whom capture or death is 
not a deterrent to action.
    A medical analogy here would be the mutation of a bacteriologic 
agent which becomes orders of magnitude more virulent and 
simultaneously unresponsive to first-line antibiotics. Traditional 
approaches to prevention, early identification and treatment would need 
to change dramatically. In effect, this is precisely what we are 
dealing with in terms of necessary measures to secure and reduce the 
risk posed by nuclear power facilities today in the United States. 
Acceptable risk and security measures appropriate on September 10, 
became unacceptable and insecure on September 11.
    The potential consequences of failing to do everything possible to 
reduce or eliminate the population risks from acts of terrorism carried 
out against nuclear facilities are extraordinary and horrific. Attack 
scenarios well within the realm of possibility for many nuclear 
facilities can have horrendous consequences for populations in the 
vicinity of a nuclear plant. Immediate civilian fatalities can range 
from a hundred or so to five thousand or more, depending on the extent 
of damage to the reactor, its support systems and the spent fuel 
containment systems. Excess cancers from radiation exposures can range 
into the tens of thousands. Moreover, nuclear terrorism is in a special 
category of horror, evocative of the nightmare scenarios which first 
arose during the height of the cold war.
    Beyond the direct mortality and morbidity estimates, verified by 
numerous studies of experts in and out of government, are layer upon 
layer of unimaginable potential health and economic consequences from a 
successful attack on a power plant. Studies by independent physicists 
and organizations, including the Brookhaven National Laboratories, have 
concluded that thousands of square miles could be contaminated and 
uninhabitable for years or decades under a variety of highly plausible 
attack scenarios. In sum, the economic, psychological and societal 
consequences of such an event in a major population center would be 
almost incalculable.
    For all of these reasons, it is imperative that we take necessary 
and prudent steps to reduce the likelihood of a successful act of 
terrorism against a nuclear power facility. There are two points which 
are, perhaps obvious, but worth stating:
    First, to the very limits of our human limits, intelligence 
capacity should be upgraded to the point where terrorist planning can 
be disrupted prior to implementation. And, second, a cogent case can be 
made for closing nuclear power plants altogether, particularly those 
with inherent safety problems, those in highly populated areas with 
inadequate evacuation plans or those with relatively insufficient means 
of safeguarding spent fuel rods. The fact is that the Indian Point 
facility meets all three criteria for closing, even though 
discontinuing energy production does not fully eliminate the risk and 
even though there would be modest temporary increases in energy costs 
in the region. In my opinion, this is clearly a case in which the true 
risks to people of continuing operations are far greater than the 
benefits, by any measure.
    Putting aside the question of plant decommissioning, here are some 
actions that can be undertaken immediately:
    1. Security at nuclear plants needs to be upgraded dramatically and 
immediately, commensurate with our new and totally different 
understanding of the capacity and ferocity of terrorism on American 
soil.-- The ``design basis threats'' which used to be the standard 
scenarios for anti-terrorism planning need to be upgraded, informed by 
the events of September 11, to include a whole new range of potential 
actions for which security measures must anticipate, plan for and test. 
Can we explain to our children and grandchildren in Westchester County, 
New York why special U.S. military forces, for instance are not 
guarding Indian Point? Incredibly, just 6 weeks ago the New York Post 
reported that a journalist spent 20 minutes flying over the Indian 
Point facility. Can we explain why aircraft are not forbidden to fly 
over the plant?
    2. All spent fuel rods should be stored in hardened, onsite, dry 
storage facilities, pending a more definitive solution to the challenge 
of permanent storage.--Spent nuclear fuel rods in places like the 
Indian Point plant are kept in deep water pools. Unlike the reactor 
core itself, which is in a hardened containment structure, the spent 
fuel pool is in an adjacent, comparatively lightweight structure. Many 
of these spent rod structures are covered with nothing more than a 
corrugated steel roof. Moreover, the pools are now packed at high 
density, so much so that spent fuel will ignite and burn if water, 
essential to keeping the spent rods cool, is lost from the pool. This 
would release a massive amount of radioactive material to the 
atmosphere. Dry storage can make the spent fuel dramatically less 
vulnerable. Money is the only barrier to moving rapidly to hardened, 
dry storage of the used fuel.
    3. There needs to be a top-to-bottom revision and upgrading of the 
emergency planning process, with active Federal oversight.--Planning 
for evacuation in densely populated areas is extremely difficult. The 
grossly inadequate emergency evacuation planning process around the 
Indian Point facility is a case in point. Spontaneous, uncontrolled 
evacuation in time of crisis, as happened at Three Mile Island, could 
quickly result in chaos and paralysis of egress. Permanent relocation 
for evacuees in the event of substantial ground contamination would be 
an extraordinary challenge.
    Reuniting school children and children in day care with their 
parents in the current plans are dependent upon wildly unrealistic 
expectations with respect to the likely behavior of school bus drivers, 
emergency officials and parents. Plans are extremely insufficient 
regarding the size and scope of the area which would need evacuation in 
a nuclear emergency. The same could be said regarding what to do with 
senior citizens, hospitalized or disabled individuals and those who 
refuse to leave. The entire notion of evacuation planning is so 
massive, complex and resource intense that it is unfair and 
unreasonable to expect this to happen, if it can happen at all, without 
extensive and revised preparations and a strong role for the Federal 
Government. A recent Marist Institute survey on the subject of 
evacuation planning revealed that more than 75 percent of residents 
living within 10 miles of Indian Point do not believe that the current 
evacuation plan is workable. Only a very small percentage of people 
even within a 10-mile radius of the plant know where the reception 
centers are located. Chaos would ensue under any attempt to evacuate 
the area in the event of a terrorist nuclear incident at Indian Point 
since 60 percent of people within 50 miles of the plant, well beyond 
the planning zone, would attempt to evacuate. We have every reason to 
be concerned that people within the 10-mile evacuation zone would, in 
fact, not be able to leave because of road and transportation 
congestion caused by people in large numbers outside the 10-mile range 
attempting to leave as quickly as possible.
    4. Potassium iodide should be acquired and distributed on a ``point 
of use'' basis for a minimum of 50 miles radius from all nuclear power 
plants.--Radioactive iodine, I-131, is released from reactor explosions 
and, if inhaled or ingested in sufficient quantities, can cause high 
rates of thyroid cancer in children. If the proper dose of potassium 
iodide (KI) is given prior to or within 2 hours of exposure to I-131, 
this particular outcome, that is excess thyroid cancers, can be almost 
entirely prevented.
    Because the window of opportunity to have this beneficial effect of 
KI is very narrow, it is not sufficient to have the drug only at 
central distribution points. It must be available at home, in schools 
and in day care centers. In addition, there must be a major public 
education campaign to inform people about the benefits of having KI 
ready for administration, especially to children and pregnant women. It 
also must be pointed out that KI is not a ``radiation pill.'' It will 
do nothing for any other consequence of exposure to cesium-137 or other 
isotopes. It is also essential that proper measures be taken by 
government to ensure that food and water available for ingestion by 
children not have evidence of I-131 or other harmful radiation by-
products such as Strontium-90.
    These four steps would, in my estimation, be appropriate initial 
measures to prevent and/or ameliorate a terrorist attack on any one of 
the nation's nuclear power facility. As a physician and public health 
professional, as a resident of a community with the least safe nuclear 
power plant in the nation--one which has 21 million people living with 
50 miles of the facility, I urge you to strongly consider these 
recommendations and move forward as quickly as possible.
    I also recognize that this is just the beginning and nothing more 
than a component--albeit a very important component--of a much larger 
agenda. Even in the nuclear arena, there are many other concerns beyond 
nuclear plant security. The Federation of American Scientists and the 
Health Physics Society have begun to raise important concerns about the 
status of so-called ``sealed'' and ``orphan'' sources of radioactive 
materials used in health care and many other industries. Management 
control, security and oversight of these materials is variable to the 
extreme. Stolen radioactive materials can be used to make simple and 
potentially deadly ``dirty bombs'' which, if nothing else, have the 
capability of rendering large land areas uninhabitable.
    Again, I thank you for the opportunity to offer testimony at this 
hearing. I deeply respect the responsibility you and your colleagues 
have in this time of enormous uncertainty and danger. On behalf of my 
colleagues in health care and public health I wish you strength and 
courage to do what needs to get done to safeguard all Americans from 
every form of terror.
    Thank you.

                                 ______
                                 
       Responses by Irwin Redlener, M.D. to Additional Questions 
                          from Senator Clinton

    Question 1. In your testimony, you talk about how children and the 
elderly bear a disproportionately high burden of vulnerability to 
consequences of a radiological release. Can you please elaborate on 
this?
    Response. Children represent a special level of vulnerability to 
any act of terrorism, particularly those involving chemical, biological 
or radiological agents. I have elaborated on the chemical and 
biological issues elsewhere, but I would like to focus on the problem 
with excess radiologic exposure. In incidents such as a successful 
attack on the main reactor core of a nuclear power plant, release of 
radioactive iodine, I-131, is rapidly absorbed into the thyroid gland 
of a child (most rapidly in younger children and infants) resulting in 
a very dramatic rate of thyroid cancer. Although this can happen with 
adults, absorption is much slower and the cancer rates much less 
affected.
    It should be noted that children are more likely to be crawling 
around the ground, more exposed to radioactive contamination, and more 
likely to ingest toxic or contaminated substances. Finally, children 
need to receive potassium iodide (KI) just before or immediately after 
(within two hours) exposure in order for the KI to have any beneficial 
effect.
    Radiation sickness itself can be much more severe in children 
resulting in more rapid decline and greater loss of life. There are 
other potential health consequences, but the we need to also note that 
the psychological needs of children in a time of crisis and chaos, in 
terms of potential separation from caretaker (school and day care) and 
needs during evacuation make this a major issue, as well.
    Seniors, more likely to be infirm, needing medications and other 
health related devices and management will have another series of 
special vulnerabilities during a time of rapid evacuation and 
resettlement

    Question 2. There are some who have testified today that it should 
be up to the states to decide whether or not to stockpile KI tablets 
and how to distribute these tablets to their residents, should the 
state chose to make them available at all.
    Do you think it is important for KI tablets to be available to 
everyone living near one of these plants? And if so, how should 
distribution be handled?
    Response. KI distribution should be a national policy of the 
highest priority, as long as any possibility of nuclear terrorism 
exists. A 50-mile distribution radius from every nuclear power plant 
should be the absolute minimum, although a good case can be made for 
having a 200-mile distribution objective. Many cases of thyroid cancer 
in children were found at significant distances from Chernobyl 
following the reactor accident there. Although some have made the case 
that this resulted from the fact that children were allowed to eat 
contaminated food, the evidence is far from conclusive. Distribution of 
KI, in any case, should be to ``point of use'' (i.e., homes, school, 
day care, etc.), not central stockpiles. There is no justification to 
permit states or localities to ``opt out'' of KI distribution.
    Finally, a clear, on-going, public education campaign must 
accompany the plan to be sure that people understand what the dangers 
are and what is accomplished by administration of KI. It also needs to 
be clarified that KI is not a general ``anti-radiation panacea'', since 
it does nothing whatsoever for any other issue than the prevention of 
thyroid cancer following inhalation or ingestion of I-131.

    Question 3. In your testimony, you noted that lost or stolen 
radioactive sealed sources can be used to make a simple and potentially 
deadly ``dirty bomb''. Are there any suggestions you could offer us on 
how to better protect these so-called sealed sources.
    Response. Much greater accountability is needed for the management 
of the nation's supplies of radioactive materials used in health care 
and throughout many industries. These sealed and orphan sources 
represent a significant vulnerability in terms of the construction of 
so-called ``dirty nuclear bombs'' by terrorists.

                                 ______
                                 
       Responses by Irwin Redlener, M.D. to Additional Questions 
                         from Senator Voinovich

    Question 1. In your testimony, you stated that our nation should 
consider the ``closing of nuclear plants altogether'' that have a 
variety of problems. What do you recommend be the process for 
evaluating a facility for this kind of drastic step?
    How does the fact that communities rely on this low cost reliable 
energy source or that a facility does not immediately become safe after 
it is shutdown play in this determination?
    What impact would the closing of a nuclear site have on the 
elderly, poor, and children who are vulnerable to the high costs of 
energy??
    Response. Closing a nuclear power plant is an extremely serious 
decision with obvious impact on energy production and cost, employment 
and other concerns. We are simply weighing risks and benefits and need 
to be extremely mindful of the dramatic increase of perceived and 
actual vulnerability that America has experienced since last fall. I 
also need to emphasize that the closing or decommissioning of a nuclear 
power plant does not eliminate risk, but does significantly reduce 
certain of the risks over time.
    That said, there are clearly a large number of America's nuclear 
power plants for which the benefits of remaining active are overwhelmed 
by down-side risks and newly appreciated levels of vulnerability. In my 
mind there are a number of threshold issues which need to be explored 
in assessing the risk of any plant. Here are several criteria which 
would lead me to suggest that a particular plant should be considered 
for closing:
    <bullet> Is the plant a ``high target value'' in terms of 
population density or economic impact of a potential successful attack?
    <bullet> Are there particular vulnerabilities of the plant's 
containment systems for either the main reactor or the spent fuel rod 
storage system?
    <bullet> Is there a history of poor safety or security ratings?
    <bullet> Is there a viable evacuation plan?
    The Indian Point facility in Buchanan, New York, some 40 miles from 
midtown Manhattan, for instance, fails all of these criteria and should 
be high on the list of plants needing to be closed.
    Still, even with all four of these criteria being met by Indian 
Point, this is still an important question with major economic 
considerations for local and regional residents.
    My feeling is, however, that under the circumstances, in the post-
9/11 world of terrorist reality in America, we need do what needs to be 
done. We are at war. If there is need to help the elderly and low-
income populations manage with higher energy costs, then, in my 
judgement, part of the homeland security strategy may well entail 
providing an energy supplemental resource for those who need it.

    Question 2. Are there any harmful effects of the misuse of 
potassium iodide?
    If distributed widely, as you suggested, how can we ensure that it 
is not misused?
    Response. The main harmful effect of potassium iodide would be 
related to over-dosage in infants which could result in dangerous 
situations of low thyroid function with potential complications of 
slowing brain growth and development. This is preventable with 
education about dose and administration of KI for providers and the 
general public, just as we do for Tylenol, cold medications or anything 
else we do for pediatric medication management.
    Again, thank you so much for allowing me this opportunity to expand 
my testimony to the Committee on Environment and Public Works.

                               __________
 Statement of Robert Alvarez, Program Director for the STAR Foundation

    My name is Robert Alvarez, Program Director for the STAR 
Foundation. We are grateful for the opportunity to provide this written 
statement regarding the Nuclear Security Act of 2001. The STAR 
Foundation is a research and advocacy organization, which is focused on 
energy, health and environmental policy issues. The Foundation is based 
in East Hampton, NY and has offices in Washington D.C. Phone: 301-585-
7672.
    Between 1993 and 1999, I served as a Senior Policy Advisor to the 
Secretary of Energy for National Security, Environment, Safety & 
Health, and Labor Policy. My responsibilities included directing the 
DOE's Office of Energy Emergency Planning. In this position, I directed 
assessments of the risks and consequences of energy emergencies, 
including those involving nuclear facilities.

     RECOMMENDATIONS FOR IMPROVEMENTS TO NUCLEAR SAFETY AT REACTOR 
                               FACILITIES

    The Nuclear Security Act (S. 1746) represents a positive step in 
the protection of public safety and health from acts of terror against 
commercial nuclear facilities.
    The Need for Timely Revised Design Basis Threat.--The STAR 
Foundation strongly supports the provision in S. 1746 which requires 
the Nuclear Regulatory Commission to develop a realistic and timely 
Design Basis Threat for commercial nuclear power stations. We 
respectfully recommend that this legislation include formal 
participation in the development of a revised Design Basis Threat by 
other affected agencies, such as the Defense and Energy Departments, 
the Coast Guard, the Federal Emergency Management Administration, the 
Federal Bureau of Investigation and the Federal intelligence community. 
Such an interagency effort is necessary and will avoid the costly, 
inefficient, and largely ad hoc approach now being taken.
    The NRC's current ``top to bottom'' review of security at nuclear 
power stations appears to have no endpoint. By comparison the National 
Nuclear Security Agency (NNSA) within the Department of Energy has 
committed in its fiscal year 2003 Budget Request to establish a new 
Design Basis Threat for the security of the nation's nuclear weapons 
facilities by September of this year. The NNSA has already established 
a dedicated taskforce to review current security measures and to 
provide recommendations for a revised Design Basis Threat, which takes 
into account the tragic attacks of September 11, 2001.
    There is no good reason why the NRC should not follow the lead of 
the NNSA and establish a timely revision of its Design Basis Threat 
with a date certain. Due to the absence of clarity and timeliness by 
the NRC, the Nuclear Security Act of 2001 (S. 1746) is very necessary, 
and if adopted, will establish the necessary Federal framework to meet 
the challenges in this era of terrorism.
    Protection of Spent Fuel Should be Given High Priority.--
Specifically, the STAR Foundation urges major emphasis be given to 
provisions that which would reduce the risks associated with inherent 
vulnerabilities associated with spent fuel pools.
    Unlike reactors, which are in steel vessels surrounded by thick 
concrete containment, spent fuel pools, containing some of the largest 
concentrations of radioactivity on the planet, are in unhardened 
structures that include thin metal corrugated buildings. If enough 
water drains by accident or design, the fuel could heat up and catch 
fire with catastrophic consequences comparable to a reactor meltdown. 
This is of particular concern for the many BWR spent fuel pools which 
are elevated several stories above the ground.
    The first place to begin is to promptly remove as much of the 
40,000+ tons of spent nuclear fuel as possible, and place it in 
multiple, dry, hardened onsite storage containers. This will greatly 
reduce risks in the near term by reducing fire dangers and the 
potential for large radiological releases. The technology exists to 
achieve this important public safety objective and has been deployed 
for several years on a modest scale in the United States and more 
extensively in Europe.
    For more than twenty years, Germany officially recognized that 
densely compacted spent fuel pools cannot be protected against acts of 
terror and has implemented an extensive dry spent fuel storage program. 
By comparison, the Nuclear Regulatory Commission, which in its more 
recent studies, concedes these risks may exist at U.S. nuclear 
stations, supports ``wall-to-wall'' fuel pool compaction. Before 
September 11th the NRC had already reduced security, emergency planning 
and accident insurance coverage at eleven closed reactors with spent 
fuel pools.
    In a world where animus against the United States remains high, and 
where detailed knowledge about nuclear technologies and access to 
advanced weaponry are widespread, a national program to achieve safe 
and secure storage of spent reactor fuel should be given high priority. 
In particular, efforts should be undertaken to further harden existing 
dry spent fuel storage containers, such as berming or additional 
hardened containment. The following illustration provides and example 
of what additional hardening of dry spent fuel containers might look 
like.

[GRAPHIC] [TIFF OMITTED] T3695.029


    The costs of hardened onsite dry storage are not prohibitively 
expensive and are estimated in the range of tens-of-millions of dollars 
per site. Currently a single dry cask unit costs between half a million 
to one million dollars. Additional hardening may double this cost. For 
instance, a recent study done at Princeton University found that if the 
Salem Reactor station in New Jersey placed all of it's spent fuel into 
dry-hardened casks, the costs for 38 new dry casks would be between $34 
and $76 million. However, the costs of doing too little or nothing 
could be incalculable.
    The Need for Logical and Adequate Nuclear Emergency Planning and 
Response.--S. 1746 calls for the expansion of the emergency planning 
zone for nuclear accidents from 10 to 50 miles. The logic of simply 
expanding the emergency planning zone does not necessarily provide for 
adequate emergency response and public safety. Even with an expanded 
emergency planning zone, the current system is unstructured and is not 
site-specific, with respect to population density, meteorology, 
logistical, transportation access criteria, and long-term risks from 
land and building contamination.
    Instead the STAR Foundation recommends a framework for nuclear 
accident emergency planning and response be established as part of S. 
1746. Such a framework would include:
    <bullet> Development of a specific prioritized system based on the 
goals of (1) saving lives and early injuries; (2) and reducing 
radiation doses below limits of exposure (Protective Action Guides--
PAGs) for purposes of evacuation, relocation and safe return.
    <bullet> Initiation of a precautionary response when the 
probability of a major release of radioactivity from a core melt or 
spent fuel fire becomes significant (10 percent or greater). State 
authorities should have the technical capability to promptly identify 
and evaluate plant conditions that call for a precautionary response.
    <bullet> Protective Action Recommendations should be based on 
measurements that are compared to pre-established long-term guidelines 
for annual exposures--set as a small faction of the short term 
Protective Action Guides. The current system is based on measurements 
of contamination levels of food, water and land and buildings, without 
any regard for long-term exposures and critical issues such as when 
people are able to return.
    <bullet> There should be three zones:
    1. 0 to 5 miles for ``plume protection''--emphasizing prompt early 
evacuation.
    2. 5-25 Miles: for ``plume protection'' that includes evacuation 
and sheltering based on weather conditions.
    3. >25 miles for ``plume protection'' for evacuation, sheltering or 
relocation based on monitoring.
    Because of the ability of large concentrations to travel and be 
deposited over great distances, from weather conditions such as 
rainstorms, there should be an Ingestion Protection Plan based on 
Protective Action Guides set by the EPA for contaminated foodstuffs.
    <bullet> There should be a classification level that addresses 
releases from spent fuel pools and other spent fuel storage facilities. 
Currently, there are four classification levels based on severity, 
plant condition, size of release, and accident probability, none of 
which apply to spent fuel pools.
    <bullet> There should be intensive, broad-based pre-emergency 
educational in the ``Inner Planning Zone'' that goes from 0 to 25 
miles, and information dissemination in all other zones. Citizens 
should be involved in the design and implementation of the educational 
program. There should be an upgraded flow of information during 
emergencies. Currently, pre-emergency education is limited to 
disseminating brochures, calendars etc by the utility, with a 10-mile 
radius, as well as emergency procedures that are distributed to key 
locations within the 10-mile zone.
    <bullet> State authorities should have the independent technical 
capability to identify, and classify the severity of an emergency. 
States should also have a quick-reaction capability for plume tracking 
and dose projection. Currently, the reactor owner has the primary 
responsibility for identifying an emergency and classifying its 
severity. States are totally dependant on the reactor owner for 
information and have limited capability for plume tracking and dose 
estimation. Federal authorities have substantial plume tracking and 
radiation monitoring capabilities that are subject to several hours of 
delay before deployment.
    <bullet> Local counties potentially at risk should coordinate the 
development and implementation of emergency plans. There should be 
extensive ``horizontal'' communications among counties and 
municipalities. There should be extensive training, especially for 
volunteer emergency workers and staff at schools, hospitals and other 
institutions. Currently, there is limited coordination and minimal 
training if any provided to potential ``at risk'' counties.
    <bullet> There should be plans for screening and external 
decontamination of persons potentially exposed or concerned about 
exposure. There should be plans to call in national medical resources 
in the event of a severe accident/event in which thousands of people 
may require treatment for serious radiation exposures. Currently, the 
NRC requires screening for 20 percent of the people in a 10-mile zone. 
There are limited arrangements for treating a small number of seriously 
exposed people. There is no explicit for the integration of national 
medical resources in the case of a large-scale emergency.
    <bullet> Emergency preparedness should be regarded as a safety-
system equivalent to an in-plant system (e.g., emergency core cooling). 
As such significant degradation of state emergency preparedness (e.g. 
failure to remove snow from roads) should be grounds for shutting down 
the plant. The plant's operating license should be contingent on the 
continuous maintenance of an effective emergency response capability. 
Currently, there is a Federal requirement of an emergency plan to be in 
place as a condition for continued plant operation. There are no 
requirements that the plan be capable of execution when the plant is 
operating.

                               BACKGROUND

    As the 21st century begins, the basic concepts of warfare are being 
transformed by the highly destructive acts of terror by small, well-
organized groups against military and civilian targets. Over the past 
two decades, such attacks have occurred, tragically, with increased 
frequency and destruction. Of particular concern are nuclear reactor 
stations. By virtue of their potentially enormous radiological impacts, 
nuclear energy facilities represent an unpredictable risk of becoming 
weapons of mass destruction at the hands of terrorists.
    This concern was underscored by President Bush, on January 27th, 
when he informed the Nation in his State Of the Union Address that U.S. 
nuclear reactor information was found in a terrorist enclave in 
Afghanistan.
    Nuclear power facilities have long been considered as potential 
terrorist targets, and limited programs are in place to protect them. 
But, in the aftermath of September 11th, the Nuclear Regulatory 
Commission concedes that U.S. reactor stations are not designed to 
withstand destructive attacks using a jumbo passenger jet with a full 
load of fuel as a missile. For over three decades now, the NRC and it's 
predecessor--the Atomic Energy Commission--have refused to require 
reactors to be hardened against aerial attacks because it is considered 
prohibitively expensive.
    After September 11th, nuclear reactors can no longer be viewed 
merely as machines that generate electricity. The potential 
consequences of a terrorist attack transcend cost/benefit analyses of 
nuclear energy. No other energy technology has the potential for 
catastrophic releases of radioactivity, even greater than nuclear 
weapons explosions, causing thousands of deaths and cancers, and 
rendering large populated or farming areas uninhabitable, possibly for 
centuries.
    The only ``real world'' analog to the potential consequences of a 
nuclear terrorist attack is the tragic aftermath of the 1986 Chernobyl 
reactor accident in the Ukraine. Fourteen years after the accident, 
U.N. scientists estimated that some 74,000 square-miles in Northern and 
Eastern Europe still remain heavily contaminated with cesium-137 from 
Chernobyl. Large numbers of people still live in contaminated zones 
that would trigger evacuation, and removal of foodstuffs, in the United 
States.
    There are no credible scientific tools to predict acts of malice, 
much less to compare the risk of terrorism with the benefits of nuclear 
generated electricity. A terrorist attack, by its very nature occurs by 
total surprise. Yet, knowing this, the U.S. commercial nuclear industry 
and the Nuclear Regulatory Commission have steadfastly resisted 
inclusion of terrorism into the underlying safety requirements for 
nuclear power stations, on the absurd, but technically correct basis 
that terrorist acts cannot be foreseen.
    In a world where animus against the United States is growing, and 
where detailed knowledge about nuclear technologies and access to 
advanced weaponry are widespread, the security and safety of nuclear 
power stations should be of the highest priority.

     REACTOR SPENT FUEL POOLS POSE THE GREATEST POTENTIAL FOR HARM

    In terms of severe radiological impacts, the most significant 
vulnerabilities at nuclear stations involve reactor spent fuel pools. 
Unlike reactors, which are in steel vessels surrounded by thick 
concrete containment, spent fuel pools, which contain some of the 
largest concentrations of radioactivity on the planet, are in less 
hardened structures that include corrugated buildings. An attack 
against a spent fuel pool could drain enough water to cause a 
catastrophic radiological fire that cannot be extinguished.
    Depending on the reactor design, significant water drainage 
exposing highly radioactive cores could occur in less than an hour. 
Once the spent fuel rods are exposed the zirconium cladding could heat 
up in a matter of hours to about 1000 degrees Celsius, and undergo 
instantaneous ignition. As the fire a rages, the zirconium interacts 
with the remaining water and steam, generating hydrogen, which further 
intensifies the conflagration.
    Over the past several decades, the U.S. nuclear power industry has 
generated several billion curies of long-lived radioactivity, contained 
in more than 40,000 tons of reactor-irradiated spent fuel. One spent 
fuel pool has more long-lived radioactivity than was released into the 
northern hemisphere by all nuclear weapons tests combined. On average, 
spent fuel pools hold 5 to 10 times more long-lived radioactivity than 
a reactor core. Pools at one third of U.S. reactor sites are in 
unhardened buildings, elevated several stories above ground.
    The NRC concluded over the past several years that the loss of pool 
water by accident or by acts of malice could lead to very serious 
radiological fires that are comparable or worse than reactor meltdowns. 
The NRC also finds that ponds at reactors closed for many years could 
pose similar dangers. The Nuclear Regulatory Commission (NRC) concedes 
that such a fire probably could not be extinguished; it could rage for 
days. Most important in June 2001, the NRC staff informed the 
Commission that its spent fuel safety policy and procedures did not 
cover vulnerabilities to terrorism or sabotage. Despite these 
concessions, the NRC staff recommended that the Commission greatly 
reduce security and emergency evacuation requirements at 
decommissioning reactors and reducing accident insurance coverage by 
more than half. Prior to September 11th particularly, worrisome is the 
large amount of cesium 137 in fuel ponds. With a half-life of 30 years, 
cesium 137 gives off highly penetrating radiation and is absorbed in 
the food chain as if it were potassium. According to the NRC, as much 
as 100 percent of a pool's cesium 137 would be released into the 
environment in a fire. In comparison, the 1986 Chernobyl accident 
released about 40 percent of the reactor core's 6 million curies of 
cesium 137 into the atmosphere, resulting in massive offsite radiation 
exposures. According to a 1997 study done by Brookhaven National 
Laboratory for the NRC, a spent fuel fire could render about 188 square 
miles uninhabitable and cause as many as 28,000 cancer fatalities and 
$59 billion in damage.
    Despite the fact that the Nuclear Regulatory Commission recognizes 
this problem, the commercial nuclear power industry thus far, has 
successfully resisted security upgrades that involve the hardening of 
spent fuel storage. It is time for Congress to act.

                  YUCCA MOUNTAIN AND NUCLEAR TERRORISM

    Early this year, President Bush submitted a formal certification to 
proceed with the construction of a permanent high-level radioactive 
waste repository at the Yucca Mountain site in Nevada. Much has been 
said by the nuclear industry and the Bush administration that opening 
the Yucca Mountain site will serve as a primary means to protect 
existing spent fuel from terrorist attacks.
    Recently the House of Representatives, fueled by terrorism 
concerns, voted overwhelmingly to proceed with a geological repository 
for high-level radioactive wastes at the Department of Energy's Yucca 
Mountain site in Nevada. Now the battle lines are drawn in the Senate, 
as arguments heat up over the risks of transporting reactor spent fuel 
versus disposing of it in Yucca Mountain.
    Obscured in this contentious debate, however, is a more important 
and timely question. How can we protect spent reactor fuel already in 
vulnerable pools scattered across the country from terrorist attacks 
over the next 30-40 years.
    The first place to begin is to promptly remove as much of the more 
than 40,000 tons of spent nuclear fuel and place it in multiple, dry, 
hardened onsite storage containers. This will greatly reduce risks in 
the near term by reducing fire dangers and the potential for large 
radiological releases.
    Even if the Yucca Mountain site opens under the DOE's optimistic 
date of 2010, large amounts of spent fuel will remain in pools for 
decades, awaiting shipment. By the time the Yucca Mountain Repository 
fills up, reactors allowed to operate beyond their 30-year NRC 
licenses, could generate over 40,000 additional tons of spent fuel for 
storage in vulnerable pools.

                          THE CHALLENGE AHEAD

    The current Design Basis Threat, which provides the ``envelope'' in 
which nuclear power station safeguards and security operate does not 
factor in the type of attacks that occurred on September 11th. Guards 
are only required to protect against no more than 4 individuals, and 
have not taken any steps to harden vital parts of the reactor station 
such as the control room and spent fuel pools. These latter 
vulnerabilities are the primary focus of the Project, because ``gates, 
guards, and guns'' are not sufficient to defend against an advanced 
weapons or aircraft attack against facilities that are similar in 
construction to ordinary commercial structures.
    Nonetheless, the commercial nuclear industry strongly resists 
significant security improvements, particularly capital upgrades to 
harden facilities. Attacks against spent fuel pools were never part of 
NRC security performance tests prior to September 11th.
    A major factor that fuels industry resistance to increasing the 
design basis threat is that the financial stability of much of the 
nuclear power industry has been undercut through deregulation.
    As a result of utility deregulation many of America's nuclear power 
stations are now owned by limited liability corporations, (some with 
foreign partners) which possess questionable capital reserves. This 
means these companies may not have sufficient funds to manage major 
contingencies such as major equipment failure and replacement, nuclear 
safety upgrades, and increased safeguards and security. Under 
deregulation, these new reactor owners can no longer rely on a 
regulated rate base for cash-flow. Competitive market pressures and 
bankruptcy can put pressure on reactor owners to cut back on 
``variable'' costs such as meeting safety requirements, repairing 
safety systems and other equipment, and having adequate staffing to 
ensure safe operation. Adding to existing difficulties are the impacts 
of electric utility deregulation. Three nuclear power station owners 
(Enron, P,G&E, and Southern California Edison) are in bankruptcy.

                               __________
            Statement of Edwin S. Lyman, Ph.D., President, 
                       Nuclear Control Institute

    The purpose of this brief testimony is to provide preliminary data 
to support the contention that the current 10-mile radius of the 
emergency planning zone for plume exposure (``plume exposure EPZ'') is 
inadequate, in the event of a beyond-design-basis (``severe'') accident 
or terrorist event at a commercial nuclear power plant, and will fail 
to protect the public in accordance with Federal guidelines. Therefore, 
the call for an extension of the emergency planning zone to 50 miles 
contained in S. 1746, ``Nuclear Security Act of 2002,'' is an 
appropriate and prudent measure that merits serious consideration. In 
fact, such a change will be necessary to provide the level of 
protection now called for by FDA and EPA in the event of a severe 
nuclear reactor accident.
    We have used the MACCS2 code to generate estimates of thyroid dose 
and total effective dose equivalent (TEDE)\1\ to members of the public 
downwind of a severe radiological release at a nuclear power plant, 
involving core melt, vessel breach and containment failure.\2\ The 
total radioactive iodine release assumed is about 60 percent of the 
core inventory, similar to the release from the Chernobyl accident. The 
calculated doses assume only exposures due to passage of the initial 
plume and due to deposited contamination for 1 week following the 
accident; thus long-term doses are not considered. Ingestion doses (the 
milk pathway) are also not considered. The calculations are for a 
generic pressurized-water reactor and a single meteorological condition 
(atmospheric stability class D, wind speed 4.4 miles per hour, and no 
precipitation). The exposed individuals are assumed to be 30-year-old 
adults. Other assumptions for this model, including the source term, 
can be found in a recent publication.\3\ The intent here is not to be 
comprehensive, but simply to demonstrate the severity of these events.
---------------------------------------------------------------------------
    \1\ TEDE is the sum of the dose due to external radiation and the 
``committed effective dose'' delivered for up to a 50-year period as a 
result of internal exposure resulting from radionuclide intake.
    \2\ D.I. Chanin and M.L. Young, Code Manual for MACCS2: Volume 1, 
User's Guide, SAND97-0594, Sandia National Laboratories, 1997.
    \3\ Edwin S. Lyman, ``Public Health Risks of Substituting Mixed-
Oxide for Uranium Fuel in Light-Water Reactors,'' Science and Global 
Security 9 (2001) 33-79.
---------------------------------------------------------------------------
    The pertinent results are summarized in the following table:

    Distance (miles): 15; Peak Thyroid Dose (rem): 626; Peak TEDE 
(rem): 163.
    Distance (miles): 28; Peak Thyroid Dose (rem): 292; Peak TEDE 
(rem): 60.
    Distance (miles): 45; Peak Thyroid Dose (rem): 254; Peak TEDE 
(rem): 38.

    The relevance of these values is as follows:
    Thyroid prophylaxis. According to the FDA's recent guidance on the 
administration of potassium iodide (KI) as a prophylactic measure, it 
is recommended that adults between the ages of 18 and 40 take 130 mg of 
KI daily if their thyroid exposure is projected to exceed 10 rem.\4\ 
From the table, it can be seen that this threshold is exceeded by a 
factor of 25 for the most affected individuals at a distance of 45 
miles. Thus according to FDA guidance, KI administration would be 
recommended for some individuals located at least 45 miles downwind of 
the accident.
---------------------------------------------------------------------------
    \4\ U.S. Department of Health and Human Services, Food and Drug 
Administration, Center for Drug Evaluation and Research, ``Potassium 
Iodide as a Thyroid Blocking Agent in Radiation Emergencies,'' Guidance 
Document, November 2001. Available on the Web at www.fda.gov/cder/
guidance/index.htm.
---------------------------------------------------------------------------
    The situation is even more severe for children and pregnant or 
lactating women. For these individuals, the FDA recommends KI 
prophylaxis if the projected thyroid dose is greater than 5 rem. To 
convert the thyroid doses in the above table, which were estimated for 
30-year-old adults, to children, who would receive a larger thyroid 
dose for the same radioactive iodine intake, a factor of between two 
and ten should be applied, depending on the age.\5\ Thus the thyroid 
dose to children could exceed the FDA threshold for KI administration 
at even greater distances than for adults.
---------------------------------------------------------------------------
    \5\ International Commission on Radiological Protection (ICRP), 
Age-Dependent Doses to Members of the Public From Intake of 
Radionuclides, Part 5, ICRP Publication 72, Vol. 26, No. 1 (1996).
---------------------------------------------------------------------------
    Evacuation. According to the EPA ``protective action guides'' 
(PAGs), evacuation should normally be initiated if the total effective 
dose equivalent (TEDE) exceeds 1 rem.\6\ It is obvious from the above 
table that according to this rule, evacuation would be recommended at 
more than 45 miles downwind from the site.
---------------------------------------------------------------------------
    \6\ T. McKenna, J. Tefethen, K. Gant, J. Jolicoeur, G. Kuzo and G. 
Athey, RTM-96: Response Technical Manual, NUREG/BR-0150, Vol. 1, Rev. 
4, U.S. Nuclear Regulatory Commission, March 1996, p. G-7.
---------------------------------------------------------------------------
    Conclusion. The 10-mile plume exposure EPZ was never intended to 
provide significant protection against the long-term carcinogenic 
effects of radiation exposure, but was only intended to reduce the 
early fatalities that could occur from acute radiation poisoning. 
Nevertheless, the ultimate long-term health consequences of a severe 
radiological release would be catastrophic, and the government must be 
obliged to ensure that these longer-term effects be avoided to the 
maximum extent possible. Thus an extension of emergency planning to a 
region extending at least 50 miles downwind of nuclear reactor sites is 
an essential measure to bolster protection of the public in the event 
of a terrorist attack on a nuclear plant.

                               __________
 Implications of Security Force Federalization on Nuclear Power Plant 
        Security: An Evaluation by the Nuclear Energy Institute

                           Executive Summary

    The September 11 attacks have prompted new consideration of 
security arrangements in the United States. They have caused us all to 
reconsider past efforts regarding security and to reevaluate the 
threats we face. The nation, reluctantly, is adapting to heightened 
security alerts, and airport security personnel have been federalized.
    This era of heightened homeland security also has prompted the 
introduction of legislative proposals to federalize security forces at 
the nation's nuclear facilities. This paper addresses the implications 
of proposals to replace an established, skilled private security force 
with federal guards at nuclear power plants.
    Recently, airport baggage screening functions were federalized for 
a fixed period to correct deficiencies that could not be solved by any 
other means. The responsibilities and attributes of airport baggage 
screeners and nuclear power plant security forces, which protect the 
plants, are not comparable. Although they performed relatively simple 
and limited duties, airport security personnel were characterized as 
untrained, unscreened, transitory, poorly supervised, poorly regulated 
and low paid.
    In sharp contrast, nuclear power plant security forces, many of 
which have law enforcement or military experience, are subject to FBI 
background checks, physical and psychological testing and screening and 
substance abuse testing as part of the hiring process. The nuclear 
energy industry is unique among energy industries in having a 
cooperative relationship with the FBI to facilitate such criminal 
record checks.
    Nuclear plant security personnel also undergo rigorous training. 
Initially, they are provided seven weeks of training, including weapons 
proficiency and proof of marksmanship, recognition of sabotage devices 
and equipment, and tactical response training. Nuclear security 
personnel are required to requalify annually in physical and physical 
fitness characteristics and in job skills. They are subject to a 
continuous behavior observation program for substance abuse and 
psychological fitness. On average, retention of the security force is 
above 90 percent and the officers are paid an annual salary of $35,000 
and provided a full benefits package.
    The duties of these personnel involve both traditional industrial 
security and defense of the facility against a specified, military-
capable land assault force. The industry's security forces are aided in 
this effort by modern intrusion detection systems and barriers, 
biometric and other advanced recognition technology for workers 
entering vital areas of the plant, internal fortifications and the most 
capable weaponry permitted under law.
    As a part of their training, security officers participate in 
exercises on an annual basis. As part of the Nuclear Regulatory 
Commission's federal oversight of security requirements, the industry's 
private security forces must demonstrate their readiness during mock 
assaults conducted by federally supervised forces. No other private 
industrial facilities have the combination of robust physical 
protection, well-trained and armed security forces and emergency 
response capability that is found at every nuclear power plant in the 
United States.
    All of these attributes of the industry security program are 
embedded in federal regulations and federal oversight. It is possible 
for federally employed forces to replace private security officers, but 
it would result in numerous and significant disadvantages that could 
result in diminished security at these facilities.
    There are more than 5,000 privately employed security officers in 
the nuclear energy industry. Their compensation levels correspond to 
GS-9 on the federal scale or E-8 (O-2) on the military scale. Owing to 
the large number of the current force with prior military or local law 
enforcement backgrounds and the restrictions imposed by federal law 
and/or local laws associated with their existing pension credits, many 
will find federal employment less attractive. They will choose to leave 
this service and seek different private employment. This will result in 
potentially thousands of displaced workers and difficulties in 
recruiting individuals with comparable backgrounds and skills. In 
addition, hiring a federal work force of more than 5,000 officers at 
these pay scales may have significant impact on existing federal pay 
scales for current federal security forces with less sophisticated 
responsibilities.
    Legislative proposals such as S. 1746 to federally employ security 
personnel at nuclear power plants would have the Nuclear Regulatory 
Commission manage the program. Adding more than 5,000 employees to the 
NRC workforce would nearly triple the size of the agency and 
significantly dilute its focus on safety and oversight. The hiring, 
training and management of this workforce also could result in a 
transition period of diminished efficiency and security protection. If 
a different federal employer is chosen, the NRC as an independent 
federal agency will be faced with oversight of another federal agency 
as well as the company that owns and/or operates the power plant. This 
would dilute the NRC's safety focus as well.

      FEDERALIZING SECURITY FORCE WOULD WEAKEN COORDINATION WITH 
                           REACTOR OPERATORS

    Federal employment would result in a bifurcation of responsibility 
for activities on a privately owned site. There would be two separate 
chains of command for site employees--one for the security force and 
one for the plant operating staff. This may result in a cooperative 
working relationship during routine plant activity. But in the event of 
a threat against the facility, this division of responsibility could 
hinder the plant's response.
    Protecting a nuclear facility against intruders requires highly 
coordinated action on the part of both the reactor operating 
professionals and the security forces. Reactor safety could be 
compromised without excellent coordination. Given the variety of 
tactical situations that could exist under an attack, this coordination 
must occur in real time and under rapidly changing circumstances. Dual 
chains of command would make this coordination very difficult, if not 
impossible.
    Dual chains of command also complicate efficiency of operations. 
The size and tactical deployment of security forces is highly dependent 
on physical features and the use of intrusion detection and monitoring 
systems. The placement and use of these systems also impacts equipment 
accessibility for plant operating staffs, which in turn has an impact 
on reactor safety during normal operation and if the facility faces an 
attack. Resolution of these conflicting interests to achieve high 
levels of both efficiency and protection will be adversely affected by 
a bifurcation of accountability.
    Security forces at nuclear facilities have multiple 
responsibilities. They are responsible for industrial security and 
protection of the plant assets on a daily basis. But they also must 
demonstrate the ability to protect the facility from a defined attack 
scenario, as required by NRC regulation.
    Undertaking both roles, a federal employer will face a broad range 
of new liabilities. This will impose a significant new dimension for 
the federal government and will become a distinct disadvantage to 
federal employment. Conversely, the dual responsibilities associated 
with private employment of a federally regulated security force is a 
significant advantage. It allows the private employer to provide a more 
diverse set of assignments for security forces. Without such diversity, 
the security forces would be relegated to armed sentry duties only. 
Maintaining a highly alert security posture is difficult without this 
diversity of assignments.

            OTHER LEGISLATIVE CHANGES COULD IMPROVE SECURITY

    Whether the security force is federally or privately employed, 
there are necessary and beneficial legislative changes directly 
impacting the effectiveness of the security force that the industry and 
the Nuclear Regulatory Commission recommend. Without new legislation, 
some security forces are restricted in the use of deadly force, and 
state/local laws limit the weapons that may be deployed on private 
property. Federal legislation is needed to remove these constraints and 
make security programs consistent nationwide.
    Clearly, private employees provide excellent nuclear power plant 
security. Routine security could be accomplished by federal employees, 
but entails significant difficulties that, in a practical sense, would 
result in diminished safety, security and efficiency both during a 
transition period and in the long run. This paper does not address the 
protection of nuclear facilities and other parts of the national 
critical infrastructure from broader acts of war. The industry supports 
a broad analysis to determine the threats we now face and develop a 
seamless defense that integrates the capabilities of our industry, 
state and local governments, and the federal government, including the 
CIA, FBI, FEMA and the military. Broader acts of war and the relative 
risks of the facilities should be considered as part of this 
comprehensive analysis.
    Nuclear power plants are the most robust physical structures in the 
industrial sector and are protected by highly skilled, well-armed 
paramilitary forces. The industry has been at the highest state of 
alert since September 11 and is reviewing its security programs to 
incorporate lessons learned from the attacks. The NRC also is 
conducting a ``top-to-bottom'' review of the federal regulations that 
apply to nuclear plant security and the security. More than 20 of the 
nation's governors, state security directors and Members of Congress 
who have toured nuclear power facilities since September 11 have 
commented on the outstanding security programs.
    The nuclear energy industry has always had an uncompromising 
commitment to safety and security. The industry remains committed to 
providing the best possible security for workers at our plants, their 
families and residents of 31 states who live near the nation's nuclear 
power plants. The industry will work with the Bush administration and 
the Congress to review and enhance our security as may be required in 
light of recent events. However, a transition from private to federal 
security forces at nuclear power plants is an illconceived and 
misguided proposal that provides no enhanced protection of the public 
or the nuclear power facilities that provide electricity for one of 
every five American homes and businesses.

                              INTRODUCTION

    The Nuclear Regulatory Commission sets rigorous standards for 
nuclear power plant security measures and security forces. These 
security forces represent an elite group of individuals--carefully 
screened before hiring, trained both in general and facility--specific 
security knowledge, and required to requalify every year.
    Security begins with the hiring process. Applicants for security 
officer positions must undergo detailed evaluations, including FBI 
background checks and evaluations of their psychological and physical 
fitness. Those who are hired are subject to ongoing behavior 
observation and drug and alcohol screening. They also are trained 
regularly and evaluated in ``anti-terrorist'' exercises.
    A clear chain of command is necessary for effective security at a 
nuclear power plant because of the close interrelationship between the 
security force and plant operators. In the event of a threat, plant 
operators carry out plant emergency operations and procedures, while 
the security force protects the equipment that is needed to maintain 
reactor safety. Close coordination between the security force and plant 
operators is best achieved when both are integrated under a single 
management structure. Federalization would undercut this.

                      A REVIEW OF SECURITY ISSUES

    Since September 11, the nuclear energy industry has reviewed 
nuclear plant security requirements and assessed the advantages and 
disadvantages of federalizing security professionals. This review 
included:
    1. policy and implementation issues associated with federalizing 
nuclear power plant security forces;
    2. attributes of an effective security force, how it might be 
affected by federalization, and the related NRC regulatory 
requirements;
    3. characteristics of the existing nuclear plant security force, 
regulated under Title 10 of the Code of Federal Regulations (CFR) Part 
73;
    4. industry-supported security improvements that should be 
implemented.
    This paper discusses the industry's findings and conclusions.

                          Policy Implications

    There are numerous negative policy and safety implications of 
legislation introduced by Senator Harry Reid (S. 1746) and the 
companion bill (H.R. 3382) in the House of Representatives introduced 
by Congressman Ed Markey. Fundamentally, the legislation would weaken 
security at nuclear power plants by unnecessarily federalizing nuclear 
power plant security. The proposed legislation also would have a 
profound impact on the nation's energy diversity, environmental well-
being, economic security and the national common defense. Those impacts 
include:
    <bullet> Diminishing and disrupting plant security. Effective 
security, including a successful response to a terrorist threat at a 
nuclear power plant, is highly dependent upon coordinated efforts by 
security forces and power plant operators. By replacing the proven, 
effective security forces already in place at nuclear plants, the Reid-
Markey proposals bifurcate management responsibilities for these 
functions. Doing so will lessen the industry's ability to fully protect 
public health and safety.
    <bullet> Creating one of the largest law enforcement and security 
agencies in the country. The Reid-Markey legislation would require the 
NRC to hire an estimated 5,000 additional security employees and would 
make the NRC one of the largest law enforcement/security agencies in 
the country--larger than the Secret Service or the Bureau of Alcohol, 
Tobacco and Firearms. By doubling or tripling the workforce of the NRC, 
the legislation could change the agency's primary mission from that of 
protecting public health and safety to providing for the general 
defense of the country.
    <bullet> Reducing the stringent screening requirements for security 
personnel. Requiring security forces at nuclear facilities to be 
federal employees likely would reduce the strict hiring standards, 
extensive background checks, training and ongoing performance reviews 
already in place for private security forces. In fact, many Department 
of Energy nuclear facilities have private security forces, as do 
federally operated nuclear plants, such as the Tennessee Valley 
Authority reactors. The qualifications outlined in the Reid-Markey 
legislation are less stringent than those already in place in the 
industry.
    <bullet> Squandering vital experience. Replacing private nuclear 
plant security forces with federal personnel with little or no 
experience at nuclear power facilities would set aside years of on-the-
job experience gained through countless security exercises and NRC-
managed drills. Moreover, such a transition raises serious contractual 
issues regarding existing security forces.
    <bullet> Misallocating vital and limited federal security 
resources. Nuclear power plants are already among the most secure 
private facilities in the country, while other components of the 
nation's critical infrastructure may require greater protection. Only 
through a comprehensive review of critical infrastructure security 
needs can policymakers balance the available resources with the wide 
spectrum of legitimate security needs. Coordinating the efforts of 
federal agencies to conduct a comprehensive threat assessment will 
avoid having regulatory and security decisions made in a political 
vacuum without necessary guidance from government experts in security 
and intelligence gathering.
    <bullet> Blurring the line between providing national defense and 
maintaining industrial security. By placing the burden of providing for 
the common defense solely upon consumers of nuclear energy, the Reid-
Markey proposal undermines both national security and energy diversity.
    <bullet> Reducing economic stability and environmental well-being. 
Nuclear power provides economic stability to our nation's consumers and 
industries by providing a reliable source of electricity at a low cost. 
By discouraging its use, the legislation erodes that stability and 
constrains an essential source of electricity that does not produce 
greenhouse gases or other air pollutants.
    <bullet> Breaching the line between civilian law enforcement and 
military force. By placing the command of a military-like force--
consisting of more than 5,000 personnel--in the hands of an independent 
U.S. agency, the legislation obfuscates the clear historical line 
between civilian and military responsibilities.

            Nuclear Power Plant Security Is Effective Today

    The federal requirements for security at our nation's nuclear power 
facilities are designed to provide a high assurance that the nuclear 
power plants are protected from radiological sabotage. Rigorous 
requirements, coupled with industry commitment and strong NRC 
oversight, have resulted in well-designed paramilitary security 
programs at our nation's nuclear plants. These plants have multi-
layered security programs that effectively combine engineered physical 
security features, administrative controls, and a highly trained and 
equipped security response force.
    Employment requirements for security force personnel are quite 
extensive, with specific requirements for employment suitability, 
medical qualifications, physiological requirements and physical 
fitness.
    They are also very specific and detailed with respect to training 
and qualification. Security officers are required to complete training 
in more than 70 security-related areas, including weapons training, 
tactical response force operations, use of deadly force, and the 
searching of vehicles, packages and personnel. Security force personnel 
must requalify every year. In addition to the performance requirements, 
security officers must re-qualify each year on the employment 
suitability, physical, psychological and physical fitness requirements.
    The security force weapons and equipment regulations are also 
extensive and formidable. Armed security personnel are required to be 
proficient with semiautomatic rifles, shotguns and semiautomatic 
pistols or revolvers. They also are required to have available tactical 
response equipment such as tactical helmets, body armor, gas masks, 
tear gas, night vision equipment and portable radios.
    The NRC's security regulations specifically require that each 
company operate, develop and maintain a well-designed security response 
plan for its facility. The response plans must be reviewed and approved 
by the NRC prior to being implemented. Finally as part of the response 
plan, the security force is required to develop a strong liaison with 
local law enforcement to ensure effective coordination of response.
    NRC security requirements have resulted in the development of 
highly professional security programs and security forces at our 
nation's nuclear power plants:
    1. The nuclear energy industry employs more than 5,000 trained 
nuclear security professionals.
    2. On average, each facility employs 80 nuclear security officers 
dedicated to protecting the nuclear facility against the threat of 
radiological sabotage.
    3. Approximately 67 percent of the industry's security officers 
have prior military, law enforcement or industrial security experience.
    4. More than 17 percent have a college degree.
    5. Nuclear security officers are well-paid professionals, with an 
average annual salary of $35,000.
    6. Job satisfaction for the security officers is extremely high, as 
demonstrated by a retention rate of 90 percent.
    7. Training for a new security officer is extensive. On average, a 
nuclear security officer receives 270 hours of training prior to being 
deployed to the security force.
    8. The industry has a strong commitment to continuing training and 
drills for security officers. On average, the nuclear security officer 
will spend approximately 60 hours each year completing requalification 
training, with approximately 30 hours spent on anti-terrorist tactical 
training exercises.
    9. Security officers also participate in considerable training 
activities with local law enforcement agencies and emergency response 
agencies. At least annually, and in many cases more often, 
familiarization and coordination training is conducted with local law 
enforcement personnel and such organizations as fire departments and 
emergency medical organizations.
    10. Physical fitness is an important requirement for security force 
officers. Each facility's security program includes a physical fitness 
regime that effectively tests the cardiovascular fitness and endurance 
levels of security force personnel.
    11. In addition to security program duties, nuclear security 
officers also perform a number of other critical safety functions for 
the plant. These include plant fire brigade, plant fire watch patrols, 
emergency medical technicians for first aid responses, and designated 
emergency response plan actions.

                   Industry Supports Security Changes

    The nuclear energy industry took immediate actions to enhance 
security in response to the events of September 11. However, federal 
legislation is required to make improvements in some areas, such as the 
authority to use automatic weapons where state laws preclude their use 
by nuclear security officers.
    In fact, the industry has supported the NRC's repeated requests to 
Congress to enhance security, long before the attacks of September 11. 
Combining these long-requested authorities with additional actions 
suggested by recent security reviews, the nuclear industry has compiled 
the following list of industry-supported security improvements.
    The nuclear energy industry supports legislation that would contain 
the following elements:
    1. The president, or his designee, should conduct a comprehensive 
review of nuclear power plant security, including consideration of the 
entire spectrum of possible terrorist threats.
    2. The NRC should determine if changes are needed in the criteria 
against which nuclear plant security forces must successfully defend 
the facility--which is called the plant's design basis threat. Any 
revisions to the threat against which plant security forces must defend 
should be based on a reasonable expectation of the security 
responsibility of the industry. As such, the review of possible 
terrorist threats against nuclear plants should determine whether the 
defense against such a threat should be the responsibility of the 
federal government or the company.
    3. The NRC should be granted the authority to permit plant security 
forces to carry and use weapons commensurate with the plant's 
responsibilities to respond to the design basis threat and to permit 
plant security forces to make arrests without warrants if and as 
necessary.
    4. A nuclear plant's security forces should be granted the 
authority to use deadly force, if necessary, to protect the plant. This 
authority currently is subject to varying interpretations of state and 
federal law.
    5. Federal law should be expanded to prohibit the unauthorized 
introduction of firearms into facilities licensed by the NRC and to 
prohibit the sabotage of NRC-licensed or NRC-certified facilities.
    6. Communications between nuclear plants, law enforcement agencies, 
and, when appropriate, armed services (including the National Guard) 
should be reinforced, and consideration should be given to placing 
secure communications equipment at each facility.
    The costs of additional security--such as National Guard personnel 
and state police, which have been and may be necessary to respond to 
terrorist threats that are clearly acts of war--should be the 
responsibility of the federal government or the states.

                    Attributes of Effective Security

    Which would provide more effective security at a nuclear power 
plant--a security force that is federally staffed or one that is 
federally regulated? Is there a significant difference between the two 
approaches?
    To answer these questions, the nuclear energy industry analyzed 
security force effectiveness and identified 10 attributes of an 
effective security officer. These qualities are similar to those 
examined by the NRC in 1976 when it determined that private security 
forces would be a more effective means of safeguarding nuclear power 
plants than federal guards. The attributes were evaluated to determine 
whether a federal security force or a federally regulated force of 
private security officers would have an advantage for each attribute.
    The results indicate areas where plant safety would be 
disadvantaged by the use of federal officers. Of these, the most 
important is the introduction of a second chain of command. Who makes 
decisions during an attack, and how well the security force is 
coordinated with other activities on site, is extremely important in 
determining security force effectiveness. Two chains of command, one 
federal and the other corporate, will significantly complicate 
coordination. Plant response must be fully integrated during a crisis.
    The industry's review raised other issues related to 
federalization. A change to federally staffed security would disrupt 
existing security during the implementation period. This disruption 
could compromise nuclear plants' ability to respond to threats at a 
time when the threats are believed to be greater than usual.

                          GENERAL OBSERVATIONS

    In order to respond to a new assessment of the post-September 11 
terrorist threats, federal legislation may be required under either 
approach.
    The same security standards should be set under either approach. 
Regulatory changes would be required in either case. NRC regulations 
contain stringent security standards that the industry must meet.
    Integrating federal security officers into normal plant operations 
would be essential for smooth day-to-day operations--but such 
integration would present major challenges.
    A dual chain of command for security forces and plant operations 
personnel would make effective crisis response more difficult.
    A transition to federal security employees at nuclear power plants 
would cause major disruptions in security force stability for several 
years, displace many of the thousands of current security officers, and 
potentially undermine security effectiveness at this time of heightened 
alert.

               DETAILED DISCUSSION OF SECURITY ATTRIBUTES

1. Physical and Mental Fitness
    Physical and mental fitness standards must be applied to applicants 
for security positions and to security personnel already employed at 
the facility. Security officers must meet stringent physical standards, 
be free of psychological disorders and substance abuse problems, and 
must undergo criminal background checks.
    These standards should be appropriate for the expected duties. 
Thus, standards for a checkpoint officer may differ from those of an 
armed responder. In both cases, standards would have to be set by 
federal regulation. There are no generic federal standards that would 
automatically apply to a federal guard force. Moreover, there is 
concern that the myriad of civil service requirements may be an 
impediment to maintaining an effective security force and achieving 
standards as high as those now in the NRC's regulations.
    Existing NRC regulations require:
    Physical Qualifications.--Prior to employment, or assignment to the 
security organization, an individual must meet the following physical 
qualification criteria:
    1. A nuclear security officer must have no physical weaknesses or 
abnormalities that would adversely affect his/her performance of 
assigned security job duties.
    2. The officer must successfully pass a physical examination 
administered by a licensed physician.
    3. Armed personnel must meet the following additional physical 
requirements: (a) Vision: Distant visual acuity in each eye shall be 
correctable to 20/30 in the better eye and 20/40 in the other eye with 
eyeglasses or contact lenses. Field of vision must be at least 70 
horizontal meridians in each eye. The ability to distinguish red, green 
and yellow is required. Loss of vision in one eye is disqualifying. 
Glaucoma is disqualifying, unless controlled by acceptable medical or 
surgical means. (b) Hearing: Individuals shall have no hearing loss in 
the better ear greater than 30 decibels average at 500 Hz, 1,000 Hz, 
and 2,000 Hz with no hearing loss exceeding 40 decibels at any one 
frequency. (c) Diseases: Individuals must have no established medical 
history or medical diagnosis of epilepsy or diabetes, or any other 
disease that would adversely affect his or her ability to perform 
assigned duties. (d) Addiction: Individuals must have no established 
medical history or medical diagnosis of habitual alcoholism or drug 
addiction. (e) Other physical requirements: An individual who has been 
incapacitated due to a serious illness, injury, disease or operation 
that could interfere with the effective performance of assigned 
security job duties must, prior to resumption of such duties, provide 
medical evidence of recovery and ability to perform such security job 
duties.
    Mental Qualifications.--Prior to employment, or assignment to the 
security organization, an individual must meet the following mental 
qualification criteria:
    1. Individuals whose security tasks and job duties are directly 
associated with the effective implementation of physical security and 
contingency plans must demonstrate mental alertness and the capability 
to exercise good judgment, implement instructions, assimilate assigned 
security tasks, and accurately communicate as required by their job 
duties.
    2. In addition, armed officers and central alarm station operators 
must have no emotional instability that would interfere with the 
effective performance of assigned security job duties. This 
determination must be made by a licensed psychologist, psychiatrist, 
physician or other person professionally trained to identify emotional 
instability.
    3. The company must arrange for continuous observation of security 
personnel and for appropriate corrective measures by supervisors for 
indications of emotional instability of individuals in the course of 
performing assigned security job duties.
    Physical Fitness Qualifications.--Security force members must 
demonstrate physical fitness for assigned security job duties by 
performing a practical physical exercise program within a specific time 
period as described in the licensee training and qualifications plan. 
This program must consider job-related functions such as strenuous 
activity, physical exertion, levels of stress and exposure to the 
elements as they pertain to security duties.
    Requalification.--At least every 12 months, security officers are 
required to demonstrate that they continue to meet the physical, mental 
and physical fitness requirements.
2. Security Knowledge
    Certain general knowledge of security procedures and skills is 
important, no matter what type of facility the security officer is 
protecting. This includes use of equipment and weapons, general 
tactics, general procedures, self-defense and knowledge of legal 
authority.
    There may be a benefit to standardizing training through a central 
academy or use of centrally generated training guides and material. The 
federal government could do this, but the nuclear energy industry 
already has a proven track record for developing standardized training 
programs--notably for reactor operator training.
    For a specific site, a security officer needs substantial local 
knowledge to be effective. This includes detailed knowledge of 
procedures, strategies and the facility's physical layout. At a nuclear 
power plant, security officers also must understand plant operations 
and procedures, radiation protection and safety procedures. This 
knowledge is site-specific and precludes moving officers from one 
facility to another without extensive retraining.
    Although general security and facility-specific training is 
integrated into an on-site training program, facility-specific training 
cannot be effectively integrated into a central security academy 
program.
    Existing NRC regulations require:
    Training Requirements.--Before performing security-related tasks or 
duties, an individual must be trained and must demonstrate that he or 
she can perform these tasks and duties in accordance with the 
licensee's documented training and qualifications plan. This training 
must include knowledge of the threat conditions that must be deterred. 
These include:
    1. a determined violent external assault, attack by stealth, or 
deceptive actions, by several persons;
    2. well-trained (including military training and skills), dedicated 
individuals;
    3. inside assistance, which may include a knowledgeable individual 
who attempts to participate in a passive role (e.g., providing 
information), an active role (e.g., facilitating entrance and exit, 
disabling alarms and communications, participating in violent attack), 
or both;
    4. weapons, up to and including hand-held automatic weapons, 
equipped with silencers and having long range accuracy;
    5. hand-carried equipment, including incapacitating agents and 
explosives for use as tools of entry or for otherwise destroying 
reactor, or features of the safeguards system; and
    6. a four-wheel drive vehicle for transporting personnel and their 
hand-carried equipment or explosives.
    Qualification Requirements.--An individual must be qualified in 
accordance with the company's NRC-approved training and qualifications 
plan before being assigned to perform security-related duties.
    1. Educational development: Possess a high school diploma or pass 
an equivalent performance examination.
    2. Criminal history: Have no criminal history that reflects on his 
or her reliability.
    3. Age: An armed officer must be 21 years of age or older.
    Security Knowledge, Skills and Abilities.--Each individual assigned 
to perform the security-related task identified in the licensee 
physical security or contingency plan must demonstrate his or her 
capability in the following areas:
    1. NRC requirements and guidance for physical security at nuclear 
facilities;
    2. nuclear security officer's duties and responsibilities;
    3. physical security system design and operation;
    4. security access control system design and operation;
    5. vehicle, package and personnel contraband search process;
    6. self defense and weapons use;
    7. adversary force capabilities, tactics, motivation and 
objectives;
    8. tactical response program design and operations; and
    9. security contingency event response program.
    Requalification.--Security personnel must requalify at least every 
12 months to perform assigned security tasks and duties for both normal 
and contingency operations--which include radiological safety, 
operating practices, quality assurance, industrial safety and fire 
protection.
3. Alertness, Motivation and Adherence to Requirements
    Maintaining an alert security force capable of supporting long 
periods of routine activity without any hostile activity is essential. 
Techniques used to maintain alertness include the integration of 
training and drills, rotation of assignments, and the introduction of 
varied activity into the security officer's schedule. Officers need to 
be involved in day-to-day activity without detracting from their 
ability to respond to a threat. Involving a federal officer force in 
routine plant activities would be a challenge. Yet it is very difficult 
to maintain a highly trained, motivated force whose only responsibility 
is to sit in a fixed position and respond when there is a terrorist 
threat.
    Motivation is a willingness to endure hardships in the performance 
of duty, to use force when necessary, and even to risk one's life. 
Close integration of the security force in plant operations helps to 
establish those personal relations with other plant workers that are so 
important in providing continuous motivation. Under ideal conditions, 
the security officer is protecting more than a physical structure--he 
is protecting a closely-knit workforce that operates the facility. 
Involvement with those he is protecting at the plant and within the 
local community is a significant motivating factor.
    Adherence to requirements is the willingness to enforce unpopular 
rules and procedures. This is a complex issue that must be fostered by 
effective management methods. The nuclear energy industry's strong 
safety culture fosters strict compliance with rules and procedures.
4. Legal Authority: Weapons, Detention, Search and Use of Force
    Security officers must have clear authority under the law to detain 
and search intruders and to use deadly force, if necessary, to protect 
public health and safety. They also must be equipped with, and 
authorized to use, weapons and equipment that are adequate for the 
threat and defensive strategy being used.
    State laws vary in what they permit. In most states, civilian 
security forces are restricted in the weapons they can use and in their 
authority to detain and search intruders. These laws would apply 
equally to federally regulated and federally employed security 
officers. Regardless of whether nuclear power plant security is 
federalized, legislation is needed to establish the necessary authority 
in this area.
    Existing NRC regulations require:
            Weapons Training
    Security officers who are armed to perform assigned security duties 
must be trained in accordance with the licensee's weapons training 
program. Security officers must be proficient in the use of assigned 
weapon(s) and shall meet prescribed standards in the following areas:
    1. mechanical assembly, disassembly, range penetration capability 
of weapon, and bull's-eye firing;
    2. weapons cleaning and storage;
    3. combat firing, day and night;
    4. safe weapons handling;
    5. clearing, loading, unloading, and reloading;
    6. when to draw and point a weapon;
    7. rapid-fire techniques;
    8. close-quarter firing;
    9. firing under stress; and
    10. zeroing assigned weapon(s).

            Weapons Qualification and Re-qualification Program

    Prior to working as an armed security officer, an individual must 
qualify on each weapon are used at the facility. In addition, each 
individual must be requalify at least every 12 months.
    Handgun.--Armed security officers must qualify with a revolver or 
semiautomatic pistol firing a nationally recognized course of fire. The 
qualifying score shall be an accumulated total of 70 percent of the 
maximum obtainable score.
    Semiautomatic Rifle.--Security officers assigned to use 
semiautomatic rifle must qualify with a semiautomatic rifle by firing a 
nationally recognized Course of fire. The qualifying score shall be an 
accumulated total of 80 percent of the maximum obtainable score.
    Shotgun.--Security officers assigned to use the shotgun must 
qualify by firing 15 yards from the hip and 25 yards from the shoulder.
    Requalification.--Individuals shall requalify on weapons at least 
every 12 months.

            Security Officer Weapons and Response Equipment

    Semiautomatic Rifles; Shotguns; Semiautomatic pistols or revolvers; 
Ammunition.--For each assigned weapon as appropriate to the 
individual's assigned contingency security job duties.
5. Security Workforce Stability
    The 90 percent retention rate for the industry's security forces is 
an excellent indication of the stability of the current workforce. A 
transition to a federalized workforce would not improve this 
outstanding retention rate.
6. Physical Barriers and Other Protection
    Physical barriers to entry, electronic aids, plant layout, 
defensive positions, and personnel protective equipment all enhance 
security force effectiveness. Although these are major factors in 
effective security of a facility, they are not related to whether 
guards are private or federalized. However, these physical features 
affect the number of armed responders needed. Increased use of physical 
features may reduce the number of responders needed for a given threat 
but may impact plant operations. There are frequent conflicts between 
the needs for security and free access of the plant for safe 
operations.
    Existing NRC regulations require:
    Physical Protection.--Vehicle barriers and/or other physical 
restrictions must be provided as necessary to ensure that the protected 
area of the plant cannot be breached by a direct vehicular assault or 
by detonation of a vehicle carrying a bomb. All vehicles, personnel and 
material entering the protected area must first be thoroughly inspected 
by security officers to ensure that no weapons, explosive or other such 
items are brought onto the plant site.
    Physical access to the protected area of the plant is controlled 
through the use of physical barriers, intrusion detection equipment, 
closed circuit surveillance equipment, a designated isolation zone and 
exterior lighting. Physical access to the inner areas of the plant 
where vital plant equipment also is controlled through the use of 
physical barriers, locked and alarmed doors, and cardreader access 
control systems. The barriers are substantial enough to effectively 
delay entry in order for effective armed response by plant security 
forces.
    Within the protected zone, access to all vital areas of the plant 
must be further protected. This access may be controlled by a security 
officer or provided by computer-controlled ``key-card'' access systems. 
Plant employees must have a documented need prior to gaining access to 
each vital area.
    Physical security plans must document the defensive positions and 
delaying barriers used to enhance security force effectiveness.
    Personnel Protective Equipment.--The following personal equipment 
must be readily available for individuals assigned to security duties:
    (1) combat helmet;
    (2) body armor (bullet-resistant vest);
    (3) full-face gas mask;
    (4) flashlights and batteries;
    (5) baton;
    (6) handcuffs;
    (7) ammunition/equipment belt;
    (8) binoculars;
    (9) night-vision aids, i.e., hand-fired illumination flares or 
equivalent;
    (10) tear gas or other non-lethal gas;
    (11) duress alarms; and
    (12) two-way portable radios.
7. Deterrent Image
    The industry's security programs combine strong physical security 
features with highly trained paramilitary security professionals. Both 
features are highly visible and provide a strong deterrent to anyone 
considering attacking a nuclear power plant.
8. Compatibility With Normal Operations
    Nuclear power plant security forces are extremely well integrated 
into the normal day-to-day operations of the facility. The security 
officers and staff work closely with reactor operators and other plant 
staff to help ensure the safe and efficient operation of the 
facilities. For instance, during plant maintenance and refueling 
outages, plant management must be able to increase the security force 
to clear additional worker and vehicles into the plant protected area. 
They must be able to balance the extra cost of those security assets 
against the increase in productivity associated with enabling more 
rapid access to the facility. In addition, basic industrial security 
must be integrated into the security force responsibility on a 
redundant force is needed.
9. Liaison With Local Officials
    Close liaison with local officials is an integral provision of the 
security regulations and, in fact, has been implemented effectively by 
the industry. Efforts undertaken since September 11 are an excellent 
example of the effective working relationships that exist among 
industry security forces and their counterparts in local law 
enforcement.
10. Chain of Command and Control During Crisis
    Security forces also are extremely well integrated into the 
emergency operations of the nuclear facilities. During plant 
emergencies, particularly security situations, security forces work 
very closely with the plant operating staff to help ensure the safe 
operation and, if required, shutdown of the reactor.

                      Concentric Rings of Security

    Nuclear power plant security is a multifaceted approach that can 
best be thought of as concentric rings, with security becoming tighter 
as one reaches the center.
    The first layer of security is found at the ``owner-controlled 
area.'' This area includes all property associated with the plant. 
Electric companies generally patrol and control vehicle access to this 
area.
    The second layer of security is in the ``protected area.'' Access 
to this enclosed area is strictly controlled. Unescorted access 
requires a computer-coded badge issued by security personnel. Fences, 
barbed wire, microwave detection equipment, cameras and other detection 
devices prevent unauthorized entry.
    The third layer of security, and most heavily controlled area of 
the plant, is the ``vital area.'' This area contains the equipment 
essential for operating the plant safely and successfully shutting it 
down in case of an unusual event. Security contingency plans are 
designed to protect this area of the plant.
[GRAPHIC] [TIFF OMITTED] T3695.027

                   Multiple Layers of Reactor Safety

    The Atomic Energy Act and NRC's regulations are the basis for the 
industry's approach to security. These guidelines and the industry's 
commitment to safety ensure that nuclear power plants are operated in a 
manner that protects public health and safety. Licenses issued by the 
NRC contain technical specifications that establish safety limits for 
plant operation.
    The plant designs and physical features are the first line of 
defense. By design, our plants provide multiple concrete and steel 
barriers that protect vital safety systems and the reactor fuel from 
sabotage. These barriers begin with the fuel-rod casing, or 
``cladding,'' itself, and progresses outward from the fuel to include 
several-inch-thick steel that makes up the reactor vessel, a bioshield 
that is composed of steel and leaded concrete, covered by a steel 
containment vessel, and capped by a several-foot-thick shield building 
wall.
    Nuclear power plants also incorporate systems that are designed to 
prevent the type of accident that could cause the release of 
radioactive material into the environment. These include operating and 
safety systems that ensure full redundancy for necessary supporting 
equipment, onsite and offsite power sources, redundant sources of 
emergency power, with additional redundancy in the emergency reactor 
cooling and shutdown systems.

[GRAPHIC] [TIFF OMITTED] T3695.028

     Conclusion: No Clear Advantage to Federalizing Security Forces
    The Nuclear Energy Institute believes that the continued use of 
private security forces that meet strict federal standards provides 
greater security at nuclear power plants than replacing these 
established, well-trained forces with teams of federal officers, as 
contemplated by legislation proposed in both the U.S. Senate and House 
of Representatives.
    Force effectiveness depends upon personal qualities and actions 
that are prescribed by standards, regulations or policies essentially 
independent of the officer's federal or private status. For example, 
NRC regulations equally applicable to federal or private officers 
specify physical and mental requirements, criminal background checks, 
training, weaponry and duties. Based on established effectiveness 
criteria, there is no clear advantage to a federal security force. But 
there are significant disadvantages.
    NEI's findings confirm the results of the original NRC study (NUREG 
0015, 1976) used to support rulemaking that established the existing 
use of federally regulated private nuclear security forces.
    Security is enhanced by stability. The current officer forces are 
well trained and familiar with existing plant-specific security plans, 
the facility, local law enforcement agencies, the local geography and 
the local community. Federalizing the nuclear security officers likely 
would result in major changes to the current security force. This would 
severely disrupt the current organizational structure and effectiveness 
of the force. New security officers would require extensive training 
and orientation. This is particularly imprudent in a time of heightened 
homeland security.

        OPPORTUNITIES FOR IMPROVING SECURITY THROUGH LEGISLATION

    Notwithstanding the strength of the nuclear industry's security 
program, the industry is examining how security programs at nuclear 
power plants can be augmented in the aftermath of the September 11 
events. The industry supports a number of security enhancements that 
could be achieved through legislation, such as granting nuclear plant 
security officers the authority to detain and search intruders and to 
use deadly force when necessary.

[GRAPHIC] [TIFF OMITTED] T3695.001

[GRAPHIC] [TIFF OMITTED] T3695.002

[GRAPHIC] [TIFF OMITTED] T3695.003

[GRAPHIC] [TIFF OMITTED] T3695.004

[GRAPHIC] [TIFF OMITTED] T3695.005

[GRAPHIC] [TIFF OMITTED] T3695.006

[GRAPHIC] [TIFF OMITTED] T3695.007

[GRAPHIC] [TIFF OMITTED] T3695.008

[GRAPHIC] [TIFF OMITTED] T3695.009

[GRAPHIC] [TIFF OMITTED] T3695.010

[GRAPHIC] [TIFF OMITTED] T3695.011

[GRAPHIC] [TIFF OMITTED] T3695.012

[GRAPHIC] [TIFF OMITTED] T3695.013

[GRAPHIC] [TIFF OMITTED] T3695.014

[GRAPHIC] [TIFF OMITTED] T3695.015

[GRAPHIC] [TIFF OMITTED] T3695.016

[GRAPHIC] [TIFF OMITTED] T3695.017

[GRAPHIC] [TIFF OMITTED] T3695.018

[GRAPHIC] [TIFF OMITTED] T3695.019

[GRAPHIC] [TIFF OMITTED] T3695.020

[GRAPHIC] [TIFF OMITTED] T3695.021

[GRAPHIC] [TIFF OMITTED] T3695.022

[GRAPHIC] [TIFF OMITTED] T3695.023

[GRAPHIC] [TIFF OMITTED] T3695.024

[GRAPHIC] [TIFF OMITTED] T3695.025

[GRAPHIC] [TIFF OMITTED] T3695.026


</pre></body></html>
